FILED

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 1 of 367

2014 Sep-30 PM 04:41
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
JOE NATHAN JAMES, JR.,

)
)
Petitioner,
)
)
vs.
)
)
GRANT CULLIVER, Warden,
)
Holman State Prison; and RICHARD )
F. ALLEN, Commissioner, Alabama )
Department of Corrections,
)
)
Respondents.
)

Civil Action No. CV-10-S-2929-S

MEMORANDUM OPINION AND ORDERS
Petitioner, Joe Nathan James, Jr., seeks habeas corpus relief from his state
court conviction for capital murder and resulting death sentence. See 28 U.S.C. §
2254. The discussion of his claims is arranged as follows.
Table of Contents
I.

THE OFFENSE OF CONVICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II.

PROCEDURAL HISTORY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

III.

INTRODUCTION TO DISCUSSION OF CLAIMS: The Scope of Federal Habeas
Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
A.

The Exhaustion of State Court Remedies Doctrine: The First Condition Precedent
to Federal Habeas Review .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

B.

The Procedural Default Doctrine: The Second Condition Precedent to Federal
Habeas Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
1.

Alternative holdings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 2 of 367

2.

Determining the effective basis for the state courts’ rulings . . . . . . . . . . 28

3.

Adequate and independent state grounds for denying relief . . . . . . . . . . 29
a.

“Independent of the federal question” . . . . . . . . . . . . . . . . . . . . . 29

b.

“Adequate to support the state court’s judgment” . . . . . . . . . . . . 30

4.

The grounds for obtaining post-conviction relief under Alabama Rule of
Criminal Procedure 32 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

5.

The procedural rules relied upon by the state courts when disposing of some
of the present petitioner’s post-conviction claims for relief . . . . . . . . . . . 33

6.

a.

Alabama Rule of Criminal Procedure 32.2(a) . . . . . . . . . . . . . . . 33

b.

Alabama Rule of Criminal Procedure 32.2(c) . . . . . . . . . . . . . . . 34

c.

Alabama Rule of Criminal Procedure 32.3 . . . . . . . . . . . . . . . . . 35

d.

Alabama Rule of Criminal Procedure 32.6(b) . . . . . . . . . . . . . . . 37

e.

Alabama Rule of Criminal Procedure 32.7(d) . . . . . . . . . . . . . . . 39

f.

Alabama Rule of Appellate Procedure 28(a)(1) . . . . . . . . . . . . . . 41

g.

Alabama Rule of Appellate Procedure 28(a)(10) . . . . . . . . . . . . . 42

Overcoming procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
a.

b.
C.

The “cause and prejudice” standard . . . . . . . . . . . . . . . . . . . . . . 45
i.

“Cause for the default” .. . . . . . . . . . . . . . . . . . . . . . . . . . 45

ii.

“Prejudice” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

The “fundamental miscarriage of justice” standard . . . . . . . . . . 48

The Statutory Overlay: The Effect of “the Antiterrorism and Effective Death Penalty
Act of 1996” on Habeas Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
1.

28 U.S.C § 2254(e)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

2

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 3 of 367

2.

28 U.S.C § 2254(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
a.

The meaning of § 2254(d)(1)’s “contrary to” clause . . . . . . . . . . 54

b.

The meaning of § 2254(d)(1)’s “unreasonable application”
clause . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

c.

The meaning of § 2254(d)(2)’s clause addressing an “unreasonable
determination of the facts in light of the evidence presented in the
state court proceeding” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

d.

Evaluating state court factual determinations under 28 U.S.C. §§
2254(d)(2) and (e)(1) .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

D.

The Burden of Proof and Heightened Pleading Requirements For Habeas
Petitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

E.

An Introduction To Ineffective Assistance of Counsel Claims . . . . . . . . . . . . . . 63
1.

The performance prong .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

2.

The prejudice prong . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

3.

Deference accorded state court findings of historical fact and decisions on
the merits when evaluating ineffective assistance of counsel claims . . . . 70

IV.

THE LIST OF PETITIONER’S CLAIMS .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

V.

PETITIONER’S GUILT-PHASE INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIMS .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78
A.

B.

The Effect of Grossly Inadequate Compensation on the Effort Devoted to Petitioner’s
Defense by Counsel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

Trial Counsel Labored Under a Debilitating Conflict of Interest Which Led to a
Complete Breakdown in the Attorney-Client Relationship and, Thereby, Deprived
Petitioner of the Effective Assistance of Counsel .. . . . . . . . . . . . . . . . . . . . . . . . 85
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

3

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 4 of 367

2.
C.

D.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

Trial Counsel Failed to Adequately Investigate the Capital Charge. . . . . . . . . . . 90
1.

Failure to investigate the victim’s background — the gateway for pursuit of
a self-defense strategy .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91

2.

Failure to investigate James’s Atlanta excursion .. . . . . . . . . . . . . . . . . 101

3.

Failure to investigate James’s mental health . . . . . . . . . . . . . . . . . . . . . 103

4.

Failure to contact, interview, and investigate the State’s witnesses .. . . 110

5.

Failure to investigate defense witnesses . . . . . . . . . . . . . . . . . . . . . . . . . 111

6.

Failure to investigate “the apparent” contamination of the crime scene .112
a.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 113

b.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 113

Failure to Procure Expert Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 116
1.

2.

Failure to obtain forensic experts .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 116
a.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117

b.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 118

Failure to obtain mental health experts . . . . . . . . . . . . . . . . . . . . . . . . . 119

E.

Failure to Investigate or Challenge Petitioner’s Competence to Stand Trial . . . 126

F.

Deficient Performance During Jury Selection . . . . . . . . . . . . . . . . . . . . . . . . . . 131
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 132

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 132
a.

Questionnaires and voir dire . . . . . . . . . . . . . . . . . . . . . . . . . . . 133

b.

Failure to challenge for bias .. . . . . . . . . . . . . . . . . . . . . . . . . . . 134

4

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 5 of 367

G.

c.

Failure to question venire about their past exposure to criminal
acts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 135

d.

Failure to question prospective juror Bobby Boyer about his prior
criminal history .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 137

e.

Failure to question prospective jurors about their prior experiences
as jurors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 138

f.

Failure to discover one juror’s mental illness . . . . . . . . . . . . . . 139

g.

Failure to conduct individual, sequestered voir dire . . . . . . . . . 140

h.

Failure to the object to the State’s race- and gender-discrimination
when exercising peremptory challenges . . . . . . . . . . . . . . . . . . . 141

Failing to File Adequate Motions in limine, Adequate Objections to the Introduction
of Prejudicial and Inadmissible Evidence at Trial, Adequate Objections to James’s
Absence From the Courtroom During Critical Stages of the Trial, and Adequate
Objections to Prosecutorial Misconduct During Closing Argument . . . . . . . . . 146
1.

Failing to object in limine or during trial to the admission of extraordinarily
prejudicial, gruesome, and irrelevant autopsy photographs . . . . . . . . . 150

2.

Failing to stipulate that Faith Hall was deceased . . . . . . . . . . . . . . . . . 150

3.

Failing to object to the testimony of the State's medical examiner as an expert
witness .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 150

4.

Failing to object to lengthy, irrelevant, and extraordinarily prejudicial
testimony from the States medical examiner regarding procedures applied to
the victim by paramedics and other medical personnel after the
shooting .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 150

5.

Failing to obtain a clear ruling on defendant’s motion in limine seeking the
exclusion of, and, failing to object during trial to the admission of, references
to James’s prior trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 164

6.

Failing to obtain clear rulings on all motions filed by defense counsel during
James’s first, 1996 trial, which were adopted for purposes of the second trial
by Virginia Vinson’s December 29, 1998 pretrial motion . . . . . . . . . . . 167

5

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 6 of 367

7.

Failing to object in limine or during trial to the admission of references to
James’s arrest in California . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 168

8.

Failing to object to irrelevant, prejudicial testimony by prosecution
witnesses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 171

9.

Failing to object when the trial judge proceeded to take evidence during
James’s absence from the courtroom . . . . . . . . . . . . . . . . . . . . . . . . . . . 174

10.

Failing to object to prosecutorial misconduct: i.e., the prosecutor’s
prejudicial references to James during closing argument . . . . . . . . . . . 176

H.

Failing to Present a Coherent or Viable Defense, and, Conceding Petitioner’s Guilt
During Closing Argument .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 179

I.

Failing to Request a Continuance When Counsel Learned that James had been the
Victim of an Attempted Sexual Assault in Jail on the Night Prior to the Beginning
of Trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 183

J.

K.

1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 184

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 185

Ineffective Cross-Examination of the State’s Witnesses . . . . . . . . . . . . . . . . . . 189
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 190

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 192

Failing to Object to the Trial Judge’s Improper Instructions at the Conclusion of the
Guilt Phase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 195
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 200

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 201

L.

Failing to “Federalize” Objections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 204

M.

Trial Counsel’s Peformance was Prejudicially Deficient Because Counsel’s Failures
to Object, or to Take the Affirmative Actions Detailed in this Claim, Resulted in
Procedural Defaults With Respect to Some Issues . . . . . . . . . . . . . . . . . . . . . . . 205

6

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 7 of 367

N.

VI.

VII.

The Cumulative Effect of Trial Counsel’s Guilt-Phase Errors Prejudiced James, Even
If No Single Error, Standing Alone, Did So . . . . . . . . . . . . . . . . . . . . . . . . . . . . 206

PETITIONER’S PENALTY-PHASE INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIMS .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 209
A.

Failing to Conduct Any Investigation of Petitioner’s Background to Obtain
Mitigation or Social History Evidence, and, Failing to Present Such Evidence During
the Penalty Phase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 209

B.

Penalty-Phase Closing Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 240

C.

Failing to Object to Prosecutorial Misconduct During Penalty-Phase Closing
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 247

D.

Failing to Request Specific Penalty-Phase Jury Instructions . . . . . . . . . . . . . . . 253

E.

Failing to Object to Use of the Presentence Investigation Report and Sentencing
Order From the First Trial .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 259

F.

The Cumulative Effect of Trial Counsels’ Penalty-Phase Errors Prejudiced James,
Even If No Single Error, Standing Alone, Did So . . . . . . . . . . . . . . . . . . . . . . . 263

PETITIONER’S INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL
CLAIMS .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 264
A.

Failing to Argue That the Trial Judge Erroneously Overruled Defense Counsel’s
Objection to the Prosecutor’s Addition of a New Aggravating Circumstance . . 267

B.

Failing to Raise Some Ineffective Assistance of Trial Counsel Claims in the Opening
Brief on Direct Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 270

C.

Failure to Argue That the Trial Judge Did Not Instruct the Jury as Required by Rule
19.3(b), Ala. R. Crim. P. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 273

D.

Failure to “Federalize” Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 275

VIII. PETITIONER’S SUBSTANTIVE CLAIMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 276
A.

Petitioner was Deprived of His Constitutional Right to the Assistance at Trial of a
Competent Mental Health Professional . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 276

7

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 8 of 367

B.

The Trial Judge Erred in Failing to Order, sua sponte, a Competency Evaluation of
Petitioner . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 276

C.

Petitioner Was Not Competent to Proceed to Trial . . . . . . . . . . . . . . . . . . . . . . 276

D.

1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 278

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 280

The Prosecution Failed to Comply With Discovery Obligations Under Brady v.
Maryland, and Committed Other Misconduct at Trial . . . . . . . . . . . . . . . . . . . . 287
1.

Procedural default . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 288

2.

Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 289

E.

Petitioner Was Deprived of His Right to an Impartial Jury, Due Process of Law, and
a Reliable Determination of Guilt and the Penalty to be Imposed When He Was Tried
by a Juror Who Suffered From a Mental Illness and Other Impairments . . . . . . 295

F.

The Trial Judge Committed Numerous Prejudicial Errors During the Guilt and
Penalty Phases of Trial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 298

G.

1.

Failing to order a new presentence investigation report.. . . . . . . . . . . . 300

2.

Admitting autopsy photographs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 302

3.

Conducting court in James’s absence. . . . . . . . . . . . . . . . . . . . . . . . . . . 303

4.

Failing to instruct the jury at the end of each trial day. . . . . . . . . . . . . . 304

5.

Overruling defense objections. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 306

6.

Improper jury instructions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 308

Petitioner Was Deprived of Due Process and Other Constitutional Rights Throughout
the Rule 32 Proceedings in the State Circuit Court . . . . . . . . . . . . . . . . . . . . . . 309
1.

The circuit court’s procedure of signing orders prepared by respondents,
particularly the egregiously self-serving and clearly erroneous final order,
denied petitioner of his federal constitutional rights to an impartial tribunal,
due process, and a reliable proceeding under the Fifth, Sixth, Eighth, and

8

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 9 of 367

Fourteenth Amendments, and international law .. . . . . . . . . . . . . . . . . . 311
2.

The circuit court further displayed its bias against James and deprived him
of due process, equal protection, an impartial tribunal, and a reliable
proceeding when it denied his Motion to Proceed in forma pauperis . . 319

3.

The circuit court prevented petitioner from fully developing and presenting
his claims by denying him leave to proceed ex parte in funding requests and
funding for mental health experts and, in violation of the Fifth, Sixth, Eighth,
and Fourteenth Amendments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 319

4.

The circuit court’s denial of leave to proceed ex parte in funding requests
prevented petitioner from fully developing and presenting his claims in
violation of petitioner’s constitutional rights to due process and a reliable
capital proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 319

5.

The circuit court’s denial of funding for mental health experts prevented
petitioner from developing and presenting his claims in violation of his
constitutional rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 319

6.

The circuit court’s refusal to admit petitioner’s proffer of evidence prevented
him from fully developing and presenting his claims in violation of his
constitutional rights to due process, equal protection, and a reliable capital
proceeding .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 319

7.

The circuit court prevented petitioner from fully developing and presenting
his claims by denying him funding for investigators in violation of the Fifth,
Sixth, Eighth, and Fourteenth Amendments . . . . . . . . . . . . . . . . . . . . . . 320

H.

The Circuit Court’s Denial of Petitioner’s Requested Discovery and Motions for
Continuance of the Evidentiary Hearing Deprived Petitioner of Due Process, a Fair
Trial, and a Reliable Capital Proceeding Under the Fifth, Sixth, Eighth, and
Fourteenth Amendments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 322

I.

The Circuit Court’s Refusal to Issue a Warrant to Compel Testimony of a Key
Exculpatory and Mitigation Witness Prevented Petitioner From Presenting His
Defense, in Violation of the Sixth, Eighth, and Fourteenth Amendments . . . . . 324

J.

The Circuit Judge Deprived Petitioner of His Rights to Due Process and a Reliable
Capital Decision-Making Process When He Denied Petitioner’s Motion to Reopen
His Brady Claim . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 326

9

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 10 of 367

IX.

K.

Alabama’s Capital Sentencing Procedures, Both Facially and As Applied, Run Afoul
of the Fourteenth Amendment’s Due Process Clause and the Sixth Amendment’s
Jury Trial Requirement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 329

L.

The Jury Was Unconstitutionally Permitted to “Double Count” the Fact of Burglary,
Both as the Predicate for the Capital Charge, and, as an Aggravating
Circumstance .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 335

M.

Alabama’s Statutory Limitations on Compensation of Appointed Counsel and Other
Resources in Death Penalty Cases Violates the Federal Constitution . . . . . . . . 340

N.

The Selective Prosecution of the Death Penalty Violated Petitioner’s Rights to Due
Process, Equal Protection, Freedom From Cruel and Unusual Punishment, and, a
Fundamentally Fair Trial .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 344

O.

Execution by Means of Lethal Injection is a Cruel and Unusual Punishment in
Violation of the Eighth Amendment .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 347

P.

Execution Following Lengthy Confinement Under Sentence of Death Constitutes
Cruel and Unusual Punishment in Violation of Petitioner’s State and Federal
Constitutional Rights, as well as International Law . . . . . . . . . . . . . . . . . . . . . . 352

Q.

In View of Petitioner’s Profound Mental and Emotional Impairments, and the
Supreme Court’s Decision in Atkins v. Virginia, It Would Be Unconstitutional To
Execute Him . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 354

R.

Petitioner’s Conviction and Death Sentence Must Be Vacated Because of the
Cumulative Effect of All of the Errors and Constitutional Violations Alleged in this
Petition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 359

S.

Petitioner Was Convicted and Sentenced to Death as a Result of a Process Tainted
by Racial Bias . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 362

T.

Petitioner Was Deprived of His Federal Constitutional Right to Compulsory Process
At the Evidentiary Hearing in State Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 364

CONCLUSION AND ORDERS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 365

I. THE OFFENSE OF CONVICTION
Joe Nathan James, Jr. (“petitioner” or “James”), was indicted in the Tenth

10

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 11 of 367

Judicial Circuit of the State of Alabama (i.e., Jefferson County) for the August 15,
1994 murder of Faith Hall: a crime made capital by Alabama Code § 13A-5-40(a)(4)
(1975), because it was committed during the course of a burglary in the first degree.1
He was tried twice, and found “guilty” both times. But, as discussed in Part II of this
opinion, infra, the first conviction was reversed due to prejudicial errors in the
admission of hearsay statements. The State’s evidence in both trials tended to show
the following facts:
James was a former boyfriend of Faith Hall’s and had a history of
harassing her. On August 15, 1994, Faith and a friend, Tammy Sneed,
were returning to Sneed’s Birmingham apartment after a day of
shopping. When they reached Sneed’s apartment, they hurried inside,
having seen James behind them in the rearview mirror of their car.
Inside the apartment, Hall, Sneed, and a neighbor, Bridget Gregory,
discussed what they should do about James. Sneed’s two children were
also in the apartment. They decided they should notify the police.
When Gregory left to telephone the police, James was at the apartment
door and forced his way in as Hall and Sneed tried to hold the door
closed. Once inside the apartment, James, armed with a pistol, accused
Hall of being unfaithful. After initially putting the pistol in his
waistband, James drew the weapon and, as the women tried to run from
the room, shot Faith Hall. After she fell, James shot Hall again. Faith
Hall died of multiple gunshot wounds to the head, chest, and abdomen.
James v. State, 723 So. 2d 776, 778 (Ala. Crim. App. 1998).2
1

The statute defines “[m]urder by the defendant during a burglary in the first or second
degree or an attempt thereof committed by the defendant” as a capital offense. Ala. Code §
13A-5-40(a) (4) (1975) (alteration supplied).
2

The summary of evidence quoted in text was taken from the opinion of the Alabama Court
of Appeals on the first appeal, following James’s initial conviction. The trial judge’s summary of

11

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 12 of 367

II. PROCEDURAL HISTORY
The first of James’s two trials began on August 26, 1996. Following a verdict
of “guilty,” the jury recommended, by a vote of 10-2, that James be sentenced to
death. The trial judge subsequently imposed the death penalty. James appealed to
the Alabama Court of Criminal Appeals, which held that the trial judge had erred to
reversal by admitting, pursuant to the “Business Records” exception to the rule
against hearsay,3 four prejudicial “Incident/Offense” reports created by the
the evidence, quoted in the second opinion of the Alabama Court of Criminal Appeals, following
James’s second conviction, is similar:
“The [appellant], a former boyfriend of the victim, Faith Hall, had been
stalking and threatening Ms. Hall before her death. On the evening of August 15,
1994, as Ms. Hall and a friend returned to the friend’s apartment, they saw the
[appellant] following them in his vehicle. When they saw the [appellant] they began
to run to the apartment.
“Despite their attempts to hold the front door closed, the [appellant] forced
his way into the apartment. Ms. Hall began to scream, as the [appellant] came in
with a pistol in his hand. When she couldn’t calm him down, she began to run for
the front door. The [appellant] shot at her, but missed. Ms. Hall turned and ran
toward the bathroom as [appellant] followed and shot her in the head, chest, and
abdomen. The [appellant] ran out the back door and left in his automobile. Ms. Hall
died from her wounds. The [appellant] was arrested in California.”
James v. State, 788 So. 2d 185, 188 (Ala. Crim. App. 2000) (alterations in original).
3

Alabama Rule of Evidence 803(6) provides that the following documents are not excluded
by the rule against hearsay, even if the declarant is available as a witness:
(6) Records of Regularly Conducted Activity. A memorandum, report,
record, or data compilation, in any form, of acts, events, conditions, opinions, or
diagnoses, made at or near the time by, or from information transmitted by, a person
with knowledge, if kept in the course of a regularly conducted business activity, and
if it was the regular practice of that business activity to make the memorandum,

12

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 13 of 367

Birmingham Police Department during the year preceding the offense. See James v.
State, 723 So. 2d 776, 778-81 (Ala. Crim. App. 1998).4 The State’s petition for writ
of certiorari was denied by the Alabama Supreme Court. See Ex parte State of
Alabama, 723 So. 2d 786 (Ala. 1998). Consequently, the case was remanded for a
new trial.
James was represented during the second trial by Birmingham attorneys
Virginia A. Vinson and Gordon Herbert Warren.5 The jury again convicted James of

report, record, or data compilation, all as shown by the testimony of the custodian or
other qualified witness, or by certification that complies with Rule 902(11), Rule
902(12), or a statute permitting certification, unless the source of information or the
method or circumstances of preparation indicate lack of trustworthiness. The term
“business” as used in this paragraph includes business, institution, association,
profession, occupation, and calling of every kind, whether or not conducted for profit.
Ala. R. Evid. 803(6) (emphasis in original).
4

Three of the “Incident/Offense” reports resulted from complaints filed during the year
preceding the offense by the victim, Faith Hall, also known as “Faith Smith.” See James v. State,
723 So. 2d 776, 778 (Ala. Crim. App. 1998). The fourth report was generated by a complaint lodged
by Faith Hall’s grandmother, Isabelle Hall, on August 13, 1994 — just two days prior to the offense.
Id. at 779. Ultimately, the Alabama Court of Criminal Appeals held that:
Because the erroneously admitted evidence contained accusations of a prior death
threat and threats of harm, and because the prosecutor used those accusations as
showing a “paper trail” laid by the declarant to identify James as her murderer, we
cannot say beyond a reasonable doubt that the error was harmless. We also cannot
say that those statements did not affect the jury in its sentencing deliberations and in
their death penalty verdict. We find that the erroneous admission of the police
reports was prejudicial and that, therefore, the conviction must be reversed.
Id. at 784.
5

Ms. Vinson was subsequently elected to a state judicial position.

13

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 14 of 367

capital murder on June 16, 1999.6 The penalty hearing began the following morning.7
Neither the prosecutor nor James’s defense attorneys made opening statements or
called witnesses.8 Instead, the prosecutor introduced over the objection of defense
counsel two case action summaries for the purpose of demonstrating that James had
been under a sentence of imprisonment on the date of the offense.9 Defense counsel
presented a stipulation that James had been 22 years old on the date of the offense.10
In closing, defense counsel argued that James had committed the offense while

6

The indictment presented to the jury at James’s second trial read as follows:

The grand jury of said county charge that, Joe Nathan James did intentionally
cause the death of Faith Hall, by shooting her with a pistol; and Joe Nathan James
caused said death during the time that Joe Nathan James knowingly and unlawfully
entered or remained or attempted to enter or remain unlawfully in the dwelling of
Tammy Sneed, with the intent to commit the crime of assault therein; and while
effecting entry of while in the dwelling or in the immediate flight from the dwelling,
the said Joe Nathan James was armed with a pistol.” C.R. Vol. 4, Tab 14, pp. 219220. The indictment itself clarifies that James was “armed with a pistol, an
explosive or deadly weapon, in violation of Section 13A-5-40(a)(4) of the Alabama
Criminal Code. . . .
C.R. Vol. 1, Tab 2, at 20. NOTE WELL: The court will cite any page number associated with court
records by reference to the numbers at the bottom of each page (i.e., the original pagination). The
page numbers stamped at the top of each page by this court’s Electronic Case Filing system (i.e., the
so-called “Case Management Electronic Case Formatting” system) will NOT be cited.
7

Id. at 4. NOTE WELL: Two court reporters recorded various portions of the trial. As a
result, the pagination of the Transcript of proceedings is not consecutive, and page 4 within Tab 15
is located after page 243 within the same Tab.
8

Id. at 4-39.

9

Id. at 4-12.

10

Id. at 13.

14

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 15 of 367

“under the influence of extreme mental or emotional disturbance.”11 Following
deliberations, the jury returned a verdict recommending, by a unanimous vote of 12
to 0, that James be sentenced to death.12
The trial judge conducted a formal sentencing hearing on July 9, 1999, in
accordance with Alabama Code § 13A-5-47 (1975).13 He found the existence of two
11

C.R. Vol.4, Tab 20, at 26-30.

12

Id., Tab 23, at 52.

13

Id., Tab 24, at 55-59. The statute cited in text reads as follows:

(a) After the sentence hearing has been conducted, and after the jury has
returned an advisory verdict, or after such a verdict has been waived as provided in
Section 13A-5-46(a) or Section 13A-5-46(g), the trial court shall proceed to
determine the sentence.
(b) Before making the sentence determination, the trial court shall order and
receive a written pre-sentence investigation report. The report shall contain the
information prescribed by law or court rule for felony cases generally and any
additional information specified by the trial court. No part of the report shall be kept
confidential, and the parties shall have the right to respond to it and to present
evidence to the court about any part of the report which is the subject of factual
dispute. The report and any evidence submitted in connection with it shall be made
part of the record in the case.
(c) Before imposing sentence the trial court shall permit the parties to present
arguments concerning the existence of aggravating and mitigating circumstances and
the proper sentence to be imposed in the case. The order of the arguments shall be
the same as at the trial of a case.
(d) Based upon the evidence presented at trial, the evidence presented during
the sentence hearing, and the pre-sentence investigation report and any evidence
submitted in connection with it, the trial court shall enter specific written findings
concerning the existence or nonexistence of each aggravating circumstance
enumerated in Section 13A-5-49, each mitigating circumstance enumerated in
Section 13A-5-51, and any additional mitigating circumstances offered pursuant to
Section 13A-5-52. The trial court shall also enter written findings of facts

15

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 16 of 367

statutory aggravating circumstances — i.e., the capital offense was committed by a
person under a sentence of imprisonment, and, while the defendant was engaged in
the commission of a burglary14 — but no mitigating circumstances, statutory or
summarizing the crime and the defendant's participation in it.
(e) In deciding upon the sentence, the trial court shall determine whether the
aggravating circumstances it finds to exist outweigh the mitigating circumstances it
finds to exist, and in doing so the trial court shall consider the recommendation of the
jury contained in its advisory verdict, unless such a verdict has been waived pursuant
to Section 13A-5-46(a) or 13A-5-46(g). While the jury’s recommendation
concerning sentence shall be given consideration, it is not binding upon the court.
Ala. Code § 13A-5-47 (1975).
14

The trial judge’s December 9, 1999 sentencing order explicated the statutory aggravating
circumstances as follows:
1.

[“]The capital offense was committed by a person under sentence of
imprisonment.[”] [Ala. Code § 13A-5-49(1).] The Court find that at the time
of this offense, August 15, 1994[,] the defendant was on probation in Case
#CC 91-1404 (Theft of Property - First Degree) and Case #CC 91-1402
(Receiving Stolen Property - First Degree)[,] having been placed on probation
for a term of 3 years on 10-31-91. (See sentencing exhibits 1 & 2).
....

4.

[“]The capital offense was committed where [sic] the defendant was engaged
or was an accomplice in the commission of, or an attempt to commit, or flight
after committing, or attempting to commit, rape, robbery, burglary or
kidnapping.[”] [Ala. Code § 13A-5-49(4).]
The Court finds that this aggravating circumstance does exist in that
the defendant was engaged in a burglary based on the following facts.
The defendant, a former boyfriend of the victim, Faith Hall, had been
stalking and threatening Ms. Hall before her death. On the evening of August
15, 1994, as Ms. Hall and a friend returned to the friend’s apartment, they
saw the defendant following them in his vehicle. When they saw the
defendant they began to run to the apartment.

16

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 17 of 367

otherwise.15 He adopted the jury’s recommendation and sentenced James to death.16
Following the imposition of sentence, James informed the trial judge that he
did not want the attorneys who had served as trial counsel to represent him on
appeal.17 Consequently, during the subsequent, September 13, 1999 hearing on
James’s motion for a new trial, and during the direct appeal process, James was
represented by a new attorney: George Babakitis of Montgomery, Alabama.18
The second conviction and sentence were affirmed by the Alabama Court of
Criminal Appeals on April 28, 2000. See James v. State, 788 So. 2d 185 (Ala. Crim.
Despite their attempts to hold the front door closed, the defendant
forced his way into the apartment. Ms. Hall began to scream, as the
defendant came in with a pistol in his hand. When she couldn’t calm him
down, she began to run for the front door. The defendant shot at her, but
missed. Ms. Hall turned and ran toward the bathroom as defendant followed
and shot her in the head, chest, and abdomen. The defendant ran out the back
door and left in his automobile. Ms. Hall died from her wounds. The
defendant was arrested in California.
C.R. Vol. 5, at 8-9 (Dec. 9, 1999 Sentencing Order) (bracketed alterations and emphasis supplied).
15

Id. at 10-11. The seven mitigating circumstances recognized by statute are specified in
Ala. Code § 13A-5-51. Non-statutory mitigating circumstances are provided for in § 13A-5-52,
which provides that:
In addition to the mitigating circumstances specified in Section 13A-5-51,
mitigating circumstances shall include any aspect of a defendant’s character or record
and any of the circumstances of the offense that the defendant offers as a basis for a
sentence of life imprisonment without parole instead of death, and any other relevant
mitigating circumstance which the defendant offers as a basis for a sentence of life
imprisonment without parole instead of death.
16

C.R. Vol. 4, Tab 24, at 58; see also C.R. Vol. 5, at 11 (Dec. 9, 1999 Sentencing Order).

17

C.R. Vol. 4, Tab 24, at 59.

18

Id., Tab 26, at 4.

17

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 18 of 367

App. 2000). Certiorari was denied by the Alabama Supreme Court on December 15,
2000, Ex parte James, No. 1991959 (Ala. Dec. 15, 2000), and by the United States
Supreme Court on May 21, 2001. James v. Alabama, 532 U.S. 1040 (2001) (Table).
James commenced collateral review proceedings in the state court system under
Rule 32 of the Alabama Rules of Criminal Procedure by filing a “Petition for Relief
from Judgment” in the circuit court on May 7, 2002. His original petition asserted
claims for ineffective assistance of trial and appellate counsel.19

James was

represented throughout the entire state post-conviction review process by Wesley A.
Van Winkle, a member of the California Bar, and Ty Alper, who is Clinical Professor
of Law and Associate Director of the Death Penalty Clinic at Boalt Hall School of
Law of the University of California in Berkeley.
James filed an amended Rule 32 petition on September 16, 2002, and again
alleged claims for ineffective assistance of trial and appellate counsel.20 On that same
day, the State also filed motions to dismiss the claims asserted in James’s original
petition, alleging that they were procedurally barred or not sufficiently pled.21 The
State later filed similar motions addressing the claims asserted in James’s amended

19

See C.R. Vol. 9, Tab 35, at 233 through Vol. 10, at 410.

20

See C.R. Vol. 10, Tab 36.

21

C.R. Vol. 11, Tabs 37-38, at 634-640.

18

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 19 of 367

petition.22 The State additionally moved for dismissal of Claim XVI in the amended
petition as untimely.23 Finally, the State filed answers to both the original and
amended petitions.24
James filed a second amended Rule 32 petition in the State circuit court on
November 8, 2002,25 which the State answered on June 16, 2003.26
The Rule 32 circuit court relied upon Alabama Rules of Criminal Procedure
32.2(a)(3)–(5), 32.2(c), 32.3, 32.6(b), and 32.7(d) as the basis for dismissing a
number of the claims asserted in the second amended petition, finding that some of
the ineffective assistance of trial counsel claims were either not sufficiently pled, or
procedurally barred.27 Additionally, Claim XVI — (based upon the Supreme Court’s
opinion in Atkins v. Virginia, 536 U.S. 304 (2002), holding that the Eighth
Amendment prohibition against “cruel and unusual punishments” applied to the
execution of mentally retarded offenders) — was dismissed as untimely.28
22

Id., Tabs 39-40, 42; C.R. Vol 13, Tab 45.

23

Id., Tab 41. Claim XVI of James’s amended Rule 32 petition alleged that his execution
following a period of lengthy confinement under sentence of death would constitute cruel and
unusual punishment in violation of both the federal and State constitutions and “international law.”
24

C.R. Vol. 11-13, Tabs 43-44.

25

C.R. Vol. 14-15, Tab 46.

26

C.R. Vol. 15-16, Tab 51.

27

See C.R. Vol. 32, Tabs 66-69, and 71-77. The state procedural rules referenced in the
sentence accompanying this marginal note are discussed infra, in Part IIB.4 of this opinion.
28

C.R. Vol. 32, Tab 70.

19

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 20 of 367

Following a June 8, 2004 hearing on the remaining claims asserted in the
second amended petition, the trial court entered a final order on October 28, 2004,
denying post-conviction relief to James.29
James appealed the trial court’s order to the Alabama Court of Criminal
Appeals,30 which affirmed. See James v. State, 61 So. 3d 332 (Ala. Crim. App. 2006).
That Court held that, because James had filed a pro se motion for a new trial
following his second conviction, in which he had claimed ineffective assistance of
trial counsel, and because the attorney who had been appointed to represent him on
direct appeal (George Babakitis) had filed a similar motion raising the same issue, the
ineffective assistance of counsel claims were precluded by Alabama Rules of
Criminal Procedure 32.2(a)(2) and (a)(4). Id. at 339.31
29

Id., Vol. 21-23, Tab 52; Vol 32, Tab 78.

30

Id., Vol. 34, at 13.

31

The cited rules provide that:
A petitioner will not be given relief under this rule based upon any ground:
...
(2) Which was raised or addressed at trial; or
...

(4) Which was raised or addressed on appeal or in any previous collateral
proceeding not dismissed pursuant to the last sentence of Rule 32. 1 as a petition that
challenges multiple judgments, whether or not the previous collateral proceeding was
adjudicated on the merits of the grounds raised; or . . . .

20

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 21 of 367

The Supreme Court of Alabama reversed the Court of Criminal Appeals,
however, and remanded the decision for additional proceedings, saying:
Because we hold that the Court of Criminal Appeals erred in sua sponte
applying the preclusionary grounds of Rule 32 to the majority of James’
[sic] ineffective-assistance-of-counsel claims, it follows that the Court
of Criminal Appeals erred in not reviewing whether the circuit court
prejudiced James by denying his initial motion to proceed in forma
pauperis or ex parte on his request for funds, which possibly would have
allowed James the funds necessary to develop his claims. Therefore, we
remand this case to the Court of Criminal Appeals for review of this
issue on the merits.
Ex parte James, 61 So. 3d 352, 356 (Ala. 2009).
Following remand, the Alabama Court of Criminal Appeals again affirmed the
circuit court’s denial of the claims asserted in James’s second amended Rule 32
petition, and denied his application for rehearing. See James v. State, 61 So. 3d 357,
384-85 (Ala. Crim. App. 2010). The Supreme Court of Alabama denied James’s
petition for writ of certiorari on October 15, 2010, without opinion.32
James filed his habeas petition in this court on October 29, 2010,33 and an
amended petition on December 31, 2010.34 The same attorneys who represented him
during the post-conviction, collateral review process in the State courts — i.e.,

Ala. R. Crim. P. 32.2(a)(2), (a)(4).
32

See C.R. Vol 32, Tab 82.

33

See doc. no. 1 (Original Habeas Petition).

34

See doc. no. 11 (Amended Habeas Petition).

21

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 22 of 367

Wesley A. Van Winkle and Professor Ty Alper — have served as counsel in this
court.
III. INTRODUCTION TO DISCUSSION OF CLAIMS:
The Scope of Federal Habeas Review
“The habeas statute unambiguously provides that a federal court may issue the
writ to a state prisoner ‘only on the ground that he is in custody in violation of the
Constitution or law or treaties of the United States.’” Wilson v. Corcoran, 562 U.S.1,
131 S.Ct. 13, 16 (2010)(pagination not yet available for the U. S. Reports) (quoting
28 U.S.C. § 2254(a)). As such, this court’s review of claims seeking habeas relief is
limited to questions of federal constitutional and statutory law. Claims that turn
exclusively upon state law principles fall outside the reach of this court’s authority
to provide relief under § 2254. See Alston v. Department of Corrections, 610 F.3d
1318, 1326 (11th Cir. 2010) (holding that a claim addressing either “an alleged defect
in a collateral proceeding,” or a state court’s “interpretation of its own law or rules,”
does not provide a basis for federal habeas relief) (citations omitted).
A.

The Exhaustion of State Court Remedies Doctrine: The First Condition
Precedent to Federal Habeas Review
A habeas petitioner is required to initially present his federal claims to the state

courts, and to exhaust all of the procedures available in the state court system, before
seeking relief in federal court. See 28 U.S.C. § 2254(b)(1); see also, e.g., Medellin

22

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 23 of 367

v. Dretke, 544 U.S. 660, 666 (2005) (holding that a petitioner “can seek federal
habeas relief only on claims that have been exhausted in state court”). The
“exhaustion of state court remedies doctrine” is founded upon considerations of
comity within our federal system, and serves the policy of reducing friction between
state and federal courts by avoiding the “unseemliness” of a federal court overturning
a state-court conviction “without the state courts having had an opportunity to correct
the constitutional violation in the first instance.” O’Sullivan v. Boerckel, 526 U.S.
838, 845 (1999). As the Supreme Court observed, “[a] state prisoner is generally
barred from obtaining federal habeas relief unless the prisoner has properly presented
his or her claims through one ‘complete round of the State’s established appellate
review process.’” Woodford v. Ngo, 548 U.S. 81, 92 (2006) (quoting O’Sullivan, 526
U.S. at 845) (alteration supplied). The Eleventh Circuit summarized the doctrine in
Snowden v. Singletary, 135 F.3d 732 (11th Cir. 1998), saying that:
In general, a federal court may not grant habeas corpus relief to
a state prisoner who has not exhausted his available state remedies. 28
U.S.C. § 2254(b)(1)(A) (“An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment of a State court
shall not be granted unless it appears that . . . the applicant has
exhausted the remedies available in the courts of the State. . . .”).
“When the process of direct review . . . comes to an end, a presumption
of finality and legality attaches to the conviction. . . . The role of federal
habeas proceedings, while important in assuring that constitutional
rights are observed, is secondary and limited. Federal courts are not
forums in which to relitigate state trials.” Smith v. Newsome, 876 F.2d

23

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 24 of 367

1461, 1463 (11th Cir. 1989) (quoting Barefoot v. Estelle, 463 U.S. 880,
887 (1983)).
Exhaustion of state remedies requires that the state prisoner
“fairly presen[t][35] federal claims to the state courts in order to give the
State the opportunity to pass upon and correct alleged violations of its
prisoners’ federal rights.” Duncan v. Henry, 513 U.S. 364, 365 (1995)
(citing Picard v. Connor, 404 U.S. 270, 275-76 (1971) (internal
quotation marks omitted). The Supreme Court has written these words:
[T]hat the federal claim must be fairly presented to the state
courts . . . . it is not sufficient merely that the federal
habeas applicant has been through the state courts. . . .
Only if the state courts have had the first opportunity to
hear the claim sought to be vindicated in a federal habeas
proceeding does it make sense to speak of the exhaustion
of state remedies.
Picard, 404 U.S. at 275, 92 S. Ct. at 512. See also Duncan, 513 U.S. at
365, 115 S. Ct. at 888 (“Respondent did not apprise the state court of his
claim that the evidentiary ruling of which he complained was not only
a violation of state law, but denied him the due process of law
guaranteed by the Fourteenth Amendment.”).
Thus, to exhaust state remedies fully the petitioner must make the
state court aware that the claims asserted present federal constitutional
issues. “It is not enough that all the facts necessary to support the
federal claim were before the state courts or that a somewhat similar
state-law claim was made.” Anderson v. Harless, 459 U.S. 4, 5-6, 103
S. Ct. 276, 277, 74 L. Ed. 2d 3 (1982) (citations omitted).
Snowden, 135 F.3d at 735 (alterations and redactions in original, footnote supplied).
35

The phrases “fairly presented” and “properly exhausted” are synonymous. See, e.g.,
O’Sullivan v. Boerckel, 526 U.S. 838, 848 (1999) (observing that the question is “not only whether
a prisoner has exhausted his state remedies, but also whether he has properly exhausted those
remedies, e., whether he has fairly presented his claims to the state courts”) (the word “properly” was
emphasized in the original text, all other emphasis was supplied by this court).

24

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 25 of 367

B.

The Procedural Default Doctrine: The Second Condition Precedent to
Federal Habeas Review
If a habeas petitioner fails to initially present a federal claim to the state courts

at the time, and in the manner, dictated by the state’s procedural rules, the state courts
can decide that the claim is not entitled to review on its merits. Stated differently, the
petitioner will be deemed to have “procedurally defaulted on that claim.” Mason v.
Allen, 605 F.3d 1114, 1119 (11th Cir. 2009) (emphasis supplied).
This so-called “procedural default doctrine” was explained in the following
manner by the Supreme Court’s opinion in Woodford v. Ngo, 548 U.S. 81 (2006):
In habeas, the sanction for failing to exhaust properly (preclusion of
review in federal court) is given the separate name of procedural default,
although the habeas doctrines of exhaustion and procedural default “are
similar in purpose and design and implicate similar concerns,” Keeney
v. Tamayo–Reyes, 504 U.S. 1, 7 (1992). See also Coleman v. Thompson,
501 U.S. 722, 731–732, 111 S. Ct. 2546 (1991). In habeas, state-court
remedies are described as having been “exhausted” when they are no
longer available, regardless of the reason for their unavailability. See
Gray v. Netherland, 518 U.S. 152, 161, 116 S. Ct. 2074, 135 L. Ed. 2d
457 (1996). Thus, if state-court remedies are no longer available
because the prisoner failed to comply with the deadline for seeking
state-court review or for taking an appeal, those remedies are technically
exhausted, ibid., but exhaustion in this sense does not automatically
entitle the habeas petitioner to litigate his or her claims in federal court.
Instead, if the petitioner procedurally defaulted those claims, the
prisoner generally is barred from asserting those claims in a federal
habeas proceeding. Id., at 162, 116 S. Ct. 2074; Coleman, supra, at
744–751, 111 S. Ct. 2546.
Woodford, 548 U.S. at 92-93.

25

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 26 of 367

Generally speaking, if the last state court to examine a claim states, clearly and
explicitly, that the claim is barred because the petitioner failed to follow state
procedural rules, and that procedural bar provides an adequate and independent state
ground for denying relief, then federal review of the claim also is precluded by the
procedural default doctrine. See, e.g., Cone v. Bell, 556 U.S. 449, 465 (2009);
Coleman v. Thompson, 501 U.S. 722, 731 (1991) (“When a petitioner fails to raise his
federal claims in compliance with relevant state procedural rules, the state court’s
refusal to adjudicate the claim ordinarily qualifies as an independent and adequate
state ground for denying federal review.”); Harris v. Reed, 489 U.S. 255, 262-63
(1989); Johnson v. Mississippi, 486 U.S. 578, 587 (1988).
The doctrine serves the purpose of ensuring that the habeas petitioner will first
seek relief in the state court system, in accordance with state procedural rules. See,
e.g., Johnson v. Singletary, 938 F.2d 1166, 1173 (11th Cir. 1991); Presnell v. Kemp,
835 F.2d 1567, 1578-79 (11th Cir. 1988). It also serves to “lessen the injury to a
State that results through reexamination of a state conviction on a ground that a State
did not have the opportunity to address at a prior, appropriate time.” McCleskey v.
Zant, 499 U.S. 467, 493 (1991).
1.

Alternative holdings

Federal deference to a state court’s clear finding of a procedural default based

26

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 27 of 367

upon the petitioner’s failure to raise his federal claim in the state court system at the
time, and in the manner, dictated by the state’s procedural rules is so strong that the
Supreme Court has said that a state court
need not fear reaching the merits of a federal claim in an alternative
holding. Through its very definition, the adequate and independent state
ground doctrine requires the federal court to honor a state holding that
is a sufficient basis for the state court’s judgment, even when the state
court also relies on federal law.
Harris v. Reed, 489 U.S. at 264 n.10 (emphasis in original). See also Bailey v. Nagle,
172 F.3d 1299, 1305 (11th Cir. 1999) (same); Alderman v. Zant, 22 F.3d 1541, 154951 (11th Cir. 1994) (in a case in which a Georgia court had found that a petitioner’s
federal claim was barred by a state procedural rule as “successive,” but also observing
in an alternative holding that the claim lacked merit based on the evidence, the
Eleventh Circuit held that the alternative ruling “did not have the effect . . . of
blurring the clear determination by the [state] court that the allegation was
procedurally barred pursuant to O.C.G.A. § 9–14–51”36).
36

The provision from the Georgia Code cited in the parenthetical quotation is part of that
State’s equivalent to Alabama Rule of Criminal 32, and it provides, in pertinent part, that:
All grounds for relief claimed by a petitioner for a writ of habeas corpus shall
be raised by a petitioner in his original or amended petition. Any grounds not so
raised are waived unless the Constitution of the United States or of this state
otherwise requires or unless any judge to whom the petition is assigned, on
considering a subsequent petition, finds grounds for relief asserted therein which
could not reasonably have been raised in the original or amended petition.
O.C.G.A. § 9-14-51.

27

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 28 of 367

2.

Determining the effective basis for the state courts’ rulings

When the last state court entering judgment on a federal claim affirms the
ruling of the previous court without explanation, federal district courts are instructed
to “presume that [the unexplained ruling] rests on the reasons given in the last
reasoned [state court] decision.” Mason v. Allen, 605 F.3d 1114, 1118 n.2 (11th Cir.
2009) (alterations and emphasis supplied). The Supreme Court established that
interpretative rule in the following passage from its opinion in Ylst v. Nunnemaker,
501 U.S. 797 (1991):
The problem we face arises, of course, because many formulary
orders are not meant to convey anything as to the reason for the
decision. Attributing a reason is therefore both difficult and artificial.
We think that the attribution necessary for federal habeas purposes can
be facilitated, and sound results more often assured, by applying the
following presumption: Where there has been one reasoned state
judgment rejecting a federal claim, later unexplained orders upholding
that judgment or rejecting the same claim rest upon the same ground.
If an earlier opinion “fairly appear[s] to rest primarily upon federal law,”
Coleman [v. Thompson, 501 U.S. 722, 740 (1991)], we will presume that
no procedural default has been invoked by a subsequent unexplained
order that leaves the judgment or its consequences in place. Similarly
where, as here, the last reasoned opinion on the claim explicitly imposes
a procedural default, we will presume that a later decision rejecting the
claim did not silently disregard that bar and consider the merits. See
Prihoda v. McCaughtry, 910 F.2d 1379, 1383 (CA7 1990) (dicta);
Harmon v. Barton, 894 F.2d 1268, 1272 (CA11 1990); Evans v.
Thompson, 881 F.2d 117, 123, n. 2 (CA4 1989); Ellis v. Lynaugh, 873
F.2d 830, 838 (CA5 1989).
Ylst, 501 U.S. at 803 (first emphasis [“anything”] and alteration [“fairly appear[s]”]

28

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 29 of 367

in original, all other emphasis and second alteration supplied).
3.

Adequate and independent state grounds for denying relief

The Supreme Court has said that a state procedural rule relied upon by a state
court as a ground for denying relief on a federal claim will bar a federal habeas
court’s subsequent review of the same claim, if the state rule “‘rests on a state law
ground that is independent of the federal question and adequate to support the
judgment.’”

Lee v. Kemna, 534 U.S. 362, 375 (2002) (quoting Coleman v.

Thompson, 501 U.S. 722, 729 (1991)) (emphasis in Lee)). The issues of whether a
state procedural rule is both “independent of the federal question,” as well as
“adequate to support the [state court’s] judgment,” so as to have a preclusive effect
on federal review of the claim, “‘is itself a federal question.’” Id. (quoting Douglas
v. Alabama, 380 U.S. 415, 422 (1965)).
a.

“Independent of the federal question”

A state court’s decision is deemed to be “independent of the federal question”
if it rests “solidly on state law grounds,” and, it is not “‘intertwined with an
interpretation of federal law.’” Judd v. Haley, 250 F.3d 1308, 1313 (11th Cir. 2001)
(quoting Card v. Dugger, 911 F.2d 1494, 1516 (11th Cir. 1990)). An example of
intertwining would be when “the State has made application of the procedural bar
depend on an antecedent ruling on federal law, that is, on the determination of

29

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 30 of 367

whether federal constitutional error has been committed.” Ake v. Oklahoma, 470 U.S.
68, 75 (1985). Stated differently, if “the state court must rule, either explicitly or
implicitly, on the merits of the constitutional question” before applying the state’s
procedural rule to a federal constitutional question, then the rule is not independent
of federal law. Id.
b.

“Adequate to support the state court’s judgment”

To be considered “adequate” to support the state court’s judgment, the state
procedural rule must be both “‘firmly established and regularly followed.’” Lee v.
Kemna, 534 U.S. at 375 (quoting James v. Kentucky, 466 U.S. 341, 348 (1984)). In
other words, the rule must be “clear [and] closely hewn to” by the state for a federal
court to consider it as “adequate.” James, 466 U.S. at 346 (alteration supplied). That
does not mean, however, that the state’s procedural rule must be rigidly applied in
every instance, or that occasional failure to do so will render the rule “inadequate.”
“To the contrary, a [state’s] discretionary [procedural] rule can be ‘firmly
established’ and ‘regularly followed’ — even if the appropriate exercise of discretion
may permit consideration of a federal claim in some cases but not others.” Beard v.
Kindler, 558 U.S. 52, 60-61 (2009) (alterations supplied). Thus, the “adequacy”
requirement means only that the procedural rule “must not be applied in an arbitrary
or unprecedented fashion.” Judd, 250 F.3d at 1313 (emphasis supplied).

30

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 31 of 367

In summary, if the procedural rule is not firmly established, or if it is applied
in an arbitrary, unprecedented, or manifestly unfair fashion, it will not be considered
“adequate,” and the state court decision based upon such a rule can be reviewed by
a federal court. Card, 911 F.2d at 1517. Conversely, if the rule is deemed
“adequate,” the decision will not be reviewed by a federal habeas court.
4.

The grounds for obtaining post-conviction relief under Alabama Rule
of Criminal Procedure 32

When a criminal defendant exhausts all avenues for relief from a state-court
conviction and sentence through the direct appeal process, he or she may still seek
post-conviction relief through the collateral review process. In Alabama, that process
is controlled in the first instance by the various subsections of Alabama Rule of
Criminal Procedure 32. Rule 32.1 defines the grounds for obtaining post-conviction
relief, and it reads as follows:
Subject to the limitations of Rule 32.2, any defendant who has
been convicted of a criminal offense may institute a proceeding in the
court of original conviction to secure appropriate relief on the ground
that:
(a) The constitution of the United States or of the State of
Alabama requires a new trial, a new sentence proceeding, or other relief.
(b) The court was without jurisdiction to render judgment or to
impose sentence.
(c) The sentence imposed exceeds the maximum authorized by

31

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 32 of 367

law or is otherwise not authorized by law.
(d) The petitioner is being held in custody after the petitioner’s
sentence has expired.
(e) Newly discovered material facts exist which require that the
conviction or sentence be vacated by the court, because:
(1) The facts relied upon were not known by the petitioner
or the petitioner’s counsel at the time of trial or sentencing or in
time to file a posttrial motion pursuant to Rule 24, or in time to be
included in any previous collateral proceeding and could not have
been discovered by any of those times through the exercise of
reasonable diligence;
(2) The facts are not merely cumulative to other facts that
were known;
(3) The facts do not merely amount to impeachment
evidence;
(4) If the facts had been known at the time of trial or of
sentencing, the result probably would have been different; and
(5) The facts establish that the petitioner is innocent of the
crime for which the petitioner was convicted or should not have
received the sentence that the petitioner received.
(f) The petitioner failed to appeal within the prescribed time from
the conviction or sentence itself or from the dismissal or denial of a
petition previously filed pursuant to this rule and that failure was
without fault on the petitioner’s part.
A petition that challenges multiple judgments entered in more
than a single trial or guilty-plea proceeding shall be dismissed without
prejudice.

32

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 33 of 367

Ala. R. Crim. P. 32.1.
5.

The procedural rules relied upon by the state courts when disposing of
some of the present petitioner’s post-conviction claims for relief

As noted in the discussion of this case’s procedural history, supra, the state
circuit and appellate courts relied upon the following procedural rules as a basis for
dismissing some of the claims asserted in James’s second amended Rule 32 petition.37
a.

Alabama Rule of Criminal Procedure 32.2(a)

Alabama Rule of Criminal Procedure 32.2(a) addresses the subject of
“Preclusion of Grounds,” and it provides that a petitioner “will not” be provided postconviction relief upon any ground:
(1) Which may still be raised on direct appeal under the Alabama
Rules of Appellate Procedure or by posttrial motion under Rule 24; or
(2) Which was raised or addressed at trial; or
(3) Which could have been but was not raised at trial, unless the
ground for relief arises under Rule 32.1(b); or
(4) Which was raised or addressed on appeal or in any previous
collateral proceeding not dismissed pursuant to the last sentence of Rule
32. 1 as a petition that challenges multiple judgments, whether or not the
previous collateral proceeding was adjudicated on the merits of the
grounds raised; or
(5) Which could have been but was not raised on appeal, unless
the ground for relief arises under Rule 32.1(b).
37

See C.R. Vol. 32, Tabs 66-69, and 71-77.

33

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 34 of 367

For federal procedural default purposes, the preclusionary provisions
enumerated in Rule 32.2(a)(1)–(5) are “adequate and independent state procedural
rules” that “Alabama state courts appear fully capable of utilizing . . . to avoid review
of federal claims when they wish to do so.” Borden v. Allen, 646 F.3d 785, 814 (11th
Cir. 2011). See also, e.g., Mason v. Allen, 605 F.3d 1114, 1121 (11th Cir. 2010);
Brownlee v. Haley, 306 F.3d 1043, 1066 (11th Cir. 2002); Holladay v. Haley, 209
F.3d 1243, 1254 (11th Cir. 2000); Waldrop v. Jones, 77 F.3d 1308, 1314-15 (11th
Cir. 1996).
b.

Alabama Rule of Criminal Procedure 32.2(c)

Alabama Rule of Criminal Procedure 32.2(c) addresses the subject of
“Limitations Period[s],” and provides that:
Subject to the further provisions hereinafter set out in this section,
the court shall not entertain any petition for relief from a conviction or
sentence on the grounds specified in Rule 32.1(a) and (f), unless the
petition is filed: (1) In the case of a conviction appealed to the Court of
Criminal Appeals, within one (1) year after the issuance of the certificate
of judgment by the Court of Criminal Appeals under Rule 41,
Ala.R.App.P.; or (2) in the case of a conviction not appealed to the
Court of Criminal Appeals, within one (1) year after the time for filing
an appeal lapses; provided, however, that the time for filing a petition
under Rule 32.1(f) to seek an out-of-time appeal from the dismissal or
denial of a petition previously filed under any provision of Rule 32.1
shall be six (6) months from the date the petitioner discovers the
dismissal or denial, irrespective of the one-year deadlines specified in
the preceding subparts (1) and (2) of this sentence; and provided further
that the immediately preceding proviso shall not extend either of those

34

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 35 of 367

one-year deadlines as they may apply to the previously filed petition.
The court shall not entertain a petition based on the grounds specified
in Rule 32.1(e) unless the petition is filed within the applicable one-year
period specified in the first sentence of this section, or within six (6)
months after the discovery of the newly discovered material facts,
whichever is later; provided, however, that the one-year period during
which a petition may be brought shall in no case be deemed to have
begun to run before the effective date of the precursor of this rule, e.,
April 1, 1987.
The Eleventh Circuit has explicitly held that the limitations periods stated in
Rule 32.2(c) are “firmly established and regularly followed for purposes of applying
the procedural default doctrine.” Seibert v. Allen, 455 F.3d 1269, 1271 (11th Cir.
2006) (citing Hurth v. Mitchem, 400 F.3d 857, 862-64 (11th Cir. 2005) (holding
consistently with the earliest prior panel opinion that “Alabama’s Rule 32.2(c) statute
of limitations is firmly established and regularly followed in the courts of that state”),
and Franklin v. Hightower, 215 F.3d 1196, 1199-1201 (11th Cir. 2000) (holding that
Rule 32’s time bar is entitled to “respect” under “the independent and adequate state
ground doctrine”) (internal citation omitted)).

See also, e.g., Kuenzel v.

Commissioner, Alabama Department of Corrections, 690 F.3d 1311, 1314 (11th Cir.
2011) (same).
c.

Alabama Rule of Criminal Procedure 32.3

Alabama Rule of Criminal Procedure 32.3 addresses the shifting “Burden[s]
of Proof” that must be met by both a petitioner and the State, and it provides that:

35

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 36 of 367

The petitioner shall have the burden of pleading and proving by
a preponderance of the evidence the facts necessary to entitle the
petitioner to relief. The state shall have the burden of pleading any
ground of preclusion, but once a ground of preclusion has been pleaded,
the petitioner shall have the burden of disproving its existence by a
preponderance of the evidence. [Emphasis supplied.]
Note that the petitioner bears two burdens — “pleading and proving by a
preponderance of the evidence the facts necessary to entitle [him] to relief” —
whereas the State respondents only bear “the burden of pleading any ground of
preclusion.” Ala. R. Crim P. 32.3 (emphasis and alteration supplied). Thus, “the
ultimate burden is on the petitioner to disprove that a ground of preclusion applies.”
Ex parte Martinez, 75 So. 3d 616, 620 (Ala. 2009) (citing Ala. R. Crim. P. 32.3).
These burdens of pleading and proving entitlement to relief, or raising and
disproving affirmative defenses, are procedural rules “independent” of federal law.
Historically, these burdens have been applied as a matter of course in Alabama postconviction proceedings. See e.g., Bush v. State, 92 So. 3d 121, 135 (Ala. Crim. App.
2009); A.G. v. State, 989 So. 2d 1167, 1172-1173 (Ala. Crim. App. 2007); Butler v.
State, 942 So. 2d 389, 392 (Ala. Crim. App. 2005); Hunt v. State, 940 So. 2d 1041,
1049 (Ala. Crim. App. 2005); Ford v. State, 831 So. 2d 641, 644 (Ala. Crim. App.
2001); Payne v. State, 791 So. 2d 383, 398-99 (Ala. Crim. App. 1999); Boles v. State,
717 So.2d 877, 883 (Ala. Crim. App. 1998); Rolling v. State, 673 So. 2d 812, 816

36

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 37 of 367

(Ala. Crim. App. 1995); Whitehead v. State, 593 So.2d 126, 129 n.1 (Ala. Crim. App.
1991); Moore v. State, 502 So. 2d 819, 820-21 (Ala. 1986).
d.

Alabama Rule of Criminal Procedure 32.6(b)

Alabama Rule of Criminal Procedure 32.6(b) addresses the “Specificity”
requirements for a Rule 32 post-conviction petition, and provides that:
Each claim in the petition must contain a clear and specific
statement of the grounds upon which relief is sought, including full
disclosure of the factual basis of those grounds. A bare allegation that
a constitutional right has been violated and mere conclusions of law
shall not be sufficient to warrant any further proceedings.
A rule that requires each claim in a Rule 32 petition to “contain a clear and specific
statement of the grounds upon which relief is sought, including full disclosure of the
factual basis” of each ground, is unquestionably “independent” of federal law.
Even so, the Eleventh Circuit held in Borden v. Allen, 646 F.3d 785 (11th Cir.
2011), that a state court’s decision denying relief, or dismissing a claim, on the basis
of the petitioner’s failure to comply with Rule 32.6(b) “is also a ruling on the merits”
and, therefore, does not necessarily foreclose review in a federal habeas proceeding.
Id. at 812. That ruling was stated in the following context:
Reliance on a rule of “procedure” does not foreclose the
possibility that a court is ruling “on the merits.” The dismissal of a
claim pursuant to Federal Rule of Civil Procedure 12(b)(6), for example,
unambiguously constitutes a ruling “on the merits.” See NAACP v.
Hunt, 891 F.2d 1555, 1560 (11th Cir. 1990) (“the Supreme Court has

37

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 38 of 367

clearly stated that ‘[t]he dismissal for failure to state a claim . . . is a
“judgment on the merits.”’” (quoting Federated Dep’t Stores, Inc. v.
Moitie, 452 U.S. 394, 399 n.3, 101 S. Ct. 2424, 2428 n.3, 69 L. Ed. 2d
103 (1981))). Similarly, a federal district court’s dismissal of a claim
under Rule 4 of the § 2254 Rules or the § 2255 Rules is a judgment on
the merits of the claims stated in the petition or motion — or, stated
more accurately, a judgment that the claims presented are
nonmeritorious. See Granberry v. Greer, 481 U.S. 129, 135 n.7, 107 S.
Ct. 1671, 1675–76 n.7, 95 L. Ed. 2d 119 (1987) (“Rule 4 authorizes a
district judge summarily to dismiss a habeas petition if ‘it plainly
appears from the face of the petition and any exhibits annexed to it that
the petitioner is not entitled to relief in the district court.’ . . . [T]he
District Court’s dismissal of a nonmeritorious petition under Rule 4
pretermits consideration of the issue of nonexhaustion.”); see also
Plunkett v. Johnson, 828 F.2d 954, 956 (2d Cir. 1987) (“When ‘the
applicant does not raise even a colorable federal claim,’ [Granberry, 481
U.S. at 135, 107 S. Ct.] at 1675, that is a reason for reaching the merits
and denying the petition, for this preserves judicial resources.”
(emphasis added)).
A ruling by an Alabama court under Rule 32.6(b) is also a ruling
on the merits. Here, the Alabama Court of Criminal Appeals, in
disposing of claims in the Amended Petition under Rule 32.6(b),
necessarily considered the sufficiency of such claims, focusing in on the
factors for determining whether the petition presented a case sufficient
to warrant relief under Strickland v. Washington, 466 U.S. 668, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). In short, the Alabama Rules of
Criminal Procedure authorize summary dismissal of claims under Rule
32.7(d) for failure to fact plead with sufficient specificity as required by
Rule 32.6(b) and the form petition, much as the § 2254 Rules and the §
2255 Rules permit summary dismissal of claims under Rule 4 for failure
to fact plead under Rule 2 and the federal form petition. Because such
dismissals under the federal rules constitute rulings on the merits, we
hold that a summary dismissal of a federal claim by Alabama courts for
failure to comply with Rule 32.6(b) is similarly a ruling on the merits.
Borden v. Allen, 646 F.3d at 812-13 (alterations and redaction in original, emphasis

38

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 39 of 367

supplied).
e.

Alabama Rule of Criminal Procedure 32.7(d)

Alabama Rule of Criminal Procedure 32.7(d) addresses the subject of
“Summary Dispositions,” and provides that:
If the court determines that the petition is not sufficiently specific,
or is precluded, or fails to state a claim, or that no material issue of fact
or law exists which would entitle the petitioner to relief under this rule
and that no purpose would be served by any further proceedings, the
court may either dismiss the petition or grant leave to file an amended
petition. Leave to amend shall be freely granted. Otherwise, the court
shall direct that the proceedings continue and set a date for hearing.
Ala. R. Crim. P. 32.7(d). An Alabama trial court’s authority under this rule to either
summarily dismiss, or grant leave to amend, a Rule 32 petition has been firmly
established and regularly followed. See, e.g., Ex parte McCall, 30 So. 2d 400, 403-04
(Ala. 2008); Apicella v. State, 87 So. 3d 1155, 1160 (Ala. Crim. App. 2011); Wilson
v. State, 935 So. 2d 494, 497 (Ala. Crim. App. 2005); Miles v. State, 845 So. 2d 930,
832-33 (Ala. Crim. App. 2001); Makres v. State, 739 So. 2d 1141, 1143 (Ala. Crim.
App. 1998); Harper v. State, 676 So. 2d 949, 951 (Ala. Crim. App. 1995).
It should be noted that state procedural rules, such as Rule 32.7(d), that permit
a state court to either dismiss a post-conviction claim for a variety of reasons, or grant
leave to amend the petition, are “independent” of federal law. Even so, for federal
habeas purposes, the state court’s reliance on a particular reason to dismiss a claim

39

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 40 of 367

might translate into either a procedural default (thereby precluding review in a federal
habeas proceeding), or an adjudication on the merits (e.g., dismissal of a claim for
failure to plead specific facts, or for failure to state a claim on which relief can be
granted, or for failure to establish a material issue of fact or law that would entitle the
petitioner to relief). For example, a state court might dismiss a petitioner’s claim as
procedurally barred pursuant to Rule 32.7(d), because he failed to meet his burden
under Rule 32.3 to disprove the state’s assertion that he did not raise the claim in the
trial court or on direct appeal as required by Rule 32.2(a)(5).38 Such a ruling would
constitute an explicit state court finding of procedural default pursuant to adequate
and independent state procedural rules. Therefore, such a claim would be precluded
from federal habeas review.
Nevertheless, as stated in the discussion of the holding in Borden v. Allen,
supra, “[r]eliance on a rule of ‘procedure’ does not foreclose the possibility that a
court is ruling ‘on the merits.’” 646 F.3d at 812 (alteration supplied). For example,
if a state court dismissed a claim under Rule 32.7(d), on the grounds that the

38

Ala. R. Crim. P. 32.3 provides that: “The petitioner shall have the burden of pleading and
proving by a preponderance of the evidence the facts necessary to entitle the petitioner to relief. The
state shall have the burden of pleading any ground of preclusion, but once a ground of preclusion
has been pleaded, the petitioner shall have the burden of disproving its existence by a
preponderance of the evidence [emphasis supplied].” Ala. R. Crim. P. 32.2(a)(5), on the other hand,
provides that: “A petitioner will not be given relief under this rule based upon any ground . . . Which
could have been but was not raised on appeal, . . . [redactions supplied].”

40

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 41 of 367

petitioner either failed to state a claim upon which relief could be granted, or failed
to state a material issue of fact or law that would entitle the petitioner to relief, such
a ruling would constitute a ruling on the merits that the petitioner failed to meet his
burden under Rule 32.3 to either plead or prove by a preponderance of the evidence
those facts that would entitle him to relief. Such rulings can occur when the state
court finds that a post-conviction petitioner is not entitled to relief, even if the facts
underlying his claim are presumed to be true, or because the petitioner failed to
present the evidence supporting his claim at an evidentiary hearing. Such dismissals
are adjudications on the merits of a claim, and are, for that reason, subject to review
in federal court under 28 U.S.C. § 2254(d). Even so, when a petitioner fails to
present evidence in support of a claim at the Rule 32 hearing, the claim can be
deemed abandoned, or procedurally defaulted by the state court. See Hooks v. State,
21 So. 3d 772, 788 (Ala. Crim. App. 2008) (citing Burgess v. State, 962 So. 2d 272,
301 (Ala. Crim. App. 2005) (holding that, “when [the appellant] did not present
evidence at the evidentiary hearing with regard to [certain] claims . . . , [the state court
will] conclude that he has abandoned these claims and . . . will not review them’”) (all
but final alteration and redaction in original, emphasis supplied)).
f.

Alabama Rule of Appellate Procedure 28(a)(1)

The version of Alabama Rule of Appellate Procedure 28(a)(1) that was in effect

41

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 42 of 367

on the date of the relevant state court decisions discussed in this opinion provided
that an appellant’s brief “shall” (e., was required to) contain: “An argument
containing the contentions of the appellant/petitioner with respect to the issues
presented, and the reasons therefor, with citations to the cases, statutes, other
authorities, and parts of the record relief on.” The substance of Rule 28(a)(1) was
subsequently relocated to Alabama Rule of Appellate Procedure 28(a)(10), which is
discussed in the following subsection.
g.

Alabama Rule of Appellate Procedure 28(a)(10)

Alabama Rule of Appellate Procedure 28(a)(10) reads as follows:
(a) Brief of the Appellant/Petitioner. The brief of the appellant
or the petitioner, if a petition for a writ of certiorari is granted and the
writ issues, shall comply with the form requirements of Rule 32. In
addition, the brief of the appellant or the petitioner shall contain under
appropriate headings and in the order here indicated:
....
(10) Argument. An argument containing the contentions of the
appellant/petitioner with respect to the issues presented, and the reasons
therefor, with citations to the cases, statutes, other authorities, and parts
of the record relied on. Citations of authority shall comply with the
rules of citation in the latest edition of either The Bluebook: A Uniform
System of Citation[,] or ALWD [e.,Association of Legal Writing
Directors] Citation Manual: A Professional System of Citation[,] or
shall otherwise comply with the style and form used in opinions of the
Supreme Court of Alabama. Citations shall reference the specific page
number(s) that relate to the proposition for which the case is cited; ...

42

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 43 of 367

Ala. R. App. P. 28(a)(10) (emphasis and alterations supplied).
If a petitioner fails to comply with this rule, any issue(s) not briefed will be
deemed to have been waived. See Ex parte Borden, 60 So. 3d 940, 943 (Ala. 2007)
(“The purpose of Rule 28, Ala. R. App. P., outlining the requirements for appellate
briefs, is to conserve the time and energy of the appellate court and to advise the
opposing party of the points he or she is obligated to make.”) (citing United States v.
Levy, 391 F.3d 1327 (11th Cir. 2004) (discussing the principle that issues not briefed
are waived and Rule 28, Fed. R. App. P., which sets out the requirements for
appellate briefs in the federal courts)).
A procedural rule that requires a petitioner to file a pleading in proper form or
suffer waiver is “independent” of federal law.
Moreover, Rule 28(a)(10), as well as its predecessor Rule 28(a)(1), were firmly
established and regularly followed. See, e.g., Jimmy Day Plumbing & Heating, Inc.
v. Smith, 964 So. 2d 1, 9 (Ala. 2007); Butler v. Town of Argo, 871 So. 2d 1, 20 (Ala.
2003); Ex parte Showers, 812 So. 2d 277, 281 (Ala. 2001); Dykes v. Lane Trucking,
Inc., 652 So. 2d 248, 251 (Ala. 1994); L.K.J. v. State, 942 So. 2d 854, 869 (Ala. Crim.
App. 2005); Hamm v. State, 913 So. 2d 460, 486 (Ala. Crim. App. 2002); O’Neal v.
State, 494 So. 2d 801, 803 (Ala. Crim. App. 1986).

43

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 44 of 367

6.

Overcoming procedural default

There are basically three circumstances in which an otherwise valid state-law
procedural ground will not bar a federal habeas court from considering a
constitutional claim that was procedurally defaulted in state court: e., (i) where the
petitioner demonstrates that he had good “cause” for not following the state
procedural rule, and, that he was actually “prejudiced” by the alleged constitutional
violation; or (ii) where the state procedural rule was not “firmly established and
regularly followed”; or (iii) where failure to consider the petitioner’s claims will
result in a “fundamental miscarriage of justice.” See Edwards v. Carpenter, 529 U.S.
446, 455 (2000) (Breyer, J., concurring); see also, e.g., Coleman, 501 U.S. at 749-50
(holding that a state procedural default “will bar federal habeas review of the federal
claim, unless the habeas petitioner can show cause for the default and prejudice
attributable thereto, or demonstrate that failure to consider the federal claim will
result in a fundamental miscarriage of justice”) (citations and internal quotation
marks omitted); Murray v. Carrier, 477 U.S. 478, 496 (1986) (“[W]here a
constitutional violation has probably resulted in the conviction of one who is actually
innocent, a federal habeas court may grant the writ even in the absence of a showing
of cause for the procedural default.”) (alteration supplied); Smith v. Murray, 477 U.S.
527, 537 (1986) (same); Davis v. Terry, 465 F.3d 1249, 1252 n.4 (11th Cir. 2006) (“It

44

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 45 of 367

would be considered a fundamental miscarriage of justice if ‘a constitutional violation
has probably resulted in the conviction of one who is actually innocent.’”) (quoting
Schlup v. Delo, 513 U.S. 298, 327 (1995) (in turn quoting Murray, 477 U.S. at 496)).
a.

The “cause and prejudice” standard

“A federal court may still address the merits of a procedurally defaulted claim
if the petitioner can show cause for the default and actual prejudice resulting from
the alleged constitutional violation.” Ward v. Hall, 592 F.3d 1144, 1157 (11th Cir.
2010) (citing Wainwright v. Sykes, 433 U.S. 72, 84-85 (1977)) (emphasis supplied).
This so-called “cause and prejudice” standard is clearly framed in the conjunctive;
therefore, a petitioner must prove both parts.
i.

“Cause for the default”

To show “cause for the default,” a petitioner must prove that “some objective
factor external to the defense impeded counsel’s efforts” to raise the claim in the state
courts, either during trial or on direct appeal from the conviction and sentence.
Carrier, 477 U.S. at 488; see also Amadeo v. Zant, 486 U.S. 214, 221-22 (1988).
Objective factors that constitute cause include “‘interference by
officials’” that makes compliance with the State’s procedural rule
impracticable, and “a showing that the factual or legal basis for a claim
was not reasonably available to counsel.” In addition, constitutionally
“[i]neffective assistance of counsel . . . [on direct review] is cause.”
Attorney error short of ineffective assistance of counsel [on direct
review], however, does not constitute cause and will not excuse a

45

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 46 of 367

procedural default.
McCleskey v. Zant, 499 U.S. 467, 493-94 (1991) (citations omitted) (first alteration
in original, all other alterations supplied).
While the errors of trial or appellate attorneys that rise to the level of
constitutional “ineffective assistance of counsel” have long been accepted as “cause”
to overcome a procedural default, the ineffectiveness of post-conviction counsel on
collateral review generally will not support a finding of cause and prejudice to
overcome a procedural default. See Coleman v. Thompson, 501 U.S. 722, 754 (1991).
That is because “[t]here is no right to counsel in state post-conviction proceedings.”
Id. at 752 (alteration supplied) (citing Pennsylvania v. Finley, 481 U.S. 551 (1987);
Murray v. Giarratano, 492 U.S. 1 (1989)).
Even so, in two recent landmark cases, the Supreme Court extended its prior
decision in Coleman when it decided that, as a matter of equity, and, under specific,
limited circumstances, errors by attorneys who represent a petitioner in postconviction, collateral review proceedings could establish the necessary “cause” to
overcome a procedurally defaulted claim. In the first such case, Maples v. Thomas,
— U.S. —, 132 S. Ct. 912 (2012), the Supreme Court found that post-conviction
counsel’s gross professional misconduct (e.g. abandonment of the petitioner) severed
the agency relationship between counsel and the petitioner and, thus, established the

46

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 47 of 367

necessary “cause” to overcome a procedural default. Id. at 922.
In the second case, Martinez v. Ryan, — U.S. —, 132 S. Ct. 1309 (2012), the
Supreme Court held that post-conviction counsel’s failure to raise an ineffective
assistance of trial counsel claim at an initial review collateral proceeding could serve
as the necessary “cause” to overcome the procedural default of that type of claim
when the state prohibits it from being raised during the direct review process. Id. at
1317.39
ii.

“Prejudice”

In addition to proving the existence of “cause” for a procedural default, a
habeas petitioner must show that he was actually “prejudiced” by the alleged
constitutional violation. He must show “not merely that the errors at his trial created
a possibility of prejudice, but that they worked to his actual and substantial
disadvantage, infecting his entire trial with error of constitutional dimensions.”
United States v. Frady, 456 U.S. 152, 170 (1982) (emphasis supplied); see also
McCoy v. Newsome, 953 F.2d 1252, 1261 (11th Cir. 1992) (per curiam).
39

This court finds that an ineffective assistance of trial counsel claim must have been
procedurally defaulted in the state Rule 32 circuit court before the Martinez cause and prejudice
standard can be applied. Moreover, the court is aware that the attorneys who represented James in
state post-conviction proceedings, Wesley A. Van Winkle and Ty Alper, also represent him in the
present habeas case. If there is a claim of ineffective assistance of trial counsel that was procedurally
defaulted before the Rule 32 circuit court, and further examination shows that resolution of the claim
will necessarily create a conflict of interest as to habeas counsels’ further representation, the court
will separately address that matter.

47

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 48 of 367

If the “cause” is of the type described in the Supreme Court’s 2012 decision in
Martinez v. Ryan, supra — i.e., the failure of petitioner’s post-conviction counsel to
raise at an initial review collateral review proceeding an ineffective assistance of trial
counsel claim that could not have been raised on direct appeal — then the reviewing
court should consider whether the petitioner can demonstrate “that the underlying
ineffective-assistance-of-trial-counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some merit.” Martinez, 132 S. Ct.
at 1318-19 (citing for comparison Miller-El v. Cockrell, 537 U.S. 322 (2003)
(describing standards for certificates of appealability to issue)).
b.

The “fundamental miscarriage of justice” standard

In a “rare,” “extraordinary,” and “narrow class of cases,” a federal court may
consider a procedurally defaulted claim in the absence of a showing of “cause” for
the default if either: (a) a fundamental miscarriage of justice “has probably resulted
in the conviction of one who is actually innocent,” Smith v. Murray, 477 U.S. 527,
537-38 (1986) (quoting Carrier, 477 U.S. at 496); or (b) the petitioner shows “by
clear and convincing evidence that[,] but for a constitutional error, no reasonable
juror would have found the petitioner eligible for the death penalty.” Schlup, 513
U.S. at 323-27 & n.44 (quoting Sawyer v. Whitley, 505 U.S. 333, 336 (1992))
(emphasis in Schlup, alteration supplied); see also, e.g., Smith, 477 U.S. at 537-38.

48

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 49 of 367

C.

The Statutory Overlay: The Effect of “the Antiterrorism and Effective Death
Penalty Act of 1996 ” on Habeas Review
The ancient writ of habeas corpus “has historically been regarded as an

extraordinary remedy.” Brecht v. Abrahamson, 507 U.S. 619, 633 (1993). That
policy presumption is especially strong when federal courts are asked to engage in
habeas review of a state court conviction and sentence pursuant to 28 U.S.C. § 2254.
Direct review is the principal avenue for challenging a conviction.
“When the process of direct review . . . comes to an end, a presumption
of finality and legality attaches to the conviction and sentence. The role
of federal habeas proceedings, while important in assuring that
constitutional rights are observed, is secondary and limited. Federal
courts are not forums in which to relitigate state trials.”
Id. (emphasis and redaction supplied) (quoting Barefoot v. Estelle, 463 U.S. 880, 887
(1983)). “Those few who are ultimately successful [in obtaining federal habeas
relief] are persons whom society has grievously wronged and for whom belated
liberation is little enough compensation.” Fay v. Noia, 372 U.S. 391, 440-41 (1963)
(alteration supplied).
“Accordingly, . . . an error that may justify reversal on direct appeal will not
necessarily support a collateral attack on a final judgment.” Brecht, 507 U.S. at 634
(citations, quotation marks, and footnote omitted). That is due to the fact that, under
the federal system of governments created by the United States Constitution,
[t]he States possess primary authority for defining and enforcing the

49

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 50 of 367

criminal law. In criminal trials they also hold the initial responsibility
for vindicating constitutional rights. Federal intrusions into state
criminal trials frustrate both the States’ sovereign power to punish
offenders and their good-faith attempts to honor constitutional rights.
Engle v. Isaac, 456 U.S. 107, 128 (1982) (alteration supplied).40
The foregoing principles were reinforced by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), which amended preexisting habeas law.41
Among other things, AEDPA requires federal courts to give greater deference to state
court determinations of federal constitutional claims than before.
1.

28 U.S.C. § 2254(e)(1)

Section 2254(e)(1) requires district courts to presume that a state court’s factual
determination of a factual issue is correct, unless the habeas petitioner rebuts the
presumption of correctness with “clear and convincing evidence”:

40

According to the Supreme Court, “[t]he reason most frequently advanced in our cases for
distinguishing between direct and collateral review is the State’s interest in the finality of convictions
that have survived direct review within the state court system.” Brecht, 507 U.S. at 635 (citing
Wright v. West, 505 U.S. 277, 293 (1992); McCleskey, 499 U.S. at 491; and Wainwright, 433 U.S.
at 90) (alteration supplied).
41

The Antiterrorism and Effective Death Penalty Act (“AEDPA”) was signed into law by
President Clinton on April 24, 1996. See Pub. L. No. 104-132, 110 Stat. 1214 (1996). The present
petition was filed after that date. Accordingly, the habeas statutes as amended by AEDPA apply to
the claims asserted in this case. See id. § 107(c), 110 Stat. at 1226; McNair v. Campbell, 416 F.3d
1291, 1297 (11th Cir. 2005) (applying AEDPA to habeas petitions filed after Act’s effective date);
Hightower v. Schofield, 365 F.3d 1008, 1013 (11th Cir. 2004) (same). See also Martin v. Hadix, 527
U.S. 343, 356 (1999) (discussing retroactivity of AEDPA amendments to § 2254). Cf. Lindh v.
Murphy, 521 U.S. 320, 327 (1997) (holding that AEDPA’s amendments do not apply to habeas
petitions filed prior to the Act’s effective date); Johnson v. Alabama, 256 F.3d 1156, 1169 (11th Cir.
2001) (same); Thompson v. Haley, 255 F.3d 1292, 1295 (11th Cir. 2001) (same).

50

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 51 of 367

(e)(1) In a proceeding instituted by an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court, a determination of a factual issue made by a State court shall be
presumed to be correct. The applicant shall have the burden of rebutting
the presumption of correctness by clear and convincing evidence.
28 U.S.C. § 2254(e)(1); see also, e.g., Fugate v. Head, 261 F.3d 1206, 1215 (11th Cir.
2001) (observing that § 2254(e)(1) provides “a highly deferential standard of review
for factual determinations made by a state court”).
Section 2254(e)(1) “modified a federal habeas court’s role in reviewing state
prisoner applications in order to prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent possible under law.” Bell v.
Cone, 535 U.S. 685, 693 (2002) (citing Williams v. Taylor, 529 U.S. 362, 403-04
(2000)).
The deference that attends state court findings of fact pursuant to Section
2254(e)(1) applies to all habeas claims, regardless of their procedural stance. Thus,
a presumption of correctness must be afforded to a state court’s factual findings, even
when the habeas claim is being examined de novo. See Mansfield v. Secretary,
Department of Corrections, 679 F.3d 1301, 1313 (11th Cir. 2012) (acknowledging
the federal court’s obligation to accept a state court’s factual findings as correct, if
unrebutted by clear and convincing evidence, and proceeding to conduct a de novo
review of the habeas claim).

51

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 52 of 367

The presumption of correctness also applies to habeas claims that were
adjudicated on the merits by the state court and, therefore, are claims subject to the
standards of review set out in 28 U.S.C. § 2254(d)(1) or (d)(2), discussed in the
following subsection.
2.

28 U.S.C. § 2254(d)

“By its terms § 2254(d) bars relitigation of any claim ‘adjudicated on the
merits’ in state court, subject only to the exceptions in §§ 2254(d)(1) and (d)(2).”
Harrington v. Richter, 562 U.S. 86, —, 131 S. Ct. 770, 784 (2011).
(d) An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits in
State court proceedings unless the adjudication of the claim [either] —
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d) (emphasis and alteration supplied). It does not matter whether
the state court decision contains a lengthy analysis of the claim, or is a summary
ruling “unaccompanied by explanation.” Id.
Further, the “backward-looking language” of the statute requires an

52

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 53 of 367

examination of the state-court decision on the date it was made. Cullen v. Pinholster,
— U.S. —, 131 S. Ct. 1388, 1398 (2011). That is, “[s]tate court decisions are
measured against [the Supreme] Court’s precedents as of ‘the time the state court
renders its decision.’” Id. at 1399 (alterations supplied) (quoting Lockyer v. Andrade,
588 U.S. 63, 71-72 (2003)).42
Finally, review under either subsection (1) or (2) of § 2254(d) “is limited to the
record that was before the state court that adjudicated the claim on the merits.” Id.
at 1398, 1400 n.7. Therefore, a federal habeas court conducting 2254(d) review
should not consider new evidence “in the first instance effectively de novo.” Id. at
1399.
The “contrary to” and “unreasonable application” clauses of § 2254(d) have
been interpreted as “independent statutory modes of analysis.” Alderman v. Terry,
468 F.3d 775, 791 (11th Cir. 2006) (citing Williams, 529 U.S. at 405-07).43 When
42

Section 2254(d)(1)’s reference to “clearly established federal law, as determined by the
Supreme Court of the United States[,]” has been interpreted as referencing only “the holdings, as
opposed to the dicta, of [the Supreme Court’s] decisions as of the time of the relevant state-court
decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000) (O’Connor, J., majority opinion) (emphasis
and alterations supplied); see also, e.g., Carey v. Musladin, 549 U.S. 70, 74 (2006) (same); Osborne
v. Terry, 466 F.3d 1298, 1305 (11th Cir. 2006) (same); Warren v. Kyler, 422 F.3d 132, 138 (3rd Cir.
2005) (“[W]e do not consider those holdings as they exist today, but rather as they existed as of the
time of the relevant state-court decision.”) (internal quotation marks and citation omitted) (alteration
supplied).
43

See also Williams, 529 U.S. at 404 (O’Connor, J., majority opinion) (“Section 2254(d)(1)
defines two categories of cases in which a state prisoner may obtain federal habeas relief with
respect to a claim adjudicated on the merits in state court. Under the statute, a federal court may
grant a writ of habeas corpus if the relevant state-court decision was either (1) ‘contrary to . . .

53

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 54 of 367

considering a state court’s adjudication of a petitioner’s claim, therefore, the habeas
court must not conflate the two modes of analysis.
a.

The meaning of § 2254(d)(1)’s “contrary to” clause

A state-court determination can be “contrary to” clearly established Supreme
Court precedent in at least two ways:
First, a state-court decision is contrary to this Court’s precedent if the
state court arrives at a conclusion opposite to that reached by this Court
on a question of law. Second, a state-court decision is also contrary to
this Court’s precedent if the state court confronts facts that are
materially indistinguishable from a relevant Supreme Court precedent
and arrives at a result opposite to ours.
Williams v. Taylor, 529 U.S. 362, 405 (2000) (emphasis supplied). See also, e.g.,
Brown v. Payton, 544 U.S. 133, 141 (2005) (same); Early v. Packer, 537 U.S. 3, 8
(2002) (per curiam) (same); Putman v. Head, 268 F.3d 1223, 1240-41 (11th Cir.
2001) (same).
The Eleventh Circuit has observed that the majority opinion in Williams does
not limit the construction of § 2254(d)(1)’s “contrary to” clause to the two examples
set forth above.44 Instead, the statutory language “simply implies that ‘the state
clearly established Federal law, as determined by the Supreme Court of the United States,’ or (2)
‘involved an unreasonable application of . . . clearly established Federal law, as determined by the
Supreme Court of the United States.’”) (emphasis supplied).
44

Indeed, as one commentator has observed, the possible permutations are not just two, but
at least four in number:
The word “contrary” denotes incompatibility or logical inconsistency. Two

54

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 55 of 367

court’s decision must be substantially different from the relevant precedent of [the
Supreme] Court.’” Alderman, 468 F.3d at 791 (quoting Williams, 529 U.S. at 405)
(alteration supplied).
b.

The meaning of § 2254(d)(1)’s “unreasonable application”
clause

A state court’s determination of a federal constitutional claim can result in an
“unreasonable application” of clearly established Supreme Court precedent in either
of two ways:
First, a state-court decision involves an unreasonable application of this
Court’s precedent if the state court identifies the correct governing legal
rule from this Court’s cases but unreasonably applies it to the facts of
the particular state prisoner’s case. Second, a state-court decision also
involves an unreasonable application of this Court’s precedent if the
state court either unreasonably extends a legal principle from our
propositions are incompatible with one another if both cannot be true or correct.
Thus, a state court decision is contrary to federal law if that decision and the
applicable federal law cannot both be true or correct. Given this premise, there
appears to be four possible combinations of state court adjudications and resulting
decisions that are pertinent to this textual inquiry:
•

the state court applies the correct federal standard and arrives at a correct
outcome;

•

the state court applies an incorrect federal standard and arrives at an incorrect
outcome;

•

the state court applies an incorrect federal standard and arrives at a correct
outcome; and,

•

the state court applies the correct federal standard and arrives at an incorrect
outcome.

Allan Ides, Habeas Standards of Review Under 28 U.S.C. § 2254(d)(1): A Commentary on Statutory
Text and Supreme Court Precedent, 60 WASH. & LEE L. REV. 677, 685 (2003) (footnotes omitted).

55

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 56 of 367

precedent to a new context where it should not apply or unreasonably
refuses to extend that principle to a new context where it should apply.
Williams, 529 U.S. at 407 (emphasis supplied). See also, e.g., Putman, 268 F.3d at
1240-41 (same).
It is important to notice that “an unreasonable application of federal law is
different from an incorrect application.” Williams, 529 U.S. at 410 (emphasis in
original). A federal habeas court “may not issue the writ simply because that court
concludes in its independent judgment that the relevant state-court decision applied
clearly established federal law erroneously or incorrectly. Rather, that application
must also be unreasonable.” Id. at 411 (emphasis supplied).
In other words, the question that should be asked is not whether the state court
“correctly” applied Supreme Court precedent when deciding the federal constitutional
issue, but whether the state court’s determination was “unreasonable.” Id. at 409
(“[A] federal habeas court making the ‘unreasonable application’ inquiry should ask
whether the state court’s application of clearly established federal law was objectively
unreasonable.”) (alteration supplied). See also, e.g., Bell, 535 U.S. at 694 (observing
that the “focus” of the inquiry into the reasonableness of a state court’s determination
of a federal constitutional issue “is on whether the state court’s application of clearly
established federal law is objectively unreasonable,” and stating that “an
unreasonable application is different from an incorrect one”); Harrington v. Richter,
56

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 57 of 367

— U.S. —, 131 S. Ct. 770, 785-87 (2011) (same).45
In order to demonstrate that a state court’s application of clearly established
federal law was “objectively unreasonable,” the habeas petitioner “must show that
the state court’s ruling on the claim being presented in federal court was so lacking
in justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Id. at 786-87 (emphasis
supplied). Stated another way, if the state-court’s resolution of a claim is debatable
among fairminded jurists, it is not “objectively unreasonable.”
“By its very language, [the phrase] ‘unreasonable application’ refers to mixed
questions of law and fact, when a state court has ‘unreasonably’ applied clear
Supreme Court precedent to the facts of a given case.” Neelley v. Nagle, 138 F.3d
917, 924 (11th Cir. 1998) (citation and footnote omitted) (alteration supplied). Mixed
questions of constitutional law and fact are those decisions “which require the
application of a legal standard to the historical-fact determinations.” Townsend v.

45

The Eleventh Circuit has observed that § 2254(d)(1)’s “unreasonable application”
provision is the proper statutory lens for viewing the “run-of-the-mill state-court decision applying
the correct legal rule.” Alderman v. Terry, 468 F.3d 775, 791 (11th Cir. 2006).
In other words, if the state court identified the correct legal principle but
unreasonably applied it to the facts of a petitioner’s case, then the federal court
should look to § 2254(d)(1)’s “unreasonable application” clause for guidance. “A
federal habeas court making the ‘unreasonable application’ inquiry should ask
whether the state court’s application of clearly established federal law was objectively
unreasonable.”
Id. (quoting Williams, 529 U.S. at 409) (emphasis in original).

57

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 58 of 367

Sain, 372 U.S. 293, 309 n.6 (1963).
c.

The meaning of § 2254(d)(2)’s clause addressing an
“unreasonable determination of the facts in light of the evidence
presented in the state court proceeding”

“28 U.S.C. § 2254(d)(2) imposes a ‘daunting standard — one that will be
satisfied in relatively few cases.’” Cash v. Maxwell, — U.S. —, 132 S. Ct. 611, 612
(2012) (quoting Maxwell v. Roe, 628 F.3d 486, 500 (9th Cir. 2010) (internal quotation
marks omitted in original)).
As we have observed in related contexts, “[t]he term
‘unreasonable’ is no doubt difficult to define.” Williams v. Taylor, 529
U.S. 362, 410, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000). It suffices to
say, however, that a state-court factual determination is not unreasonable
merely because the federal habeas court would have reached a different
conclusion in the first instance. Cf. id., at 411, 120 S. Ct. 1495.
Wood v. Allen, 558 U.S. 290, 301 (2010) (alteration in original). Therefore, “even if
‘[r]easonable minds reviewing the record might disagree’ about the finding in
question, ‘on habeas review that does not suffice to supersede the trial court’s . . .
determination.” Id. (quoting Rice v. Collins, 546 U.S. 333, 341-42 (2006)) (alteration
in original). Conversely,
when a state court’s adjudication of a habeas claim result[s] in a
decision that [i]s based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding, this Court
is not bound to defer to unreasonably-found facts or to the legal
conclusions that flow from them.
Adkins v. Warden, Holman Correctional Facility, 710 F.3d 1241, 1249 -1250 (11th
58

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 59 of 367

Cir. 2013) (quoting Jones v. Walker, 540 F.3d 1277, 1288 n.5 (11th Cir. 2008) (en
banc) (alterations in original) (quotation marks and citations omitted in original)).
d.

Evaluating state court factual determinations under 28 U.S.C. §§
2254(d)(2) and (e)(1)

As set out in the previous parts of this opinion, 28 U.S.C. § 2254(d)(2)
regulates federal court review of state court findings of fact. That provision limits the
availability of federal habeas relief on any claims by a state prisoner that are
grounded in a state court’s factual findings, unless the state court’s findings were
“based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2).
Moreover, it must be remembered that 28 U.S.C. § 2254(e)(1) provides that
factual determinations made by a state court are “presumed to be correct,” and that
the habeas petitioner bears “the burden of rebutting the presumption of correctness
by clear and convincing evidence.” See 28 U.S.C. § 2254(e)(1) (emphasis supplied);
Ward, 592 F.3d at 1155 (holding that the presumption of correctness attending a state
court’s findings of fact can be overcome only by clear and convincing evidence).
Nevertheless, there is Eleventh Circuit case authority observing that the manner
in which subsections 2254(d)(2) and(e)(1) relate to one another remains an open
question. See Cave v. Secretary for Department of Corrections, 638 F.3d 739, 746
(11th Cir. 2011) (“‘[N]o court has fully explored the interaction of § 2254(d)(2)’s
59

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 60 of 367

‘unreasonableness’ standard and § 2254(e)(1)’s ‘clear and convincing evidence’
standard.”) (quoting Gore v. Secretary for Department of Corrections, 492 F.3d 1273,
1294 n.51 (11th Cir. 2007)) (alteration supplied).
Even so, the Eleventh Circuit’s earlier opinion in Ward v. Hall, 592 F.3d 1144
(2010), clearly held that federal habeas courts “must presume the state court’s factual
findings to be correct unless the petitioner rebuts that presumption by clear and
convincing evidence.” Id. at 1177 (citing § 2254(e)(1); Parker v. Head, 244 F.3d 831,
835-36 (11th Cir. 2001)) (emphasis supplied). That same opinion also observed that
“28 U.S.C. § 2254(e)(1) commands that for a writ to issue because the state court
made an ‘unreasonable determination of the facts,’ the petitioner must rebut ‘the
presumption of correctness [of a state court’s factual findings] by clear and
convincing evidence.’” Ward, 592 F.3d at 1155 (alteration in original).
D.

The Burden of Proof and Heightened Pleading Requirements for Habeas
Petitions
Two fundamental propositions govern habeas review of state court convictions

by federal courts. First, habeas relief “exists only to review errors of constitutional
dimension.” McFarland v. Scott, 512 U.S. 849, 856 (1994); see also 28 U.S.C. §
2254(a).46 Second, when the direct appeal process “comes to an end, a presumption
46

The statute cited in text provides that: “The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a)
(emphasis supplied). It follows that claims pertaining solely to questions of state law fall outside the

60

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 61 of 367

of finality and legality attaches to the conviction and sentence.” Barefoot v. Estill,
463 U.S. 880, 887 (1983).
Two consequences flow from those propositions.

For one, the habeas

petitioner bears the burden of overcoming the presumption of “legality” that attaches
to the state court conviction and sentence, and of establishing a factual basis
demonstrating that federal post-conviction relief should be granted. See, e.g., 28
U.S.C. §§ 2254(d) and (e)(1);47 Hill v. Linahan, 697 F.2d 1032, 1036 (11th Cir. 1983)
(“The burden of proof in a habeas proceeding is always on the petitioner.”) (citing
Henson v. Estelle, 641 F.2d 250, 253 (5th Cir. 1981)).
For another, the habeas petitioner must meet “heightened pleading
requirements.” McFarland v. Scott, 512 U.S. 849, 856 (1994) (citations omitted);
Borden v Allen, 646 F.3d 785, 810 (11th Cir. 2011) (Section 2254 requires “fact
pleading,” and not merely “notice pleading”). The mere assertion of a ground for
relief, without concomitant allegation of sufficient factual detail, does not satisfy
parameters of this court’s authority to provide relief under § 2254.
47

As discussed in Part IV.C of this opinion, supra, Section 2254(d) provides that the state
courts’ adjudication of a habeas petitioner’s claims can be overturned only if the petitioner carries
the burden of demonstrating that a particular determination either (1) “resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established Federal law,” or (2) that
the ruling “resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” Further, § 2254(e)(1) provides that:
In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.

61

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 62 of 367

either the petitioner’s burden of proof under 28 U.S.C. § 2254(e)(1), or the
requirements of Rule 2(c) of the Rules Governing Section 2254 Cases in the United
States District Courts, which states that a state prisoner must “specify all the grounds
for relief available to the petitioner,” and then “state the facts supporting each
ground.” 28 U.S.C. § 2254 app. Rule 2(c), Rules Governing Section 2254 Cases in
the United States District Courts (emphasis supplied).48 See also 28 U.S.C. § 2242
(stating that an application for writ of habeas corpus “shall allege the facts
concerning the applicant’s commitment or detention”) (emphasis supplied).
In short, a habeas petitioner must include in his statement of each claim
sufficient supporting facts to justify a decision in favor of the petitioner, if the alleged
facts are proven to be true. See, e.g., Blackledge v. Allison, 431 U.S. 63, 75 n.7
(1977) (observing that a habeas petition must “state facts that point to a ‘real
possibility of constitutional error’”) (quoting Advisory Committee Notes to Rule 4
of the Rules Governing Section 2254 Cases in the United States District Courts). Cf.
Diaz v. United States, 930 F.2d 832, 835 (11th Cir. 1991) (holding in a case premised
upon 28 U.S.C. § 2255 that, despite the liberal construction due a pro se petitioner’s
allegations, dismissal was appropriate because the movant did not allege “facts that,
if proven, would entitle him to relief”).49
48

Accord Rule 2(b) of the Rules Governing Section 2255 Proceedings for the United States
District Courts.
49

Cf. Hill v. Lockart, 474 U.S. 52, 60 (1986) (“Petitioner did not allege in his habeas petition

62

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 63 of 367

In addition, “[c]itation of the controlling constitutional, statutory, or other bases
for relief for each claim also should be stated.” 1 Randy Hertz & James S. Liebman,
Federal Habeas Corpus Practice and Procedure § 11.6, at 654 (5th ed. 2005)
(alteration supplied). As another district judge has stated:
It is not the duty of federal courts to try to second guess the meanings of
statements and intentions of petitioners. Rather the duty is upon the
individual who asserts a denial of his constitutional rights to come forth
with a statement of sufficient clarity and sufficient supporting facts to
enable a court to understand his argument and to render a decision on
the matter.
Nail v. Slayton, 353 F. Supp. 1013, 1019 (W.D. Va. 1972).
E.

An Introduction to Ineffective Assistance of Counsel Claims
An introduction to ineffective assistance of counsel claims is included here

because of the relationship between such claims — which are governed by a highly
deferential standard of constitutional law — and 28 U.S.C. § 2254(d), which is itself
an extremely deferential standard of habeas review. A general discussion also
provides a central reference point, because James has divided his allegations that trial
counsel provided ineffective assistance into three separate habeas claims.
Ineffective assistance of counsel claims are specifically limited to the
performance of attorneys who represented a state prisoner at trial, or on direct appeal
that, had counsel correctly informed him about his parole eligibility date, he would have pleaded not
guilty and insisted on going to trial. He alleged no special circumstances that might support the
conclusion that he placed particular emphasis on his parole eligibility in deciding whether or not
to plead guilty.”) (emphasis supplied).

63

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 64 of 367

from the conviction. See 28 U.S.C. § 2254(i) (“The ineffectiveness or incompetence
of counsel during Federal or State collateral post-conviction proceedings shall not be
a ground for relief in a proceeding arising under section 2254.”). See also Coleman
v. Thompson, 501 U.S. 722, 752 (1991) (“There is no constitutional right to an
attorney in state post-conviction proceedings. Consequently, a petitioner cannot
claim constitutionally ineffective assistance of counsel in such proceedings.”)
(citations omitted).
The Supreme Court’s “benchmark” standard for judging any claim that a trial
or appellate attorney provided representational assistance to a state prisoner that was
so professionally incompetent as to create issues of federal constitutional proportions
is the question of “whether counsel’s conduct so undermined the proper functioning
of the adversarial process that the trial cannot be relied upon as having produced a
just result.” Strickland v. Washington, 466 U.S. 668, 686 (1984). If an objective
answer to that question is “yes,” then counsel was constitutionally ineffective. Even
so, Strickland requires that the issue be approached in two steps: i.e.,
A convicted defendant’s claim that counsel’s assistance was so
defective as to require reversal of a conviction or death sentence has two
components. First, the defendant must show that counsel’s performance
was deficient. This requires showing that counsel made errors so
serious that counsel was not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Second, the defendant must show
that the deficient performance prejudiced the defense. This requires
showing that counsel’s errors were so serious as to deprive the
64

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 65 of 367

defendant of a fair trial, a trial whose result is reliable. Unless a
defendant makes both showings, it cannot be said that the conviction or
death sentence resulted from a breakdown in the adversary process that
renders the result unreliable.
Id. at 687 (emphasis supplied); see also, e.g., Williams, 529 U.S. at 390 (same);
Grayson v. Thompson, 257 F.3d 1194, 1215 (11th Cir. 2001) (same).
Both parts of the Strickland standard must be satisfied: that is, a habeas
petitioner bears the burden of proving, by “a preponderance of competent evidence,”
that the performance of his trial or appellate attorney was deficient, and, that such
deficient performance prejudiced his defense. Chandler v. United States, 218 F.3d
1305, 1313 (11th Cir. 2000) (en banc). Thus, a federal court is not required to
address both parts of the Strickland standard when the habeas petitioner makes an
insufficient showing on one of the prongs. See, e.g., Holladay v. Haley, 209 F.3d
1243, 1248 (11th Cir. 2000) (“Because both parts of the test must be satisfied in order
to show a violation of the Sixth Amendment, the court need not address the
performance prong if the defendant cannot meet the prejudice prong, or vice versa.”)
(citation to Strickland omitted).
1.

The performance prong

“The burden of persuasion is on the petitioner to prove by a preponderance of
the evidence that counsel’s performance was unreasonable.” Stewart v. Secretary,
Department of Corrections, 476 F.3d 1193, 1209 (11th Cir. 2007) (citing Chandler,
65

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 66 of 367

218 F.3d at 1313). To satisfy the performance prong of the Strickland test, a
defendant must prove that counsel made errors so serious that he or she was not
functioning as the counsel guaranteed by the Sixth Amendment. Strickland, 466 U.S.
at 687. The standard for gauging attorney performance is “reasonableness under
prevailing professional norms.” Id. at 688; see also, e.g., Williams, 529 U.S. at 39091 (same); Darden v. Wainwright, 477 U.S. 168, 184 (1986) (same); Chandler, 218
F.3d at 1313 (same). “The test of reasonableness is not whether counsel could have
done something more or different,” but whether counsel’s performance “fell within
the broad range of reasonable assistance at trial.” Stewart, 476 F.3d at 1209 (citing
Chandler, 218 F.3d at 1313). Furthermore, courts must “recognize that ‘omissions
are inevitable, but, the issue is not what is possible or ‘what is prudent or appropriate,
but only what is constitutionally compelled.’” Id. (quoting Burger v. Kemp, 483 U.S.
776, 794 (1987)). The Sixth Amendment does not guarantee a defendant the very
best counsel or the most skilled attorney, but only an attorney who performed
reasonably well within the broad range of professional norms. “The test has nothing
to do with what the best lawyers would have done. Nor is the test even what most
good lawyers would have done. We ask only whether some reasonable lawyer at the
trial could have acted, in the circumstances, as defense counsel acted at trial.” White
v. Singletary, 972 F.2d 1218, 1220 (11th Cir. 1992).
66

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 67 of 367

The reasonableness of counsel’s performance is judged from the perspective
of the attorney at the time of the alleged error, and in light of all the circumstances.
See, e.g., Johnson v. Alabama, 256 F.3d 1156, 1176 (11th Cir. 2001) (giving lawyers
“the benefit of the doubt for ‘heat of the battle’ tactical decisions”); Mills v.
Singletary, 161 F.3d 1273, 1285-86 (11th Cir. 1998) (noting that Strickland
performance review is a “deferential review of all of the circumstances from the
perspective of counsel at the time of the alleged errors”).
Under this standard, there are no “absolute rules” dictating what
reasonable performance is or what line of defense must be asserted.
[Chandler, 218 F.3d] at 1317. Indeed, as we have recognized,
“[a]bsolute rules would interfere with counsel’s independence — which
is also constitutionally protected — and would restrict the wide latitude
counsel have in making tactical decisions.” Putman v. Head, 268 F.3d
1223, 1244 (11th Cir. 2001).
Michael v. Crosby, 430 F.3d 1310, 1320 (11th Cir. 2005) (first alteration supplied,
second alteration in original). Judicial scrutiny of counsel’s performance must be
“highly deferential,” because representation is an art, and an act or omission that is
unprofessional in one case may be sound or even brilliant in another. See Strickland,
466 U.S. at 697. Indeed, reviewing courts are instructed that they “must indulge a
strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance.” Id. at 689.
It is all too tempting for a defendant to second-guess counsel’s
assistance after conviction or adverse sentence, and it is all too easy for
67

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 68 of 367

a court, examining counsel’s defense after it has proved unsuccessful,
to conclude that a particular act or omission of counsel was
unreasonable. A fair assessment of attorney performance requires that
every effort be made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the time. Because of
the difficulties inherent in making the evaluation, a court must indulge
a strong presumption that counsel’s conduct falls within the wide range
of reasonable professional assistance; that is, the defendant must
overcome the presumption that, under the circumstances, the challenged
action might be considered sound trial strategy. There are countless
ways to provide effective assistance in any given case. Even the best
criminal defense attorneys would not defend a particular client in the
same way.
Strickland, 466 U.S. at 689 (emphasis supplied) (citations and internal quotation
marks omitted); see also, e.g., Rogers v. Zant, 13 F.3d 384, 386 (11th Cir. 1994)
(“When reviewing whether an attorney is ineffective, courts should always presume
strongly that counsel’s performance was reasonable and adequate.”) (internal
quotation marks omitted).
“Based on this strong presumption of competent assistance, the petitioner’s
burden of persuasion is a heavy one: ‘petitioner must establish that no competent
counsel would have taken the action that his counsel did take.’” Stewart, 476 F.3d
at 1209 (quoting Chandler, 218 F.3d at 1315) (emphasis supplied). “Even if many
reasonable lawyers would not have done as defense counsel did at trial, no relief can
be granted on ineffectiveness grounds unless it is shown that no reasonable lawyer,
in the circumstances, would have done so.” Rogers, 13 F.3d at 386 (emphasis
68

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 69 of 367

supplied).
2.

The prejudice prong

“A petitioner’s burden of establishing that his lawyer’s deficient performance
prejudiced his case is also high.” Van Poyck v. Florida Department of Corrections,
290 F.3d 1318, 1322 (11th Cir. 2002). See also, e.g., Gilreath v. Head, 234 F.3d 547,
551 (11th Cir. 2000) (holding that a habeas petitioner “must affirmatively prove
prejudice, because ‘[a]ttorney errors come in an infinite variety and are as likely to
be utterly harmless in a particular case as they are to be prejudicial.’”) (quoting
Strickland, 466 U.S. at 693)) (alteration in original). “It is not enough for the [habeas
petitioner] to show that the errors had some conceivable effect on the outcome of the
proceeding.” Strickland, 466 U.S. at 693 (alteration supplied); see also Harrington,
131 S. Ct. at 791-92 (citing Strickland, 466 at 693) (“The likelihood of a different
result must be substantial, not just conceivable.”)) (emphasis supplied).
Instead, to prove prejudice, the habeas petitioner “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the results of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694; see
also Williams, 529 U.S. at 391 (same). When that standard is applied in the context
of the death sentence itself, “‘the question is whether there is a reasonable probability
69

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 70 of 367

that, absent the errors, the sentencer [i.e., in Alabama, the trial court judge] . . . would
have concluded that the balance of aggravating and mitigating circumstances did not
warrant death.’” Stewart, 476 F.3d at 1209 (quoting Strickland, 466 U.S. at 695)
(alteration supplied).
That is a high standard, and in order to satisfy it a petitioner must present
competent evidence proving “that trial counsel’s deficient performance deprived him
of ‘a trial whose result is reliable.’” Brown v. Jones, 255 F.3d 1272, 1278 (11th Cir.
2001) (quoting Strickland, 466 U.S. at 687). In other words, “[a] finding of prejudice
requires proof of unprofessional errors so egregious that the trial was rendered unfair
and the verdict rendered suspect.” Johnson, 256 F.3d at 1177 (quoting Eddmonds v.
Peters, 93 F.3d 1307, 1313 (7th Cir. 1996) (in turn quoting Kimmelman v. Morrison,
477 U.S. 365, 374 (1986))) (internal quotation marks omitted) (alteration supplied).
3.

Deference accorded state court findings of historical fact and decisions
on the merits when evaluating ineffective assistance of counsel claims

State court findings of historical fact made in the course of evaluating a claim
of ineffective assistance of counsel are subject to a presumption of correctness under
28 U.S.C. §§ 2254(d)(2) and (e)(1). See, e.g., Thompson v. Haley, 255 F.3d 1292,
1297 (11th Cir. 2001). To overcome a state-court finding of fact, the petitioner bears
a burden of proving contrary facts by “clear and convincing evidence.”
Additionally, under the AEDPA, a federal habeas court may grant relief a
70

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 71 of 367

claim of ineffective assistance of counsel only if the state-court determination
involved an “unreasonable application” of the Strickland standards to the facts of the
case. Strickland itself, of course, also requires an assessment of whether counsel’s
conduct was professionally unreasonable.

Those two assessments cannot be

conflated into one. See Harrington v. Richter, 562 U.S. 86, —,131 S. Ct. 770, 786
(2011). Thus, habeas relief on a claim of ineffective assistance of counsel can be
granted with respect to a claim actually decided by the state courts only if the habeas
court determines that it was “objectively unreasonable” for the state courts to find that
counsel’s conduct was not “professionally unreasonable.”

The Richter Court

explained:
“Surmounting Strickland’s high bar is never an easy task.”
Padilla v. Kentucky, 559 U.S. [356], [371-372], 130 S. Ct. 1473, 1485,
176 L. Ed. 2d 284 (2010). An ineffective-assistance claim can function
as a way to escape rules of waiver and forfeiture and raise issues not
presented at trial, and so the Strickland standard must be applied with
scrupulous care, lest “intrusive post-trial inquiry” threaten the integrity
of the very adversary process the right to counsel is meant to serve.
Strickland, 466 U.S., at 689-690, 104 S. Ct. 2052. Even under de novo
review, the standard for judging counsel’s representation is a most
deferential one. Unlike a later reviewing court, the attorney observed
the relevant proceedings, knew of materials outside the record, and
interacted with the client, with opposing counsel, and with the judge. It
is “all too tempting” to “second-guess counsel’s assistance after
conviction or adverse sentence.” Id., at 689, 104 S. Ct. 2052; see also
Bell v. Cone, 535 U.S. 685, 702, 122 S. Ct. 1843, 152 L. Ed. 2d 914
(2002); Lockhart v. Fretwell, 506 U.S. 364, 372, 113 S. Ct. 838, 122 L.
Ed. 2d 180 (1993). The question is whether an attorney’s representation
71

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 72 of 367

amounted to incompetence under “prevailing professional norms,” not
whether it deviated from best practices or most common custom.
Strickland, 466 U.S., at 690, 104 S. Ct. 2052.
Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards
created by Strickland and § 2254(d) are both “highly deferential,” id., at
689, 104 S. Ct. 2052; Lindh v. Murphy, 521 U.S. 320, 333, n.7, 117 S.
Ct. 2059, 138 L. Ed. 2d 481 (1997), and when the two apply in tandem,
review is “doubly” so, Knowles [v. Mirzayance], 556 U.S., at [125], 129
S. Ct. at 1420 [(2009)]. The Strickland standard is a general one, so the
range of reasonable applications is substantial. 556 U.S., at [123], 129
S. Ct. at 1420. Federal habeas courts must guard against the danger of
equating unreasonableness under Strickland with unreasonableness
under § 2254(d). When § 2254(d) applies, the question is not whether
counsel’s actions were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland’s deferential
standard.
Richter, 131 S. Ct. at 787-88 (alterations supplied); see also Premo v. Moore, 562
U.S. 115, —, 131 S. Ct. 733, 739-40 (2011).
IV. THE LIST OF PETITIONER’S CLAIMS
The amended habeas petition filed by petitioner, Joe Nathan James, Jr., alleges
numerous grounds for relief, many of which contain distinct subclaims. Except where
otherwise noted, the claims stated in James’s amended petition are either identical or
substantially similar to those that were alleged in his Rule 32 petition. The claims,
as stated by him, are listed below.
I.

Trial counsel was prejudicially ineffective in the guilt/innocence phase of
72

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 73 of 367

James’s trial and thereby deprived James of his rights under the Fifth, Sixth,
Eighth, and Fourteenth Amendments: ¶¶ 33-35, at 9-10.
A.

Counsel was ineffective in part because of grossly inadequate
compensation: ¶¶ 36-41, at 10-13.

B.

Trial counsel labored under a debilitating conflict of interest which led
to a complete breakdown in the attorney-client relationship and deprived
James of the effective assistance of counsel: ¶¶ 42-53, at 13-17.

C.

Trial counsel failed to adequately investigate the State’s capital murder
charges against Mr. James: ¶¶ 54-77, at 17-26.

D.

Trial counsel failed to procure necessary expert assistance: ¶¶ 78-84, at
26-29.

E.

Trial counsel failed to investigate or challenge James’s competence to
stand trial: ¶¶ 85-90, at 29-31.

F.

Trial counsel performed deficiently during the selection of James’s jury:
¶¶ 91-100, at 31-34.

G.

Trial counsel performed deficiently in failing to make adequate in limine
motions, adequate objections to the introduction of prejudicial and
inadmissible evidence at trial, adequate objections to Mr. James’s
absence during critical proceedings, or adequate objections to
prosecutorial misconduct in argument: ¶¶ 101-108, at 34-36.

H.

Trial counsel performed inadequately in failing to present a coherent or
viable defense of James and in effectively conceding guilt in closing
argument: ¶¶ 109-111, at 36-37.

I.

Trial counsel performed deficiently in failing to request a continuance
when they learned that James had been the victim of an attempted sexual
assault in the jail on the night prior to the trial: ¶¶ 112-114, at 37.

J.

Trial counsel performed ineffectively in cross-examining the State’s
witnesses: ¶¶ 115-120, at 37-40.
73

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 74 of 367

II.

K.

Trial counsel failed to object to the trial court’s improper jury
instructions at the guilt phase: ¶¶ 121-127, at 40-44.

L.

Trial counsel performed deficiently in failing to “federalize” objections:
¶¶ 128-129, at 44.

M.

Counsel’s performance was prejudicially deficient because counsel’s
failures to object or take the affirmative actions detailed in this claim
resulted in procedural defaults with respect to some issues: ¶¶ 130-131,
at 44-45.

N.

The cumulative effect of trial counsel’s guilt-phase errors prejudiced
James, even if no single error, standing alone, did so: ¶¶ 132-136, at 4546

Trial counsel was ineffective during the sentencing stage of Mr. James’s trial
and thereby deprived James of his rights under the Fifth, Sixth, Eighth, and
Fourteenth Amendments: at 46.
A.

Trial counsel performed deficiently by failing to conduct any
investigation of James’s background to obtain mitigation or social
history evidence and by failing to present that evidence at the sentencing
phase: ¶¶ 137-218, at 46-76.

B.

Trial counsel performed ineffectively in closing argument at the
sentencing phase: ¶¶ 219-224, at 76-78.

C.

Trial counsel performed deficiently in failing to object to prosecutorial
misconduct in argument at the sentencing phase: ¶¶ 225-227, at 78-79.

D.

Trial counsel performed deficiently in failing to request specific jury
instructions at the sentencing phase: ¶¶ 228-231, at 79-80.

E.

Trial counsel performed ineffectively in failing to object to the use of
the Presentence Report and Written Sentencing Order at the time of the
original trial in 1996: ¶¶ 232-236, at 80-81.

F.

The cumulative effect of counsel’s deficient performance prejudiced
74

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 75 of 367

James even if no single act, standing alone, did so: ¶¶ 237-242, at 8183.
III.

James was deprived of his constitutional right to the assistance of a competent
mental health professional at his capital trial: ¶¶ 243-247, at 83-84.

IV.

The trial court erred in failing to order a competency evaluation of James sua
sponte: ¶¶ 248-252, at 84-85.

V.

James was not competent to proceed at trial and the judgment must accordingly
be reversed: ¶¶ 253-257, at 86-87.

VI.

The prosecution failed to comply with its discovery obligations under Brady
v. Maryland and also committed other misconduct at trial: ¶¶ 258-267, at 8789.

VII. Mr. James was deprived of his right to an impartial jury, due process of law,
and a reliable determination of guilt and penalty when he was tried by a jury
which included a juror who suffered from mental illness and other
impairments: ¶¶ 268-272, at 89-90.
VIII. The trial court committed numerous prejudicial errors during both the guilt
phase and the sentencing phase of James’s trial: ¶¶ 273-285, at 90-93.
IX.

James was deprived of the effective assistance of appellate counsel: ¶¶ 286295, at 94-95.

X.

James was deprived of due process and other constitutional rights throughout
the Rule 32 proceedings in the circuit court: ¶¶ 296-298, at 96.
A.

The circuit court’s procedure of signing orders prepared by Respondent,
particularly the egregiously self-serving and clearly erroneous final
order, denied James his federal constitutional rights to an impartial
tribunal, due process, and a reliable proceeding under the Fifth, Sixth,
Eighth, and Fourteenth Amendments, and international law: ¶¶ 299322, at 96-103.

B.

The circuit court further displayed its bias against James and deprived
75

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 76 of 367

him of due process, equal protection, an impartial tribunal, and a reliable
proceeding when it denied his Motion to Proceed in Forma Pauperis:
¶¶ 323-334, at 104-107.
C.

The circuit court prevented James from fully developing and presenting
his claims by denying him leave to proceed ex parte in funding requests
and funding for mental health experts and, in violation of the Fifth,
Sixth, Eighth, and Fourteenth Amendments: ¶ 335, at 107.
1.

The circuit court’s denial of leave to proceed ex parte in funding
requests prevented James from fully developing and presenting
his claims in violation of James’s constitutional rights to due
process and a reliable capital proceeding: ¶¶ 336-343, at 107109.

2.

The circuit court’s denial of funding for mental health experts
prevented James from developing and presenting his claims in
violation of his constitutional rights: ¶¶ 344-348, at 109-11.

3.

The circuit court’s refusal to admit James’s proffer of evidence
prevented James from fully developing and presenting his claims
in violation of his constitutional rights to due process, equal
protection, and a reliable capital proceeding: ¶¶ 349–350, at 11112.

D.

The circuit court prevented James from fully developing and presenting
his claims by denying him funding for investigators in violation of the
Fifth, Sixth, Eighth, and Fourteenth Amendments: ¶¶ 351-357, at 11213.

E.

The circuit court’s denial of requested discovery and James’s Motions
for Continuance of the Evidentiary Hearing deprived him of due
process, a fair trial, and a reliable capital proceeding under the Fifth,
Sixth, Eighth, and Fourteenth Amendments: ¶¶ 358-368, at 113-17.

F.

The circuit court’s refusal to issue a warrant to compel testimony of a
key exculpatory and mitigation witness prevented James from presenting
his defense, in violation of the Sixth, Eighth, and Fourteenth
76

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 77 of 367

Amendments: ¶¶ 369-375, at 117-19.
G.

XI.

The circuit court deprived James of his rights to due process and a
reliable capital decision-making process when it denied his Motion to
Reopen the Brady claim: ¶¶ 376-384, at 119-21.

Alabama’s capital sentencing procedures, both as written and as applied in this
case, run afoul of the due process clause of the Fourteenth Amendment and the
Sixth Amendment trial-by-jury requirement: ¶¶ 385-392, at 121-23.

XII. The jury was unconstitutionally permitted to “double count” the fact of
burglary both as the predicate to capital murder and as an aggravating factor:
¶¶ 393-398, at 123-24.
XIII. Alabama’s statutory limits on compensation of counsel and other resources in
death penalty cases violated the federal constitution: ¶¶ 399-409, at 125-27.
XIV. The selective prosecution of the death penalty violated James’s constitutional
rights to due process, equal protection, freedom from cruel and unusual
punishment, and a fundamentally fair trial: ¶¶ 410-418, at 127-30.
XV. Execution by means of lethal injection is a cruel and unusual punishment in
violation of the Eighth Amendment. ¶¶ 419-437, at 130-35.
XVI. Execution following lengthy confinement under sentence of death would
constitute cruel and unusual punishment in violation of Mr. James’s state and
federal constitutional rights and international law: ¶¶ 438-451, at 135-37.
XVII.

In view of Mr. James’s profound mental and emotional impairments and
the U.S. Supreme Court’s decision in Atkins v. Virginia, it would be
unconstitutional to execute Mr. James: ¶¶ 452-456, 137-39.

XVIII.

Mr. James’s convictions and death sentence must be vacated because of
the cumulative effect of all the errors and constitutional violations
alleged in this petition and on his automatic appeal: ¶¶ 457-463, at 13940.

XIX.

Mr. James was convicted and sentenced to death as a result of a process
77

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 78 of 367

tainted by racial bias: ¶¶ 464-467, at 140-41.
XX.

Mr. James was deprived of his federal constitutional right to compulsory
process at the evidentiary hearing in the state court: ¶¶ 468-476, at 14243.

V. PETITIONER’S GUILT-PHASE INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIMS
A.

The Effect of Grossly Inadequate Compensation on the Effort Devoted to
Petitioner’s Defense by Counsel50
James’s habeas petition alleges that, on the date of his second trial, Alabama

Code § 15-12-21 limited the compensation payable by the State to court-appointed
attorneys for defendants charged with capital offenses to
a maximum of $1,000 for out-of-court trial preparation for each phase
of the capital trial, based on a $20 per hour rate. See Ex parte Grayson,
479 So. 2d 76, 79-80 (Ala.), cert. denied sub nom, Grayson v. Alabama,
747 U.S. 865 (1985). Because of the state-imposed limitations upon
counsel’s compensation, counsel did not spend sufficient time preparing
for the case, did not devote adequate time or resources to investigation,
did not retain experts, consultants, or other professional assistance, and
generally attempted to keep their expenditure of time to a minimum to
James’s prejudice.
Doc. no. 11 (Amended Habeas Petition), at 24-25.
1.

Procedural default

Respondents contend that this claim was procedurally defaulted, because it was
not raised at trial or on direct appeal.51 Instead, James raised it for the first time in his
50

Claim I.A: see doc. no. 11 (Amended Habeas Petition), ¶¶ 36-41, at 10-13.

51

Doc. no. 19 (Respondents’ Answer), at 5-6.

78

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 79 of 367

Rule 32 petition, and it was summarily dismissed as procedurally barred by Alabama
Rules of Criminal Procedure 32.2(a), and 32.7(d).52
Respondents also state that, because James failed to exhaust his state court
remedies with respect to this claim, he may not raise it in his § 2254 petition.
Dismissal to allow James to present this subclaim in state court would be futile, as he
is now precluded from raising it under Alabama Rules of Criminal Procedure 32.2(b)
and 32.2(c).53
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court. That court dismissed the claim as procedurally barred under Alabama
Rules of Criminal Procedure 32.2(a)(3) and (5).54 The pertinent parts of that rule state
52

C.R. Vol. 32, Tab 74, Tab 77, and Tab 78, at 54-55. In this instance, the court is citing the
page numbers in the top right hand corner of the record.
53

Alabama Rule of Criminal Procedure 32.2(b) addresses “Successive Petitions,” and
provides that:
If a petitioner has previously filed a petition that challenges any judgment, all
subsequent petitions by that petitioner challenging any judgment arising out of that
same trial or guilty-plea proceeding shall be treated as successive petitions under this
rule. The court shall not grant relief on a successive petition on the same or similar
grounds on behalf of the same petitioner. A successive petition on different grounds
shall be denied unless (1) the petitioner is entitled to relief on the ground that the
court was without jurisdiction to render a judgment or to impose sentence or (2) the
petitioner shows both that good cause exists why the new ground or grounds were not
known or could not have been ascertained through reasonable diligence when the
first petition was heard, and that failure to entertain the petition will result in a
miscarriage of justice.
Alabama Rule of Criminal Procedure 32.2(c) addresses “Limitations Periods,” and it is quoted in
Part III.B.5.b, supra.
54

C.R. Vol. 32, Tab 78, at 3.

79

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 80 of 367

that: “A petitioner will not be given relief under this rule based upon any ground:
(3) Which could have been but was not raised at trial . . .; or . . . (5) Which could have
been but was not raised on appeal . . . .” Ala. R. Crim. P. 32.2(a)(3), (5).
James did not dispute the Rule 32 circuit court’s ruling on this claim during his
post-conviction appeal. The Alabama Supreme Court explicitly held that the claim
had been properly precluded. Ex parte James, 61 So. 3d 352, 354 (Ala. 2009).55
Accordingly, the procedural default doctrine prevents James from raising this
claim in federal court, so long as the state court’s ruling was based on adequate and
independent state grounds. See, e.g., Ward v. Hall, 592 F.3d 1144, 1156-57 (11th Cir.
2010).
If an Alabama court has denied post-conviction relief based on the
55

The pertinent portion of the Alabama Supreme Court’s opinion in Ex parte James observed

that:
The parties agree that the Court of Criminal Appeals sua sponte applied the
preclusionary grounds of Rule 32, Ala.R.Crim.P., to the majority of James’s
ineffective-assistance-of-counsel claims. The State alleges that it raised the
preclusionary grounds in regard to the following three ineffective-assistanceof-counsel claims James raised:
“I(A), which alleged [ineffective assistance of counsel] due to
inadequate compensation, and claims I(G) ¶¶ 82 & 83 which alleged
[ineffective assistance of counsel] regarding the admission of
photographs and medical testimony.”
(State’s brief, at 9.) James does not dispute that the State raised the preclusionary
grounds in regard to the above-mentioned claims and that those claims were properly
precluded.
Ex parte James, 61 So. 3d 352, 354 (Ala. 2009) (alteration in original).

80

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 81 of 367

petitioner’s failure to raise a claim at trial or on direct appeal, a federal
court cannot review that claim unless it determines either (1) that the
petitioner had cause for his failure to raise the claim and suffered
prejudice as a result, or (2) that denying federal habeas review of the
claim would result in a fundamental miscarriage of justice — namely the
conviction and punishment of one who is actually innocent.
Brownlee v. Haley, 306 F.3d 1043, 1065-66 (11th Cir. 2002). James has not argued
any exception to the procedural default doctrine. Thus, this claim is procedurally
defaulted.
2.

Merits

Even though the Rule 32 circuit court determined that this claim had been
procedurally defaulted, that court alternatively dismissed it pursuant to Alabama Rule
of Criminal Procedure 32.7(d).56 Even so, as discussed in Part III.B.1, supra, federal
deference to a state court’s finding of a procedural default is so strong that the state
court “need not fear reaching the merits of a federal claim in an alternative holding.”
Harris v. Reed, 489 U.S. 255, 264 n.10 (1989) (emphasis in original). Nevertheless,
there remains some friction between, on the one hand, procedural defaults based upon
56

C.R. Vol. 32, Tab 78, at 27-28. As noted in Part III.B.5.e, supra, the cited rule provides

that:
If the court determines that the petition is not sufficiently specific, or is
precluded, or fails to state a claim, or that no material issue of fact or law exists
which would entitle the petitioner to relief under this rule and that no purpose would
be served by any further proceedings, the court may either dismiss the petition or
grant leave to file an amended petition.
Ala. R. Crim. P. 32.7(d).

81

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 82 of 367

a petitioner’s failure to raise his federal claim in the state court system at the time, and
in the manner, dictated by the state’s procedural rules and, on the other hand, an
alternative ruling dismissing a claim under Rule 32.7(d) for failing to state a claim,
or failing to establish a material issue of fact or law upon which relief might be
granted. As noted in Part III.B.5.d, supra, the Eleventh Circuit’s opinion in Borden
v. Allen, 646 F.3d 785, 816, 822 n.44 (11th Cir. 2011), held that such dismissals
amounted to rulings “on the merits” and, hence, were subject to review in habeas
proceedings.
Out of an abundance of caution, therefore, this court will examine the merits
of the present claim, despite the state court’s determination that it was procedurally
defaulted. In order to achieve habeas relief, James must show that no fairminded
jurist would have rejected this claim.
As previously discussed in Part III.E of this opinion, supra, the standard
established by the Supreme Court’s opinion in Strickland v. Washington, 466 U.S.
668 (1984), requires habeas petitioners to show two things in order to prevail on a
claim of constitutionally ineffective assistance of counsel: first, “that ‘counsel’s
performance was deficient’ because it ‘fell below an objective standard of
reasonableness’”; and second, “that ‘the deficient performance prejudiced the
defense.’”

Fugate v. Head, 261 F.3d 1206, 1216 (11th Cir. 2001) (quoting
82

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 83 of 367

Strickland, 466 U.S. 687–88).
This court must presume that counsel’s performance was reasonable, and James
bears the “heavy — but not insurmountable — burden of persuading the court that no
competent counsel would have taken the action that his counsel did take.”
Haliburton v. Secretary for the Department of Corrections, 342 F.3d 1233, 1243
(11th Cir. 2003) (internal quotation marks and citation omitted). The test for
determining the reasonableness of an attorney’s performance “is not whether counsel
could have done something more or different”; instead, the court must consider
whether counsel’s performance “fell within the broad range of reasonable assistance
at trial.” Stewart v. Secretary, Department of Corrections, 476 F.3d 1193, 1209 (11th
Cir. 2007).
An attorney’s failure to raise non-meritorious issues does not constitute
ineffective assistance of counsel. Bolender v. Singletary, 16 F.3d 1547, 1573 (11th
Cir.1994) (observing that an attorney’s act of “raising every single frivolous point on
appeal is not a sign of effective counsel and indeed often has the effect of diluting the
import of stronger points”).
James offers no argument as to how a higher rate of compensation would, more
likely than not, have induced his attorneys to unearth, or present, evidence that had
a reasonable probability of changing the outcome of his proceedings. See, e.g.,
83

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 84 of 367

Strickland, 466 U.S. at 694. Instead, his argument is based upon the assumption that
defense counsel must have been inadequate, because Alabama did not adequately
compensate his court-appointed trial attorneys.
Such a claim is neither novel nor new. Other capital defendants have lodged
similar claims based upon Alabama’s statutory compensation limits. See, e.g.,
Hallford v. Culliver, 379 F. Supp. 2d 1232, 1279 (M.D. Ala. 2004) (“The essence of
[petitioner’s] argument becomes simply that the court ought to presume counsel could
not provide constitutionally adequate representation because of the inadequate
compensation.”) (alteration supplied), aff’d, 459 F.3d 1193 (11th Cir. 2006). Even
assuming that Alabama’s compensation scheme for court-appointed attorneys in
capital cases was woefully inadequate on the date of James’s second trial, “that fact
is insufficient as a matter of law to overcome the presumption of effectiveness which
attends the performance of counsel.” Id. Indeed, “attorneys are expected to
competently represent indigent clients,” regardless of how much or how little they are
paid, id. (citing Waters v. Kemp, 845 F.2d 260, 263 (11th Cir.1988)), and James has
pled no facts to overcome that presumption.57
For all of the foregoing reasons, fairminded jurists could disagree as to the
reasonableness of the state court’s rejection of James’s inadequate compensation
57

The affidavit executed by lead defense attorney (now Judge) Virginia Vinson states that:
“The statutory limit on compensation did not affect my representation of Joe in any way.” C.R. Vol.
24, at 161.

84

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 85 of 367

claim. Hence, he is not entitled to habeas relief.
B.

Trial Counsel Labored Under a Debilitating Conflict of Interest Which
Led to a Complete Breakdown in the Attorney-Client Relationship and,
Thereby, Deprived Petitioner of the Effective Assistance of Counsel58
James next alleges that his lead trial attorney, Virginia Vinson,
labored under an actual conflict of interest throughout her representation
of Petitioner because she was occupied in political campaigning
throughout the case and was therefore unable to devote adequate time
to this case, and because her political ambitions required her to take
public positions which conflicted with her duty to render zealous
representation to her client.59

James also asserts that, “[i]n addition to the conflict of interests created by lead
counsel’s political campaigning, it is clear that at an early stage in the case the
relationship between counsel and their client had become so toxic that counsel had
an ethical duty to seek to withdraw from the case.”60
James contends that, as a result of those two problems, his attorneys committed
several errors throughout the trial of his case — errors that are detailed throughout
the various sub-parts of Claims I and II of his amended habeas petition (and errors
which are, in turn, discussed in the various subdivisions of Parts V and VI of this
opinion). He contends that counsel’s “deficient performance prejudiced [him]
because it is at least reasonably probable that a more favorable outcome would have
58

Claim I.B: see doc. no. 11 (Amended Habeas Petition), ¶¶ 42-53, at 13-17.

59

Doc. no. 11 (Amended Habeas Petition), ¶ 43, at 13.

60

Id., ¶ 50, at 15 (alteration supplied).

85

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 86 of 367

resulted had counsel performed competently.”61
1.

Procedural default

Respondents argue that this subclaim is procedurally defaulted, because it was
dismissed pursuant to Alabama Rule of Criminal Procedure 32.3.62 Respondents also
argue that James raised this subclaim in his Rule 32 petition, but then abandoned it
on collateral appeal and, thus, failed to exhaust his state-court remedies.63
Respondents contend that any attempt to again present this claim in state court would
be futile, as it would now be barred under both the statute of limitations and
successive petition bars of Rules 32.2(b) and (c).64
Finally, respondents contend that this claim is conclusory in nature, and fails
to state a valid claim for relief under Rule 2(c) of the Rules Governing Section 2254
Cases in the United States District Courts.65
61

Id., ¶ 53, at 17.

62

Doc. no. 19 (Respondents’ Answer), at 9.

63

Id.

64

Id. at 10.

65

Id. at 12-13 (citing Mayle v. Felix, 545 U.S. 644, 655 (2005) (“Habeas Corpus Rule 2(c)
is more demanding. It provides that the petition must ‘specify all the grounds for relief available to
the James’s and ‘state the facts supporting each ground.’”)). The rule cited in text and referenced
by the Supreme Court in the Mayle opinion addresses the “Form” of habeas petitions, and states that:
The petition must: (1) specify all the grounds for relief available to the
petitioner; (2) state the facts supporting each ground; (3) state the relief requested;
(4) be printed, typewritten, or legibly handwritten; and (5) be signed under penalty
of perjury by the petitioner or by a person authorized to sign it for the petitioner
under 28 U.S.C. § 2242.

86

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 87 of 367

James’s brief on his collateral appeal to the Alabama Court of Criminal
Appeals argued, however, that “[t]he Circuit Court granted a hearing with respect to
subclaims B, C, D, E, G, H, I, J, and K.”66 Assuming, without deciding, that such a
passing reference to the present claim would be sufficient to refute respondents’
contention that James abandoned it on collateral appeal and, thus, failed to exhaust
his state court remedies, this court will treat the present claim as not procedurally
barred and, therefore, subject to review of its merits.
Furthermore, respondents’ contention that, when arguing this subclaim, James
failed to comply with Rule 2(c) of the Rules Governing Section 2254 Cases in the
United States District Courts, is misplaced.67 Regardless of the merits of this
subclaim, James provides over three pages of factual support for it.68 His argument
has been sufficiently presented, so this court may reach its merits.
2.

Merits

The last state court to issue a reasoned opinion on this subclaim was the Rule
32 circuit court, which held that:
At the Rule 32 evidentiary hearing, [James’s lead trial defense
attorney, Virginia Vinson,] testified that she spent very little time
campaigning and [the fact that she was] seeking a judgeship did not
Rule 2(c) of the Rules Governing Section 2254 Cases in the United States District Courts.
66

C.R. Vol. 27, Tab 53, at 7 (alteration supplied).

67

See doc. no. 19 (Respondents’ Answer), 12-13.

68

See doc. no. 11 (Amended Habeas Petition), ¶¶ 42-53, at 13-17.

87

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 88 of 367

effect [sic] her representation of James in any manner. (RTR. 207, 263).
James failed to present any evidence contradicting Judge Vinson’s
testimony or supporting his claim at the evidentiary hearing. As such,
this Court finds that James has failed to meet his burden of proof on this
claim. Therefor [sic], this Court denies any relief based on this claim.
C.R. Vol. 32, Tab 78, at 61 (bracketed alterations and emphasis supplied).
A finding of failure to establish a material issue of fact or law (i.e., James’s
failure “to meet his burden of proof on this claim”) is a ruling on the merits that is
subject to review by this court under AEDPA. Hence, this court must first consider
whether the Rule 32 circuit court reasonably applied the Strickland standards when
it found that James had failed to prove that his counsel’s performance “fell within the
broad range of reasonable assistance at trial.” Stewart v. Secretary, Department of
Corrections, 476 F.3d 1193, 1209 (11th Cir. 2007).
James alleged in his Rule 32 petition in state court, and again in the amended
habeas petition filed in this court, that Virginia Vinson was appointed to represent
him “shortly after her 1998 general election loss, and she continued to represent him
until his conviction and sentencing in June, 1999.”69 He also argued that “Vinson
immediately began to campaign for another newly created criminal judgeship,” and
he cites an October 2000 newspaper article as support for that contention.70 Wholly
69

Rule 32 Petition, C.R. Vol. 9, Tab, 35, at 241 (emphasis supplied). This page citation
refers to the number in the top right hand corner of the document.
70

Id. at 240. Identical arguments are made in this court. See doc. no. 11 (Amended Habeas
Petition) ¶¶ 45-46, at 14.

88

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 89 of 367

missing from James’s argument, however, is any explanation of how an election loss
predating the appointment of Vinson to represent him, followed by her campaigning
for another judgeship in the year following his trial and sentencing, created a conflict
of interest, or adversely affected her ability to devote adequate time to his case.
Moreover, as noted by the Rule 32 circuit court, James did not contradict Vinson’s
testimony that she spent very little time campaigning during the period from
appointment through trial, and that her ambition to seek election to another judicial
position during the year following the trial and sentencing did not adversely affect her
representation of James.71
When a petitioner asserts that counsel labored under a conflict of interest, the
court is not always required to conduct the two-step Strickland analysis. See, e.g.,
Howell v. Secretary, Florida Department of Corrections, 730 F.3d 1257, 1264 (11th
Cir. 2013) (citing Burger v. Kemp, 483 U.S. 776, 783 (1987)). Instead, proof of the
prejudice prong can be presumed, “if a defendant demonstrates that his attorney
actively represented conflicting interests and that an actual conflict of interest
adversely affected his lawyer’s performance.” Id. (emphasis supplied, internal
quotation marks omitted). Although James asserts that Vinson’s political ambitions
affected her performance as trial counsel, his “evidence” amounts to nothing more

71

C.R. Vol. 32, Tab 78, at 61.

89

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 90 of 367

than his naked assertion — speculation that was rebutted by Vinson’s testimony.
Habeas relief would be warranted only if James “demonstrate[d] that an actual
conflict of interest existed that adversely affected [Vinson’s] performance.” Burger,
483 U.S. at 783 (alterations supplied). At best, James has alleged only “the
possibility of conflict,” and that is “insufficient to impugn a criminal conviction.”
Cuyler v. Sullivan, 446 U.S. 335, 350 (1980).
Thus, the Rule 32 circuit court reasonably applied Strickland when determining
that James had failed to meet his burden of proof on this subclaim, and that he,
accordingly, had failed to state a claim of ineffective assistance of counsel upon
which relief could be granted. It follows, therefore, that habeas relief is not
warranted either.
C.

Trial Counsel Failed to Adequately Investigate the Capital Charge72
This subclaim is actually comprised of several distinct contentions: namely,

that trial counsel “did virtually no work on the case at all”73 and, thereby, “failed to
adequately investigate and prepare a defense for Mr. James, in violation of his Sixth,
Eighth, and Fourteenth Amendment rights,”74 as well as a contention that counsel
failed to investigate the “apparent contamination” of the crime scene.75 James also
72

Claim I.C: see doc. no. 11 (Amended Habeas Petition), ¶¶ 54-77, at 17-26.

73

Id., ¶ 57, at 17.

74

Id., ¶ 54, at 17.

75

Id., ¶ 76, at 25.

90

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 91 of 367

provides statistics on how many hours his attorneys billed the State in an attempt to
demonstrate that counsel did not spend enough time investigating his case.76
Respondents contend that this subclaim was raised in James’s Rule 32 petition
and on collateral appeal, and was denied on the merits by the Alabama Court of
Criminal Appeals.77 Respondents argue that James cannot demonstrate that the state
court’s ruling was contrary to, or involved an unreasonable application of, clearly
established federal law, or that the ruling was based on an unreasonable determination
of the facts in light of the evidence presented in the state court proceedings, as
required by 28 U.S.C. § 2254(d).78
1.

Failure to investigate the victim’s background — the gateway for
pursuit of a self-defense strategy

James asserts that his trial attorneys failed to investigate the victim’s
background, and that, if they had done so, they would have discovered that she had
a history of violence — a gate that, James presumes, would have opened the way to
pursuit of a meritorious self-defense argument.79 The Alabama Court of Criminal
Appeals addressed this facet of the present subclaim in its final opinion on collateral
appeal, following remand from the Alabama Supreme Court, saying that:

76

See id., ¶ 59, at 18, and doc. no. 25 (Petitioner’s Brief), at 32-33.

77

Doc. no. 19 (Respondents’ Answer), at 13.

78

Id. at 14.

79

See doc. no. 11 (Amended Habeas Petition), ¶ 60, at 18.

91

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 92 of 367

James first argues that counsel was ineffective for failing to
investigate the background of the victim. Specifically, he asserts that
counsel failed to discover that Hall had been arrested for attacking
James’s girlfriend, Mara Ruffin. This evidence was vital, he asserts,
because it would have led counsel to pursue a claim of self-defense.
When denying relief on this claim, the circuit court stated:
“In his petition, James alleged that trial counsel was
ineffective for failing to investigate the background of the
victim, Faith Hall. James contends that[,] had counsel
done so, they would have learned that Ms. Hall had been
previously arrested for attacking James’s girlfriend, Mara
Ruffin. James also claimed that the victim actively stalked
his girlfriend and filed false police reports against him.
James further alleged that he only shot Ms. Hall after she
charged him with a knife. James contended that[,] had trial
counsel adequately investigated[,] they would have learned
these facts and been able to present either a self-defense
theory, imperfect self-defense theory, or reduced
capability.
“At the evidentiary hearing, James introduced a case
action summary from Jefferson County district court that
was not discovered by trial counsel. The summary
indicated that Ms. Hall had been charged with assault in
the third degree in 1990, five years before her murder. The
case action summary also indicated that the case was nolle
prossed. The Court finds this document irrelevant and
immaterial. The arrest occurred five years before her
murder and Ms. Hall was never prosecuted. Further, James
did not show how the arrest was related to either himself or
his girlfriend. Moreover, James has not shown how a
five-year old arrest would have supported any self-defense
claim.
“James also introduced a complaint against Ms. Hall
filed by his then girlfriend, Mara Ruffin, that trial counsel
92

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 93 of 367

failed to discover. In the complaint, Ms. Ruffin alleged
that Ms. Hall broke a windshield with a car jack that
caused glass to shatter and cover her. It appears from the
documents that the case was later dismissed at Ms. Ruffin’s
request. In any event, such evidence concerning the victim
would not have been relevant at trial and would have been
inadmissible.
“The Court of Criminal Appeals has held that the
‘deceased’s violent nature may be proved only by evidence
of reputation and not by specific acts.’ Quinlivan v. State,
627 So. 2d 1082, 1084 (Ala. Crim. App. 1992). Moreover,
any evidence of the victim’s violent character, including
opinion or reputation testimony, is not admissible in a
criminal proceeding where the accused is the aggressor.
Bankston v. Alabama, 358 So. 2d 1040, 1042 (Ala. 1978)
(‘It is well understood that evidence of the deceased’s
turbulent, violent, and bloodthirsty character is not
competent absent some evidence tending to show that the
killing was in self defense; that is, some overt act or hostile
demonstration on the part of the deceased.’). See also
Smith v. State, 466 So. 2d 1026, 1031 (Ala. Crim. App.
1985) (holding that evidence of the victim’s character is
not admissible where the accused is the aggressor).
“The evidence is overwhelming that James was the
aggressor. As this Court found in its sentencing order,
James, armed with a pistol, forced his way into the
apartment occupied by the victim and shot her three times.
Without some showing that James acted in self defense,
evidence concerning the victim’s character is not
admissible. James did allege in his petition that the victim
charged at him with a knife. However, James did not
present any testimony or evidence at the Rule 32 hearing
that supported this allegation. Moreover, the witnesses at
trial never indicated that the victim charged James with a
knife. Instead, they testified that she was trying to escape
when shot. As the aggressor in this case, James cannot
93

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 94 of 367

demonstrate any facts that would establish a viable theory
of self defense, imperfect self defense, or reduced
capability. As such, James cannot demonstrate that trial
counsel was ineffective. . . .”
(C.R. 114–18.)
At the evidentiary hearing, Warren [i.e., Gordon Herbert Warren,
one of the two attorneys appointed to represent James at his second
trial,] testified that he had no recollection of James telling him about
Hall’s prior arrest for assault, nor did he recall the complaint Mara
Ruffin had filed against Hall. He testified that he looked at the court
records for all the people involved in the case and scanned the statewide
database for all circuit court and district court records related to the
victim. Warren said that he found nothing he considered to be
significant. He said that he would not have found the assault charge to
be significant because, he said, it had been nol-prossed and was five
years old and the complaint Ruffin filed against Hall had been
dismissed. Vinson [i.e. Virginia A. Vinson, lead trial defense attorney]
testified that she did not recall James telling her about Ruffin’s assault
charge against Hall but that James was “very uncommunicative.” She
said that James told her that he shot Hall after she charged him but that
James never referred to Hall’s having a weapon. Both Vinson and
Warren stated in their affidavits that James never told them that he acted
in self-defense or that Hall had a weapon.
Initially, counsel had no reason to believe that the shooting was
in self-defense because James did not tell his attorneys that he acted in
self-defense. “Depending on the defendant’s statement to counsel, the
need for further investigation may be considerably diminished or
eliminated all together.” Levan v. United States, 128 F. Supp. 2d 270,
280 (E.D. Pa. 2001), citing Strickland, 466 U.S. at 691, 104 S. Ct. 2052.
Moreover, all the evidence showed that James was the aggressor
and that he pushed his way into Sneed’s apartment and shot Hall
multiple times, even after she fell to the floor. There was no evidence
from the two eyewitnesses to the shooting indicating that James acted
in self-defense.[FN5] Nor did James present any evidence at the Rule 32
94

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 95 of 367

proceedings that he acted in self-defense. Based on James’s statements
to his attorneys and the facts of the case, we cannot say that counsels’s
[sic] actions were unreasonable.
[FN5. Rule 32 counsel asserts in his brief to this Court that evidence
of Hall’s specific prior acts of violence would have been admissible
at James’s trial if he had relied on self-defense. However, in
Quinlivan v. State, 627 So. 2d 1082, 1084 (Ala. Crim. App. 1992), we
stated: “Alabama follows the rule that the deceased’s violent nature
may be proved only by evidence of reputation and not by specific
acts.”]

James, 61 So. 3d 357, 365-367 (Ala. Crim. App. 2010) (alterations and emphasis
supplied).
When assessing the reasonableness of an attorney’s investigation, “a court must
consider not only the quantum of evidence already known to counsel, but also
whether the known evidence would lead a reasonable attorney to investigate further.”
Williams v. Allen, 542 F.3d 1326, 1337 (11th Cir. 2008) (quoting Wiggins v. Smith,
539 U.S. 510, 527 (2003)). James asserts that his attorneys’ performance was
deficient due to their failure to investigate the victim, Faith Hall.80 James asserts that
her “history of violence” and her criminal background were important, because he
told his attorneys that Faith Hall “had come at him with a knife after he had turned
to leave the apartment, and that he had initially fired the gun instinctively in order to
defend himself.”81 James states that “Vinson’s own affidavit sworn under oath

80

Doc. no. 11 (Amended Habeas Petition), ¶ 60, at 18.

81

Id.

95

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 96 of 367

establishes that she was on notice of facts requiring investigation of possible selfdefense or, at a minimum, facts which might have reduced the gravity of the offense
or provided mitigation evidence at the penalty phase,”82 and that “the facts regarding
Ms. Hall’s conduct conclusively demonstrate prejudice at both the guilt and penalty
phases.”83
Faith Hall’s history of violence included: an arrest for third degree criminal
assault in May of 1990; two arrests for assault of James’s girlfriend, Mara Ruffin; an
incident in which Ms. Hall smashed the window of an automobile in which James and
Mara Ruffin were riding; Ms. Hall’s stalking of Ms. Ruffin; and, reports that Ms. Hall
filed false police reports against James in retaliation for him dating another woman.84
James describes Ms. Hall as “a jealous, spiteful, volatile, and assaultive perpetrator
of domestic violence against others, who sought to intimidate and control Mr. James,
and to sabotage his relationship with his girlfriend.”85 James asserts that any of these
facts could have been readily discovered through “competent investigation,”
including checking public records and interviewing people in James’s life, including

82

Id., ¶ 61, at 19.

83

Id., ¶ 67, at 21-22.

84

Id., ¶¶ 60, 62, 63-65, at 18-20.

Id., ¶ 66, at 21. Given this description of the victim, James offered no coherent
explanation as to why he went to Sneed’s apartment in search of the victim.
85

96

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 97 of 367

Ms. Ruffin.86
This court finds that the state courts’ application of the Strickland standards
was reasonable. James has failed to demonstrate how his trial attorneys’ behavior fell
below the professional conduct expected of reasonable attorneys, given the alleged
evidence concerning the victim, Faith Hall. The evidence was not enough to render
counsel’s failure to investigate further a professionally unreasonable error. Because
much of the evidence cited by James was, more than likely, inadmissible, trial counsel
could not have acted unreasonably in failing to present it. As the circuit court
explained, evidence of the victim’s violent character, even evidence of her reputation
for such, is not admissible in a criminal proceeding in which the accused was the
aggressor. See Bankston v. Alabama, 358 So. 2d 1040, 1042 (Ala. 1978) (holding
that “evidence of the deceased’s turbulent, violent, and bloodthirsty character is not
competent absent some evidence tending to show . . . some overt act or hostile
demonstration on the part of the deceased”); see also, e.g., Smith v. State, 466 So. 2d
1026, 1031 (Ala. Crim. App. 1985) (holding that evidence of a victim’s character is
not admissible when the accused was the aggressor).
The Rule 32 circuit court noted James’s allegation that Faith Hall “charged at
him with a knife,” but observed that he

86

Id., ¶ 67, at 21.

97

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 98 of 367

did not present any testimony or evidence at the Rule 32 hearing that
supported this allegation. Moreover, the witnesses at trial never
indicated that the victim charged James with a knife. Instead, they
testified that she was trying to escape when shot. As the aggressor in
this case, James cannot demonstrate any facts that would establish a
viable theory of self-defense, imperfect self-defense, or reduced
capability. As such, James cannot demonstrate that trial counsel was
ineffective under Strickland v. Washington for failing to introduce arrest
records of Ms. Hall.
C.R. Vol. 32, Tab 78, at 65.
In the reply brief filed by James in this court, he asserts that “the legal question
before the [Rule 32 circuit] court was not whether [such] documents were admissible.
Rather, the question . . . was whether it was reasonably probable that a more positive
result would have been obtained had counsel conducted the required investigation.”87
Given that such evidence would not have been admissible under Alabama law,
however, James cannot prove prejudice under Strickland, regardless of the amount
of time counsel spent investigating the victim’s past violent acts.
James argues, nevertheless, that the evidence of Ms. Hall’s past violent acts
would have been admissible; he asserts that, “[u]nder Alabama law, evidence of
specific acts of violence is in fact admissible to show the accused’s knowledge of
such acts and his reasonable apprehension of peril.”88 As an abstract proposition of

87

Doc. no. 25 (Petitioner’s Response), at 39 (alterations supplied).

88

Id. at 41 (citing Wright v. State, 641 So. 2d 1274, 1280 (Ala. Crim. App. 1994)) (alteration
supplied).

98

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 99 of 367

Alabama law, that may be so. But, the eyewitness testimony from trial cannot be
undone with later theories for justification. The state court found that the evidence
unequivocally demonstrated that James forced his way into the apartment in which
Hall had sought refuge, that he was armed with a gun, and that he shot her while she
was attempting to escape.89 In other words, he was the aggressor. Furthermore, there
was no evidence from the two eyewitnesses to the shooting indicating that James
acted in self-defense. Significantly, James also did not present any evidence at the
Rule 32 hearing that he acted in self-defense. See James, 61 So. 3d at 366-67.
As the Supreme Court noted in Lockhart v. Fretwell, 506 U.S. 364 (1993),
“[i]neffective-assistance-of-counsel claims will be raised only in those cases where
a defendant has been found guilty of the offense charged, and from the perspective
of hindsight there is a natural tendency to speculate as to whether a different trial
strategy might have been more successful.” Id. at 372 (alteration supplied). Even
assuming that a different trial strategy would have resulted if trial counsel had
investigated the victim’s background more thoroughly, and even assuming that
counsel had, somehow, managed to place that evidence in front of the jury, James still
suffered no prejudice as required by Strickland. See 466 U.S. at 693 (“[A]ctual
ineffectiveness claims alleging a deficiency in attorney performance are subject to a

89

C.R. Vol. 32, Tab 78, at 65.

99

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 100 of 367

general requirement that the defendant affirmatively prove prejudice.”) (alteration
supplied). The two eye-witnesses to the murder completely refuted any claim of selfdefense. Thus, no basis in fact exists to support a finding that, but for counsel’s
alleged errors, the outcome of the proceeding would have been different. Id. at 694;
see also Lockhart, 506 U.S. at 372 (1993) (“Unreliability or unfairness does not result
if the ineffectiveness of counsel does not deprive the defendant of any substantive or
procedural right to which the law entitles him.”).
Given the totality of the evidence presented to the Rule 32 circuit court, this
court concludes that the determination of the Alabama Court of Criminal Appeals that
James did not raise a reasonable probability of a different result is neither contrary to,
nor an unreasonable application of, clearly established federal law, as determined by
the Supreme Court’s opinion in Strickland v. Washington, supra. 28 U.S.C. §
2254(d)(1). As the Eleventh Circuit has explained,
“no absolute duty exists to investigate particular facts or a certain line
of defense.” Chandler [v. U.S.], 218 F.3d [1305] 1318 [(11th Cir.
2000)]. Instead, a court’s assessment of an attorney’s investigation
hinges on whether that investigation — or the decision to limit it — was
reasonable. Strickland, 466 U.S. at 691, 104 S. Ct. at 2066. Finally, “[a]
decision to limit investigation is ‘accorded a strong presumption of
reasonableness,’” Mills v. Singletary, 63 F.3d 999, 1021 (11th Cir. 1995)
(internal quotation marks omitted), and “to be effective a lawyer is not
required to ‘pursue every path until it bears fruit or until all hope
withers.’” Williams v. Head, 185 F.3d 1223, 1237 (11th Cir. 1999)
(quoting Foster v. Dugger, 823 F.2d 402, 405 (11th Cir. 1987)).
100

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 101 of 367

Puiatti v. Secretary, Florida Dept. of Corrections, 732 F.3d 1255, 1279-1280 (11th
Cir. 2013) (alteration in original). The decision of the Alabama Court of Criminal
Appeals also was not based on an unreasonable determination of the facts in light of
the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d)(2). For all
of those reasons, James is not entitled to habeas relief on this subclaim.
2.

Failure to investigate James’s Atlanta excursion

James includes in this section of his habeas petition an argument that “[t]rial
counsel was also deficient in failing to investigate James’s activities prior to, during,
and after the homicides, including, but not limited to, his whereabouts on the day
preceding the homicide incident.”90 James alleges that a proper investigation would
have led to evidence proving that “prosecution witness Bridget Gregory either lied
or was mistaken when she testified she saw Mr. James sitting on the steps of Faith
Hall’s apartment building with a gun[,] waiting for Hall to arrive home[,] on the
afternoon of Sunday, August 14,” because he had been in Atlanta over the weekend,
and did not return to Birmingham until late on the evening of August 14, 1994.91
The last state court to render a reasoned opinion on this subclaim was the
Alabama Court of Criminal Appeals in its second opinion on collateral appeal,
entered following remand from the Supreme Court’s reversal of the intermediate
90

Doc. no. 11 (Amended Habeas Petition), ¶ 68, at 22 (alteration supplied).

91

Id., ¶ 69, at 22 (alterations supplied).

101

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 102 of 367

appellate court’s original opinion on collateral appeal. See James v. State, 61 So. 3d
357 (Ala. Crim. App. 2010).92
The Court of Criminal Appeals first observed that Gordon Herbert Warren, one
of the attorneys who represented James during his second trial, testified that James
had told him and lead defense counsel, Virginia Vinson, that
he went on a trip with a girlfriend. But, it was for some period of time
other than the time around the crime. Because of the timing it was not
helpful so we did not pursue it. He was talking about a trip the week
before the crime. They were in no way connected.
Id. at 367 (emphasis supplied). The intermediate appellate court then held that:
Based on the information James furnished to his attorneys,
information that was not contradicted in the Rule 32 proceedings,
counsel’s conduct in not pursuing this line of defense was not
unreasonable.
Furthermore, James cannot satisfy the prejudice prong of the
Strickland test. Two eyewitnesses testified that James shot Hall.
Several other witnesses, one a police officer, testified that they saw
James near Hall’s apartment complex at around the time of the shooting.
The evidence against James was overwhelming. Accordingly, any
failure to investigate and to present evidence about where James was on
the day before the shooting resulted in no prejudice to James.
Id. (emphasis supplied).
This court finds that the state court’s application of Strickland was reasonable.
Mr. Warren’s uncontradicted summary of James’s description of his whereabouts
92

The state intermediate appellate court’s original opinion was reported as James v. State,
61 So. 3d 332 (Ala. Crim. App. 2006), rev’d, Ex parte James, 61 So.3d 352 (Ala. 2009).

102

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 103 of 367

does not demonstrate that his actions, or those of his co-counsel, were objectively
deficient. Trial counsel had a valid reason for not pursuing this line of inquiry. Even
if James could demonstrate deficient performance, he still has failed to demonstrate
prejudice: i.e., that presentation of this evidence — if such evidence even exists —
would likely have made a difference in the outcome of the proceedings.93 James is
not entitled to habeas relief on this subclaim.
3.

Failure to investigate James’s mental health

James next contends that he was prejudiced by counsel’s failure to investigate
and present evidence that he suffers from various mental issues (principally, a
“dissociative reaction”),94 because it “would have destroyed the prosecution’s theory
that [he] entered the apartment with the intent to commit an assault on Ms. Hall. This
was a death penalty case solely because the jury concluded that [he] committed

93

James asserts that “the appellate court went a step farther and held in the alternative that
James could not satisfy the prejudice prong of the Strickland test because two witnesses testified they
saw James shoot Hall.” Doc. no. 25 (Petitioner’s Response) at 46. He argues that “the appellate
court misses the point. One of those two witnesses testified she had seen James outside the
apartment . . . the day before the shootings.” Id. Thus, according to James, if trial counsel had
established that James was in Atlanta the day before the shootings, it would have undermined the
testimony of witness Bridget Gregory. Id. It is James who “misses the point,” however. Even if he
could have shown that Gregory was mistaken in that aspect of her testimony, it remains the fact that
two eyewitnesses testified that he shot the victim while she was running away. Thus, James cannot
show prejudice under Strickland concerning the failure to search for evidence regarding his
whereabouts the day prior to the shooting.
See doc no. 11 (Amended Habeas Petition), ¶¶ 70-71, at 22-23. James alleges that the
existence of his mental problems was readily available to defense counsel, and they could have
discovered it by interviewing people in James's life, medical experts, and reviewing medical records.
Id.
94

103

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 104 of 367

burglary-felony murder.”95
Specifically, James alleges that a competent investigation by counsel would
have shown that, even though he carried a .38 caliber revolver into the apartment of
Tammy Sneed on August 15, 1994, he had no intent to assault or shoot Faith Hall.
Instead, he just wanted to talk about their relationship, as demonstrated by the fact
that he, allegedly, “promptly put the gun away.” It was only when he turned to leave
the apartment that
Ms. Hall then attacked him with a knife; that Mr. James reacted
instinctively to this assault by firing his weapon at Ms. Hall; that . . . Mr.
James suffered a dissociative reaction and lost contact with reality; that
Mr. James did not intend to kill Ms. Hall and did not even realize he had
done so until he went to the back door to leave. . . .96
The Rule 32 circuit court addressed the foregoing contentions by emphasizing
that James’s trial attorneys had attempted to do exactly what he now contends they
should have done: that is, negate the burglary element of the capital murder charge
by demonstrating that, when James forced his way into the apartment in which Faith
Hall had sought refuge, he did not do so with the intent to harm her.
In light of the evidence presented at trial and the evidentiary
hearing, the Court finds that trial counsel’s performance during the guilt
phase portion of the trial was reasonable. At trial, trial counsel’s
strategy was to show that James had not committed a burglary and
therefore, was not guilty of capital murder. (RTR. 194-195) Trial
95

Doc. no. 25 (Petitioner’s Response), at 46-47 (alterations supplied).

96

Id., ¶ 70, at 22-23.

104

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 105 of 367

counsel attempted to show that after entering the apartment, James put
his gun away. (RTR. 145) Essentially, trial counsel’s strategy was to
negate the burglary element of the capital murder charge by
demonstrating that at the time James entered the apartment he did not
have the intent to harm Ms. Hall. In light of the evidence, such a
strategy was reasonable. Furthermore, because witnesses identified
James as the initial aggressor and the shooter, any self-defense theory
would have been futile. In sum, the Court finds that James has failed to
demonstrate that trial counsel’s performance was deficient as required
by Strickland.
C.R. Vol. 32, Tab 78, at 67-68 (emphasis supplied).
However, the Alabama Court of Criminal Appeals was the last state court to
issue an opinion on the present claim. That Court’s second opinion on collateral
appeal, following remand from the State Supreme Court, focused upon James’s
contention that he suffered from “a dissociative reaction” that negated an intent to kill
the victim. The intermediate appellate court’s discussion of that contention began
with quotations from the Rule 32 circuit court’s findings.
“James also alleges that trial counsel should have
investigated and presented evidence that he suffered [from]
a dissociative reaction and did not intend to kill the victim.
James contended that such information could have been
gleamed from friends and family members, medical
records; and/or by mental health professionals. James
presented testimony from several family members at the
Rule 32 hearing. However, none of the family members
ever testified that Mr. James suffered from mental health
problems or dissociative reactions.
“. . . Moreover, a psychological report conducted by
Dr. Wendy Rebert prior to the first trial indicated that Mr.
105

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 106 of 367

James exhibited ‘no signs or symptoms associated with a
major psychiatric disorder such as psychosis, a thought
disorder, or a major effective disorder.”
(C.R. 118.)
Apparently, postconviction counsel relied on a written notation
in [Virginia] Vinson’s case file. In the margin of one of her documents,
Vinson wrote, “In a trance.” However, the following occurred during
her examination:
“[Postconviction counsel]: In the left-hand margin, there
are three words.
“[Vinson]: I am sorry. ‘In a trance.’
“[Postconviction counsel]: ‘In a trance.’
“[Vinson]: Yes.
“[Postconviction counsel]: So was he stating that he was
in a trance or an associated state at the time of the crime?
“[Vinson]: I don’t know if that refers to him or her.”
(R. 214–15.)
James did not testify at the postconviction hearing. Also, neither
James’s aunt, nor his brother, nor his sister testified that James had any
mental problems. There was no evidence that James was in a “trance”
at the time of the shooting[,] or that he had any type of mental disorder.
Accordingly, James failed to meet his burden of proof in regard to this
claim. See Rule 32.3, Ala. R.Crim. P.
Also, the record shows that in 1995[,] before James’s first trial[,]
he was evaluated by Dr. Wendy M. Rebert, a clinical psychologist. Dr.
Rebert performed the Competency to Stand Trial Assessment Instrument
(“CAI”) and the Wechsler Adult Intelligence Scale–Revised test
106

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 107 of 367

(“WAIS–R”). James scored a verbal IQ of 102.[FN7] It was Dr. Rebert’s
opinion that James was competent to stand trial and that James was not
suffering from any mental defect at the time he shot and killed Hall.
Vinson also testified that she was familiar with Dr. Rebert, that she had
never found any reason to doubt her judgment, and that she always
found Dr. Rebert to be fair and unbiased. Vinson testified she did not
think it was necessary to consult another expert based on Dr. Rebert’s
examination. “Counsel is not ineffective for relying on an expert’s
opinion.” Smith v. State, [Ms. CR–05–0561, September 26, 2008] —
So. 3d —, –– (Ala. Crim. App. 2008).
FN7. The scores on this test were consistent with an IQ test that had
been administered to James when he was approximately 10 years of
age. James’s performance IQ when he was 10 years old was 102.
(C.R. 2111.)

James appears to argue in his brief that he is retarded. The
record clearly shows that James does not meet the most liberal definition
of mental retardation adopted by the Alabama Supreme Court in Ex
parte Perkins, 851 So. 2d 453, 455–56 (Ala. 2002).
“[T]rial counsel had no reason to retain another
psychologist to dispute the first expert’s findings. ‘A
postconviction petition does not show ineffective
assistance merely because it presents a new expert opinion
that is different from the theory used at trial.’ State v.
Combs, 100 Ohio App. 3d 90, 103, 652 N.E.2d 205, 213
(1994). See also State v. Frogge, 359 N.C. 228, 244–45,
607 S.E.2d 627, 637 (2005). ‘Counsel is not ineffective for
failing to shop around for additional experts.’ Smulls v.
State, 71 S.W.3d 138, 156 (Mo. 2002). ‘Counsel is not
required to “continue looking for experts just because the
one he has consulted gave an unfavorable opinion.”
Sidebottom v. Delo, 46 F.3d 744, 753 (8th Cir. 1995).’
Walls v. Bowersox, 151 F.3d 827, 835 (8th Cir. 1998).”
Waldrop v. State, 987 So. 2d 1186, 1193 (Ala. Crim. App. 2007).
Furthermore, both Vinson and Warren testified that in their
107

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 108 of 367

dealings with James they had no reason to doubt his mental health. In
both James’s first trial and his second trial he filed numerous pro se
motions and often spoke with the circuit court. James was articulate and
clearly had a grasp of the legal system and his situation. There is no
indication in the numerous documents authored by James and his oral
dealings with the circuit court that James had any mental-health issues.
In fact, after James’s first capital-murder conviction he requested that
the circuit court allow him to represent himself on appeal.[FN8] He
informed the court that he was familiar with the appeal process because
he had handled two of his previous appeals and one had resulted in a
remand. The circuit court allowed James to represent himself and
appointed advisory counsel. (R. 597.) Sometime later in the appeal
process James did move that counsel be appointed.
FN8. We take judicial notice of our records related to the appeal of
James’s first capital-murder conviction in CR–96–0405. See Nettles
v. State, 731 So. 2d 626 (Ala. Crim. App. 1998).

“[N]either [of defendant’s attorneys] witnessed
anything in their frequent and extensive dealings with [the
defendant] to indicate that he was afflicted with any mental
disorder that might have been relevant to the murder. Cf.
Housel v. Head, 238 F.3d 1289, 1296 (11th Cir. 2001)
(counsel not ineffective for failing to pursue mental health
investigation where counsel knew the defendant had
suffered a head injury in an automobile accident, but
observed nothing unusual about the defendant’s behavior,
testifying that he was one of counsel’s ‘most intelligent’
clients); Holladay v. Haley, 209 F.3d 1243, 1252 (11th Cir.
2000) (counsel not ineffective for failing to pursue mental
health investigation where the petitioner did not tell
counsel of his stay at a mental hospital and counsel found
the petitioner to be cooperative, articulate, and affable);
Williams [v. Head], 185 F.3d [1223] at 1239 [(11th Cir.
1999)] (counsel not ineffective for failing to pursue mental
health investigation where counsel had no problems
communicating with the petitioner, found the petitioner to
be intelligent, attentive, cooperative, polite, and interested
108

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 109 of 367

in what was happening, to ask intelligent questions and to
respond intelligently to counsel’s questions).”
Jefferson v. Hall, 570 F.3d 1283, 1304–05 (11th Cir. 2009). See also
Breland v. State, 285 Ga. App. 251, 253, 648 S.E.2d 389, 391–92
(2007). “[T]here is nothing in the record to suggest that [the
defendant’s] trial counsel ignored matters that should reasonably have
alerted them to [the defendant’s] mental health or to the value of
contacting persons who might have information about [the defendant’s]
background that might aid in his defense.” Jones v. State, 753 So. 2d
1174, 1197 (Ala. Crim. App. 1999). Accordingly, James failed to prove
by a preponderance of the evidence that his attorneys were ineffective
for failing to investigate and present evidence of his alleged
“dissociative reaction.”
James v. State, 61 So. 3d 357, 368-70 (Ala. Crim. App. 2010) (alterations and
emphasis added).
This court finds that the application of the Strickland standards by the Rule 32
circuit court and the Alabama Court of Criminal Appeals was reasonable. The state
courts found an utter lack of real evidence to support this claim. The determination
that trial counsel could not have been deficient in failing to present evidence that did
not exist was entirely reasonable. Stated differently, James has not demonstrated that
either state court’s adjudication of this claim resulted in a decision that was based
upon an unreasonable determination of the facts in light of the evidence presented in
the state court. 28 U.S.C. § 2254(d)(2). Consequently, he is not entitled to habeas
relief.

109

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 110 of 367

Failure to contact, interview, and investigate the State’s witnesses

4.

James next claims that his trial attorneys provided constitutionally ineffective
assistance by failing to contact, interview, and investigate the State’s principal
witnesses.97 “As a consequence, the defense was unable to effectively cross-examine
these witnesses at trial or challenge their credibility.”98 He also alleges that the state’s
witnesses were “biased” against him and, therefore, “untrustworthy.”99
The last state court to issue a reasoned decision on this allegation was the Rule
32 circuit court, which found that “James did not call any of the State’s principal
witnesses at the evidentiary hearing. James also failed to question trial counsel
regarding this claim. In sum, James did not present any evidence that supports his
claim.”100
Because the state court found a complete lack of evidence to support James’s
allegations, the decision denying the claim was reasonable. At most, James argues
that an adequate investigation would have revealed credibility issues with the State’s
witnesses, implying that, perhaps, the jury would have been less inclined to accept
their testimony. Such speculation is not sufficient to support the prejudice prong of
the Strickland standard. Instead, a habeas petitioner has the burden of affirmatively
97

Doc. no. 11 (Amended Habeas Petition), ¶ 72, at 23.

98

Id.

99

Id.

100

C.R. Vol. 32, Tab 78, at 67.

110

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 111 of 367

demonstrating that “there is a reasonable probability, but for counsel’s unprofessional
errors, the results of the proceeding would have been different.” Strickland, 466 U.S.
at 694. When considering the totality of the evidence against James, the likelihood
that the outcome would have been different is not great. See Brownlee v. Haley, 306
F.3d 1043, 1060 (11th Cir. 2002).101
5.

Failure to investigate defense witnesses

James also alleges that his trial attorneys failed to contact, interview, and
investigate numerous defense witnesses.102 Such an investigation, he claims, would
have uncovered evidence establishing “the volatile nature of the relationship between
Mr. James and Ms. Hall,” as well as James’s various, ill-defined, mental
“problems.”103 Those allegations have been sufficiently addressed in the previous
Parts of this opinion.
That is not the end of discussion, however, because James also asserts in this
same subclaim that his trial attorneys rendered constitutionally ineffective assistance
by failing to gather relevant mitigating evidence, including evidence that he “had no
history of violence, was unusually mild-mannered, avoided arguments, and had never

101

It also should be noted that James does not allege at any point in his petition or briefs that
he is actually innocent of the crime of conviction.
102

Doc. no. 11 (Amended Habeas Petition), ¶ 73, at 24.

103

Id., ¶ 73.

111

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 112 of 367

previously struck a woman or been in a fistfight, even as a child.”104 According to
James, “[t]his evidence would not only have shown that the killing of Faith Hall was
out of character, but would also have underscored the fact that the killing resulted
from the volatile nature of Mr. James’s relationship with Ms. Hall and his underlying
mental impairments.”105 Even if those allegations are true, James still has failed to
show that the Rule 32 circuit court unreasonably applied the prejudice prong of the
Strickland standard when it determined that he failed to prove there was a reasonable
probability that, if his attorneys had investigated, developed, and presented such
evidence at trial, the jury would have returned a verdict other than “guilty.”
Failure to investigate “the apparent” contamination of the crime scene

6.

James next asserts that his trial attorneys provided constitutionally ineffective
assistance by “failing to investigate or challenge the apparent contamination of the
crime scene by law enforcement officers and technicians following the homicide.”106
“Such an investigation,” James argues, “would have shown that important evidence
was not collected or preserved for testing, that evidence which was obtained was not
properly collected or preserved, and that the chain of custody of that evidence could
not properly be established.”107
104

Id., ¶ 75, at 25.

105

Id. (alteration supplied)

106

Id. ¶ 76, at 25 (emphasis supplied).

107

Id.

112

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 113 of 367

Respondents assert that this subclaim was procedurally defaulted: i.e., it was
dismissed by the Rule 32 circuit court for failing to comply with the specificity and
full factual pleading requirements of Alabama Rules of Criminal Procedure 32.3 and
32.6(b). Moreover, say respondents, the contention was not fairly presented as a
federal claim in state court, and fails to state a claim for relief under Rule 2(c) of the
Rules Governing Section 2254 Cases in the United States District Courts.108
a.

Procedural default

As previously discussed in Part III.B.5.d of this opinion, supra, the Eleventh
Circuit has ruled that a state court’s dismissal of a claim under Alabama Rule of
Criminal Procedure 32.6(b) is a ruling “on the merits,” which entitles James to a 28
U.S.C. § 2254(d) review of his contentions.109
b.

Merits

AEDPA precludes habeas relief on a claim previously adjudicated in state
court, unless it is determined that the state court’s decision “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States,” or it is found that the
decision “was based on an unreasonable determination of the facts in light of the
108

Doc. no. 19 (Respondents’ Answer), at 15-17.

109

See Borden v. Allen, 646 F.3d 785, 812 (11th Cir. 2011) (holding that an Alabama court’s
decision denying relief, or dismissing a claim, on the basis of the petitioner’s failure to comply with
Ala. R. Crim P. 32.6(b) “is also a ruling on the merits” and, therefore, does not necessarily foreclose
review in a federal habeas proceeding).

113

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 114 of 367

evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d); see also,
e.g., Kormondy v. Secretary, Florida Department of Corrections, 688 F.3d 1244,
1273-74 (11th Cir. 2012).
Given the brevity of James’s statement of this subclaim, the fact that he
couches it in terms of an “apparent contamination of the crime scene,” the fact that
no evidence of actual contamination was presented at the hearing on his Rule 32
petition, and the Rule 32 circuit court’s dismissal of the claim for James’s failure to
comply with the specificity and full factual pleading requirements of Alabama Rules
of Criminal Procedure 32.3 and 32.6(b), this court can find no prejudice from the
alleged failure of trial counsel to investigate “apparent contamination.”
The last state court to issue a reasoned decision on this allegation was the Rule
32 circuit court, which held that
James did not allege what evidence should have been collected and
preserved, what evidence was improperly collected and preserved, or
what evidence for which the chain of custody could have been
established. James also failed to show how he was prejudiced by
counsel’s deficiencies. Accordingly, this part of the claim is summarily
dismissed because it was not pleaded with the factual specificity
required by Ala. R. Crim. P. 32.6(b).
C.R. Vol. 32, Tab. 78, at 10.
The Eleventh Circuit held in Powell v. Allen, 602 F.3d 1263 (11th Cir. 2010),
that
114

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 115 of 367

AEDPA limits our review to whether the state court’s
determination that [the habeas petitioner] failed to plead sufficient facts
in his Rule 32 petition to support a claim of ineffective assistance of
counsel was contrary to or an unreasonable application of Supreme
Court precedent. Thus, we look only to the allegations in [the
petitioner’s] Rule 32 petition and whether those allegations sufficiently
state a claim for ineffective assistance of counsel.
Id at 1273 (footnote omitted, alterations supplied). The Rule 32 circuit court’s
determination of a lack of evidence to support James’s claim of “apparent
contamination” of the crime scene was reasonable in light of the evidence presented
in the state court proceedings. Even if James had shown specific evidence of actual
contamination of the crime scene, he still failed to show that his trial attorneys’ failure
to investigate the issue prejudiced him. See, e.g., Reed v. Secretary, Florida
Department of Corrections, 593 F.3d 1217, 1240 (11th Cir. 2010).
In summary, none of the allegations discussed in Parts V.C.1 through 6 of this
opinion, regardless of whether they are considered individually or collectively, is
sufficient to establish a claim of constitutionally ineffective assistance of counsel
under the Strickland standards. The state courts’ application of Strickland was
reasonable in each instance, and habeas relief on each facet of the claims discussed
above is due to be denied.

115

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 116 of 367

D.

Failure to Procure Expert Assistance110
James next alleges that his trial attorneys “performed deficiently in failing to

procure the assistance of any experts in forensic issues, such as a criminalist or
ballistics expert, or of any mental health professional, such as a psychiatrist,
psychologist, neuropsychologist, or social history expert.”111
Failure to obtain forensic experts

1.

James argues that “a criminalist should have been retained to examine the
crime scene, the photographs of the crime scene taken by police technicians, and the
evidence itself to analyze and explain to the jury the defects in the collection and
preservation of evidence.”112 He contends that photographs of the crime scene might
have depicted the knife that Faith Hall purportedly used when allegedly attacking
him.113
James also contends that an expert in firearms, ballistics, and tool marks should
have been retained to analyze the bullets found at the scene, or in the victim’s body,
and to explain to the jury certain discrepancies relating to those bullets, as well as
discrepancies relating to the weapon that Bridget Gregory testified she had seen

110

Claim I.D: see doc. no. 11 (Amended Habeas Petition), ¶¶ 78-84, at 26-29.

111

Doc. no.11 (Amended Habeas Petition), ¶ 78, at 26.

112

Id., ¶ 79.

113

Id.

116

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 117 of 367

James holding prior to the homicide.114 James asserts that such forensic testimony
might have assisted in establishing a case for self-defense, imperfect self-defense, or
reduced culpability, and may have undermined the prosecution’s theory that he was
stalking Hall prior to the homicide.115
a.

Procedural default

Respondents contend that these forensic expert claims were procedurally
defaulted, because the Rule 32 circuit court held that James failed to comply with the
specificity and full factual pleading requirements of Alabama Rules of Criminal
Procedure 32.3 and 32.6(b).116 Respondents also argue this claim is procedurally
defaulted because James failed to fairly present it as a federal claim in the state court
proceedings, and he should be barred from raising it now due to the statute of
limitations and successive petition bars of state law. Finally, respondents argue this
claim “is conclusory in nature and fails to state a valid claim for relief under 28
U.S.C. § 2254.”117 As this court has previously noted, however, Borden v. Allen, 646
F.3d at 816, disposes of respondents’ arguments concerning procedural default, and
requires this court to consider the merits of this claim.

114

Id., ¶ 80, at 26.

115

Id., ¶¶ 79-80, at 26.

116

Doc. no. 19 (Respondents’ Answer), at 18-19.

117

Id. at 21.

117

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 118 of 367

b.

Merits

The last state court to issue a reasoned decision on this subclaim was the Rule
32 circuit court, which held that James’s claim was
insufficiently pleaded because he failed to state what the significance of
the conclusion that these bullets did not match would be or how the
credibility of witness Gregory would have been undermined. James has
not met his burden of pleading under Rule 32.6(b). Moreover, James
failed to provide any facts indicating that trial counsel could have had
an expert appointed by the trial court.
C.R. Vol. 32, Tab 78, at 12. In addition, that court dismissed the subclaim pursuant
to Alabama Rule of Criminal Procedure 32.7(d), because the subclaim was deemed
to be “without merit.” Id. at 29. This court finds those rulings to be reasonable.
James failed to demonstrate prejudice under Strickland in either the Rule 32
proceedings, or in the briefs and materials submitted here, in support of his amended
habeas petition. He merely speculates that a forensic expert’s examination of the
crime scene photographs might have revealed that Faith Hall possessed a knife, or
some similar object, but such speculation is not enough to establish, as Strickland
requires, that the outcome of the trial, more likely than not, would have been
different, but for the error of his trial attorneys.
In addition, James failed to demonstrate prejudice with respect to Bridget
Gregory’s testimony about guns. He argues that a ballistics expert could have
explained the difference between a 9 millimeter and a .38 caliber round to the jury,
118

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 119 of 367

which “would have undermined the prosecution’s case by creating a reasonable doubt
as to [his] culpability.”118 Missing from that argument, however, is any supposition
that such evidence would have had any likelihood of changing the outcome of the
trial. Put simply, the issue of whether James had a different caliber weapon in his
possession on the day before the murder is akin to the question of whether James was
actually in Atlanta on some date prior to the crime: that is, it fails to negate the
eyewitness testimony concerning the murder itself. The Rule 32 circuit court’s
finding that these allegations did not meet James’s burden under Rule 32.6(b) of the
Alabama Rules of Criminal Procedure, therefore, is not “so lacking in justification”
that “there was an error . . . beyond any possibility for fairminded disagreement.”
Anderson v. Secretary, Florida Department of Corrections, 752 F.3d 881, 903 (11th
Cir. 2014) (quoting Harrington v. Richter, 562 U.S. 86, —, 131 S. Ct. 770, 786-87
(2011)).
2.

Failure to obtain mental health experts

James next argues that his trial attorneys also rendered constitutionally
deficient performance by
failing to request funds for or retain the services of a forensic
psychiatrist, a clinical psychologist, a neuropsychologist, or a social
history expert. Counsel was actually aware or should have been aware
of significant information suggesting that Mr. James suffered from post118

Doc. no. 11 (Amended Habeas Petition), ¶ 80, at 26 (alteration supplied).

119

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 120 of 367

traumatic stress disorder and a combination of other mental and
emotional problems which rendered him unable to form and prevented
him from actually forming the mental states required for capital murder.
Doc. no. 11 (Amended Habeas Petition),¶ 81, at 26-27.
Respondents contend that the Alabama Court of Criminal Appeals denied this
subclaim on the merits, and that James cannot demonstrate that the Court’s decision
was contrary to, or involved an unreasonable application of, clearly established
federal law, or that it was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceedings.119 See 28 U.S.C. § 2254(d).
The last state court to issue a reasoned decision on this subclaim was the Rule
32 circuit court, which reviewed the Rule 32 hearing testimony of Counsuela James
(James’s aunt) and Yosandra Yvette Craig (James’s sister) and noted that neither of
those witnesses claimed that James had any mental illness or problems.120 That court
also reviewed the testimony of trial attorney Gordon Herbert Warren, who stated that
he had no reason to suspect that James suffered from any form of mental disease or
defect.121 In addition, the Rule 32 court reviewed two documents that James
presented at the Rule 32 hearing on this issue. The first — a psychological review
conducted in April 1998 by Richard Holbrook, a Licensed Professional Counselor —

119

Doc. no. 19 (Respondents’ Answer), at 21-22.

120

C.R. Vol. 32, Tab 78, at 70-71.

121

Id. at 71.

120

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 121 of 367

concluded that James did not suffer from any significant mental health problems, but
did reference that he exhibited “schizoid characteristics,” and “was withdrawn.”122
James did not call Mr. Holbrook to testify, however.123 The court noted that
“numerous other psychological reviews conducted before and after [Mr. Holbrook’s]
April 30, 1998 review indicated that James did not suffer from any mental health
problems.”124
James introduced copies of two “MMPI-2” tests that had been administered to
him, but did not present any testimony or evidence demonstrating that the results
obtained by administration of those assessment instruments were valid, and did not
call the test administrators to testify. Instead, he relied upon an isolated passage in
one of the text documents that indicated he “may exhibit a thought disorder.”125
Finally, the Rule 32 circuit court noted the testimony of lead trial attorney
Virginia Vinson, to the effect that she had relied on the psychiatric evaluation of Dr.
Wendy Rebert, concluding that James showed no signs of mental illness, when
making her decision to not develop evidence of mental illness for presentation at
trial.126

122

Id. at 72.

123

Id.

124

Id. at 73 (alteration supplied).

125

Id.

126

C.R. Vol. 32, Tab 78, at 74.

121

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 122 of 367

After taking all of the foregoing considerations into account, the Rule 32
circuit court held that “the evidence and testimony presented during the evidentiary
hearing does not support [James’s] allegation that trial counsel was ineffective in
investigating and presenting evidence of mental illnesses.”127 The court concluded
that James had failed to satisfy either prong of the Strickland standard.128 The court
also held that the decision of trial counsel to forgo the presentation of mental health
evidence was reasonable under the circumstances, because Virginia Vinson was
not required to search for a psychiatrist or psychologist until she [was]
able to find one who [would] testify favorably. Nor was her
performance deficient because she failed to discover the two MMPI-2’s,
and the thirty-day psychological review introduced by Mr. James’s [sic].
Based on her review of the psychological report prepared by Dr. Rebert
and her own observations of Mr. James, it was entirely reasonable for
her not to pursue other possible sources of mental health evidence.
C.R. Vol. 32, Tab 78, at 74-75 (alterations supplied). The Rule 32 circuit court
concluded by saying that, even if James could satisfy Strickland’s deficient
performance prong, he still could not establish prejudice, because he failed to present
any expert testimony that he actually suffered from a mental illness.129
This court finds the decision of the Rule 32 circuit court to be a reasonable
application of Strickland. When evaluating a Strickland claim, a reviewing court

127

Id.

128

Id. at 74-75.

129

Id. at 76.

122

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 123 of 367

must consider whether the evidence would have prompted a reasonable attorney to
investigate further. Williams v. Allen, 542 F.3d 1326, 1337 (11th Cir. 2008). The
evidence placed before the Rule 32 circuit court which suggested that James may
have had mental problems, if any, was not sufficiently significant to lead a reasonable
attorney to retain mental health experts. Accordingly, trial counsel could not have
been deficient in failing to do so.
Nevertheless, James states in his amended habeas petition that his attorneys
testified about his erratic behavior, and he then asserts that such behavior was
“symptomatic of front lobe brain damage and a number of psychiatric disorders
ranging from depression to schizophrenia.”130
He also states that Virginia Vinson testified that she was aware that James
suffered childhood physical abuse, and then asserts: “[I]t has long been recognized
that childhood physical abuse and maltreatment are closely associated with posttraumatic stress disorder.”131 James adds that his attorneys’ alleged knowledge of his
parents’ substance abuse and other problems “practically screamed that further mental
health investigation needed to be done.”132
Such rampant speculation is not a rational basis for contending that his trial

130

Doc. no. 11 (Amended Habeas Petition), ¶ 82, at 27.

131

Id. (alteration supplied).

132

Id. at 28.

123

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 124 of 367

attorneys were ineffective for not running down this rabbit hole. “Importantly, for a
federal habeas court to find a state court’s application of Supreme Court precedent
‘unreasonable,’ it is not enough that the state court’s adjudication be only ‘incorrect
or erroneous’; it must have been ‘objectively unreasonable.’ Borden v. Allen, 646
F.3d 785, 817 (11th Cir. 2011) (quoting Wiggins v. Smith, 539 U.S. 510 520-21
(2003)).
Strickland required the Rule 32 circuit court to evaluate the behavior of
petitioner’s trial attorneys in comparison to the manner in which reasonable attorneys,
not reasonable mental health professionals, would have acted under the same or
similar circumstances. In that regard, the Eleventh Circuit has said:
When, however, “strategic choices [are] made after less than complete
investigation [they] are reasonable precisely to the extent that reasonable
professional judgments support the limitations on investigation.” Id. at
690–91, 104 S. Ct. [at 2066]. Thus, at bottom, “counsel has a duty to
make reasonable investigations or to make a reasonable decision that
makes particular investigations unnecessary. In any ineffectiveness
case, a particular decision not to investigate must be directly assessed
for reasonableness in all the circumstances . . . .” Id. at 691, 104 S. Ct.
[at 2066]. This means that when we assess the attorney’s decision not
to investigate, we “must consider . . . whether the known evidence
would lead a reasonable attorney to investigate further.” Wiggins v.
Smith, 539 U.S. 510, 527, 123 S. Ct. 2527, [2538,] 156 L. Ed. 2d 471
(2003).
Borden v. Allen, 646 F.3d at 818-19 (quoting Powell v. Allen, 602 F.3d 1263, 1273)
(11th Circ. 2010)) (first alteration in original, all other alterations supplied).
124

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 125 of 367

The Rule 32 circuit court considered the “known evidence” when assessing
whether the decision of petitioner’s trial attorneys was reasonable. Gordon Herbert
Warren testified that, despite James’s erratic behavior at trial, he did not think that
behavior was due to any mental health problems, but that James was, instead, angry
and agitated about the trial, and the prospect of his punishment.133 Similarly, Virginia
Vinson acted reasonably when relying upon the psychiatric report of Dr. Wendy
Rebert, conducted prior to James’s first trial, and which concluded that he showed
“no signs or symptoms associated with a major psychiatric disorder such as a
psychosis, a thought disorder, or a major effective disorder.”134
Given the known evidence, and the fact that all indicia before James’s trial
attorneys refuted any claim of a mental disease or defect, their decision to not expend
scarce resources in an investigation of their client’s mental health was not objectively
unreasonable. See e.g., Terrell v. GDCP Warden, 744 F.3d 1255, 1264 (11th Cir.
2014) (holding that trial counsel’s failure to engage the services of an expert did not
prejudice defendant, because the “likelihood of a different result [was not]
substantial”) (citations omitted). This claim does not merit habeas relief.

133

See C.R. Vol. 32, Tab 78, at 71.

134

Id. at 66-67.

125

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 126 of 367

E.

Failure to Investigate or Challenge Petitioner’s Competence to Stand
Trial135
James next asserts that his trial attorneys “knew or should have known that [he]

was not competent to stand trial.”136 In addition to citing various alleged mental
problems, James asserts that his attorneys were aware that he had been involved in
an altercation at the jail during the weekend prior to the beginning of trial;
specifically, he alleges that he was the victim of an attempted sexual assault.137 James
also argues that counsel should have known that he was not competent to stand trial
based upon his erratic behavior, and the bizarre statements he made prior to and at the
beginning of trial.138 “Accordingly,” argues James, “it was incumbent upon counsel
to retain expert assistance to determine whether [he] was unable to assist in his own
defense due to mental disease or defect.”139
Respondents contend that this subclaim was denied on the merits by the
Alabama Court of Criminal Appeals, and that James cannot demonstrate that its
decision was contrary to, or involved an unreasonable application of clearly
established federal law, as determined by the Supreme Court of the United States, or
that the decision was an unreasonable determination of the facts in light of the
135

Claim I.E: see doc. no. 11 (Amended Habeas Petition), ¶¶ 85-90, at 29-31.

136

Id., ¶ 86, at 29 (alteration supplied).

137

Id.

138

Id.

139

Id. ¶ 88, at 30 (alteration supplied, emphasis in original).

126

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 127 of 367

evidence presented in the state court proceedings.140 28 U.S.C. § 2254(d).
The last state court to issue a reasoned decision on this claim was the Alabama
Court of Criminal Appeals, which held in its original opinion on collateral appeal
that:
In this case, although the appellant alleged that he had several
mental problems, he did not allege any specific facts in his petition to
indicate that he did not have the ability to assist in his defense and that
he was not able to consult with his trial counsel to a reasonable degree
of rational understanding of the facts of his case and the legal
proceedings against him. Therefore, he has not satisfied his burden of
pleading and proof as to this claim pursuant to Rules 32.3 and 32.6(b),
Ala. R. Crim. P.
Moreover, we have diligently examined the record from the
appellant’s previous appeals. In 1996, before his first trial, the appellant
was evaluated by Dr. Wendy Rebert, a clinical psychologist, who
administered the Competency to Stand Trial Assessment Instrument
(“CAI”) and the Wechsler Adult Intelligence Scale–Revised (“WAISR”). She noted that the appellant exhibited “no signs or symptoms
associated with a major psychiatric disorder such as psychosis, a thought
disorder, or a major affective disorder” and that he scored a verbal IQ of
102 on the WAIS–R. (C.R. 1696–97.) She also concluded that the
appellant was competent to stand trial, specifically finding that he
“appears to be bright enough and motivated enough to do a good job of
assisting his attorney in his own defense.” (C.R. 1699.)
Also, the record from his 1999 direct appeal indicates that he was
keenly aware of what was occurring during the trial and was most
definitely an active participant in the trial proceedings. In fact, he filed
several relevant pro se motions during the proceedings.
Finally, both of the appellant’s trial attorneys executed affidavits.
140

Doc. no. 19 (Respondents’ Answer), at 23-24.

127

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 128 of 367

In her affidavit, Virginia Vinson stated, in part:
“Joe seemed to understand the charges against him and
possible penalty. He knew that he was charged with
capital murder and that he could get the death penalty
again. He understood that I was his attorney and what my
job was. He understood the job of the prosecutors. I was
never concerned about his mental competency. . . .
“. . . .
“I discussed Joe’s mental competency with Brower
[the appellant’s attorney at his first trial] and Brower had
no concerns either. That’s something I routinely look
at—to see whether a defendant needs a psychological
evaluation. One of the reasons I did not seek a competency
evaluation was that there was one from the first trial and
Joe was found competent then.”
(C.R. 1172–73.) In his affidavit, Gordon Warren stated, in part:
“I never saw any evidence of mental health problems
in Joe. I never had any actions or words from Joe that
made me feel uneasy about his competence. I simply saw
him as an angry individual who wanted to control
everything. The lawyer has to be in control. I think Joe
thought he was going to manipulate Judge Vinson. But,
she did not allow that. She had a lot more contact with Joe
than I did and, at times, there was ‘head butting’ because
Joe wanted to do everything himself. No one else ever
indicated they thought Joe had any mental health problem.
Sometimes, the judge will say ‘get your client evaluated’ or
will order an evaluation of the defendant him or herself.
Nothing like that occurred here.”
(C.R. 1186.)
Despite his bare allegations to the contrary, there was not any
128

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 129 of 367

indication that the appellant was not competent at the time of his second
trial. Rather, as set forth herein, the records from his previous appeals
directly refute his claim.
For these reasons, the appellant is not entitled to relief on this
claim.
James v. State, 61 So. 3d 332, 345-46 (Ala. Crim. App. 2006), rev’d on other grounds
sub nom. Ex parte James, 61 So. 3d 352 (Ala. 2009) (alteration in original).
The Alabama Court of Criminal Appeals also noted that the Rule 32 circuit
court had found, based on the testimony of James’s attorney, Gordon Herbert Warren,
that he “never saw any indication that James was mentally ill or incompetent to stand
trial.”141 Further, both trial attorneys had relied on the psychiatric evaluation
conducted by Dr. Wendy Rebert prior to the first trial, which concluded that James
was not mentally incompetent.142 Following remand from the Alabama Supreme
Court, the Alabama Court of Criminal Appeals concluded that there “is nothing in the
record to suggest that [the defendant’s] trial counsel ignored matters that should have
reasonably alerted them to [the defendant’s] mental health. . . ” James, 61 So. 2d 357,
369 (Ala. Crim. App. 2010) (alterations in original) (quoting Jones v. State, 753 So.
2d 1174, 1197 (Ala. Crim. App. 1999)).

141

C.R. Vol. 32, Tab 78, at 71.

142

Id. at 75 (observing that lead defense attorney Virginia Vinson had testified that she “did
not challenge James’s competency or pursue any mental health defenses or mitigating evidence
based on her discussions with James and the psychological evaluation conducted by Dr. [Wendy]
Rebert”), (alteration supplied).

129

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 130 of 367

James states in paragraph number 90 of his amended habeas petition that he
was prejudiced by his attorneys’ failure to investigate and question his competency
to stand trial, “because it is at least reasonably probable that a more favorable
outcome would have resulted had counsel performed competently.”143 That assertion
amounts to nothing more than a restatement of Strickland’s prejudice standard, and
does not satisfy that prong of the rule.
To be found deficient, capital counsel’s performance must be
“outside the wide range of professionally competent assistance.”
[Strickland v. Washington, 466 U.S.] at 690, 104 S. Ct. 2052.
Professionally competent assistance includes a duty to conduct a
reasonable investigation. Id. at 690-91, 104 S. Ct. 2052. The Court has
emphasized that only when counsels’ choices are made after a “thorough
investigation of law and facts relevant to plausible options” are those
choices “virtually unchallengeable.” Id. at 691, 104 S. Ct. 2052. When,
however, “strategic choices [are] made after less than complete
investigation [they] are reasonable precisely to the extent that reasonable
professional judgments support the limitations on investigation.” Id. at
690-91, 104 S. Ct. 2052. Thus, at bottom, “counsel has a duty to make
reasonable investigations or to make a reasonable decision that makes
particular investigations unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be directly assessed for
reasonableness in all the circumstances . . . .” Id. at 691, 104 S. Ct.
2052. This means that when we assess the attorney’s decision not to
investigate, we “must consider . . . whether the known evidence would
lead a reasonable attorney to investigate further.” Wiggins v. Smith, 539
U.S. 510, 527, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003). To establish
prejudice, “[t]he defendant must show that there is a reasonable
Doc. no. 11 (Amended Habeas Petition), ¶ 90, at 31. James inserts this identical assertion
at the end of many of his subclaims. In order to avoid repetition, this court finds that such a
statement is not a viable argument for prejudice, and will subsequently disregard the assertion
whenever it appears in the remainder of James’s habeas petition. The court will only consider actual
arguments concerning prejudice under Strickland as they appear in James’s petition.
143

130

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 131 of 367

probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.”
Strickland, 466 U.S. at 694, 104 S. Ct. 2052.
Powell v. Allen, 602 F.3d 1263, 1273-74 (11th Cir. 2010) (first alteration supplied,
all others in original). The state court’s decision was reasonable under the Strickland
standards, and habeas relief on this subclaim is due to be denied.
F.

Deficient Performance During Jury Selection144
James cites numerous errors allegedly committed by his trial attorneys during

the jury selection process. Specifically, he contends that his attorneys:
[1] failed to move for preparation and use of juror questionnaires or
conduct adequate voir dire to obtain background information on the
jurors relevant to bias . . . ; [2] failed to challenge for cause,
peremptorily challenge, or even adequately voir dire jurors regarding
bias against James . . . ; [3] failed to adequately voir dire or challenge
jurors regarding their past experiences as relatives of victims of violent
crimes, or as victims of crimes themselves . . . ; [4] [failed] to question
juror Bobby Boyer regarding his prior criminal history when Boyer
revealed in a note to the court that he had previously been convicted and
served time in Indiana for a juvenile offense . . . ; [5] failed to question
jurors regarding their prior experiences as jurors . . . ;[6] failed to
discover [through adequate voir dire] that one of the jurors suffered from
mental illness and other impairments so disabling that he received
government assistance for his illness . . . ; [7] failed to conduct
individual, sequestered voir dire of all the jurors . . . ; [8] [failed] to
object to the state’s gender discrimination in its use of peremptory
challenges . . . ; [9] [and failed] to object to the state’s racial
discrimination in its use of peremptory challenges . . . .

144

Claim I.F: see doc. no. 11 (Amended Habeas Petition), ¶¶ 91-100, at 31-34.

131

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 132 of 367

Doc. no. 11 (Amended Habeas Petition), at 31-33 (alterations supplied).
1.

Procedural default

Respondents contend that all facets of this claim were procedurally defaulted,
and note that the Rule 32 circuit court denied relief on the various elements of the
claim due to James’s failure to comply with the specificity and full factual pleading
requirements of Alabama Rules of Criminal Procedure 32.3 and 32.6(b).145
Respondents also argue that this claim was not fairly presented as a federal claim in
state court, that it is conclusory in nature, and that it fails to state a valid claim for
relief under 28 U.S.C. § 2254.146
This court finds, contrary to respondents’ contention, that James did present
these claims of deficient performance by trial counsel during jury selection as a
federal claim in the state court proceedings, and this court accordingly finds that
James exhausted this claim before the state court. Also, as previously noted in Part
III.B.5.d, supra, the Eleventh Circuit’s holding in Borden v. Allen, 646 F.3d at 816,
disposes of respondents’ procedural default contentions, and requires this court to
consider the merits of the various parts of this claim.
2.

Merits

The Rule 32 circuit court was the last state court to issue reasoned decisions
145

Doc. no. 19 (Respondents’ Answer), at 25.

146

Id. at 25-26.

132

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 133 of 367

on the various parts of this claim. That court considered each alleged deficiency of
counsel during the jury selection process and dismissed all nine for failure to meet the
factual specificity requirements of Alabama Rule of Criminal Procedure 32.6(b).147
In addition, the circuit court dismissed the subclaim enumerated as “[7]” pursuant to
Alabama Rule of Criminal Procedure 32.7(d), saying that there was no material issue
of fact or law because “the underlying issue is without merit.”148 It then cited
Alabama cases holding that there was no requirement that a defendant be allowed to
question each prospective juror individually during voir dire.
a.

Questionnaires and voir dire

James contends that his trial attorneys should have used questionnaires in
conjunction with the oral questions they addressed to the jury venire during voir dire
in order to obtain information that would better enable them to ascertain whether
individual members of the venire were biased against him.149 “For example,” James
states in his habeas petition, “counsel failed to determine the degree to which jurors
had been exposed to or prejudiced by pretrial exposure to media coverage of this
case.”150 As the Rule 32 circuit court observed, however, James “did not claim that

147

See C.R. Vol. 32, Tab 78, at 12-17.

148

Id. at 31. The text of Ala. R. Crim. P. 32.7(d) is quoted in Part III.B.5.e, supra.

149

Doc. no. 11 (Amended Habeas Petition),¶ 91, at 31.

150

Id.

133

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 134 of 367

any juror was actually exposed to media coverage.”151 Moreover, as that court
observed, “‘[e]ven in capital cases, there is no requirement that a defendant be
allowed to question each prospective juror individually during voir dire
examination.’”152
The habeas petition filed in this court also does not claim that any juror was
exposed to prejudicial media coverage, or even assert that there was any media
coverage of the offense or petitioner’s trial.153 Therefore, this court finds that the
Rule 32 circuit court did not enter a conclusion of law that was either contrary to, or
an unreasonable application of, clearly established Supreme Court precedent. That
court’s findings were not based upon an unreasonable determination of the allegations
contained in James’s Rule 32 petition. James has failed to make even a prima facie
showing of deficient performance of counsel, or resulting prejudice under the
Strickland standards.
b.

Failure to challenge for bias

James also argues that his trial attorneys should have questioned prospective
jurors about connections with law enforcement, in order to ascertain whether any
151

C.R. Vol. 32, Tab 78, at 12.

152

Id. at 31 (quoting Acklin v. State, 790 So. 2d 975, 986 (Ala. Crim. App. 2000)) (alteration

supplied).
153

Lead defense attorney Virginia Vinson states in her affidavit that she “did not question
jurors about pre-trial publicity because there wasn’t any.” C.R. Vol. 24, p. 163.

134

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 135 of 367

harbored a bias against him.154 James alleges that four jurors had connections to law
enforcement, but were permitted to remain on the jury without being questioned about
their respective connections, or challenged for cause.155
The Rule 32 circuit court found that “James failed to plead how he was
prejudiced by counsel’s alleged deficiencies. James did not allege that any specific
juror on his case disregarded his or her oath and acted based on impermissible biases,
specifically a bias for law enforcement.”156 Fairminded jurists could disagree as to
whether James failed to satisfy Strickland’s prejudice prong, by failing to show that
“there [was] a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” 466 U.S. at 694 (alteration
supplied). See also Lee v. Commissioner, Alabama Department of Corrections, 726
F.3d 1172, 1193 (11th Cir. 2013). Accordingly, the Rule 32 circuit court’s rejection
of the claim was a reasonable application of Strickland.
c.

Failure to question venire about their past exposure to criminal
acts

James next alleges that his attorneys were constitutionally ineffective when
they failed to intensively question those prospective jurors who revealed that they (or
154

Doc. no. 11 (Amended Habeas Petition),¶ 92, at 31.

155

Id.

156

C.R. Vol. 32, Tab 78, at 13.

135

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 136 of 367

that members of their family) had been victims of burglaries.157 James asserts that
“counsel conducted no further questioning of any of these jurors to determine whether
their own experiences as victims of crimes would color their view of James or affect
their ability to be fair in his case.”158 He postulates that, since many of the crimes
experienced by the jurors went unsolved, that “raised the clear danger that these
jurors might seek a form of vindication against James for offenses committed against
them.”159
The Rule 32 circuit court held, however, that “James failed to present a single
specific allegation suggesting that an alleged failure to adequately voir dire or
challenge jurors has caused him to actually suffer prejudice at trial. Accordingly, this
part of his claim is summarily dismissed.”160
James states in his habeas petition, however, that “[c]ounsel’s ineffectiveness
in this regard was underscored by the fact that the prosecutor questioned all these
jurors to ensure that the jurors who had suffered unsolved crimes would have no bias
against law enforcement.”161 Not only is the prosecutor’s behavior not relevant to the
157

Doc. no. 11 (Amended Habeas Petition),¶ 93, at 31-32 .

158

Id. at 32.

159

Id.

160

C.R. Vol. 32, Tab 78, at 13.

161

Doc. no. 11 (Amended Habeas Petition), ¶ 93, at 32 (emphasis and alteration supplied).

136

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 137 of 367

question of whether James’s counsel was deficient, but James makes no attempt to
show prejudice, as held by the Rule 32 circuit court. Applying Strickland in the
context of juror bias, the Eleventh Circuit has stated that a petitioner “must show that
at least one juror was biased,” because, “if no juror [was] biased, then there is no
‘reasonable probability that . . . the result of the proceeding would have been
different.’” Owen v. Florida Department of Corrections, 686 F.3d 1181, 1201 (11th
Cir. 2012) (alteration supplied). James’s failure to point to any particular juror who
may have been biased forecloses 28 U.S.C. § 2254(d) relief on this subclaim.
d.

Failure to question prospective juror Bobby Boyer about his
prior criminal history

James next contends that his attorneys should have questioned juror Bobby
Boyer about his conviction and time served for a juvenile offense.162 He asserts
Counsel had no way of knowing how Boyer’s prior experience in the
criminal justice system had shaped his views regarding others, like Mr.
James, who had juvenile and adult criminal convictions. Boyer’s
experience may have left him with a sense of superiority over others
who have repeated contacts with the system and may have disposed him
unfavorably toward Mr. James as a result.
Doc. no. 11 (Amended Habeas Petition), ¶ 94, at 32.
The Rule 32 circuit court held that “James failed to plead how he was
prejudiced by counsel’s alleged deficiencies. James did not even allege that Boyer
162

Id., ¶ 94, at 32.

137

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 138 of 367

himself was biased, only that his experiences ‘may have left him with a sense of
superiority over others.’”163 The Rule 32 court reasonably determined that such a
speculative argument is not sufficient to show a “reasonable probability” that, but for
the alleged juror bias, the result of the proceeding would have been different. See,
e.g., Owen v. Florida Department of Corrections, 686 F.3d 1181, 1201 (11th Cir.
2012) (citing Strickland, 466 U.S. at 694). This allegation fails to satisfy James’s
burden to establish entitlement to 28 U.S.C. § 2254(d) relief.
e.

Failure to question prospective jurors about their prior
experiences as jurors

James argues that counsel should have questioned prospective jurors about
their past experiences as jurors, since three prospective jurors revealed they had
previously served on juries, and two of those said that they had reached verdicts in
criminal cases.164
The Rule 32 circuit court held that “James failed to state how he was
prejudiced by counsel’s alleged deficiencies.”165 Once again, James fails to show that
any juror was biased and, thus, he fails to show prejudice as a result of counsel’s
actions. Therefore, the ruling of the Rule 32 circuit court was reasonable, and this
163

C.R. Vol. 32, Tab 78, at 14 (emphasis in original).

164

Doc. no. 11 (Amended Habeas Petition), ¶ 95, at 32.

165

C.R. Vol. 32, Tab 78, at 14.

138

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 139 of 367

allegation fails to support a claim for habeas relief.
f.

Failure to discover one juror’s mental illness

James argues that his trial attorneys failed to discover that one juror “suffered
from mental illness and other impairments so disabling that he received government
assistance for his illness. This illness prevented this juror from understanding or
applying the law as instructed by the court.”166
The Rule 32 circuit court held that, because “James failed to provide the name
of the allegedly mentally ill juror,” as well as the nature of the “mental illness” from
which the unnamed juror allegedly suffered, the claim was due to be summarily
dismissed for failure to plead it with the required specificity.167 Those same pleading
deficiencies prevent a finding of a reasonable probability of a different result. As the
Owen court commented, “there was no doubt [that the defendant] committed the
crime. . . . The presence [of specific named jurors] on [the defendant’s] jury does not
undermine our confidence in the outcome.” Owen, 686 F.3d at 1201 (citing Rose v.
McNeil, 634 F.3d 1224, 1241-42 (11th Cir. 2011) (alterations supplied). The state
court’s application of Strickland to James’s allegations was reasonable, and he is not
entitled to habeas relief on this subclaim.

166

Doc. no. 11 (Amended Habeas Petition), ¶ 96, at 32-33 .

167

C.R. Vol. 32, Tab 78, at 15.

139

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 140 of 367

g.

Failure to conduct individual, sequestered voir dire

James argues that individual voir dire is important because, on one hand, some
jurors are embarrassed to speak up in front of the other prospective jurors, and on the
other hand, a juror who is not shy about speaking his or her mind on a difficult topic
may chill further questioning on that subject.168 James alleges that individual voir
dire would have revealed one juror’s mental illness, and other jurors’ biases against
him.169 The Rule 32 circuit court addressed this claim and held that James failed
to plead how he was prejudiced by counsel’s alleged deficiencies.
James failed to state the name of the juror who allegedly was mentally
ill, as well as fails to state what the alleged mental illness was. James
also failed to state what the other “harbored biases” were, much less
who harbored them . . . or whether they acted on them during
deliberation.
C.R. Vol. 32, Tab 78, at 15 (redaction supplied). The court also held that this
subclaim was due to be dismissed pursuant to Alabama Rule of Criminal Procedure
32.7(d), saying that there was no material issue of fact or law because “the underlying
issue is without merit.”170 The Rule 32 court then cited Alabama cases holding that
there was no requirement that a defendant be allowed to question each prospective
juror individually during voir dire.
168

Doc. no.11 (Amended Habeas Petition), ¶ 97, at 33.

169

Id.

170

C.R. Vol. 32, Tab 78, at 31. The text of Ala. R. Crim. P. 32.7(d) is quoted in Part
III.B.5.e, supra.

140

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 141 of 367

The ruling of the Rule 32 circuit court was reasonable for the reasons set forth
in previous sections. This claim is nothing more than a cumulative summary of the
already discussed alleged deficiencies of trial counsel in jury selection.
h.

Failure to object to the State’s race- and gender-discrimination
when exercising peremptory challenges171

James argues that his trial attorneys should have objected to the prosecutor’s
alleged pattern of gender discrimination in his use of peremptory challenges:
specifically, he alleges that the State’s attorney utilized nine peremptory challenges
against women, but only four to remove men.172 James states: “This pattern clearly
reflects that the prosecutor assumed women as a group would be biased against the
prosecution and the imposition of the death penalty” and, as such, constitutes a prima
facie case of gender discrimination.173
This claim was rejected by the Rule 32 circuit court because James did not
provide the names of the nine women allegedly removed by the prosecutor with
peremptory challenges.174 Moreover, the court held that “James did not allege facts
171

The Rule 32 circuit court considered James’s allegation that “Trial Counsel also failed to
make a record of the racial composition of the jury and the prosecution’s use of peremptory strikes”
as a tenth ground under subclaim I.F. See C.R. Vol. 32, Tab 78, at 17. However, as that allegation
is only one sentence within the Batson-challenge paragraph, this court has considered it within
petitioner’s Batson-based challenge. See Doc. no. 11 (Amended Habeas Petition), ¶ 99, at 33.
172

Id., ¶ 98, at 33.

173

Id.

174

C.R. Vol. 32, Tab 78, at 15-16.

141

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 142 of 367

that raise an inference of discrimination” as required under Alabama case law.175
In addition to his gender discrimination contention, James argues in his habeas
petition that his trial attorneys were deficient for failing to object to the state
prosecutor’s racially-discriminatory use of peremptory challenges, especially in view
of the fact that James is an African-American.176 James asserts that the State used
peremptory challenges against three black jurors: a fact that, James asserts, makes
out a prima facie case of racial discrimination.
The Supreme Court’s seminal opinion in Batson v. Kentucky, 476 U.S. 79
(1986), devised a three-part test to evaluate equal protection challenges to a
prosecutor’s use of peremptory challenges. First, the defendant must make a prima
facie showing of discrimination. Id. at 96. Next, the State must provide a race
neutral explanation for challenging black jurors. Id. at 97. Finally, the trial court has
the duty to determine whether the defendant has established purposeful
discrimination. Id. at 98. The Supreme Court extended Batson to prohibit gender
discrimination in the prosecution’s use of peremptory strikes in J.E.B. v. Alabama,
511 U.S. 127, 143 (1994).

175

Id. at 16 (citing Ex parte Branch, 526 So. 2d 609 (Ala. 1987); Stokes v. State, 648 So. 2d
1179, 1180 (Ala. Crim. App. 1994); Duke v. State, No. CR-98-1218, 2002 WL 1145829, *10 (Ala.
Crim. App. May 31, 2002).
176

Doc. no. 11 (Amended Habeas Petition), ¶ 99, at 33.

142

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 143 of 367

While James alleges that the prosecutor used peremptory challenges against
three black jurors, and that “no conceivable reason” existed for at least two of those
strikes, that is all that he argues.177 He does not state how many African-Americans
were on the venire prior to peremptory challenges. He also provides no allegations
tending to show that three black jurors were struck because of their race.178 Such a
pleading is insufficient to support a Batson claim. See, e.g., Powell v. Allen, 602 F.3d
1263, 1270 (11th Cir. 2010).
In regard to James’s gender discrimination claim, he contends only that the
prosecutor’s use of peremptory challenges against nine women and only four men
“clearly reflects that the prosecutor assumed women as a group would be biased
against the prosecution and the imposition of the death penalty.”179 James provides
no allegations to support his conclusory interpretation of the prosecutor’s mental
processes. James also fails to describe the final racial or gender composition of the
jury, or the percentage of African Americans residing within Jefferson County who
are qualified for jury service.180
177

Id.

178

The defendant and the prosecution were each given thirteen preemptory strikes. C.R. Vol.
2, at 120. Five members of the venire were excused for cause. Id. at 116.
179

Doc. no. 11 (Amended Habeas Petition), ¶ 98, at 33.

180

The possibility exists that a vast majority of the jury as seated was African-American. See,
e.g. Lee v. Commissioner, Alabama Department of Corrections, 726 F.3d 1172, 1224 (11th Cir.
2013), where the Court said that:

143

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 144 of 367

The need to allege the racial composition of the resulting jury after the
exhaustion of peremptory challenges was succinctly stated by the Eleventh Circuit
in United States v. Ochoa-Vasquez, 428 F.3d. 1015 (11th Cir. 2005), where the Court
said:
In order to determine whether a Batson objector like Ochoa has
established a prima facie case of discrimination, courts must consider all
relevant circumstances. Batson, 476 U.S. at 96–97, 106 S. Ct. at 1723;
[United States v.] Novaton, 271 F.3d [968,] 1002 [(11th Cir. 2001)];
[Central Alabama Fair Housing Center, Inc. v. Lowder Realty, Inc.,]
236 F.3d [629,] at 636 [11th Cir. 2000)] . This Court has cautioned that
“the mere fact of striking a juror or a set of jurors of a particular race
does not necessarily create an inference of racial discrimination.”
Lowder, 236 F.3d at 636; Novaton, 271 F.3d at 1002. While statistical
evidence may support an inference of discrimination, it can do so “only”
when placed “in context.” Lowder, 236 F.3d at 638; [United States v.]
Allen-Brown, 243 F.3d [1293,] at 1298 [(11th Cir. 2001)]. For example,
“the number of persons struck takes on meaning only when coupled with
other information such as the racial composition of the venire, the race
of others struck, or the voir dire answers of those who were struck
compared to the answers of those who were not struck.” Lowder, 236
F.3d at 636–37 (emphasis added); see also Novaton, 271 F.3d at 1002
(same); Allen–Brown, 243 F.3d at 1298 (evaluating the strike pattern in
light of the racial composition of remaining potential jurors); Stewart,
65 F.3d at 925 (stating that “no particular number of strikes against
blacks automatically indicates the existence of a prima facie case,” and
The racial composition of the venire and the selected jury should also be considered.
Before peremptory strikes began, 32 of the 53 remaining venire members were black
or 60.3% of the venire. Yet on Lee’s jury, 9 of the 12 jurors were black or 75% of
the jury. That a predominantly black jury was selected cuts in favor of the state
appellate court’s conclusion that no Batson violation occurred. See United States v.
Puentes, 50 F.3d 1567, 1578 (11th Cir. 1995) (“Although the presence of
African–American jurors does not dispose of an allegation of race-based peremptory
challenges, it is a significant factor tending to prove the paucity of the claim.”).

144

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 145 of 367

considering, inter alia, the number of struck black jurors as a percentage
of the black venire members).
In determining whether the totality of the circumstances shows a
“pattern” that creates an inference of discrimination, this Court has
considered a number of factors. First, whether members of the relevant
racial or ethnic group served unchallenged on the jury. See Lowder, 236
F.3d at 638 (“[T]he unchallenged presence of jurors of a particular race
on a jury substantially weakens the basis for a prima facie case of
discrimination in the peremptory striking of jurors of that race.”). . . .
Similarly, we have considered whether the striker struck all of the
relevant racial or ethnic group from the venire, or at least as many as the
striker had strikes. . . .
Second, we have considered whether there is a substantial
disparity between the percentage of jurors of a particular race or
ethnicity struck and the percentage of their representation on the venire.
Lowder, 236 F.3d at 637. For example, in Lowder, we concluded that
there was no prima facie case of discrimination where the plaintiffs used
both of their peremptory strikes against white jurors. In so holding, we
stated that there was no significant disparity between the plaintiffs’
100% rate of challenging white jurors and the 80% representation of
white jurors on the venire. Id. On the other hand, in Stewart, we upheld
a finding of a prima facie case based in part on the fact that, in
exercising three peremptory challenges against black jurors, the defense
struck 75% of black venire members. 65 F.3d at 925.
Third, this Court has considered “whether there is a substantial
disparity between the percentage of jurors of one race [or ethnicity]
struck and the percentage of their representation on the jury.” Lowder,
236 F.3d at 637; Novaton, 271 F.3d at 1002.
Ochoa-Vasquez, 428 F.3d at 1044-45 (some internal citations omitted) (emphasis in
original) (alterations in first paragraph supplied; other alterations in original).

145

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 146 of 367

Referring to both the race and gender claims, the Rule 32 circuit court held that
James failed to allege facts that raised an inference of discrimination as required to
make a Batson challenge.181 The ruling of the Rule 32 circuit court was reasonable.
The utter lack of allegations establishing nothing more than the fact that the State’s
prosecutor struck three African Americans and nine women is wholly insufficient to
meet either the performance or prejudice prong of the Strickland standard. This
evidentiary void is what distinguishes the present claim from cases such as Jackson
v. Herring, 42 F.3d 1350 (11th Cir. 1995), where the racial composition of the entire
venire, the percentage of blacks remaining on the resulting jury after peremptory
strikes, and evidence concerning the historical use of peremptory strikes by the
District Attorney’s office was all in evidence. Id. at 1355-58 (applying Swain v.
Alabama, 380 U.S. 202 (1965)).
G.

Failing to File Adequate Motions in limine, Adequate Objections to the
Introduction of Prejudicial and Inadmissible Evidence at Trial, Adequate
Objections to James’s Absence From the Courtroom During Critical
Stages of the Trial, and Adequate Objections to Prosecutorial Misconduct
During Closing Argument182
Claim “G” actually is a conglomeration of at least the following ten subclaims,
181

C.R. Vol. 32, Tab 78, at 16-17. In fact, the only evidence concerning the racial
composition of the jury is found in the affidavit of Virginia Vinson, which states that she “was never
concerned about racial discrimination in jury selection. Nor was I concerned about gender
discrimination. There was nothing suspicious about the prosecutor’s peremptory strikes.” C.R. Vol.
24, at 164.
182

Claim I.G: see doc. no. 11 (Amended Habeas Petition), ¶¶ 101-108, at 34-36.

146

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 147 of 367

mixed within the sentences of paragraphs 101 through 107 of James’s amended
habeas petition: i.e.,
1.

Failing to object in limine or during trial to the admission of
extraordinarily prejudicial, gruesome, and irrelevant autopsy
photographs (doc. no. 11 (Amended Habeas Petition), ¶ 101, sentences
1-4);

2.

Failing to stipulate that Faith Hall was deceased, “thereby removing
from the case the element requiring the prosecution to prove that the
victim died of a homicide and obviating any conceivable need for [the
autopsy] photographs” (id., sentence 5);

3.

Failing to object to the testimony of the State’s medical examiner as an
expert witness (id., ¶ 102, sentences 1-3);

4.

Failing to object to lengthy, irrelevant, and extraordinarily prejudicial
testimony from the State’s medical examiner regarding procedures
applied to the victim by paramedics and other medical personnel after
the shooting (id., sentence 4);

5.

Failing to obtain a clear ruling on defendant’s motion in limine seeking
the exclusion of, and, failing to object during trial to the admission of,
references to James’s prior trial (id., ¶ 103, first sentence);

6.

Failing to obtain clear rulings on all motions filed by defense counsel
during James’s first, 1996 trial, which were adopted for purposes of the
second trial by Virginia Vinson’s December 29, 1998 pretrial motion
(id., second sentence);

7.

Failing to object in limine or during trial to the admission of references
to James’s arrest in California (doc. no. 11 (Amended Habeas Petition),
¶ 104);

8.

Failing to object to irrelevant, prejudicial testimony by prosecution
witnesses (id., ¶ 105);

147

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 148 of 367

9.

Failing to object when the trial judge proceeded to take evidence during
James’s absence from the courtroom (id., ¶ 106); and,

10.

Failing to object to prosecutorial misconduct: i.e., the prosecutor’s
prejudicial references to James during closing argument (id., ¶ 107).

James asserts in paragraph 108 of his amended petition that his trial attorneys’
alleged “defective performance” in each of the foregoing instances prejudiced him,
“because it is at least reasonably probable that a more favorable outcome would have
resulted had counsel performed competently.”183
Respondents contend that subclaims V.G.1 through 4 were addressed by the
Alabama Court of Criminal Appeals on direct appeal from James’s second conviction
and sentence, and denied on their merits. See James v. State, 788 So. 2d 185 (Ala.
Crim. App. 2000). As to those subclaims, respondents argue that James cannot show
that the Court’s rulings were either contrary to, or involved an unreasonable
application of, clearly established federal law, or resulted in decisions that were based
upon an unreasonable determination of the facts in light of the evidence presented in
the state court proceedings.184
Respondents also contend that some subparts of claim V.G were procedurally
183

The complete text of this assertion reads as follows: “Counsels’ deficient performance,
detailed in this subclaim and throughout the other subclaims in this Claim I and the subsequent
Claim II, all of which are incorporated herein by reference, prejudiced Petitioner because it is at least
reasonably probable that a more favorable outcome would have resulted had counsel performed
competently.” Doc. no. 11 (Amended Habeas Petition), ¶ 108, at 36.
184

Doc no. 19 (Respondents’ Answer), at 28-29.

148

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 149 of 367

defaulted,185 some were not fairly presented as federal claims in the state courts, some
are conclusory in nature and fail to state a valid claim upon which relief can be

185

For example, respondents contend that habeas subclaims V.G.1, G.9, and G.10 were
procedurally defaulted, because they were addressed by the second opinion of the Alabama Court
of Criminal Appeals on collateral appeal, James v. State, 61 So. 3d 357 (Ala. Crim. App. 2010), and
dismissed pursuant to an independent and adequate state procedural rule: i.e.,
James next argues that the circuit court erred in denying his subclaims G, I,
J, and K in his Rule 32 petition. [Subclaim “G” in James’s First Amended Rule 32
Petition alleged that: “Trial counsel performed deficiently in failing to make
adequate in limine motions, adequate objections to the introduction of prejudicial
and inadmissible evidence at trial, adequate objections to Mr. James’ [sic] absence
during criminal proceedings, or adequate objections to prosecutorial misconduct in
argument” (C.R. Vol. 10, Tab 36, ¶¶ 57-63, at 31-35).] This argument in James’s
brief consists of approximately one and one-half pages and fails to comply with the
requirements of Rule 28(a)(1), Ala. R. App. P.[FN9] As we stated in Franklin v. State,
23 So. 3d 694, 703 (Ala. Crim. App. 2008):
FN9 Rule 28(a)(1), Ala. R. App. P., states, in part, that an
appellant’s brief shall contain: “An argument containing
the contentions of the appellant/petitioner with respect to
the issues presented, and the reasons therefor, with
citations to the cases, statutes, other authorities, and parts
of the record relief on.” [NOTE: The foregoing language
was subsequently placed in Alabama Rule of Appellate
Procedure 28(a)(10).]

“It is well settled that ‘[r]ecitation of allegations without
citation to any legal authority and without adequate recitation of the
facts relied upon has been deemed a waiver of the arguments listed.’
Hamm v. State, 913 So. 2d 460, 486 (Ala. Crim. App. 2002). ‘An
appellate court will consider only those issues properly delineated as
such as will not search out errors which have not been properly
preserved or assigned. This standard has been specifically applied to
briefs containing general propositions devoid of delineation and
support from authority or argument.’ Ex parte Riley, 464 So. 2d 92,
94 (Ala. 1985) (citations omitted).”
James, 61 So. 3d at 370 (quoting Franklin v. State, 23 So. 3d at 703) (first and second alterations
supplied, other alterations in original).

149

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 150 of 367

granted under 28 U.S.C. § 2254, and some should be denied on the merits.
Rather than attempting to parse discussion of the ten parts of Claim V.G in the
manner argued by respondents, this court chooses, instead, to address each on its
merits. The first four subclaims are intertwined, and will be considered as a group.
1.

Failing to object in limine or during trial to the admission of
extraordinarily prejudicial, gruesome, and irrelevant autopsy
photographs (doc. no. 11, ¶ 101, sentences 1-4);

2.

Failing to stipulate that Faith Hall was deceased, “thereby removing
from the case the element requiring the prosecution to prove that the
victim died of a homicide and obviating any conceivable need for [the
autopsy] photographs” (id., sentence 5);

3.

Failing to object to the testimony of the State’s medical examiner as an
expert witness (id. ¶ 102, sentences 1-3); and,

4.

Failing to object to lengthy, irrelevant, and extraordinarily prejudicial
testimony from the States medical examiner regarding procedures
applied to the victim by paramedics and other medical personnel after
the shooting (id., sentence 4).

Subclaims V.G.1 through 4 were addressed in the following portions of the
opinion of the Alabama Court of Criminal Appeals on direct appeal from James’s
second conviction and sentence: James v. State, 788 So. 2d 185, 189-94 (Ala. Crim.
App. 2000).

The discussion begins in Part “II,” addressing the substantive

admissibility of gruesome photographs in criminal trials, and then proceeds in Part
“III” to address James’s claims of ineffective assistance of trial counsel.

150

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 151 of 367

II.
The appellant’s second argument is that the trial court erroneously
admitted what he alleges was irrelevant, unfairly prejudicial evidence
that did not have any probative value. (Issue IV in the appellant’s brief
to this court.) Specifically, he contends that the trial court erroneously
admitted:
“1. Photographs which contained graphic depictions
of wounds not caused by [him].
“2. Testimony of the medical examiner about
surgical or medical treatment of the victim, needle puncture
sights, puncturing the jugular vein, puncture sites on the
wrists, a Foley catheter, a colostomy site, etc.
“3. Photographs that were admitted and then
magnified 10 or more times in a slide projection on a
screen.
“4. Testimony of the medical examiner of a tube that
entered the victims nostril when said tube was not
introduced by [him].
“5. Testimony of the medical examiner of a sewn
surgical incision where [doctors] have explored.
“6. Testimony of the medical examiner that a wound
might have been incapacitating if it was left untreated.
“7. Evidence of drug tests performed on the victim.”
(Appellant’s brief at p. 18.) The appellant did not object to the
admission of any of this evidence during his trial. Therefore, we review
the admission of this evidence for plain error. See Rule 45A, Ala. R.
App. P.

151

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 152 of 367

The gist of the appellant’s argument is that the trial court should
not have admitted photographs and slides of the victim that depicted
wounds caused by medical treatment and should not have allowed the
medical examiner to testify about that medical treatment. In reviewing
the photographs and slides, we are guided by the following principles:
“Appellant’s final contention of error is that the trial
court erred in allowing the prosecutor, during the testimony
of the medical examiner, to illustrate the nature of the
victim’s wounds by use of 17 photographic slides of the
victim’s body. Appellant argues that these slides were
irrelevant, inflammatory, inaccurate, misleading, and
cumulative, and that the trial court should not have allowed
the medical examiner to use them as an aid to his
testimony.
“Generally, photographs are admissible into
evidence in a criminal prosecution ‘if they tend to prove or
disprove some disputed or material issue, to illustrate or
elucidate some other relevant fact or evidence, or to
corroborate or disprove some other evidence offered or to
be offered, and their admission is within the sound
discretion of the trial judge.’ Magwood v. State, 494 So.
2d 124, 141 (Ala. Cr. App. 1985), aff’d, 494 So. 2d 154
(Ala. 1986), cert. denied, 479 U.S. 995, 107 S. Ct. 599, 93
L. Ed. 2d 599 (1986). See also Woods v. State, 460 So. 2d
291 (Ala. Cr. App. 1984); Washington v. State, 415 So. 2d
1175 (Ala. Cr. App. 1982); C. Gamble, McElroy’s
Alabama Evidence § 207.01(2) (3d ed. 1977).
“It has long been the law in Alabama that
‘[p]hotographs which show external wounds in the body of
a deceased victim, even though they are cumulative and
based on undisputed matters, are admissible. The fact that
they are gruesome is not grounds to exclude them so long
as they shed light on the issues being tried.’ Burton v.
State, 521 So. 2d 91, 92 (Ala. Cr. App. 1987). See also

152

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 153 of 367

Kinder v. State, 515 So. 2d 55 (Ala. Cr. App. 1986). The
fact that a photograph is gruesome and ghastly is no reason
to exclude it from the evidence, so long as the photograph
has some relevancy to the proceedings, even if the
photograph may tend to inflame the jury. Magwood v.
State, supra, 494 So. 2d at 141. See also Hutto v. State,
465 So. 2d 1211 (Ala. Cr. App. 1984); Jones v. State, 439
So. 2d 776 (Ala. Cr. App. 1983); Godbolt v. State, 429 So.
2d 1131 (Ala. Cr. App. 1982).
“This rule of law applies not only to photographs,
but to photographic slides as well. Goffer v. State, 430 So.
2d 896 (Ala. Cr. App. 1983). In Goffer, we wrote as
follows:
“‘. . . .
“‘. . . The slides were just enlargements
of photographs and the wounds were shown
in relation to the deceased. The slides gave
the jury a better understanding of the nature
and gravity of the deceased’s injuries, and we
do not believe the slides distorted the injuries
or misled the jury in any way.’
“430 So. 2d at 898–99.
“. . . .
“Appellant also contends that the slides were
misleading to the jury because they revealed postmortem
sloughing of skin and other signs of decomposition.
Specifically, he argues that the slides revealed
‘circumstances of death that had nothing to do with the
defendant’s character, the nature of the crime, or an
appropriate sentence.’
However, this evidence of
decomposition was entirely separate from the stab wounds

153

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 154 of 367

to which the jury’s attention was focused, and the medical
examiner carefully pointed out to the jury these other
factors and identified them as being due to post-mortem
deterioration of the body. Thus, we see no reason for the
jury to have been misled by this aspect of the slides.
“Appellant further argues that, because several slides
showed wounds into which probes had been inserted, the
slides did not accurately depict the wounds. The State
argues, and we agree, that while probes were shown in
some wounds, they were inserted for the sole purpose of
illustrating the depth and nature of the wounds, relevant
factors in determining whether the crime was especially
heinous, atrocious, or cruel. The probes were consistently
pointed out to the jury, and their function was explained.
Moreover, the use of the probes did not distort the size of
the wounds so that they appeared larger than they actually
were; thus, this case is distinguished from Wesley v. State,
32 Ala. App. 383, 26 So. 2d 413 (1946). Therefore, the
jury could not have been misled by the insertion of probes
into certain of the wounds.
“Finally, appellant argues that the slide presentation
should not have been allowed because the slides were
cumulative of the photographs, which were received into
evidence. As we stated above, however, such evidence is
‘admissible even though they are cumulative evidence
based on an undisputed matter.’ Kinder v. State, supra,
515 So. 2d at 64.”
Bankhead v. State, 585 So. 2d 97, 109–11 (Ala. Crim. App. 1989)
(footnote omitted), aff’d in relevant part, 585 So. 2d 112 (Ala. 1991),
rev’d on other grounds, 625 So. 2d 1146 (Ala. 1993). Additionally,
autopsy photographs, although gruesome, are admissible to show the
extent of a victim’s injuries. See Dabbs v. State, 518 So. 2d 825 (Ala.
Crim. App. 1987). Finally, the fact that photographs depict medical
equipment used to treat the victim does not necessarily render them

154

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 155 of 367

inadmissible. See Scroggin v. State, 529 So. 2d 1025, 1028 (Ala. Crim.
App. 1988).
After reviewing the photographs that were admitted into evidence
in this case, we conclude that they were relevant to show the injuries the
victim suffered. Because the victim had undergone extensive medical
treatment before she died, the photographs of the wounds also show the
results of some of that treatment. See Lee v. State, 562 So. 2d 657 (Ala.
Crim. App. 1989). However, in discussing the victim’s wounds, the
medical examiner carefully distinguished the wounds caused by the
appellant from those caused as a result of medical treatment. See
Bankhead, supra. The medical examiner’s testimony regarding the
medical treatment the victim received and the photographs showing the
results of that treatment were relevant to show the condition of the
victim’s body when the medical examiner received it. See Lee, supra.
Finally, the fact that the prosecution projected slides of the photographs
onto a screen did not unfairly prejudice the appellant. Rather, it merely
made it possible for the jury to view the photographs while the medical
examiner explained the wounds. See Bankhead, supra. Therefore, we
do not find any error, much less plain error, in this regard.
III.
The appellant’s third argument is that his attorneys rendered
ineffective assistance during his trial. (Issue III in the appellant’s brief
to this court.) Specifically, he contends that his attorneys rendered
ineffective assistance because they:
1) did not object to the admission of photographs that
allegedly contained extraneous, irrelevant evidence;
2) did not object to the testimony of the medical examiner
on the ground that he had not been recognized as an expert
witness;
3) did not object to the medical examiner’s testimony about
medical procedures to which the victim was subjected after she

155

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 156 of 367

was shot;
4) did not object when the prosecution projected slides of
photographs of the victim’s wounds onto a screen;
5) did not object when the medical examiner introduced
evidence regarding a nasogastric tube that had been used to treat
the victim;
6) did not object when the medical examiner introduced
evidence regarding an intravenous line or vascular catheter that
had been used to treat the victim;
7) did not object when the medical examiner introduced
evidence regarding a needle mark associated with an intravenous
line that was used to treat the victim;
8) did not object when the medical examiner introduced
evidence regarding a surgical incision on the victim’s abdomen;
9) did not object when the medical examiner introduced
evidence that showed “‘some large bowel on the upper-right
aspect of the abdomen . . . where the surgeons had put a
colostomy site in position’” while treating the victim;
10) did not object when the medical examiner commented
that one of the appellant’s wounds might not have been
incapacitating “‘unless it were just not treated’”;
11) did not object when the medical examiner introduced
evidence regarding drug tests that had been performed on the
victim;
12) did not object to the narrative form of the medical
examiner’s testimony; and
13) did not object to “rampant hearsay testimony.”

156

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 157 of 367

(Appellant’s brief at p. 13–17.)[FN2]
FN2. In his reply brief to this court, the appellant attempts to raise
additional ineffective-assistance-of-counsel claims. An appellant may
not raise new issues for the first time in a reply brief. See McCall v.
State, 565 So. 2d 1163 (Ala. Crim. App. 1990). Nevertheless, we
have searched the record for plain error, and we conclude that the
appellant’s allegations in this regard are without merit.

The appellant raises many of these claims for the first time on
appeal. Ordinarily, those claims would be procedurally barred because
he did not first present them to the trial court. See Brown v. State, 701
So. 2d 314 (Ala. Crim. App. 1997); Ex parte Ingram, 675 So. 2d 863
(Ala. 1996). However, because the appellant was sentenced to death, we
will review those claims under the plain error rule. See Rule 45A, Ala.
R. App. P.; Bush v. State, 695 So. 2d 70 (Ala. Crim. App. 1995), aff’d,
695 So. 2d 138 (Ala.), cert. denied, 522 U.S. 969, 118 S. Ct. 418, 139
L. Ed. 2d 320 (1997).
“[T]o prevail on an ineffective assistance of counsel
claim, a defendant must meet the two-pronged test set out
by Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052, 80 L. Ed. 2d 674 (1984).
“‘First, the defendant must show that
counsel’s performance was deficient. This
requires showing that counsel made errors so
serious that counsel was not functioning as
the “counsel” guaranteed the defendant by the
Sixth Amendment. Second, the defendant
must show that the deficient performance
prejudiced the defense.
This requires
showing that counsel’s errors were so serious
as to deprive the defendant of a fair trial, a
trial whose result is unreliable. Unless a
defendant makes both showings, it cannot be
said that the conviction or death sentence
resulted from a breakdown in the adversary

157

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 158 of 367

process that renders the result unreliable.’
“Id. at 687, 104 S. Ct. at 2064.
“‘The performance component outlined in Strickland
is an objective one: that is, whether counsel’s assistance,
judged under “prevailing professional norms,” was
“reasonable considering all the circumstances.”’ Daniels
v. State, 650 So. 2d 544, 552 (Ala. Cr. App. 1994) (quoting
Strickland, 466 U.S. at 688, 104 S. Ct. at 2065). Once a
defendant has identified the specific acts or omissions that
allegedly were not the result of reasonable professional
judgment on counsel’s part, the court must determine
whether those acts or omissions fall outside the wide range
of professionally competent assistance. Id.
“When reviewing a claim of ineffective assistance of
counsel, we indulge a strong presumption that counsel’s
conduct was appropriate and reasonable. Hallford v. State,
629 So. 2d 6 (Ala. Cr. App. 1992), cert. denied, 511 U.S.
1100, 114 S. Ct. 1870, 128 L. Ed. 2d 491 (1994); Luke v.
State, 484 So. 2d 531 (Ala. Cr. App. 1985).
“‘Judicial scrutiny of counsel’s
performance must be highly deferential. It is
all too tempting for a defendant to
second-guess counsel’s assistance after
conviction or adverse sentence, and it is all
too easy for a court, examining counsel’s
defense after it has proved unsuccessful, to
conclude that a particular act or omission of
counsel was unreasonable. A fair assessment
of attorney performance requires that every
effort be made to eliminate the distorting
effects of hindsight, to reconstruct the
circumstances of counsel’s challenged
conduct, and to evaluate the conduct from

158

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 159 of 367

counsel’s perspective at the time. Because of
the difficulties inherent in making the
evaluation, a court must indulge a strong
presumption that counsel’s conduct falls
within the wide range of reasonable
professional assistance; that is, the defendant
must overcome the presumption that, under
the circumstances, the challenged action
“might be considered sound trial strategy.”
There are countless ways to provide effective
assistance in any given case. Even the best
criminal defense attorneys would not defend
a particular client in the same way.’
“Strickland, 466 U.S. at 689, 104 S. Ct. at 2065 (citations
omitted). See Ex parte Lawley, 512 So. 2d 1370, 1372
(Ala. 1987).
“And, even if an attorney’s
performance is determined to be deficient, the
petitioner is not entitled to relief unless it is
also established that ‘there is a reasonable
probability that, but for counsel’s
unprofessional error, the result of the
proceeding would have been different. A
reasonable probability is a probability
sufficient to undermine confidence in the
outcome.’ Strickland, 466 U.S. at 694, 104 S.
Ct. at 2068.
“In an ineffective assistance of counsel
claim, the burden is on the claimant to show
that his counsel’s assistance was ineffective.
Ex parte Baldwin, 456 So. 2d 129 (Ala.
1984), aff’d, 472 U.S. 372, 105 S. Ct. 2727,
86 L. Ed. 2d 300 (1985).”

159

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 160 of 367

McNair v. State, 706 So. 2d 828, 839 (Ala. Crim. App. 1997), cert.
denied, 523 U.S. 1064, 118 S. Ct. 1396, 140 L. Ed. 2d 654 (1998).
We have reviewed the appellant’s allegations concerning his trial
counsel’s performance, and we conclude that he has not satisfied his
burden of proof under Strickland with respect to any of his
ineffective-assistance-of-counsel claims. Even though the trial court did
not specifically recognize the medical examiner as an expert, he was
clearly qualified to be an expert witness. Also, the appellant has not
shown that he was prejudiced by the form of the medical examiner’s
testimony. Further, as we stated in Part II of this opinion, the
photographs and slides of the victim’s body and the medical examiner’s
testimony about medical treatment the victim received after she was shot
were relevant. Finally, even though the appellant does not specify what
testimony he contends constituted “rampant hearsay,” we have reviewed
the record and have not found any error in this regard. The appellant has
not shown that his counsel’s performance was deficient and that that
allegedly deficient performance prejudiced his defense. See Strickland,
supra; McNair, supra. Rather, he has simply made bare allegations that
he has not supported factually. Therefore, he is not entitled to relief on
his ineffective-assistance-of-counsel claims.
James v. State, 788 So. 2d 185, 189-94 (Ala. Crim. App. 2000) (alterations in
original).186
186

Later in the same year, but in an unrelated case, the Alabama Court of Criminal Appeals
again addressed the admissibility of autopsy photographs in a criminal trial. See Acklin v. State, 790
So. 2d 975 (Ala. Crim. App. 2000). The pertinent portions of that opinion provided that:
Photographic evidence is admissible in criminal prosecutions if it tends to
prove or disprove some disputed or material issue, to illustrate some relevant fact or
evidence, or to corroborate or dispute other evidence in the case. Photographs that
tend to shed light on, to strengthen, or to illustrate other testimony presented may be
admitted into evidence. Kuenzel v. State, 577 So. 2d 474 (Ala. Cr. App. 1990), aff’d,
577 So. 2d 531 (Ala.), cert. denied, 502 U.S. 886, 112 S. Ct. 242, 116 L. Ed. 2d 197
(1991) . . .
“The courts of this state have repeatedly held that photographs

160

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 161 of 367

In addition to the foregoing holdings in the direct appeal opinion of the
Alabama Court of Criminal Appeals, the Rule 32 circuit court addressed James’s
subclaim V.G.2: i.e., the contention that his trial attorneys should have stipulated that
Faith Hall was deceased, “thereby removing from the case the element requiring the
prosecution to prove that the victim died of a homicide and obviating any conceivable
need for [the autopsy] photographs.”187 As the Rule 32 circuit court aptly observed,
“the State is not required to stipulate to a material element of a capital murder
charge,” and “[t]here is no evidence that the State would have ever agreed to such a
stipulation.” C.R. Vol. 32, Tab 78, at 77-78 (citing Peraita v. State, No. CR-01-0298,

that accurately depict the crime scene and the nature of the victim’s
wounds are admissible despite the fact that they may be gruesome or
cumulative.” Land v. State, 678 So. 2d 201, 207 (Ala. Cr. App.
1995). Photographic exhibits are admissible even though they are
demonstrative of undisputed facts. Williams v. State, 506 So. 2d 368,
371 (Ala. Cr. App. 1986), cert. denied, 506 So. 2d 372 (Ala. 1987).
“Gruesomeness becomes objectionable in a photograph only
where there is distortion of either of two kinds; first, distortion of the
subject matter as where necroptic or other surgery caused exposure of
nonprobative views, e.g., ‘massive mutilation,’ McKee v. State, 33
Ala. App. 171, 31 So. 2d 656 [ (Ala. Ct. App. 1947)]; or second, focal
or prismatic distortion where the position of the camera vis-a-vis the
scene or object to be shown gives an incongruous result, e.g., a
magnification of a wound to eight times its true size, Wesley v. State,
32 Ala. App. 383, 26 So. 2d 413 [ (Ala. Ct. App. 1946) ].”
Braswell v. State, 51 Ala. App. 698, 701, 288 So. 2d 757 (1974).
Acklin, 790 So. 2d at 997-98 (alterations in original).
187

Id., sent. 5.

161

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 162 of 367

2003 WL 21246440 (Ala. Crim. App. May 30, 2003), subsequently reported at 897
So. 2d 1161) (alteration supplied).
Moreover, James did not question his trial attorneys about their failure to
stipulate the victim’s death during the evidentiary hearing held in the Rule 32 circuit
court.

Accordingly, this court holds that James failed to establish that the

performance of either attorney was deficient. See, e.g., Chandler v. United States,
218 F.3d 1305, 1314 n.15 (11th Cir. 2000) (“[W]here the record is incomplete or
unclear about [counsel]’s actions, [federal courts] will presume that [the attorney] did
what he should have done, and that he exercised reasonable professional judgment.”)
(second alteration in original, all other alterations supplied) (citing Williams v. Head,
185 F.3d 1223, 1228 (11th Cir. 1999)).
Subclaim V.G.3 — based upon the failure of the State’s prosecutor to
specifically request that the trial judge recognize the State’s medical examiner, Dr.
Robert Brissie, as an “expert witness” — was addressed by the Alabama Court of
Criminal Appeals in a portion of the direct appeal opinion quoted above: i.e., “Even
though the trial court did not specifically recognize the medical examiner as an
expert, he was clearly qualified to be an expert witness.” James, 788 So. 2d at 194
(emphasis supplied). That finding was supported by the affidavit of James’s lead trial
attorney, Virginia Vinson, who explained that, even though she did not recall that the

162

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 163 of 367

prosecutor failed to tender Dr. Brissie as an expert witness, she would not have
lodged an objection to his testimony, because she knew that he was qualified to
testify as such. “If I had objected, then he would have just been properly tendered.”188
Furthermore, Alabama courts have held that it is not necessary to formally tender a
witness as an expert, so long as the evidence supports that the witness is qualified by
education, training, and experience to give the particular testimony at issue. See
Hodges v. State, 856 So. 2d 875, 918 (Ala. Crim. App. 2001). The evidence here
certainly supported such a finding. See, e.g., C.R. Vol. 2, Tab 9, at 151-53.
Finally, with regard to subclaim V.G.4 — the contention that James’s trial
attorneys were ineffective for failing to object to “lengthy, irrelevant, and
extraordinarily prejudicial testimony from the State’s medical examiner regarding
procedures applied to the victim by paramedics and other medical personnel after the
shooting”189 — it should be noted that James failed to identify those portions of Dr.
Brissie’s testimony that he claims to be “irrelevant, and extraordinarily prejudicial.”
In contrast, the Alabama Court of Criminal Appeals held on direct appeal that “the
medical examiner’s testimony about medical treatment the victim received after she
was shot [was] relevant.” James, 788 So. 2d at 194 (alteration and emphasis

188

C.R. Vol. 24, at 164 (redactions supplied).

189

Doc. no. 11 (Amended Habeas Petition), ¶ 102 (fourth sentence), at 34.

163

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 164 of 367

supplied).
In summary, when subclaims V.G.1 through 4 are juxtaposed to the wellestablished principles of Alabama law discussed above, it becomes clear that James’s
arguments are not sufficient to demonstrate that the state courts unreasonably applied
either prong of the Strickland standard in connection with his trial attorneys’
purported failure to either file motions in limine, or to object at trial, to the contested
photographs and testimony. He also has not demonstrated that the state courts’
rulings were contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States.
28 U.S.C. § 2254(d)(1).
5.

Failing to obtain a clear ruling on defendant’s motion in limine seeking
the exclusion of, and, failing to object during trial to the admission of,
references to James’s prior trial.

James alleges in subclaim V.G.5 that, even though his trial attorneys properly
filed a motion in limine
to prevent the prosecution or its witnesses from referring to the fact that
James had been previously tried on these charges, counsel failed to
obtain a clear ruling on this motion and then failed to object when
prosecution witnesses, such as Mohammed Helu, openly referred to the
prior trial.
Doc. no. 11 (Amended Habeas Petition), ¶ 103 (first sentence), at 34. The merits of
that claim were considered in two ways by the Alabama Court of Criminal Appeals

164

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 165 of 367

following remand from the Alabama Supreme Court during the collateral review
process. See James v. State, 61 So. 3d 357 (Ala. Crim. App. 2010). On the one hand,
the Court first observed that neither of James’s trial attorneys had been questioned
about their strategy in relation to this claim during the evidentiary hearing held in the
Rule 32 circuit court. Thus, “[W]here the record is incomplete or unclear about
[counsel’s] actions, we will presume that he did what he should have done, and that
he exercised reasonable professional judgment.” Id. at 370 (quoting Chandler v.
United States, 218 F.3d 1305, 1314 n.15 (11th Cir. 2000), in turn quoting Williams
v. Head, 185 F.3d 1223, 1228 (11th Cir. 1999)) (internal quotation marks omitted)
(alterations in original).
On the other hand, the Court of Criminal Appeals also noted that James’s trial
attorneys had stated that they did not object to Mohammed Helu’s comment because
they did not want to call further attention to the matter. James, 61 So. 3d at 370.190
The Court then quoted the Rule 32 circuit court’s finding that the trial lawyers’
reasons for not objecting constituted “a reasonable strategic choice,” and that, if
counsel had objected, “it certainly would have alerted the jury to the remark and
reinforced that James had been previously tried and convicted.” James, 61 So. 3d at

190

As noted by the Alabama Court of Criminal Appeals, “[t]here was not [a] direct reference
to [the] previous trial in Helu’s testimony.” James, 61 So. 3d at 371 (alterations supplied).

165

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 166 of 367

370 (quoting C.R. Vol. 32, Tab 78, at 78).
Also, in regard to James’s claim that counsel failed to object when
a witness mentioned his first trial, the record shows that Mohammed
Helu stated the following during his testimony at James’s second trial:
“I don’t know if it’s the same person or not. But at this present time,
honestly speaking, I cannot recognize the person or even three years ago
when I was testifying the first time.” (Trial record, p. 9.) Vinson stated
in her affidavit that she did not object to Helu’s reference about prior
testimony because, she said, she did not want to call attention to the
matter. Warren stated in his affidavit that “I didn’t object to Helu’s slip
that he had testified before because I did not want to call any more
attention to the remark. That was one of those ‘don’t wake the sleeping
dog’ issues.” (C.R. 1188.)
The circuit court made the following findings concerning this
claim:
“The Court finds that Judge [Virginia] Vinson’s
reason for not objecting was a reasonable strategic choice.
If she had objected, it certainly would have alerted the jury
to the remark and reinforced that James had been
previously tried and convicted. James cannot demonstrate
either deficient performance or prejudice as required by
Strickland. This claim is denied.”
(C.R. 131.) There was no direct reference to a previous trial in Helu’s
testimony. Understandably Vinson did not want to call attention to this
matter by objecting. Thus, we cannot say that counsel’s performance
was ineffective in regard to this claim.
“Objections are a matter of trial strategy, and an appellant
must overcome the presumption that ‘counsel’s conduct
falls within the wide range of reasonable professional
assistance,’ that is, the presumption that the challenged
action ‘might be considered sound trial strategy.’
Strickland, 466 U.S. at 687–88, 104 S. Ct. at 2064, 80 L.

166

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 167 of 367

Ed. 2d at 693 (1984).”
Moore v. State, 659 So. 2d 205, 209 (Ala. Crim. App. 1994).
James, 61 So. 3d at 370-71 (emphasis and alteration supplied).
This court agrees with the rulings of both state courts. Since objections are a
matter of trial strategy, James has failed to overcome “the presumption that ‘counsel’s
conduct falls within the wide range of reasonable professional assistance,’ that is, the
presumption that the challenged action ‘might be considered sound trial strategy.’”
Moore v. State, 659 So. 2d 205, 209 (Ala. Crim. App. 1994) (quoting Strickland, 466
U.S. at 687-688).
Moreover, James also has failed to demonstrate that the rulings of the state
courts resulted in decisions that were contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States, or decisions that were based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceedings. 28
U.S.C. § 2254(d). For all of those reasons, he is not entitled to habeas relief on this
subclaim.
6.

Failing to obtain clear rulings on all motions filed by defense counsel
during James’s first, 1996 trial, which were adopted for purposes of the
second trial by Virginia Vinson’s December 29, 1998 pretrial motion.

James next contends that his trial attorneys provided constitutionally

167

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 168 of 367

ineffective assistance when failing to obtain clear rulings on the record with respect
to any of the motions filed by defense counsel during his first, 1996 trial, which
Virginia Vinson had adopted for the purposes of his second trial by means of a
pretrial motion filed on December 29, 1998.191 In the process of denying this claim,
the Rule 32 circuit court observed that “James did not even state what motions
counsel failed to obtain rulings to. Accordingly, . . . his claim is summarily dismissed
because it was not pleaded with the factual specificity required by Ala. R. Crim. P.
32.6(b).”192 James also fails to state in this court how such alleged errors by his
attorneys prejudiced him.

Accordingly, the rulings of the state courts were

reasonable, and this court holds that James has failed to overcome the 28 U.S.C. §
2254(d) deference owed to the state courts’ application of the Strickland standard as
to this subclaim. He is not entitled to habeas relief.
7.

Failing to object in limine or during trial to the admission of references
to James’s arrest in California.

James argues in subclaim V.G.7 that his trial attorneys provided
constitutionally ineffective assistance by failing
to seek an in limine ruling prohibiting reference to, or to object to,
prejudicial evidence and prosecutorial argument indicating that James
had been apprehended in California for this offense and brought back to
191

Doc. no. 11 (Amended Habeas Petition), ¶ 103 (second sentence), at 34.

192

C.R. Vol. 32, Tab 78, at 18.

168

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 169 of 367

Alabama to stand trial. This evidence was extremely prejudicial because
it plainly suggested conduct from which a consciousness of guilt could
be inferred. In addition, such evidence is particularly prejudicial in
capital cases because it suggests that James may have been a flight risk,
a factor the jurors might consider during sentencing phase deliberations
as an argument for imposition of the death penalty.
Doc. no. 11 (Amended Habeas Petition), ¶ 104, at 35.193 In response to those same
allegations in James’s Rule 32 petition, the state circuit court observed that he had
not stated what specific testimony from who should have been objected
to or what prosecutorial argument should have been objected to.
Accordingly, this part of his claim is summarily dismissed because it
was not pleaded with the factual specificity required by Ala. R. Crim. P.
32.6(b). See [also] Ala. R. Crim. P. 32.7(d).
C. R. Vol. 32, Tab 78, at 18 (alterations supplied).
Lead defense attorney Virginia Vinson noted in her affidavit that evidence of
flight is admissible.194 Indeed, the Alabama Supreme Court so held in the case of Ex
parte Weaver, 678 So. 2d 284 (Ala. 1996), observing that:
“The basic rule for the introduction of evidence of flight was set
forth in the early Alabama case of Bowles v. State, 58 Ala. 335, 338
(1877):
193

Fairminded jurists could disagree as to whether the Rule 32 circuit court’s rejection of this
claim for lack of specificity was a reasonable application of Strickland. On that basis, James would
not be entitled to habeas relief. Even so, as noted in Part III.B.5.d of this opinion, supra, the
Eleventh Circuit has held that a state court’s dismissal of a contention in a convict’s collateral appeal
for failure to state a claim upon which relief can be granted, or for failure to establish a material issue
of fact or law, are rulings “on the merits” that are subject to review under AEDPA’s standards in a
federal habeas proceeding. Borden v. Allen, 646 F.3d 785, 816 and 822 n.44 (11th Cir. 2011).
Hence, this court addresses the present claim on its merits.
194

See C.R. Vol. 24, at 164.

169

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 170 of 367

“‘All evasions, or attempts to evade justice, by a
person suspected or charged with crime, are circumstances
from which a consciousness of guilt may be inferred, if
connected with other criminating facts. Of themselves,
they may not warrant a conviction, but they are relevant as
evidence, and the weight to which they are entitled, it is the
province of the jury to determine, under proper instructions
from the court. [Citations omitted.] Flight, for which no
proper motive can be assigned, and which remains
unexplained, is a circumstance all authorities agree it is
proper to submit to the jury, in connection with other
evidence tending to show the guilt of the accused. In the
old common law, the rule which passed into a maxim, was,
that flight was equivalent to a confession of guilt: fatetur
facinus qui judicium fugit. At the present day it is regarded
as a mere criminative circumstance, indicative of a
consciousness of guilt, and of an attempt to evade justice,
which is subject to infirmative considerations that may
deprive it of all force.’
“This basic statement about evidence of flight has remained intact
and basically unchanged in the law of Alabama up until this time. It is
still the law. Later cases dealing with flight often state little more than
the main proposition that such evidence is admissible. See Kelley v.
State, 226 Ala. 80, 145 So. 816 (1933); Carden v. State, 84 Ala. 417, 4
So. 823 (1887); Sylvester v. State, 71 Ala. 17 (1881).”
Ex parte Weaver, 678 So. 2d at 289 (emphasis supplied) (quoting Ex parte Jones, 541
So. 2d 1052, 1053-47 (Ala. 1989) (bracketed alteration in original)). In other words,
even if defense counsel had filed a motion in limine, or lodged a motion to exclude
this evidence during trial, James cannot show that it would have been granted.
Moreover, James has not demonstrated that the state court’s adjudication of the

170

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 171 of 367

claim resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States, or that it resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the state
court proceedings. 28 U.S.C. § 2254(d). Accordingly, he is not entitled to habeas
relief on subclaim V.G.7.
Failing to object to irrelevant, prejudicial testimony by prosecution
witnesses.

8.

James next contends that trial counsel rendered constitutionally ineffective
assistance by failing to object to the following “irrelevant, prejudicial testimony by
prosecution witnesses”:
(a)

“Bridget Gregory’s gratuitous statement regarding whether she was
concerned for her safety when she returned to the apartment after she
head the gunshots, ‘if he wanted to shoot me and kill me, he would kill
me anyway.’”

(b)

Bridget Gregory’s “irrelevant hearsay” — that when Faith Hall entered
the apartment, she said “He’s going to kill me.”

(c)

The “lengthy and prejudicial narratives of the events leading up to the
killing of Faith Hall” provided by Tammy Sneed and Trenicha
Holyfield.

(d)

The narrative responses to questions of Ada and Isabelle Hall.195

195

Doc. no. 11 (Amended Habeas Petition), ¶ 105, at 35.

171

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 172 of 367

The Rule 32 circuit court summarily dismissed James’s objections to the
narrative testimonies of Tammy Sneed, Trenicha Holyfield, Ada Hall, and Isabelle
Hall referenced in subparagraphs (c) and (d) above, “because it was not pleaded with
the factual specificity required by Ala. R. Crim. P. 32.6(b). See [also] Ala. R. Crim.
P. 32.7(d). Mr. James does not identify any ‘narratives’ in the record.”196
Virginia Vinson testified that she “was never concerned about narrative
testimony. It would have been a useless objection. Moreover, it’s often beneficial
for someone to give a narrative answer because they tend to give too much
information and hang themselves.”197 As previously discussed in connection with
claim V.G.5, supra, since objections are a matter of trial strategy, James has failed to
overcome “the presumption that ‘counsel’s conduct falls within the wide range of
reasonable professional assistance,’ that is, the presumption that the challenged action
‘might be considered sound trial strategy.’” James, 61 So. 3d at 371 (quoting Moore
v. State, 659 So. 2d 205, 209 (Ala. Crim. App. 1994) (in turn quoting Strickland, 466
U.S. at 687-88)). Accordingly, he is not entitled to habeas relief on his objections to

196

See C.R. Vol. 32, Tab 78, at 19 (alteration supplied). As noted in a marginal note at the
beginning of discussion in the previous part of this opinion, fairminded jurists could disagree as to
whether the Rule 32 circuit court’s rejection of this claim for lack of specificity was a reasonable
application of Strickland. On that basis, James would not be entitled to habeas relief. Even so,
Borden v. Allen, 646 F.3d 785, 816 and 822 n.44 (11th Cir. 2011), dictates a merits review of this
subclaim.
197

C.R. Vol. 24, at 164.

172

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 173 of 367

the narrative testimony of the four witnesses identified above.
Turning to James’s objection to the failure of his attorneys to object to various
comments by Bridget Gregory — i.e., her “gratuitous statement” (a) “if he wanted to
shoot me and kill me, he would kill me anyway,”198 and (b) her “irrelevant hearsay”
testimony about Faith Hall’s exclamation, “He’s going to kill me” — the Rule 32
circuit court initially observed that James did not question his trial attorneys about
their failure to object to either utterance during the evidentiary hearing held on his
Rule 32 petition. The court then stated that, when a record is “ambiguous or silent,”
or “incomplete or unclear” about the basis for an attorney’s action (or failure to act),
then it “is not sufficient to disprove the strong and continuing presumption” that the
attorney “did what he should have done, and that he exercised reasonable professional
198

It should be observed that this allegedly objectionable utterance was elicited by defense
counsel during cross-examination of Bridget Gregory in response to the following questions:
Q.

But you came rushing back so you could look through that window and be a
witness to all this?

A.

(Witness nodded head).

Q.

You weren’t concerned for your safety; you just wanted —

A.

The door was closed.

Q.

The door was closed. And you weren’t concerned for your safety?

A.

And I felt like if he wanted to shoot me and kill me, he would kill me
anyway.

C.R. Vol. 3, at 63.

173

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 174 of 367

judgment.” C.R. Vol. 32, Tab 78, at 79 (quoting Chandler v. United States, 218 F.3d
1305, 1314 n.15 (11th Cir. 2000) (in turn citing Bolender v. Singletary, 16 F.3d 1547,
1557 (11th Cir. 1994)). Finally, the Rule 32 circuit court observed that “James did
not demonstrate that he was prejudiced by trial counsel’s failure to object. As such,
James cannot demonstrate either deficient performance or prejudice as required by
Strickland.” Id.199 For those reasons as well, Rule 32 relief was denied.
James has failed to demonstrate in this court that the state court’s adjudication
of these two aspects of subclaim V.G.8 resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or that the decision was based
on an unreasonable determination of the facts in light of the evidence presented in the
State court proceeding. See 28 U.S.C. § 2254(d). Consequently, habeas relief also
is due to be denied on this subclaim.
9.

Failing to object when the trial judge proceeded to take evidence during
James’s absence from the courtroom.

Paragraph 106 of James’s amended habeas petition asserts that: “Counsel also
failed to object when the court proceeded with the taking of evidence when Mr. James
199

In this same regard, even though this point was not stated by the Rule 32 circuit court, it
should be noted that Faith Hall’s statement was admissible under Alabama Rule of Evidence 803(2)
as an “excited utterance,” or as a statement made by the declarant while believing that her death was
imminent, as permitted by Rule 804(b)(2). Under either construction of the exclamation, James has
not shown, and cannot show, that he was prejudiced by counsels’ failure to object to the statement.

174

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 175 of 367

was absent from the courtroom.”200
James does not allege what particular evidence was taken in his absence. The
state circuit court observed that James had alleged, both at trial and in his Rule 32
petition, that the trial judge had sworn witnesses while James was absent from the
courtroom,201 but the circuit court judge explicitly denied that assertion, saying that
all witnesses, as well as the jurors, were sworn en masse, in the presence of James,
at the beginning of trial.202 The Rule 32 circuit court’s written opinion, summarily
dismissing this claim, relied on Gibby v. State, 753 So. 2d 1206, 1207-08 (Ala. Crim.
App. 1999), noting that a post-conviction claim that is refuted by the record on direct
appeal is without merit. James provides no other legal or factual support for this

200

Doc. no. 11 (Amended Habeas Petition), ¶ 106, at 35.

201

C.R. Vol. 32, Tab 78, at 39.

202

Id. See also C.R. Vol. 2, Tab 9, at 220-21, where the following colloquy is recorded:

DEFENDANT: Excuse me, Your Honor.
THE COURT:

Yes, sir.

DEFENDANT: Could all the witnesses be sworn in before they testify?
THE COURT:

I have sworn in every witness who has testified, Mr. James. I
always do. That’s the reason they are raising their right hand.
Anything else?

DEFENDANT: I wasn’t in here when the first witness. I was in the restroom.
THE COURT:

I swore them all in your presence, as well as the jurors. . . .
[Emphasis supplied.]

175

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 176 of 367

contention, and also no explanation of how he was prejudiced by his counsel’s
actions under Strickland. This allegation, therefore, is without merit, and James is not
entitled to habeas relief. See 28 U.S.C. § 2254(d).
10.

Failing to object to prosecutorial misconduct: i.e., the prosecutor’s
prejudicial references to James during closing argument.

Finally, James asserts that his trial attorneys provided constitutionally
ineffective assistance by failing to object to six “highly prejudicial” acts of
“misconduct” committed by the prosecutor in closing argument: i.e.,
[a] The prosecutor attempted to demean and denigrate Petitioner and
inflame the passions and prejudices of the jurors by referring to
Petitioner as a “clown,” a “cowboy,” and a “coward.” R. Hicks 210,
213, 216. [b] Worst of all, counsel failed to object when the prosecutor
resorted to an appeal to racial prejudice by referring to Mr. James, who
is African-American, with the racist epithet “hambone,” a racial slur that
was originally used to describe a rhythmic hand-clapping, bodyslapping[,] song-and-dance routinely employed by slaves in the
antebellum south. R. Hicks 181. [c] Counsel also failed to object when
the prosecutor argued facts not in evidence by suggesting that Petitioner
owned a second gun, [d] when he vouched for the credibility of
prosecution witnesses, [e] when he blamed Petitioner for
inconveniencing the jurors and the court by requiring a trial, or [f] when
he improperly referred to his own experience as a prosecutor to imply
that this was one of the worst crimes he had ever encountered. R. Hicks
215.
Doc. no. 11 (Amended Habeas Petition) ¶ 107 (alterations supplied).
The Alabama Court of Criminal Appeals addressed these allegations on the
merits in its second opinion on collateral appeal, following remand from the Alabama

176

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 177 of 367

Supreme Court. See James v. State, 61 So. 3d 357 (Ala. Crim. App. 2010). The
relevant portion of that Court’s discussion began with the quotation of two
paragraphs from the Rule 32 circuit court’s opinion:
“James claimed that trial counsel was ineffective for
failing to object to several instances of prosecutorial
misconduct. Specifically, James alleged that trial counsel
should have objected to the prosecutor’s preference to him
as a ‘clown,’ ‘cowboy,’ ‘hambone,’ and ‘coward,’ James
also alleged that trial counsel should have objected to the
prosecutor suggesting that he owned two guns, for blaming
him for inconveniencing the jury, and stating that it was
one of the worst crimes he had ever encountered. As an
initial matter, the Court notes that James did not question
either Mr. Warren or Judge Vinson [i.e., Virginia Vinson,
James’s lead defense attorney] about this claim at the
evidentiary hearing or present any evidence that he was
prejudiced by counsel’s actions. Therefore, James failed to
meet his burden of proof.
“Moreover, Judge Vinson stated in her affidavit that
she did not object to the prosecutor’s remarks because she
found ‘nothing legally objectionable,’ and did not want to
alienate the jury by objecting. Judge Vinson also stated
that she believed that the prosecutor’s statement suggesting
that James may have owned two guns was a reasonable
inference from the evidence presented at trial. The Court
finds that Judge Vinson’s reasons for not objecting were
the result of reasonable strategic choices and analysis of
the legal issues involved. As such, James has failed to
demonstrate either deficient performance or prejudice as
required by Strickland. This claim is denied.”
C.R. 131-132.

177

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 178 of 367

Vinson stated in her affidavit that she did not object to the
prosecutor’s remarks because, she said, she did not want to “alienate the
jury.” “‘[C]ounsel’s failure to object to the prosecutor’s summation
represents his tactical decision to avoid underscoring the prosecutor’s
statements so as to draw the jury’s attention to them.’ Gatto v. Hoke,
809 F.Supp. 1030, 1039 (E.D.N.Y.1992).” Davis v. State, 9 So. 3d 539,
552 (Ala. Crim. App. 2008). Clearly, counsel’s actions were reasonable;
thus, James failed to satisfy the Strickland test.
James, 61 So. 3d at 371 (first alteration supplied, second alteration in original).
The standard employed by federal courts when reviewing alleged acts of
prosecutorial misconduct is “whether the prosecutor’s comments ‘so infected the trial
with unfairness as to make the resulting conviction a denial of due process.’” Darden
v. Wainwright, 477 U.S. 168, 181 (1986) (quoting Donnelly v. DeChristofo, 416 U.S.
637, 645 (1974)). A prosecutor’s remarks do not rise to that level merely by being
“offensive” or “improper”; indeed, “it is not enough that the prosecutors’ remarks
were undesirable or even universally condemned.” Id. at 180-81 (internal quotation
marks omitted). Instead, the standard is the “narrow one of due process, and not the
broad exercise of supervisory powers.” Donnelly, 416 U.S. at 642. The statements
singled out by James in this subclaim do not rise to the level contemplated by the
Supreme Court in Darden and Donnelly.
Moreover, as Virginia Vinson testified, her decision to not object to the
prosecutor’s statements was a strategic choice by counsel to not draw further attention

178

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 179 of 367

to the remarks.
In any event, James has not demonstrated that the rulings of the Rule 32 circuit
court and the Alabama Court of Criminal Appeals on this claim were contrary to, or
an unreasonable application of, clearly established federal law. See 28 U.S.C. §
2254(d)(1).

Fairminded jurists could disagree as to whether the state courts

reasonably found that James failed to demonstrate either deficient performance or
prejudice, as required by Strickland, as he wholly failed to show “that there is a
reasonable probability that, but for counsels’ unprofessional errors, the result of the
proceeding would have been different.” 466 U.S. at 694.
H.

Failing to Present a Coherent or Viable Defense, and Conceding
Petitioner’s Guilt During Closing Argument203
James next alleges that his trial attorneys provided ineffective assistance by

failing to argue self-defense, unreasonable self-defense, or reduced culpability for the
offense of conviction, because — according to James — Faith Hall initially attacked
him with “a knife or similar object”:
109. Trial counsel also performed deficiently in failing to present
a viable or coherent defense of Petitioner. Counsel presented no
witnesses in Mr. James’ behalf and failed to argue either self-defense,
unreasonable self-defense, or reduced culpability for the offenses on the
grounds of Ms. Hall’s conduct in approaching Petitioner with a knife or
similar object on the grounds that Petitioner suffered post-traumatic
203

Claim I.H: see doc. no. 11 (Amended Habeas Petition), ¶¶ 109-111, at 36-37.

179

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 180 of 367

stress disorder and other mental problems affecting his ability to form
the mental states required for capital murder. Counsel also failed to
argue these points in closing argument. The basis for this argument has
been set forth in detail in the previous subclaims of this Claim I and in
Claim II, Subclaim A, which are incorporated as if fully set forth herein.
110. Counsel also performed deficiently in effectively conceding
Petitioner’s guilt of capital murder, stating matter-of-factly that if the
jury believed the prosecution’s witnesses, they could conclude that
Petitioner intended to shoot Ms. Hall when he entered the apartment and
had no other intent. In view of the fact that the prosecution’s capital
murder theory rested entirely upon the theory that Petitioner had
technically burglarized the apartment by entering with the intent to
commit an assault on Ms. Hall, this line of argument was worse than no
defense at all and effectively conceded guilt of the charged offense.
Unsurprisingly, the prosecutor’s rebuttal argued that the defense had
conceded Petitioner entered with the intent to commit an assault and that
“that’s your burglary right there.” Counsel’s concession was
particularly prejudicial in view of the fact that the jury’s request for
additional instructions and explanation of the law during deliberations
focused primarily upon this issue, demonstrating that the jury viewed
this issue as pivotal in determining Petitioner’s guilt.
Doc. no. 11 (Amended Habeas Petition), ¶¶ 109, 110, at 36.204
The Rule 32 circuit court addressed the subclaim stated in paragraph 109 when
it discussed claim I(c) of James’s Rule 32 petition — i.e., the contention that trial

204

Lead defense attorney Virginia Vinson testified that she

was very disturbed when I read in Joe’s Rule 32 petition that he alleged the victim
pulled a knife on him and he acted in self-defense. He never told me anything about
a knife. He never even told me he acted in self-defense. I desperately tried to get Joe
to talk to me about the facts of the crime, but Joe would not tell me anything.
C.R. Vol. 24, at 160 (emphasis supplied).

180

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 181 of 367

counsel failed to adequately investigate the capital murder charge205 — because of
their similarity.206 That subclaim, and the state court’s findings, were discussed in
Part V.C of this opinion, supra, and found to be without merit.
The subclaim stated in paragraph 110 asserts that trial counsel were ineffective
for conceding James’s guilt of capital murder, “[i]n view of the fact that the
prosecution’s capital murder theory rested entirely upon the theory that James had
technically burglarized the apartment by entering with the intent to commit an assault
on Ms. Hall.”207 James alleges that his attorney’s “concession was particularly
prejudicial in view of the . . . jury’s request for additional instructions and explanation
of the law during deliberations focused primarily upon this issue, demonstrating that
the jury viewed this issue as pivotal in determining James’s guilt.”208
Respondents observe that this subclaim was raised in James’s Rule 32 petition
and again on collateral appeal, but was denied on the merits by both the circuit court
and Alabama Court of Criminal Appeals.209 The Rule 32 circuit court held:
In light of the evidence presented at trial and the evidentiary
hearing, the Court finds that trial counsel’s performance during the guilt
205

In like manner, this same claim is alleged in this court as James’s habeas claim I(C): see
supra Part IV of this opinion (“The List of Petitioner’s Claims”).
206

See C.R. Vol. 32, Tab 78, at 62-65.

207

Doc. no. 11 (Amended Habeas Petition), ¶ 110, at 36 (alteration supplied).

208

Id. (redaction supplied).

209

See doc. no. 19 (Respondents’ Answer), at 38-39.

181

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 182 of 367

phase portion of the trial was reasonable. At trial, trial counsel’s
strategy was to show that James had not committed a burglary and[,]
therefore, was not guilty of capital murder. Trial counsel attempted to
show that[,] after entering the apartment, James put his gun away.
Essentially, trial counsel’s strategy was to negate the burglary element
of the capital murder charge by demonstrating that[,] at the time James
entered the apartment[,] he did not have the intent to harm Ms. Hall. In
light of the evidence, such a strategy was reasonable. Furthermore,
because witnesses identified James as the initial aggressor and the
shooter, any self-defense theory would have been futile.
....
When trial counsel’s closing argument is read and reviewed in its
entire context, it is clear that trial counsel was not conceding guilt.
Instead, trial counsel was emphasizing all the different aspects of the
testimony that the jurors must believe in order to convict the defendant.
Clearly, trial counsel was attempting to establish reasonable doubt in the
minds of the jurors. . . .
C.R. Vol. 32, Tab 78, at 67, 68-69 (alterations supplied).
This court agrees with the circuit court’s assessment of trial counsels’ strategy.
James mischaracterizes his trial attorney’s closing argument and subjective intention
in his habeas petition, and he fails to demonstrate that the attorney who uttered the
allegedly prejudicial statements was guilty of professionally unreasonable error under
Strickland.210 Further, James failed to demonstrate that the outcome could have been
210

Virginia Vinson states in her affidavit that:

My guilt phase strategy was to show the jury that the facts did not support capital
murder and that they should only convict on a lesser charge. I was focusing on the
burglary element not being met. I did not consider any other guilt phase strategy
because I did not see any available.

182

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 183 of 367

different because, as the Rule 32 circuit court found, “the evidence overwhelmingly
demonstrates that James intentionally forced his way into the apartment while armed
with a handgun.”211 In summary, James has failed to demonstrate that the state
court’s adjudication of the claim resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or that it resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. See 28 U.S.C. § 2254(d). Hence, he is not
entitled to habeas relief.
I.

Failing to Request a Continuance When Counsel Learned that James had
been the Victim of an Attempted Sexual Assault in Jail on the Night Prior
to the Beginning of Trial212
James next contends that his trial attorneys rendered constitutionally ineffective

assistance by failing to move for a continuance after learning that he, allegedly, had
been the victim of an attempted sexual assault in the jail on the night prior to the
beginning of trial.

He asserts that he was “traumatized, frightened[,] . . .

disoriented[,] and incapable of assisting rationally in his own defense.”213 James

C.R. Vol. 24, at 160.
211

See C.R. Vol. 32, Tab 78, at 68.

212

Claim I.I: see doc. no. 11 (Amended Habeas Petition), ¶¶ 112-114, at 37.

213

Id., ¶ 112, at 37 (alterations and redaction supplied).

183

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 184 of 367

suggests that a reason he decided on the morning of trial to reject the State’s offer of
a plea bargain in which the prosecutor would have recommended the imposition of
a sentence of life without parole in return for James’s plea of “guilty” to the capital
offense may have been “the prospect of future sexual assaults in prison”; indeed, he
suggests that he needed “time to recover from the effects of this assault before he
would be able to make a rational decision regarding any plea bargain.”214
James’s trial attorneys testified that they were unaware of the alleged sexual
nature of the jail assault. Even so, James states that, when his attorneys were
informed by a bailiff that James had been in an “altercation” or “fistfight” during the
weekend, counsel should have taken steps to investigate further.215
Procedural default

1.

The last state court to enter a reasoned opinion on this subclaim was the
Alabama Court of Criminal Appeals, which addressed it in the second opinion on
collateral appeal, following remand from the Alabama Supreme Court. That Court
dismissed the claim for failing to comply with the requirements of Alabama Rule of
Appellate Procedure 28(a)(10). See James v. State, 61 So. 3d 357, 370 (Ala. Crim.
App. 2010). Respondents argue, therefore, that this subclaim was procedurally

214

Id.

215

Id.

184

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 185 of 367

defaulted.216
This court quoted extensively from the opinion of the Court of Criminal
Appeals at the beginning of the discussion of subclaims V.G.1 through 4, supra. As
this court found in relation to the four subclaims discussed in that part of the opinion,
the present subclaim also is barred from review because the last state court to render
judgment on it found that the claim was procedurally defaulted under applicable state
procedural rules. See Atkins v. Singletary, 965 F.2d 952, 956 (11th Cir. 1992)
(“Federal review of a petitioner’s claim is barred by the procedural-default doctrine
if the last state court to review the claim states clearly and expressly that its judgment
rests on a procedural bar, and that bar provides an adequate and independent state
ground for denying relief.”) (citations omitted).
2.

Merits

Even so, this claim also lacks merit. The Rule 32 circuit court found that
“James did not allege that the [putative] attempted sexual assault actually led him to
refuse the plea bargain. Rather, James claims that ‘the prospect of further sexual
assaults . . . may have influenced [his] decision-making.’”217 That court also found
that, because “James did not show that there is a reasonable probability that a motion

216

Doc. no. 19 (Respondents’ Answer), at 41.

217

C.R. Vol. 32, Tab 78, at 81 (emphasis and alterations supplied).

185

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 186 of 367

for a continuance would have caused the result of the trial to be different by causing
him to accept the plea agreement,” the claim was due to be summarily dismissed.218
That court then concluded its analysis by observing that it had allowed James
the opportunity to present evidence on this claim for an alternative
ruling on the merits. At the evidentiary hearing, James did not present
any witnesses. testimony, or evidence to support his assertion that he
had been the victim of an attempted sexual assault. Furthermore, James
failed to produce any evidence indicating that trial counsel knew or
should have known of the attempted sexual assault. If any attempted
sexual assault did occur, there is no evidence that James or anyone else
ever informed trial counsel. Moreover, James did not present any
evidence that the alleged sexual assault attempt actually affected his
decision to reject a plea bargain or that a continuance would have
changed his mind. As James has not established deficient performance
or prejudice, this claim is denied.
C.R. Vol. 32, Tab 78, at 81-82.
James has not demonstrated that the state court’s adjudication of this subclaim
resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States. 28 U.S.C. § 2254(d)(1). Further, according to trial counsel Gordon Herbert
Warren, he “heard through the grape-vine that [James] had an altercation one night
in the Jefferson County jail. But, he never said anything to me about it. . . . I heard
it was a fistfight. I never heard any sexual connotations about it.”219 As the Rule 32
218

Id.

219

C.R. Vol. 24, at 173 (emphasis and alteration supplied).

186

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 187 of 367

circuit court observed, James did not present any evidence casting doubt upon that
testimony.

Accordingly, James has not demonstrated that the state court’s

adjudication of the subclaim resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceeding. 28 U.S.C. § 2254(d)(2). In light of that, this court finds that it was not
professionally unreasonable for counsel to fail to investigate the incident.
Under Strickland, “strategic choices made after less than complete
investigation are reasonable precisely to the extent that reasonable professional
judgments support the limitations on investigation.” 466 U.S. at 690-91. ?Therefore,
[i]n assessing the reasonableness of an attorney’s investigation . . . a court must
consider not only the quantum of evidence already known to counsel, but also
whether the known evidence would lead a reasonable attorney to investigate further.”
Williams v. Allen, 542 F.3d 1326, 1337 (11th Cir. 2008) (citation omitted, alteration
in original). It was entirely reasonable for defense counsel to not investigate the jail
altercation which their client did not mention, and from which their client bore no
visible injuries.
James also has failed to provide a logical nexus between his suggestion that the
alleged sexual assault left him so traumatized that he was unwilling to accept a plea
deal that would return him to prison for life without the possibility of parole, and how

187

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 188 of 367

a more thorough investigation of the incident, or additional time, would have caused
him to reconsider the plea proposal. The following quotation from the second
opinion of the Alabama Court of Criminal Appeals on collateral appeal was stated in
the context of a discussion of a different claim. Even so, it is quoted here for the
purposes of noting that James initially had planned to plead “guilty,” but on the first
day of his second trial he
changed his mind and informed [trial attorney Gordon Herbert] Warren
that he was not going to enter a guilty plea. Warren said that he spoke
at length to James about this decision:
“I talked to him for a long time and the thing he kept
coming back to was that he had it pretty good where he
was on death row. He said he had his own television set
that he could control and watch what he wanted. He didn’t
have to deal with twenty other guys voting on whether to
watch football or baseball. He had plenty of reading
material. He didn’t have to watch his back and worry
about someone sneaking up behind him and clubbing him
or stabbing him because he was handled one on one
exclusively on death row. The only drawback he said was
not getting as much exercise — an hour a day or whatever
it was. Otherwise, he was in his cell. He did not want to
move in with the general population.
(C.R. 1192-1193). In conclusion, Warren stated in his affidavit that he
felt James was trying to sabotage his case.
James v. State, 61 So. 3d 357, 373-374 (Ala. Crim. App. 2010) (alteration supplied).
No evidence was presented to the Rule 32 circuit court that, if James’s

188

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 189 of 367

attorneys had asked for and been granted a continuance, James would have changed
his mind yet again, and entered a plea of “guilty” in exchange for a sentence of life
without parole.220 Section 2254(e)(1) mandates that district courts presume the
factual determinations of state courts to be correct, unless the habeas petitioner rebuts
the presumption of correctness with clear and convincing evidence. James has failed
to do so. Therefore, he has not shown any basis for habeas relief on this claim.
J.

Ineffective Cross-Examination of the State’s Witnesses221
This subclaim is actually an aggregation of contentions that the cross-

examination of several prosecution witnesses by James’s trial attorneys was
constitutionally ineffective. Specifically, James alleges that his trial attorneys failed
to adequately cross-examine: (1) Officer Lawrence Billups about his ability to
perceive James driving away from the scene; (2) Isabelle Hall, (3) Ada Hall, (4)
Trenicha Holyfield, (5) Bridget Gregory, and (6) Tammy Sneed about their (a) history
of abusing drugs and alcohol, (b) their criminal background, (c) their biases against
James, and (d) their ability to perceive the events to which they testified; and (7)
expert witness William Moran about the difference between the gun Bridget Gregory
claimed that she had seen James holding the day before the crime, and the gun that

220

See C.R. Vol. 32, Tab 78, at 82.

221

Claim I.J: see doc. no. 11 (Amended Habeas Petition), ¶¶ 115-120, at 37-40.

189

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 190 of 367

was used to kill Faith Hall.222
James also argues that trial counsel failed to properly cross-examine
prosecution witnesses (5) Bridget Gregory and (6) Tammy Sneed about “obvious
inconsistencies in their statements.”223 He contends that both gave conflicting
statements and testimony regarding the sequence of events at the time of the
homicide, as well as James’s location prior to and after the shooting.224 He argues
that, if his trial counsel had probed on cross-examination the numerous, alleged
inconsistencies, the jurors’ confidence in the credibility of those two witnesses would
have been undermined, and the strength of the prosecution’s theory that James had
“stalked” Faith Hall prior to the homicide would have been weakened.225
1.

Procedural default

The last state court to issue an opinion on these claims was the Alabama Court
of Criminal Appeals following remand. That Court found the claims to have been
procedurally defaulted under Alabama Rule of Appellate Procedure 28(a)(10).
James, 61 So. 3d at 370. Respondents argue, based upon that opinion, that the
various subparts of this claim are precluded from review by federal procedural default

222

Id., ¶ 115, at 38.

223

Id., ¶ 116, at 38.

224

Id., ¶ 117 at 38-39.

225

Id., ¶¶ 117-118, at 38-39.

190

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 191 of 367

principles.226 For the reasons previously discussed in Part III.B.5.g of this opinion,
supra, this court agrees.
Additionally, the Rule 32 circuit court observed that “James did not call any
of these witnesses to testify at the Rule 32 evidentiary hearing. Nor did James
question either [Virginia] Vinson or Mr. Warren about their cross-examination of
these witnesses. . . In short, it appears that James completely abandoned this claim
at the evidentiary hearing.” C.R. Vol. 32, Tab 78, at 82-83. Accordingly, that court
then concluded that:
An ambiguous or silent record is not sufficient to disprove the strong
and continuing presumption . . . where the record is incomplete or
unclear about [counsel]’s actions, [the court] will presume that he did
what he should have done, and that he exercised reasonable professional
judgment.
Id. at 83 (citing, e.g., Chandler v. United States, 218 F.3d 1305, 1314 n.15 (11th Cir.
2000)) (alterations supplied, other citations omitted). See also, e.g., Hooks v. State,
21 So. 3d 772, 788 (Ala. Crim. App. 2008) (quoting Burgess v. State, 962 So. 2d 272,
301 (Ala. Crim. App. 2005) (holding that, when an appellant does not present
evidence addressing certain claims at an evidentiary hearing on a Rule 32 petition,
the state court can conclude that he has abandoned the claims, and is not required to
review them)).
226

Doc. no. 19 (Respondents’ Answer), at 43.

191

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 192 of 367

2.

Merits

Even if the various parts of this claim had not been procedurally defaulted, the
fact that there is no evidence in the record to counter the strong presumption that trial
counsel exercised reasonable professional judgment means that James cannot
demonstrate that their performance was deficient, or prove prejudice under
Strickland. James provides no proof that the Alabama Rules of Evidence would have
permitted his attorneys to cross-examine several witnesses about their alleged
“criminal histories” (not further defined) and “alcohol abuse.” James also failed to
provide any support for his contention that some of the witnesses might have been
“biased” against him. Furthermore, the prosecutor questioned Bridget Gregory and
Tammy Sneed about their ability to perceive the events about which they testified,
and their responses would not have provoked a reasonable attorney to cross-examine
their ability to do so.227
James also has not explained how any difference between the gun identified by
Bridget Gregory as the one she saw him holding during the day preceding the
homicide, and the gun actually used in the homicide, would have substantially

227

For example, the prosecutor asked Bridget Gregory: “Okay. And was it a bright day or
could – was there light outside?” Gregory responded: “A sunny day. Broad daylight.” C.R. Vol.
3, Tab 9, at 51. The prosecutor then asked her: “All right. And the face of the man that you saw
break into that apartment, did his face have a lot of light on it?” Gregory responded: “Yes.” Id. at
51-52.

192

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 193 of 367

weakened her credibility. Clearly, James could have owned, borrowed, or otherwise
possessed two different guns on two different days. Similarly, James does not
demonstrate how cross-examination to establish that Gregory was mistaken as to the
type of handgun she observed would have had any reasonable possibility of changing
the outcome of the jury’s verdict.
Further, none of the alleged “inconsistencies” in the testimony of Bridget
Gregory and Tammy Sneed would have compelled a reasonable attorney to cross
examine either of them on such matters. Even if, as James now asserts, Gregory and
Sneed claimed to have seen James in two different places immediately prior to the
homicide, he is unable to show prejudice from counsel’s failure to cross-examine the
witnesses as to those inconsistencies. While one of them may have been mistaken,
or even lying, about James’s whereabouts prior to the murder, James offers no
evidence or argument as to how highlighting such a discrepancy would have
“severely undercut the prosecution’s argument that Mr. James was stalking Faith
Hall.”228 Regardless of where those two witnesses claimed to have seen James
immediately prior to the homicide, their accounts of the actual homicide were
consistent and uncontradicted by any other evidence.
Moreover, James fails to establish the relevance of Gregory’s and Sneed’s
228

Doc. no. 11 (Amended Habeas Petition), ¶ 116, at 38.

193

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 194 of 367

slightly different accounts as to exactly when Faith Hall ran towards the bathroom
after James forced his way into the apartment.
Likewise, nothing about Gregory’s testimony that she saw James jump into a
running automobile after the homicide would have compelled a reasonable attorney
to cross-examine her on that matter. Regardless of whether she was mistaken when
testifying that the automobile’s engine was running when James entered the vehicle,
that inconsequential detail has no bearing upon the issue of whether James committed
the crime.
As the Eleventh Circuit observed in another case, a habeas petitioner bears the
burden of
affirmatively proving prejudice, and aided by new counsel, he still has
not suggested any evidentiary basis for attacking either the chain of
custody or the credibility of the five employees . . . who testified. . . .
Counsel cannot manufacture evidence, and the Constitution does not
require the presentation of evidence that does not exist. Nor does
counsel have a duty to ask questions implying facts that he knows are
not true. See Nix v. Whiteside, 475 U.S. 157, 175–76, 106 S. Ct. 988,
998–99, 89 L. Ed. 2d 123 (1986) (holding “as a matter of law” that
federal habeas petitioner could not show prejudice by his counsel’s
refusal to allow him to perjure himself at trial “[e]ven . . . assum[ing]
that the jury might have believed his perjury”); Van Poyck v. Fla. Dep’t
of Corr., 290 F.3d 1318, 1323 (11th Cir. 2002) (“[A] lawyer need not
embrace his client’s fraud.”); Putman v. Head, 268 F.3d 1223, 1246
(11th Cir. 2001) (“Although an attorney has an ethical duty to advance
the interest of her client, that duty is limited by an equally solemn duty
to comply with the law and standards of professional conduct.”)
(internal quotation marks, alteration, and citation omitted); Davis v.

194

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 195 of 367

Singletary, 119 F.3d 1471, 1475 (11th Cir. 1997) (“The duty to render
effective assistance of counsel does not include the duty to present false
or misleading testimony.”); Bush v. Singletary, 988 F.2d 1082, 1092–93
(11th Cir. 1993) (“We agree with the district court that ‘Strickland does
not compel an attorney to urge an argument which he reasonably finds
to be futile, let alone one he finds to be false.’”) (quoting district court
opinion). . . .
....
Nor has the [habeas petitioner] convinced us that pulling the letter
off the pile of evidence against him would have resulted in a reasonable
probability of a different verdict or sentence. Our confidence in the
outcome of the trial and sentence proceeding is not undermined in the
least by this asserted failure of trial counsel. See Strickland, 466 U.S. at
695–96, 104 S. Ct. at 2069 (instructing that in determining prejudice a
court should consider all of the evidence unaffected by the failure of
trial counsel).
Schwab v. Crosby, 451 F.3d 1308, 1321-1322 (11th Cir. 2006) (alterations supplied).
For all of the reasons discussed, James is not entitled to habeas relief on this
claim.
K.

Failing to Object to the Trial Judge’s Improper Instructions at the
Conclusion of the Guilt Phase229
James complains that his trial attorneys provided ineffective assistance by

failing to object to three of the trial judge’s instructions at the conclusion of the guilt
phase. The first instruction he contends was objectionable provided that:
[T]he only determination you are to make at this time is whether the
229

Claim I.K: see doc. no. 11 (Amended Habeas Petition), ¶¶ 121-127, at 40-44.

195

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 196 of 367

state has proven beyond a reasonable doubt that the Defendant is guilty
of the capital offense in which he’s charged, or a lesser included offense
in which I’m about to instruct you in a few minutes.
Doc. no. 11 (Amended Habeas Petition), ¶ 121, at 40 (alteration in original). James
argues that this instruction only gave the jurors the option of choosing between
capital murder and a lesser included offense, but did not emphasize that they also
could find him “not guilty” of all offenses. Id. James states that his attorneys’ failure
to object to the instruction deprived him of a fair trial and due process of law. Id.
That portion of the record cited by James in connection with this subclaim does
not reflect the issues or conclusions he asks the court to draw from it. Instead, when
read in context, the quoted portion of the trial judge’s instruction was made to
emphasize that, at that initial phase of the trial, the jury was to focus solely upon the
question of whether the State had proven the defendant guilty, beyond a reasonable
doubt, of the charged offense of capital murder, or some lesser-included offense, and
that, when making that decision, the jurors should not be influenced by the issue of
punishment.230 That is why the initial stage of a capital murder trial is aptly referred
to as “the guilt phase.” Later in the same instructions, the trial judge explained each
of the possible verdicts the jury could return: i.e., guilty of capital murder, as charged

230

See C.R. Vol. 4, Tab 14, at 218.

196

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 197 of 367

in the indictment; guilty of the lesser-included offense of murder; and not guilty.231
James next alleges that his trial attorneys were constitutionally ineffective
when failing to object to the trial judge’s instruction on “reasonable doubt.” His
amended petition contends that instruction was delivered as follows:
[T]he term reasonable doubt means just what it says. It means a
reasonable doubt, a doubt for which a good sensible reason can be
given. It does not mean a mere possible doubt, imaginary doubt, or a
speculative doubt.
When we say the burden is on the State to convince you from the
evidence beyond a reasonable doubt of the guilt of the defendant, that
doesn’t mean that the State must convince you to a mathematical
certainty, because that could never be done when you depend on the
testimony from other human beings.
Reasonable doubt may arise from all of the evidence, a lack of
evidence, or from any part of the evidence in this case.
In other words, after considering all the evidence in this case, if
you have a doubt about the defendant’s guilt and that doubt has a reason
based on the evidence, a lack of evidence, or from any part of the
evidence, then you should acquit the defendant or find him not guilty.
However, if after considering all the evidence in this case, if you do have
a doubt for which you can assign a good, sensible reason, then you
should convict the defendant.
Doc. no. 11 (Amended Habeas Petition), ¶ 122, at 40-41 (alteration and emphasis in
James’s amended petition).
emphasized sentence.
231

James misrepresents the wording of the final,

As actually delivered to the jury, the trial judge said:

Id. at 231.

197

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 198 of 367

“However, if after considering all of the evidence in this case, if you do not have a
doubt for which you can assign a good, sensible reason, then you should convict the
defendant.”232
James’s third contention is that his trial attorneys rendered constitutionally
ineffective assistance by failing to object when the trial judge “gave confusing and
improper instructions when responding to some jurors’ questions regarding the most
critical element in the case — the burglary element of capital murder.”233 James
quotes the following colloquy in his amended habeas petition:
THE COURT: All right. [L]et’s make sure I understand your question.
[L]et me just rephrase it a little bit.
Element four says the defendant knowingly and unlawfully . . .
and this is in regard to the burglary . . . that the defendant knowingly and
unlawfully entered or remained unlawfully in the dwelling of Ms. Sneed.
That in doing so, that is, in entering unlawfully or remaining
unlawfully in the dwelling of Ms. Sneed, that he acted with intent. It
was his intent to commit an assault.
In other words, while entering her dwelling unlawfully, he
intended to commit the assault, or while remaining in the dwelling
unlawfully, he intended to commit the assault.
JUROR: Your Honor, the assault – could it be any other crime or just
it has to be – in this case it just has to be assault? I guess I’m confused.

232

Id. at 227 (all emphasis supplied).

233

Doc. no. 11 (Amended Habeas Petition), ¶ 123, at 41.

198

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 199 of 367

THE COURT: Well, in this case - well, let me just read the definition
of burglary again. And I’ll read it slow.
A person commits a burglary in the first degree if he knowingly
and unlawfully enters or remains unlawfully in a dwelling, and he does
so, he does those things, with the intent to commit, in this case, an
assault. The State has the burden of proving beyond a reasonable doubt
that it was his intent at the time that he unlawfully entered or remained
unlawfully in the dwelling.
And of course the rest of that definition is that while effecting
entry or while in the dwelling or in the immediate flight from the
dwelling, he was armed with a deadly weapon.
Does that answer your question, sir?
JUROR: Yes, sir.
THE COURT: Well, don’t be afraid to ask me questions if you have
one. I don’t want there to be any doubt about what the law states.
A JUROR: Can I ask a question?
THE COURT: Yes sir.
A JUROR: If you enter a building with a weapon unlawfully, without
permission, at any time, is that an assault?
THE COURT: Well, in this case the State has to prove that the
defendant entered or remained unlawfully in the building with the intent
to commit an assault.
Does that answer your question?
[No response.]
THE COURT: There seems to be a little confusion. Now, I want to

199

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 200 of 367

make sure that we have this cleared up.
A JUROR: Is everybody satisfied?
THE FOREMAN: Okay.
A JUROR: All satisfied.
THE COURT: All right. Okay.
A JUROR: Thank you.
Doc. no. 11 (Amended Habeas Petition), ¶ 123, at 41-42 (quoting C.R. Vol. 4, Tab
13, at 237-39) (alterations supplied, redactions in original).
1.

Procedural default

The last state court to issue an opinion on these subclaims was the Alabama
Court of Criminal Appeals. That Court’s second opinion on collateral appeal,
following remand from the Alabama Supreme Court, found the claims to be
procedurally defaulted under Alabama Rule of Appellate Procedure 28(a)(10). See
James v. State, 61 So. 3d 357, 370 (Ala. Crim. App. 2010). Hence, respondents argue
that these subclaims are procedurally defaulted based on the state court’s ruling.234
For the reasons previously discussed in Part III.B.5.g of this opinion, supra, this court
agrees with respondents. These claims are procedurally barred.

234

See doc. no. 19 (Respondents’ Answer), at 46.

200

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 201 of 367

2.

Merits

Even assuming these claims had not been procedurally defaulted, James still
cannot demonstrate that he is entitled to habeas relief. The state circuit court found
that James had not produced any evidence at the Rule 32 hearing supporting either
prong of the Strickland standard, but went on to state that, “[d]espite James’s failure
to pursue [these claims] at the evidentiary hearing,” it would “briefly address[] the
merits[.]”235 The circuit court then stated that it had
reviewed the entire charge to the jury at the close of the guilt phase. In
the context of the entire jury charge, the instructions sufficiently
directed the jurors to the evidence in such a manner that there is no
reasonable likelihood that they arrived at a finding of guilt based on
factors other than the evidence presented in the case.
The trial court’s jury charge defining reasonable doubt repeatedly
emphasized the jury’s obligation to base its findings on the evidence
introduced at trial. It instructed the jury that a reasonable doubt is “a
doubt for which a good, sensible reason can be given.” This Court
further explained that a reasonable doubt “may arise from all of the
evidence, a lack of evidence, or from any part of the evidence in this
case.” This Court has found no reasonable likelihood, nor has James
provided one, that the jurors applied the instruction concerning
reasonable doubt in an improper manner. Moreover, this jury charge
was in substantial compliance with Alabama’s pattern jury instructions.
The Supreme Court of Alabama has held that it is not plain error for the
trial court to instruct the jury pursuant to an approved pattern jury
instruction. Ex parte Harrell, 470 So. 2d 1309 (Ala. 1985). As such,
this claim is denied.

235

C.R. Vol. 32, Tab. 78 at 83-84 (alterations supplied).

201

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 202 of 367

James also alleged that trial counsel was ineffective for failing to
object to the Court’s instruction of the burglary element of the capital
murder charge. The Court has reviewed its instructions on the matter
and finds that James’s claim is without merit. Moreover, James has not
provided any evidence or testimony that any juror failed to understand
the Court’s instructions. As such, the claim is denied.
Finally, James alleged at “a minimum, counsel should have
requested an instruction which defined the confusing “unlawful
remaining” element. Rule 32 petition at paragraph 107. The Court
notes that it did define “unlawfully remaining” to the jury. The Court
instructed the jury that “The law says a person enters or remains
unlawfully in a dwelling when he is not licensed, invited, or privileged
to do so.” (R. 224) Moreover, James did not present any evidence that
he was prejudiced by counsel’s failures. As such, this Court finds that
this claim is without merit and is denied.
C.R. Vol. 32, Tab. 78 at 84-86.
Fairminded jurists could disagree with the Rule 32 circuit court’s conclusions.
Given the totality of the trial judge’s instructions, however, the jurors were clearly
told that they had the option of finding James “not guilty.” The basis for an acquittal
was contained within the explanation of the reasonable doubt standard.236
Additionally, the jurors were instructed that,
The defendant is presumed to be innocent of the charge against him.
This presumption follows him throughout the trial and is not overcome
unless you are convinced beyond a reasonable doubt that he is guilty.
This presumption of innocence has to be considered a fact in the case
and cannot be disregarded by you.

236

See C. R. Vol. 4, Tab 13, at 237-39.

202

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 203 of 367

C. R. Vol. 4, Tab 13, at 220-21. After explaining each of the elements that had to be
proved by the State, by evidence, beyond a reasonable doubt, in order to convict the
defendant of either the capital offense charged in the indictment, or some lesserincluded offense, the trial judge reminded the jury that if,
after considering all of the evidence in this case, if you have a doubt
about the defendant’s guilt and that doubt has a reason based on the
evidence, a lack of evidence, or from any part of the evidence, then you
should acquit the defendant or find him not guilty. However, if after
considering all of the evidence in this case, if you do not have a doubt
for which you can assign a good sensible reason, then you should
convict the defendant.
Id. at 226-27 (emphasis supplied).
The trial judge also instructed the jury that, in order to find the defendant guilty
of burglary and, thus, capital murder, the State had to prove beyond a reasonable
doubt that the defendant entered Tammy Sneed’s apartment without permission, and
with the intent to assault the victim, Faith Hall, once inside that apartment. The court
asked the jurors if they were “satisfied,” and they responded that they were.237
James has not demonstrated that the state courts’ rejection of these claims was
an unreasonable application of the Strickland standard. Thus, none of the claims
provide a basis for habeas relief.

237

See id.

203

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 204 of 367

L.

Failing to “Federalize” Objections238
James next alleges that “[t]rial counsel performed inadequately in failing to

federalize their objections by referencing the provisions of the United States
Constitution which were violated by the various errors noted above.”239 According
to James: “Trial counsel’s omission potentially prejudiced Petitioner by waiving or
procedurally defaulting this federal claim, thereby preventing federal review of a
meritorious issue.”240
Respondents argue that the claim is procedurally defaulted due to its dismissal
by the Rule 32 circuit court under an independent and adequate state procedural
rule.241 They also note that the circuit court held that this subclaim presented no
material issue of law or fact.242
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which dismissed it for failure to comply with the requisite pleading
requirements of Alabama Rules of Criminal Procedure 32.3 and 32.6(b).243 The court
explained that “James did not state what objections should have been federalized . .

238

Claim I.L: see doc. no. 11 (Amended Habeas Petition), ¶¶ 128-129, at 44.

239

Id., ¶ 128, at 44 (alteration supplied).

240

Id.

241

Doc. no. 19 (Respondents’ Answer), at 49.

242

Id.

243

See C. R. Vol. 32, Tab 78, at 20-21.

204

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 205 of 367

. [and] did not plead how counsel’s alleged deficiencies prejudiced him”; instead, he
only alleged that “[t]rial counsel’s omission potentially prejudiced [him].”244
Furthermore, the court dismissed the claim pursuant to Rule 32.7(d), saying that
“[t]here is no reasonable probability that the outcome of the trial would have been
different had counsel ‘federalized’ any issue raised,” so “there is no material issue of
fact or law presented by this claim.”245
This court finds that the Rule 32 circuit court reasonably found that James did
not demonstrate how he was allegedly prejudiced. It was reasonable for the state
court to determine that James failed to show that the outcome of the proceedings
would have been different if his trial lawyers if his trial lawyers had “federalized” all
of their objections. This claim provides no basis for habeas relief.
M.

Trial Counsel’s Performance was Prejudicially Deficient Because
Counsel’s Failures to Object, or to Take the Affirmative Actions Detailed
in this Claim, Resulted in Procedural Defaults With Respect to Some
Issues246
The last state court to issue an opinion on this subclaim was the Rule 32 circuit

court, which dismissed the claim for failure to comply with the specificity and full
factual pleading requirements of Alabama Rules of Criminal Procedure 32.3 and

244

Id. at 20-21 (emphasis in original) (first alteration supplied, other alterations in original).

245

Id. at 35.

246

Claim I.M: see doc. no. 11 (Amended Habeas Petition), ¶¶ 130-131, at 44-45.

205

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 206 of 367

32.6(b).247 That court explained that “James merely alleges that any and all of the
claims in his petition that are procedurally barred were barred because of ineffective
assistance of counsel. James did not state which specific claims he believes could
have been raised at trial by counsel but were not.”248
Respondents argue that this subclaim was procedurally defaulted pursuant to
the circuit court’s ruling.249 Under the holding in Borden v. Allen, 646 F.3d 785 (11th
Cir. 2011), however, this court must reach the merits. Even when doing so, this court
finds no basis for 28 U.S.C. § 2254(d) relief. As the Rule 32 circuit court explained,
an ineffective assistance of counsel claim requires the habeas petitioner to identify
specific acts or specific omissions of counsel that allegedly prejudiced him. See
Strickland, 466 U.S. at 690. James did not do so. Even so, and because this court
finds the present claim to actually amount to only an assertion of the “cumulative
effects of errors,” it will be considered more thoroughly in Part V.N, immediately
below.
N.

The Cumulative Effect of Trial Counsel’s Guilt-Phase Errors Prejudiced
James, Even If No Single Error, Standing Alone, Did So250
James next argues that “[j]ustice demands that [his] conviction be reversed
247

C.R. Vol. 32, Tab 78, at 21-22.

248

Id.

249

See doc. no. 19 (Respondents’ Answer), at 51-52.

250

Claim I.N: see doc. no. 11 (Amended Habeas Petition), ¶¶ 132-136, at 45-46.

206

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 207 of 367

because the cumulative effect of all the errors and violations alleged in this claim
‘was so prejudicial as to strike at the fundamental fairness of the trial.’”251 When
James raised this claim during collateral review, the Rule 32 circuit court dismissed
it for failing to state a claim under Rule 32.7(d), ruling as a matter of law that it could
not be evaluated under Strickland, which requires that “specific instances of
ineffective assistance of counsel be alleged, and a claim that the cumulative effect of
alleged errors equal ineffective assistance of counsel is insufficient.”252
The Eleventh Circuit was presented with a similar claim alleging the
cumulative effect of attorney errors in Hunt v. Commissioner, Alabama Department
of Corrections, 666 F.3d 708 (11th Cir. 2012). In that case, the habeas petitioner
complained about the fact that the Alabama Court of Criminal Appeals had “refused
to consider whether the cumulative effect of counsel’s alleged errors amounted to
ineffective assistance, and, in doing so, unreasonably applied clearly established
federal law.” Id. at 731. The Eleventh Circuit rejected the claim, saying that, “[e]ven
if we were to determine that clearly established federal law mandates a cumulativeeffect analysis of ineffective-assistance claims, Hunt would not be entitled to relief:
he has not shown that in this case the cumulative effect of counsel’s alleged errors
251

Id., ¶ 132, at 45 (alterations supplied) (quoting United States v. Parker, 997 F. 2d 219, 222
(6th Cir. 1993) (citation omitted)).
252

C.R. Vol. 32, Tab. 78 at 35-37.

207

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 208 of 367

amounted to ineffective assistance.” Id. at 731-32 (alteration supplied).253
In like manner, James has utterly failed to demonstrate that the actions or
omissions of his trial attorneys, regardless of whether they are considered individually
or cumulatively, prejudiced him under Strickland. It is incumbent upon him to do so
because,
[u]nlike a later reviewing court, the attorney observed the relevant
proceedings, knew of materials outside the record, and interacted with
the client, with opposing counsel, and with the judge. It is “all too
tempting” to “second-guess counsel’s assistance after conviction or
adverse sentence.” [Strickland, 466 U.S.] at 689; see also Bell v. Cone,
535 U.S. 685, 702, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002); Lockhart
v. Fretwell, 506 U.S. 364, 372, 113 S. Ct. 838, 122 L. Ed. 2d 180
(1993). The question is whether an attorney’s representation amounted
to incompetence under “prevailing professional norms,” not whether it
deviated from best practices or most common custom.
Premo v. Moore, 562 U.S. 115, 131 S. Ct. 733, 740 (2011) (alterations supplied). The
fact that James’s present habeas attorneys may have tried his case differently is not
sufficient to meet both prongs of the Strickland standard: that is, that a professionally
unreasonable act or omission by counsel caused sufficient prejudice to James’s

253

See also Borden v. Allen, 646 F.3d 785 (11th Cir. 2011), in which the Eleventh Circuit
also addressed the question of “whether a claim of ineffective assistance of counsel may be based
on the ‘cumulative effect’ of multiple non-prejudicial errors by counsel when no individual error
standing alone would warrant a finding of prejudice under Strickland.” Id. at 823. Because the
petitioner in that case, like James in the present proceeding, had not sufficiently pled facts that would
establish prejudice, regardless of whether the actions of the petitioner’s attorneys were considered
cumulatively, the Court declined “to elaborate further on the concept of ‘cumulative effect’ for fear
of issuing an advisory opinion on a hypothetical issue.” Id.

208

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 209 of 367

defense to undermine confidence in the outcome of the proceeding. Strickland, 466
U.S. at 687.
Having now reviewed each of the alleged errors and omissions of counsel
during the guilt phase of trial about which James complains in his amended habeas
petition, this court finds no “cumulative effect” that reasonably could satisfy the
prejudice prong of the Strickland standard.
VI. PETITIONER’S PENALTY-PHASE INEFFECTIVE
ASSISTANCE OF COUNSEL CLAIMS
A.

Failing to Conduct Any Investigation of Petitioner’s Background to
Obtain Mitigation or Social History Evidence, and, Failing to Present Such
Evidence During the Penalty Phase254
Following a defendant’s conviction of capital murder in Alabama, state statutes

require that a separate “sentence hearing” be conducted before a jury,255 preferably
the same jury that determined the defendant’s guilt,256 which is charged with returning
“an advisory verdict,” recommending the sentence to be imposed by the trial court

254

Claim II.A: see doc. no. 11 (Amended Habeas Petition), ¶¶ 137-218, at 46-76.

255

The participation of a jury may be waived by a defendant, but a waiver also requires both
the consent of the State’s prosecutor and approval of the trial judge. See Ala. Code § 13A-5-44(c)
(1975). See also id. § 13A-5-46(a) (“If both parties with the consent of the court waive the right to
have the hearing conducted before a jury, the trial judge shall proceed to determine sentence without
an advisory verdict from a jury. Otherwise, the hearing shall be conducted before a jury as provided
in the remaining subsections of this section.”).
256

See Ala. Code § 13A-5-46(b) (“If the defendant was tried and convicted by a jury, the
sentence hearing shall be conducted before that same jury unless it is impossible or impracticable
to do so. . . .”).

209

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 210 of 367

judge:257 the ultimate sentencing authority under Alabama law. See, e.g., Ala. Code
§ 13A-5-47(a) (“After the sentence hearing has been conducted, and after the jury has
257

The pertinent subsections of Alabama Code § 13A-5-46 provide that:

(a) Unless both parties with the consent of the court waive the right to have
the sentence hearing conducted before a jury as provided in Section 13A-5-44(c), it
shall be conducted before a jury which shall return an advisory verdict as provided
by subsection (e) of this section. . . .
....
(d) After hearing the evidence and the arguments of both parties at the
sentence hearing, the jury shall be instructed on its function and on the relevant law
by the trial judge. The jury shall then retire to deliberate concerning the advisory
verdict it is to return.
(e) After deliberation, the jury shall return an advisory verdict as follows:
(1) If the jury determines that no aggravating circumstances as defined
in Section 13A-5-49 exist, it shall return an advisory verdict recommending
to the trial court that the penalty be life imprisonment without parole;
(2) If the jury determines that one or more aggravating circumstances
as defined in Section 13A-5-49 exist[,] but [that the aggravating
circumstances] do not outweigh the mitigating circumstances, it shall return
an advisory verdict recommending to the trial court that the penalty be life
imprisonment without parole;
(3) If the jury determines that one or more aggravating circumstances
as defined in Section 13A-5-49 exist and that they outweigh the mitigating
circumstances, if any, it shall return an advisory verdict recommending to the
trial court that the penalty be death.
(f) The decision of the jury to return an advisory verdict recommending a
sentence of life imprisonment without parole must be based on a vote of a majority
of the jurors. The decision of the jury to recommend a sentence of death must be
based on a vote of at least 10 jurors. The verdict of the jury must be in writing and
must specify the vote.
Ala. Code § 13A-5-46(a), (d)–(f) (1975) (alterations supplied).

210

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 211 of 367

returned an advisory verdict, . . . the trial court shall proceed to determine the
sentence.”).
James contends that his trial attorneys provided constitutionally ineffective
assistance of counsel during the second, “penalty phase” of trial before the same jury
that determined his guilt. He alleges that counsel
presented no witnesses in mitigation at the sentencing phase, presented
no documentary evidence of petitioner’s medical, academic, and
employment history, consulted no mental health or social history
experts, and during closing argument revealed a fundamental
misunderstanding of the purpose of mitigation evidence during the
sentencing phase of a capital trial. Even if James had been convicted of
capital murder at the guilt phase, a competent investigation and the
presentation of powerful mitigation evidence at the sentencing phase
would have saved petitioner’s life. . . .
Counsel’s deficient performance at this phase of the trial was so
egregious as to completely fail to subject the prosecution’s case to a
meaningful adversarial testing, thereby compelling relief without a
showing of prejudice. United States v. Cronic, 466 U.S. 648, 658-660
(1984). Moreover, counsel’s deficient performance clearly prejudiced
James and violated his rights under the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution. Strickland v.
Washington, supra, 466 U.S. at 693-694; Williams v. Taylor, 529 U.S.
362, 394-395 (2000).
Doc. 11 (Amended Habeas Petition), ¶¶ 137-138, at 46. James argues that, even if
it is determined that his trial attorneys performed competently during the guilt phase
of trial, their performance at the penalty phase fell “below the standard of reasonable
competence and thereby compel[s] reversal of the [state court’s] judgment.” Id. ¶

211

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 212 of 367

139, at 46 (alterations supplied).
According to James, the Supreme Court’s decision in Wiggins v. Smith, 539
U.S. 510 (2003), requires trial counsel in a capital case to “conduct a complete and
thorough investigation sufficient to discover ‘all reasonably available mitigating
evidence.’”258 Furthermore, “[f]ailure to investigate the possibility of mitigating
evidence is, per se, deficient performance.”259 James argues that,
[e]ven if the new evidence [would not be] entirely favorable to the
defendant[,] or would leave some aggravating evidence (e.g., future
dangerousness) unrebutted, evidence of a defendant’s difficult
childhood, poverty, mental problems, and similar background and
character evidence will be sufficient to establish prejudice from
counsel’s failure to perform effectively if that evidence ‘might well have
influenced the jury’s appraisal of his moral culpability.’
Doc. no. 11, ¶ 144, at 49 (quoting Williams v. Taylor, 529 U.S. at 398) (alterations
supplied). James then provides a lengthy overview of evidence he deems to be
mitigating, including
evidence of Petitioner’s chaotic upbringing and family background;
Petitioner’s genetic predisposition for mental illnesses and other mental
deficits; Petitioner’s medical, psychiatric and neurological impairments,
including but not limited to, schizophrenia, mood disorder, depression,
and debilitating head and brain trauma; Petitioner’s childhood history of
profound neglect, abandonment, abuse and instability, isolation and
imprisonment; and Petitioner’s childhood exposure to neurotoxins,
substance abuse and severe racial and ethnic discrimination, all of which
258

Doc. no.11 (Amended Habeas Petition), ¶ 139, at 47 (quoting Wiggins, 539 U.S. at 524).

259

Id. (citing Ex parte Land, 775 So. 2d 847, 853 (Ala. 2000)) (alteration supplied).

212

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 213 of 367

have direct bearing on Petitioner’s character, mental functioning and
disabilities and numerous other factors in mitigation.
Id., ¶ 145, at 49-50.
Respondents argue that this subclaim was denied on the merits by the Alabama
Court of Criminal Appeals, which relied on Strickland and its progeny when
reviewing James’s contentions.260 Respondents also contend that James cannot
demonstrate that the state court’s ruling was contrary to, or involved an unreasonable
application of, clearly established federal law, or resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in the
state court proceedings.261
James contends that his trial attorneys performed so deficiently during the
penalty phase that they “fail[ed] to subject the prosecution’s case to a meaningful
adversarial testing, [thus] compelling relief without a showing of prejudice.”262 The
Supreme Court has held that, “if counsel entirely fails to subject the prosecution’s
case to meaningful adversarial testing, then there has been a denial of Sixth
Amendment rights that makes the adversary process itself presumptively unreliable.”
United States v. Cronic, 466 U.S. 648, 659 (1984). To the extent that the Court’s
260

Doc. no. 19 (Respondents’ Answer), at 57.

261

Id.

262

Doc. no. 11 (Amended Habeas Petition), ¶ 138, at 46 (citing United States v. Cronic, 466
U.S. 648, 659 (1984)) (alterations supplied).

213

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 214 of 367

holding in Cronic applies, the burden of proof under that standard is “a very heavy
one.” Smith v. Wainwright, 777 F.2d 609, 620 (11th Cir. 1985) (“[W]e have yet to
find that a petitioner received ineffective assistance of counsel under the Cronic
standard based solely on his counsel’s performance, without regard to some
interference attributable to the state”). Indeed, the Eleventh Circuit has held that a
claim of counsel’s failure “to investigate and pursue all avenues of defense is best
characterized as a failure by counsel in the performance of his investigative duties,
which is to be analyzed under [Strickland ], rather than as a fundamental breakdown
of the adversarial process such that prejudice is presumed under Cronic.” Chadwick
v. Green, 740 F.2d 897, 901 (11th Cir. 1984) (alteration supplied). Because James’s
ineffective assistance of counsel claims during the penalty phase of trial pertain solely
to counsel’s failure to investigate various avenues of mitigation evidence, they do not
fall within that “very narrow spectrum of cases where the circumstances leading to
counsel’s ineffectiveness are so egregious that the defendant was in effect denied any
meaningful assistance at all.” Id. Accordingly, James is not entitled to rely upon a
presumption of prejudice, and he must instead affirmatively meet the Strickland
standard to be entitled to habeas relief on this claim.
The last state court to issue a reasoned opinion on this subclaim was the
Alabama Court of Criminal Appeals. That Court’s second opinion on collateral

214

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 215 of 367

appeal, following remand from the Alabama Supreme Court, ruled that James had
failed to demonstrate that his trial attorneys’ representation in the penalty phase was
deficient under Strickland and its progeny. See James v. State, 61 So. 3d 357, 373
(Ala. Crim. App. 2010). That Court’s analysis of the same deficiencies cited by
James in his Rule 32 petition — and then again here, in his habeas petition — reads
as follows:
Next, James argues that his counsel were ineffective at the
sentencing phase of his trial because, he asserts, they failed to
investigate and present mitigation evidence.
In addressing this claim, the circuit court made the following
findings:
“Judge Vinson [i.e., Virginia Vinson, who became a
state judicial officer following her representation of James
during his second trial] testified that shortly after her
appointment to represent James, she spoke with his
grandmother and mother regarding possible mitigation
evidence. Neither provided her with any information
regarding possible mitigation evidence. It appears that
James’s own mother was completely unwilling to help in
his defense. Judge Vinson stated that when James’s
mother surprisingly attended one day of the trial, she again
asked her to testify on James’s behalf. Despite her pleas,
James’s mother refused.
“Judge Vinson also stated that she spoke with
James’s sister, Yosandra Craig, after she too attended one
day of the trial. Judge Vinson stated that Ms. Craig related
several incidents involving her brother, James. Ms. Craig
told her that James was aggressive, violent and

215

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 216 of 367

overprotective. Ms. Craig also told Judge Vinson that
James had broken a former girlfriend’s arm, beat a man at
Job Corps, and threatened her stepfather with a gun. Based
on her conversation with Ms. Craig, Judge Vinson would
not have called her as a mitigation witness. Judge Vinson
testified that she believed that Ms. Craig would have done
more damage than good. This Court finds that is a
reasonable tactical decision based on the information that
Ms. Craig had provided.
“In addition to speaking with James’s mother and
grandmother prior to trial, Judge Vinson also spoke with
James about possible mitigating evidence. Judge Vinson
asked James about his family and possible witnesses that
could testify during the penalty phase. Judge Vinson also
asked if his father had ever abused him. James denied that
any abuse ever occurred. Judge Vinson also asked James
for permission to put family members on the stand during
the penalty phase for mitigation purposes. James, however,
refused to provide any names or possible witnesses that
could be used for mitigation during the penalty phase of
the trial. In fact, James specifically instructed counsel not
to involve his family and not to call anyone during the
penalty phase. After learning that Judge Vinson spoke
with his mother and sister at trial, James became angry and
again instructed trial counsel not to call anyone on his
behalf. James also refused to testify on his own behalf.
Throughout their representation of James, both Mr. Warren
[i.e. Gordon Herbert Warren, the other attorney
representing James during the second trial] and Judge
Vinson testified that James was uncooperative and often
uncommunicative.
“It is obvious from the record at trial and the
evidentiary hearing that trial counsel conducted a limited
investigation and did not present any nonstatutory
mitigation evidence during the penalty phase. However, in

216

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 217 of 367

view of the unique circumstances faced by trial counsel,
this Court does not find that their investigation or failure to
present nonstatutory mitigation evidence constitutes
deficient performance under Strickland or as interpreted by
the United States Supreme Court in Wiggins v. Smith [, 539
U.S. 510 (2003) ]. Unlike the trial counsel in Wiggins, Mr.
Warren and Judge Vinson were faced with a defendant’s
family that was unwilling to help and a client who refused
to provide counsel with any information. Moreover, James
ordered his counsel not to involve his family and not to
present any witnesses on his behalf during the penalty
phase. The absence of nonstatutory mitigation is
attributable not to trial counsel, but to James and his
family.
“A competent defendant can waive the presentation
of mitigating evidence during the penalty phase. See
Nelson v. State, 681 So. 2d 252, 255 (Ala. Crim. App.
1995). In Adkins v. State, the defendant waived the
presentation of mitigating evidence at trial, only to later
claim on Rule 32 that trial counsel was ineffective for
failing to present mitigating evidence. [930 So. 2d 524]
(Ala. Crim. App. 2004). The Court of Criminal Appeals
upheld the denial of the defendant’s ineffectiveness claim
stating, ‘a defendant is estopped from raising a claim of
ineffective assistance of counsel for counsel’s failure to
present mitigating evidence when the defendant waived the
presentation of mitigating evidence.’ Id. The Court of
Criminal Appeals explained that ‘[to] punish Adkins’s
attorneys for following his wishes would conflict with the
doctrine of invited error.’ Id.
“James refused to provide counsel with any
assistance in procuring mitigating evidence. His family
was also unable or refused to assist trial counsel in
obtaining mitigating evidence. Finally, James specifically
instructed his counsel not to present any mitigation

217

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 218 of 367

witnesses on his behalf. At trial, James told this Court that
he did not wish to present any witnesses on his behalf at
the penalty phase. Essentially, James knowingly and
voluntarily waived his right to present mitigating evidence
on his own behalf. A ‘defendant will not be permitted to
allege as error an action at trial that was invited by him or
that was a natural consequence of his own actions.’ Duke
v. State, [889 So. 2d 1] (Ala. Crim. App. 2002).
“Clearly, James wished that no mitigating evidence
be presented on his behalf. James told Mr. Warren that he
would rather be on death row than in the general prison
population. James explained that he is treated better on
death row, has his own cell and television, and does not
have to deal with other people. James cannot now blame
trial counsel for failures that were the result of his own
actions and desires. In light of James and his family’s
unwillingness or inability to assist trial counsel, this Court
finds that trial counsel’s investigation and presentation of
mitigating evidence was not deficient. As such, this claim
is denied for failing to meet the first prong of Strickland.
Specifically, James has failed to demonstrate that trial
counsel’s representation fell below an objective standard of
reasonableness. Chandler [v. United States], 218 F.3d
[1305] at 1312–1313 [(11th Cir. 2000)] (citing, Darden v.
Wainwright, 477 U.S. 168 (1986)).”
(C.R. 140–44.)
Warren testified that Vinson was lead counsel, that he was in
charge of investigating the facts surrounding the murder, and that
Vinson was in charge of mitigation. Vinson’s law partner represented
James in his first capital-murder trial. Vinson gave the case file to
Warren, he said, and told him to familiarize himself with the case.
Warren testified that he could not locate his file on the case, that he did
not know the exact number of hours he had spent on the case, and that
he did not submit a bill for his work on the case. He said that he had

218

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 219 of 367

difficulty communicating with James because James often would “not
convey any information” and would not talk about the events leading to
Hall’s murder. Warren further testified that James did not want to
discuss his family and did not want his family in the courtroom. Warren
stated in his affidavit that he and Vinson met “50 to 100 times prior to
trial,” and that when he met with James for the first time, James said, “I
am going to plead guilty, you guys don’t need to do anything.” (C.R.
1182.) Warren also stated that before trial he discovered that James had
been speaking to another attorney and that that attorney had arranged for
James to plead guilty in exchange for a life sentence. However, on the
first day of trial James changed his mind and informed Warren that he
was not going to enter a guilty plea. Warren said that he spoke at length
to James about this decision:
“I talked to him for a long time and the thing he kept
coming back to was that he had it pretty good where he
was on death row. He said he had his own television set
that he could control and watch what he wanted. He didn’t
have to deal with twenty other guys voting on whether to
watch football or baseball. He had plenty of reading
material. He didn’t have to watch his back and worry
about someone sneaking up behind him and clubbing him
or stabbing him because he was handled one on one
exclusively on death row. The only drawback he said was
not getting as much exercise—an hour a day or whatever
it was. Otherwise, he was in his cell. He did not want to
move in with the general population.”
(C.R. 1192–93.) In conclusion, Warren stated in his affidavit that he felt
that James was trying to sabotage his case.
Vinson testified that she spoke to James’s grandmother, his
mother, and one of his sisters, and encouraged them to testify on James’s
behalf in the penalty phase. James, she said, got angry when he found
out that she had spoken to his family and instructed her not to call
witnesses on his behalf at his sentencing hearing. Vinson stated in her
affidavit that she spoke to James’s mother several months before trial

219

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 220 of 367

and that she did not want to get involved. Vinson testified that James’s
sister did tell her that James had been abused but that when she asked
James about it he denied that he had suffered any abuse. Vinson also
said that she thought it would hurt James to call his sister to testify
because she could also testify about violent acts James had committed
in the past.
The record of James’s trial shows that the following occurred
before his sentencing hearing:
“[Vinson]: And also, Your Honor, just to put on the record,
we have talked with Mr. James yesterday and Mr. Warren
has talked with him this morning, we have talked with his
mother and sister who are here, and it has been our
decision not to present any witnesses as testimony during
the sentencing.
“[Prosecutor]: Does he agree to that?
“The Court: Is that correct, Mr. James?
“Defendant: (Nods.)
“[Vinson]: Mr. James agrees with that.”
(Supplemental trial record, p. 9.)
James asserts that the United States Supreme Court’s decisions in
Wiggins v. Smith, 539 U.S. 510, 123 S. Ct. 2527, 156 L. Ed. 2d 471
(2003), and Rompilla v. Beard, 545 U.S. 374, 125 S. Ct. 2456, 162 L.
Ed. 2d 360 (2005), require that counsel conduct and present mitigation
evidence even when their client is uncooperative or instructs them not
to present such evidence. The United States Supreme Court in Schriro
v. Landrigan, 550 U.S. 465, 127 S. Ct. 1933, 167 L. Ed. 2d 836 (2007),
held otherwise and stated:
“Neither Wiggins nor Strickland addresses a

220

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 221 of 367

situation in which a client interferes with counsel’s efforts
to present mitigating evidence to a sentencing court.
Wiggins, supra, at 523 (‘[W]e focus on whether the
investigation supporting counsel’s decision not to
introduce mitigating evidence of Wiggins’ background was
itself reasonable’ (emphasis added and deleted)). Indeed,
we have never addressed a situation like this. In Rompilla
v. Beard, 545 U.S. 374, 381 (2005), on which the Court of
Appeals also relied, the defendant refused to assist in the
development of a mitigation case, but did not inform the
court that he did not want mitigating evidence presented.
In short, at the time of the Arizona postconviction court’s
decision, it was not objectively unreasonable for that court
to conclude that a defendant who refused to allow the
presentation of any mitigating evidence could not establish
Strickland prejudice based on his counsel’s failure to
investigate further possible mitigating evidence.”
550 U.S. at 478, 127 S. Ct. 1933. In applying the Supreme Court’s
decision in Schriro v. Landrigan, the United States Court of Appeals for
the Eleventh Circuit in Cummings v. Secretary, Department of
Corrections, 588 F.3d 1331 (11th Cir.2009), stated:
“[W]hen a competent defendant clearly instructs counsel
not to investigate or present mitigation evidence, the scope
of counsel’s duty to investigate is significantly more
limited than in the ordinary case. See Knight v. Dugger,
863 F.2d 705, 750 (11th Cir. 1988) (‘Although a capital
defendant’s stated desire not to use character witnesses
does not negate the duty to investigate, it limits the scope
of the investigation required.’); Tafero v. Wainwright, 796
F.2d 1314, 1320 (11th Cir. 1986) (‘[A] defendant’s
decision communicated to his counsel as to who he wants
to leave out of the investigation, while not negating the
duty to investigate, does limit the scope of the
investigation.’). Indeed, Strickland tells us that the
reasonableness of counsel’s investigation ‘depends

221

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 222 of 367

critically’ on the defendant’‘s statements or actions.
Strickland, 466 U.S. at 691, 104 S. Ct. at 2066; see also
Porter [v. McCollum, – U.S. — , 130 S. Ct. 447], at 453
[(2009)] (noting that ‘although Porter instructed [counsel]
not to speak with Porter’s ex-wife or son, Porter did not
give him any other instructions limiting the witnesses he
could interview’).
“. . . .
“A competent defendant’s clear instruction not to
investigate or present mitigation evidence also impacts the
prejudice prong of the ineffective assistance test. In
Schriro v. Landrigan, 550 U.S. 465, 127 S. Ct. 1933, 167
L. Ed. 2d 836 (2007), the Supreme Court held that the
capital defendant Landrigan could not demonstrate
prejudice ‘[b]ecause the Arizona postconviction court
reasonably determined that Landrigan instructed his
attorney not to bring any mitigation to the attention of the
[sentencing] court.’ Id. at 477, 127 S. Ct. at 1941–42
(quotation marks and citations omitted); see also id. at 475,
127 S. Ct. at 1941 (stating that ‘[i]f Landrigan issued such
an instruction [to his counsel not to offer any mitigating
evidence], counsel’s failure to investigate further could not
have been prejudicial under Strickland’). Indeed, ‘the
judge presiding on postconviction review was ideally
situated to make [the] assessment [about what Landrigan
instructed his counsel] because she is the same judge that
sentenced Landrigan and discussed these issues with him.’
Id. at 476, 127 S. Ct. at 1941. The Supreme Court
emphasized that in denying Landrigan’s § 2254 petition,
the ‘District Court was entitled to conclude that regardless
of what information counsel might have uncovered in his
investigation, Landrigan would have interrupted and
refused to allow his counsel to present any such evidence.’
Id. at 477, 127 S. Ct. at 1942.

222

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 223 of 367

“. . . .
“Our earlier decision in Gilreath v. Head, 234 F.3d
547 (11th Cir.2000) is consistent with Landrigan. There,
the defendant Gilreath instructed his counsel to present no
mitigation evidence during the penalty phase. Id. at
549–50.
This Court denied Gilreath’s ineffective
assistance claim on prejudice grounds, stating Gilreath
‘actually must make two showings.’ Id. at 551. ‘First,
James must show a reasonable probability that – if James
had been advised more fully about character evidence or if
trial counsel had requested a continuance – James would
have authorized trial counsel to permit such evidence at
sentencing.’ Id. ‘Second, James must establish that, if
such evidence had been presented at sentencing, a
reasonable probability exists that the jury would have
concluded that the balance of aggravating and mitigating
circumstances did not warrant death.’ Id. at 551–52
(quotation marks omitted).
“In Gilreath, this Court explained that, ‘[i]n other
words, to show prejudice, James must show that – but for
his counsel’s supposedly unreasonable conduct – helpful
character evidence actually would have been heard by the
jury. If James would have precluded its admission in any
event, James was not prejudiced by anything that trial
counsel did.’ Id. at 551 n. 12. This rule follows naturally
from Strickland’s formulation of the prejudice prong, for
there cannot be a reasonable probability of a different
result if the defendant would have refused to permit the
introduction of mitigation evidence in any event. See
Strickland, 466 U.S. at 694, 104 S. Ct. at 2068 (defining
prejudice for ineffective-assistance purposes as a
‘reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would
have been different’).”

223

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 224 of 367

588 F.3d at 1358–60. See Adkins v. State, 930 So. 2d 524 (Ala. Crim.
App. 2001) (holding that a defendant is estopped from raising a claim
of ineffective assistance of counsel when he has instructed his attorney
not to present any mitigation evidence on his behalf); Whitehead v.
State, 955 So. 2d 448 (Ala. Crim. App. 2006) (holding that a defendant
may raise the validity of the waiver of the presentation of mitigating
evidence) (footnote omitted).
“‘We have . . . emphasized the importance of a
mentally competent client’s instructions in our analysis of
defense counsel’s investigative performance under the
Sixth Amendment.’ Newland [v. Hall], 527 F.3d [1162]
1202 [(11th Cir. 2008)]. Significant deference is owed to
failure to investigate made under a client’s specific
instructions not to involve his family. Id. at 1203.
Assuming [counsel] did not know the details of his client’s
background, [the defendant’s] admonishment to him not to
contact his family cannot be ignored. We cannot say it
would be unreasonable for [counsel] not to discuss [the
defendant’s] background with his sisters and mother if [the
defendant] indeed instructed him not to contact them out of
a sense of protection.”
Blankenship v. Hall, 542 F.3d 1253, 1277 (11th Cir. 2008). See Tafero
v. Wainwright, 796 F.2d 1314, 1320 (11th Cir. 1986) (“[A] defendant’s
decision communicated to his counsel as to who he wants to leave out
of the investigation, while not negating the duty to investigate, does
limit the scope of the investigation.”).
Vinson, in contradiction to her client’s wishes, talked to members
of James’s family and asked them to testify on James’s behalf. Vinson
testified that James became angry when he discovered that she had
talked to his mother and sister. Counsel also had the competency report
completed by Dr. [Wendy] Rebert, the presentence report from the first
trial, the attorney case file from James’s first trial, and other evidence
that had been admitted at James’s first trial. This is not a case where the
attorneys conducted no investigation. Given the unique circumstances

224

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 225 of 367

presented in this case we cannot say that counsel’s actions were
unreasonable. See Schriro v. Landrigan, supra.
James v. State, 61 So. 3d 357, 371-77 (Ala. Crim. App. 2010) (alterations supplied).
James does not argue in his habeas pleadings that the Alabama Court of
Criminal Appeals’ determination on the merits of this claim was either an
unreasonable application of clearly established federal law, as determined by the
Supreme Court of the United States, or an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding. See 28 U.S.C. §
2254(d). Instead, his habeas petition merely reiterates the identical arguments made
to the Rule 32 circuit court. Compare James’s amended habeas petition (doc. no. 11),
at 46-76, with James’s second amended Rule 32 petition for relief from judgment
(C.R. Vol. 14, Tab 46, at 1281-1325).
Moreover, James’s only argument addressing the opinion of the Alabama Court
of Criminal Appeals is relegated to a long footnote in his reply brief, in which he
contends that:
The Court of Criminal Appeals badly misread Schiro v.
Landrigan, 550 U.S. 465 (2007)[,] as compelling its decision to uphold
the Attorney General’s absurd finding that petitioner was to blame for
counsel’s failure to present mitigating evidence. Porter v. McCollum,
[558 U.S. 30, 130 S. Ct. 447 (2009),] decided two years after Landrigan,
again reiterated the many precedents holding that counsel may not fail
to conduct any meaningful mitigation investigation and then blame it on
the defendant for being uncooperative or fatalistic. Id., [558 U.S. at —,]

225

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 226 of 367

130 S. Ct. [at] 453.
Moreover, Landrigan was clearly distinguishable. First of all,
Landrigan applies only to the prejudice analysis of Strickland, and any
reliance on the case for purposes of determining counsel’s competence
is inherently unreasonable. Furthermore, the case is factually and
obviously distinguishable from this one. Trial counsel in Landrigan had
actually conducted an investigation and was prepared to present as
witnesses the defendant’s mother to testify that she had use drugs and
alcohol, his ex-wife to testify that the defendant was a good father, and
to introduce other evidence about the defendant’s good employment
history and the self-defense elements involved in the killing for which
the defendant had been convicted. He had also explained to the
defendant the purpose of mitigating evidence and urged him to permit
counsel to present the evidence. However, Landrigan himself repeatedly
interrupted counsel, interfered with his attempts to present mitigating
evidence, forbade his mother and ex-wife to testify, and repeatedly
attempted to offer aggravating evidence in an effort to obtain a death
penalty. Landrigan, supra, 550 U.S. at 469.
Landrigan thus stands for the proposition that when an attorney
has conducted a mitigation investigation and presented the results to the
defendant, and the defendant has then refused to permit the presentation
of that mitigating evidence, the defendant cannot later assert ineffective
assistance of counsel on that basis. However, Landrigan does not
address the situation in this case where counsel has failed to conduct any
meaningful mitigation investigation. A defendant cannot be said to have
“interfered” with the presentation of mitigating evidence, as Landrigan
did, when counsel has done no investigation and has no such evidence
to present. Indeed, Landrigan itself cited with approval the language of
Wiggins v. Smith emphasizing that counsel cannot make a tactical
judgment or competently advise the client regarding the evidence to be
presented with first conducting an investigation. Landrigan, supra, 550
U.S., at p. 478. As Wiggins stated:
[S]trategic choices made after thorough investigation of
law and facts relevant to plausible options are virtually

226

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 227 of 367

unchallengeable; and strategic choices made after less than
complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the
limitations on investigation. In other words, counsel has a
duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations
unnecessary. In any ineffectiveness case, a particular
decision not to investigate must be directly assessed for
reasonableness in all the circumstances, applying a heavy
measure of deference to counsel’s judgments.
466 U.S., at 690-691.
Counsel here announced to the court that she and her co-counsel
had spoken to petitioner and, on the morning of the penalty phase, with
his mother and sister (who had come to court voluntarily) and that it was
“our decision” not to present any witnesses at the penalty phase. Asked
if that was correct, the record states that petition nodded. James v. State,
supra, 61 So.2d at p. 374. That is not even remotely like the situation
in Landrigan. Here counsel did no meaningful investigation. Her
statement in court was that it was “our decision,” not petitioner’s
decision, not to present witnesses. Petitioner then said nothing but,
according to the court reporter, nodded when asked if that was correct.
Assuming that the court reporter’s conclusion that petitioner nodded is
to be taken as a sign of assent, it is still not at all clear from the context
whether petitioner was simply agreeing that counsel had spoken to him,
whether he was agreeing that it was counsel’s decision, or whether he
was agreeing with the decision itself. However, even taking every
conceivable inference in the final order’s favor — an assumption that is
wholly unjustified — this was at best acquiescence in counsel’s
decision; it was certainly not inference in the presentation of mitigating
evidence counsel had uncovered, such as occurred in Landrigan.
Thus, neither the final order nor the appellate court’s citation of
Landrigan can use petitioner’s acquiescent nod to shield slothful
counsel from a finding of ineffectiveness when counsel did no
investigation and had no mitigating evidence to present. The appellate

227

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 228 of 367

court’s reliance on Landrigan was accordingly not merely misplaced but
grossly unreasonable.
Doc. no. 25, 72-74 & n.27 (final alteration in original, other alterations supplied).
Even assuming that the foregoing contentions were intended to be an argument
that the second opinion of the Alabama Court of Criminal Appeals on collateral
appeal was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court of the United States, or
resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding, this court is limited
by AEDPA to the question of whether the state court’s determination was
unreasonable, and not whether that decision was incorrect — “a substantially higher
threshold.” Landrigan, 550 U.S. at 473-74 (citing Williams v. Taylor, 529 U.S. 362,
410 (2000)).
Specifically, habeas relief is available only if this court finds that the decision
of the Alabama Court of Criminal Appeals was unreasonable in light of the evidence
presented in the Rule 32 state court proceedings. See, e.g., Alderman v. Terry, 468
F.3d 775, 791 (11th Cir. 2006) (quoting 28 U.S.C. § 2254(d)(2)). Of course, James
bears the burden of rebutting “the presumption of correctness [of a state court’s
factual findings] by clear and convincing evidence.” Ward v. Hall, 592 F.3d 1144,

228

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 229 of 367

1155-56 (11th Cir. 2010) (alterations in original, quoting § 2254(e)(1)).
This court finds that the decision of the Alabama Court of Criminal Appeals
was reasonable in light of the evidence presented in the Rule 32 proceedings. Both
attorneys testified at the Rule 32 hearing that James was uncooperative and
uncommunicative. See James v. State, 61 So. 3d 357, 372 (Ala. Crim. App. 2010),
and C.R. Vol. 22, at 141 (testimony of Gordon Herbert Warren). Lead trial attorney
Virginia Vinson testified that she had been involved in more than thirty capital
murder trials by the date on which she represented James, and that in her experience
“it did not appear that the jury was sympathetic toward people who had some type of
difficulty growing up or a bad home environment or did not do well in school.”263
Given Ms. Vinson’s extensive experience, “the presumption that [her] conduct was
reasonable is even stronger.” Chandler, 218 F.3d at 1316 (alteration supplied).
James argues in his habeas petition that the Supreme Court’s decision in
Rompilla v. Beard, 545 U.S. 374, 381 (2005), stands for the proposition that “counsel
must investigate mitigating evidence even if [the] defendant refuses to cooperate or
is actively obstructive.”264 That same argument was presented to the Alabama Court
of Criminal Appeals, which found that Schriro v. Landrigan, decided two years after

263

C.R. Vol. 23, at 253, 257.

264

Doc. no. 11 (Amended Habeas Petition), ¶ 160, at 56.

229

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 230 of 367

Rompilla, held otherwise. Thus, this court first considers whether the Alabama Court
of Criminal Appeals’s decision (i.e., that Landrigan was controlling) was contrary to,
or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States. See 28 U.S.C. § 2254(d)(1).
In Landrigan, the Supreme Court considered a situation, similar to the facts
before this court, in which the defendant had not only refused to assist counsel in
obtaining mitigating evidence, but actually interfered with counsel’s efforts to do so.
Schriro v. Landrigan, 550 U.S. at 478 (“Neither Wiggins nor Strickland addresses a
situation in which a client interferes with counsel’s efforts to present mitigating
evidence to a sentencing court.”). The Landrigan court held that, under such
circumstances, defense counsel did not act in an objectively unreasonable manner
when failing to present mitigating evidence during the penalty phase of the
defendant’s trial. Id. at 478.
The Alabama Court of Criminal Appeals did not venture out on its own in
applying Landrigan, as James suggests. Rather, as quoted above, that Court turned
to Eleventh Circuit precedent: specifically, the decision in Cummings v. Secretary,
Department of Corrections, 588 F.3d 1331 (11th Cir. 2009). Like James here, the
defendant in Cummings wanted no mitigation evidence to be presented. In fact, he
said that he would rather be dead than serve a life term in prison. Compare id. at

230

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 231 of 367

1361 with C. R. Vol 24, at 187-88 (“[H]e said he had a better life on death row even
if it meant he would have a shorter potential life span than he would in the general
population.”) (alteration supplied). Again, like the facts of this case, defense counsel
in Cummings tried to convince the defendant to provide them with information about
his family and background for mitigation purposes, but Cummings refused to
cooperate. Compare Cummings, 588 F.3d at 1361 with C.R. Vol. 22, at 141-43.265
265

Gordon Herbert Warren testified at the Rule 32 hearing as follows:

Q. In your affidavit, if I recall correctly, you indicated that you had difficulty
conducting a mitigation investigation in this case because of your relationship with
the client. Is that correct?
A. I wouldn’t want to put it in those terms. We had difficulty communicating
with the client because oftentimes he would not convey any information.
And again, my experience, both while working for the criminal attorneys as
I interned and in the pre-practice of law, I was an aircraft accident investigator for a
good portion of my time in the service. And I was very comfortable and very used
to investigating – or conducting investigations – and questioning people concerning
events that they had witnesses and things that had occurred in the context of
investigating a aircraft accident.
And my contact with Mr. James was that he would not respond sometimes
to some of my questions. I wanted to get pointedly things like: What happened? Tell
me the events and the occurrences. And he wouldn’t talk about them. . . .
But I would ask Mr. James a straight question and I would never get a straight
answer. And most of the time it was like: I don’t want to talk about it. I don’t want
to talk about it. And every time I went back to the events of that day, it was: I don’t
want to talk about it. And so that made it a little but difficult.
C.R. Vol. 22, at 141-143. Later in his testimony, Warren added that:
In fact, [James] on more than one occasion during our conversations, he
indicated to me – let me rephrase that. He instructed me, not indicated. He

231

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 232 of 367

According to James’s lead defense attorney, Virginia Vinson, James became angry
when he found out she had spoken to his family, and instructed her not to call
witnesses on his behalf during the penalty phase hearing before the jury.266
“When a competent defendant clearly instructs counsel not to investigate or
present mitigation evidence, the scope of counsel’s duty to investigate is significantly
more limited than in the ordinary case.”

Cummings, 588 F.3d at 1358-59.

Defendant’s “clear, affirmative instructions as to the penalty phase made [trial
counsel]’s conduct objectively reasonable.” Id. at 1361 (alteration supplied).
As the Alabama Court of Criminal Appeals found, lead defense attorney
Virginia Vinson,
in contradiction to her client’s wishes, talked to members of James’s
family and asked them to testify on James’s behalf. Vinson testified that
James became angry when he discovered that she had talked to his
instructed me not to get his family involved. . . . And he was quite adamant about
that. He did not want them in the courtroom. He did not want them anywhere near
him.
Id. at 163 (emphasis and alteration supplied). Mr. Warren later reiterated that James said the same
things
more than once and less than a dozen times. But we had more than one comment or
conversation about it where he did not want — in fact, we were at one point I
remember Judge Vinson asking him about some of his family, to put them on the
stand . . . . And I know her purpose would have been for mitigating testimony . . . .
And he was not happy with that idea . . . . He did not want her to do it.
Id. at 181 (emphasis supplied).
266

See C.R. Vol. 24, at 374.

232

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 233 of 367

mother and sister. Counsel also had the competency report completed
by Dr. [Wendy] Rebert, the presentence report from the first trial, the
attorney case file from James’s first trial, and other evidence that had
been admitted at James’s first trial. This is not a case where the
attorneys conducted no investigation.
James, 61 So. 3d at 376-77 (alteration supplied).
When James’s family members proved to be unhelpful in unearthing possible
mitigating evidence, defense counsel turned to James himself, who proved equally
unhelpful. Ms. Vinson asked James if he had been abused as a child, but he denied
that had occurred. See James, 61 So. 3d at 374. James now contends, however, that
his trial attorneys were ineffective for, among other things, not discovering and
presenting evidence of just such abuse. But, as the Rule 32 circuit court stated,
“James cannot now blame trial counsel for failures that were the result of his own
actions and desires.”267
Finally, this court notes that James failed to present any evidence during the
Rule 32 proceedings in the circuit court that, if his trial attorneys had prepared
mitigating evidence, such as testimony from his various relatives, he would have
consented to presentation of such evidence. Because James did not testify at his Rule
32 hearing, this court has nothing to support a finding that he would have “authorized
trial counsel to permit such evidence at sentencing.” Gilreath v. Head, 234 F.3d 547,
267

C.R. Vol. 32, Tab 78, at 92.

233

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 234 of 367

551 (11th Cir. 2000).
Thus, this court concludes that the determination of the Alabama Court of
Criminal Appeals that James’s trial attorneys’ performance was not deficient in the
investigation and presentation of mitigating evidence was neither contrary to, nor an
unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States.268 Even if James had established during his Rule
268

The Eleventh Circuit surveyed the law in this area in the opinion entered in Cummings v.
Sec., Dept. of Corr., 588 F.3d 1331 (11th Cir. 2009), and held that:
In affirmative-instruction [not to present mitigation evidence] cases, the duty to
investigate “does not include a requirement to disregard a mentally competent
client’s sincere and specific instructions about an area of defense and to obtain a
court order in defiance of his wishes.” Rutherford v. Crosby, 385 F.3d 1300, 1313
(11th Cir. 2004). A mentally competent defendant’s instruction not to investigate or
present mitigation evidence may make counsel’s decision not to investigate or
present mitigation evidence reasonable. See Blankenship v. Hall, 542 F.3d 1253,
1276-77 (11th Cir. 2008) (stating that even if counsel “did not know about
Blankenship’s background . . . Blankenship himself instructed them not to contact
his family”; “[s]ignificant deference is owed to failures to investigate made under a
client’s specific instructions not to involve his family”; and “[a]ssuming [counsel]
did not know the details of his client’s background, Blankenship’s admonishment to
[counsel] not to contact his family cannot be ignored”); Newland v. Hall, 527 F.3d
1162, 1202-05 (11th Cir. 2008), cert. denied, [555] U.S. [1183], 129 S. Ct. 1336, 173
L. Ed. 2d 607 (2009) (“We have . . . emphasized the importance of a mentally
competent client’s instructions in our analysis of defense counsel’s investigative
performance”; “when limited by his client’s instructions not to contact his family or
otherwise delve into his background, a reasonably competent attorney standing in
Manning’s shoes would have gone no further than Manning did to seek mitigating
evidence from the client’s past”; and “we follow the [Supreme] Court in drawing a
distinction between a defendant’s passive non-cooperation and his active instruction
to counsel not to engage in certain conduct”); Johnston v. Singletary, 162 F.3d 630,
642 (11th Cir. 1998) (concluding counsel’s failure to present expert mental health
testimony at penalty phase was not unreasonable where counsel tried to have
defendant evaluated but defendant “was steadfast in his resistance to meeting with
[the] expert”); Dobbs v. Turpin, 142 F.3d 1383, 1388 (11th Cir. 1998) (“[T]he

234

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 235 of 367

32 proceedings that the performance of trial counsel was deficient for failing to
present mitigating evidence, he still would have to prove that such deficient
performance prejudiced him, as required by Strickland. As to that prong, the
Alabama Court of Criminal Appeals found that, when
assessing claims of ineffective assistance of counsel in the penalty phase
of a capital trial, we apply the standard discussed in Wiggins v. Smith,
539 U.S. 510, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003):
“In Strickland [v. Washington, 466 U.S. 668 (1984)], we
made clear that, to establish prejudice, a ‘defendant must
show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.’ Id., at 694, 466 U.S. 668, 104
S. Ct. 2052, 80 L. Ed. 2d 674. In assessing prejudice, we
reweigh the evidence in aggravation against the totality of
available mitigating evidence.”
539 U.S. at 534, 123 S. Ct. 2527.
Here, the circuit court found that the omitted mitigating evidence
would not have outweighed the aggravating circumstances. The circuit
court stated:
decision whether to use mitigating evidence is for the client.”); Hance v. Zant, 981
F.2d 1180, 1183-84 (11th Cir. 1993) (counsel’s agreeing to capital defendant’s
wishes not to contact his family did not amount to ineffective assistance under the
circumstances); Mitchell v. Kemp, 762 F. 2d 886, 889-90 (11th Cir. 1985) (Counsel’s
investigation consisting of speaking with defendant and defendant’s father held to be
reasonable, when defendant did not provide any information about troubled
childhood and told counsel to “leave [his family] out of it.”).
Cummings, 588 F.3d at 1357-58 (first alteration supplied, other alterations in original).

235

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 236 of 367

“Even assuming that trial counsel’s performance was
deficient, James would not be entitled to relief on his
penalty phase ineffectiveness because he has failed to
demonstrate that he was prejudiced.
“In an effort to demonstrate prejudice, James called
the following persons to testify at the evidentiary hearing:
Randy Bernstein, Consuela James, Brandon James, and
Yosandra Craig. Even if this Court had found that trial
counsel’s performance was deficient, the mitigating
testimony of these individuals would not have been enough
to outweigh the aggravating circumstances in this case.
“. . . .
“In light of the testimony presented at the
evidentiary hearing, the Court finds that James did have a
difficult childhood, marked by the instability of constant
moves, poverty, a frequently absent mother, and a
completely absent father. However, the Court notes that
many people who experience similar or even worse
childhoods do not grow up and commit capital murder. In
fact, Ms. [Yosandra] Craig [James’s sister], herself,
managed to graduate community college and obtain a
degree, despite growing up under the same circumstances
as James. The Court finds that this non-statutory
mitigating evidence should be afforded little weight.
“The Court previously found that two aggravating
circumstances existed in this case. First, the capital offense
was committed by James while he was under the sentence
of imprisonment. Second, the capital offense was
committed by James during the course of a burglary. The
Court finds that the statutory aggravating circumstances
outweigh the non-statutory mitigating circumstances
presented at the Rule 32 evidentiary hearing.

236

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 237 of 367

“As such, even assuming counsel’s performance was
deficient, James has not shown that a reasonable
probability exists that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different. Chandler, 218 F.3d at 1312–1313 (citing,
Darden v. Wainwright, 477 U.S. 168 (1986)). As a result,
this claim is denied.”
(R. 145–51.)
The circuit court’s findings are supported by the record. At the
Rule 32 evidentiary hearing, James presented the testimony of four
individuals. Randy Bernstein, owner of a scrap-metal business, testified
that James’s father, Joe Johnson, worked for him on and off for seven
years and that he thought that Johnson was mentally ill. He also said
that he had never met James. Consuela James, James’s maternal aunt,
testified that James had five siblings, that James and his family moved
at least 18 times when James was a child, that James’s mother drank
when she was pregnant with him, that James was born with droopy
eyelids that were corrected through surgery, that James’s mother was
married to his father for only about two years, and that when she left
James’s father she had many different relationships with men. Brandon
Lewis, James’s younger brother, testified that he was 10 years old at the
time of the murder, that James was upset on the day of the murder
because Brandon had put his bike on some of James’s clothes, and that
James has two daughters. Yosandra Craig, James’s sister, testified that
she spoke with an attorney during James’s trial and told the attorney that
James was always aggressive and that he had broken a girlfriend’s arm.
Craig further testified that James frequently took care of his younger
siblings and that their childhood was unstable.
In sentencing James to death, the circuit court found two
aggravating circumstances: (1) that the murder was committed by a
person under sentence of imprisonment, see § 13A–5–49(1), Ala.Code
1975, and (2) that the murder was committed during the course of a
burglary, see § 13A–5–49(4), Ala. Code 1975. We agree with the Rule
32 court that the potential mitigating evidence that was presented at the

237

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 238 of 367

Rule 32 hearing was not compelling and would not have affected the
verdict if it had been presented at James’s sentencing hearing. See
Wiggins v. Smith, supra.
James v. State, 61 So. 3d 357, 377-78 (Ala. Crim. App. 2010) (alterations in
original).
The advisory verdict rendered by the jury at the conclusion of the penalty phase
hearing was unanimous: twelve votes for death, none for life. To have changed the
jury sentencing recommendation to life imprisonment without the possibility of
parole rather than death, James would have to establish that the presentation of
mitigation evidence, more likely than not, would have changed the minds of at least
seven jurors.269
Thus, even if the jury had heard the mitigation evidence that James now faults
his trial attorneys for not presenting, James still has not shown that, but for his
attorneys’ deficiency, there is a reasonable probability he would have received a
different sentence. See, e.g., Strickland, 466 U.S. at 694.
Further, the Supreme Court has held that, when assessing prejudice, federal
courts should “reweigh the evidence in aggravation against the totality of available
mitigating evidence.” Wiggins v. Smith, 539 U.S. 510, 534 (2003); see also, e.g,
269

See Ala. Code § 13A-5-46(f) (“The decision of the jury to return an advisory verdict
recommending a sentence of life imprisonment without parole must be based on a vote of a majority
of the jurors. . . .”). Cf. Woodward v. Alabama, — U.S. —, 134 S. Ct. 405, 406 (2013) (Sotomayor,
J., dissenting from denial of certiorari).

238

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 239 of 367

DeBruce v. Commissioner, Alabama Department of Corrections, 758 F.3d 1263,
1267 (11th Cir. 2014) (“In making the determination about whether there is a
reasonable probability that [the petitioner] would have received a different sentence,
a reviewing court must ‘consider the totality of the available mitigation evidence —
both that adduced at trial, and the evidence adduced in the habeas proceeding — and
reweigh it against the evidence in aggravation.’”) (quoting Porter v. McCollum, 558
U.S. 30, 41 (2009) (alteration supplied)). Applying that standard, the Rule 32 circuit
court and the Alabama Court of Criminal Appeals both found that, even if James’s
trial attorneys had presented mitigating evidence, that evidence would not have
outweighed the aggravating circumstances present in the case. James, 61 So. 3d at
377. As the Rule 32 circuit court stated:
In light of the testimony presented at the evidentiary hearing, this
Court finds that James did have a difficult childhood, marked by the
instability of constant moves, poverty, a frequently absent mother, and
a completely absent father. However, the Court notes that many people
who experience similar or even worse childhoods do not grow up and
commit capital murder. In fact, Ms. Craig [James’s sister], herself,
managed to graduate community college and obtain a degree, despite
growing up under the same circumstances as James. The Court finds
that this non-statutory mitigating evidence should be afforded little
weight.
C.R. Vol. 32, Tab 78, at 98. The state’s intermediate appellate court observed that,
in James’s case, there were two aggravating circumstances: “(1) that the murder was

239

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 240 of 367

committed by a person under sentence of imprisonment. . . and (2) that the murder
was committed during the course of a burglary . . . .” James, 61 So. 3d at 378.
This court finds that the state courts reasonably concluded that, in light of the
evidence against James, the types of mitigating evidence he claims counsel should
have presented had no reasonable probability of producing a different result.270 See
Wiggins v. Smith, 539 U.S. at 534. Thus, James is not entitled to 28 U.S. § 2254(d)
relief.
B.

Penalty-Phase Closing Argument271
James next argues in his amended habeas petition that,
[b]ecause of their lack of investigation and fundamental misconceptions
regarding the law as it pertains to the sentencing phase of a capital trial,
trial counsel performed so inadequately in closing argument at the

See doc. no. 11 (Amended Habeas Petition), ¶ 166-218, at 59-76. Moreover, with regard
to the allegations of childhood abuse and neglect, the Eleventh Circuit has specifically held that
“‘[a]n attorney does not render ineffective assistance by failing to discover and develop childhood
abuse that his client does not mention to him.’” Puiatti v. Secretary, Florida Dept. of Corrections,
732 F.3d 1255, 1281 (11th Cir. 2013) (alteration supplied) (quoting Williams, 185 F.3d at 1237); and
citing DeYoung, 609 F.3d at 1287–88 (holding that counsel’s investigation was reasonable in light
of the fact that there was “no evidence that DeYoung mentioned to his trial or appellate counsel or
to any mental health experts (before trial or even afterward) . . . that there was significant internal
strife or dysfunction in his family”); Newland v. Hall, 527 F.3d 1162, 1202 (11th Cir. 2008) (noting
that “[b]ecause information about childhood abuse supplied by a defendant is extremely important
in determining reasonable performance, ‘[w]hen a petitioner . . . does not mention a history of
physical abuse, a lawyer is not ineffective for failing to discover or to offer evidence of abuse as
mitigation’ “ (alterations in original) (additional internal quotation marks omitted)); Stewart v. Sec’y,
Dep’t of Corrections, 476 F.3d 1193, 1210–11 (11th Cir. 2007) (“The Constitution imposes no
burden on counsel to scour a defendant’s background for potential abuse given the defendant’s
contrary representations or failure to mention the abuse.”).
270

271

Claim II.B: see doc. no. 11 (Amended Habeas Petition), ¶¶ 219-22, at 76-78.

240

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 241 of 367

sentencing phase that they effectively argued against their client, falsely
informed the jury that there was substantially no mitigating evidence,
and doomed James’s chances for a life verdict.
Doc. no. 11 (Amended Habeas Petition), ¶ 219, at 76-77 (alteration supplied). James
claims that Gordon Herbert Warren undermined his case by telling the jury they
should not have any sympathy for James, and by emphasizing the gruesome nature
of the crime.272 Furthermore, James asserts that Mr. Warren told the jury that James
did not have any mental problems, which James states is an “argument for which he
had no evidence,” and one which demonstrates counsel’s misunderstanding of the
legal role of mental disease or defect at the sentencing phase, because the issue goes
beyond mere questions of competency.273
Respondents contend that James raised this subclaim in his Rule 32 petition
and on collateral appeal, and that the Alabama Court of Criminal Appeals denied it
on the merits.274 Respondents argue that, because James cannot demonstrate that the
ruling of the state court constituted either an unreasonable application of clearly
established federal law, as determined by the Supreme Court of the United States, or
an unreasonable determination of facts in light of the evidence presented in the state

272

Id., ¶ 220, at 77.

273

Id., ¶ 221 at 77.

274

Doc. no. 19 (Respondents’ Answer), at 59.

241

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 242 of 367

court proceedings, federal habeas relief should be denied.275
The Rule 32 circuit court grouped this subclaim with the one discussed in the
immediately preceding Part of this opinion (i.e., Part VI.A), but did not make
independent findings.276 Consequently, this court will treat the disposition of the
subclaim as a merits decision.
James’s habeas petition does not accurately portray the actual closing
arguments of trial counsel at the conclusion of the penalty phase. Accordingly, this
court quotes the relevant portions from the trial transcript:
[Gordon Herbert Warren]: I am not going to sit here and insult
your intelligence about having sympathy for the defendant. He is an
accused capital murderer, convicted of capital murder at this point. I am
not going to insult your intelligence.
There is sympathy for the victim certainly. You have heard it
from her own daughter. . . . She is a sympathetic victim.
I am not going to ask you not to consider that. I am not going to
tell you that Mr. James is a sympathetic defendant. Again, not to insult
your intelligence, he is not the Civitan citizen of the year.
But I would like you to think about some things as you consider
this case. First of all is the consideration of his emotional environment,
his positioning on the day of the crime, certainly leading up to the crime.
There is testimony — we are not talking about whether or not Mr.
James is mentally stable or mentally unstable. If we thought he was
275
276

Id.
See C.R. Vol. 32, Tab 78, at 86-99.

242

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 243 of 367

mentally unstable and we had proof that he was, in fact, not able to tell
right from wrong or form intent, you would have heard that....
Again, we are not going to insult you and tell you he is not
mentally stable. I am here to submit to you that his actions — you have
heard it from the stand from other witnesses — his actions leading up to
this event were not ones that you would normally think a person would
do.
You have heard about the arguments. You have heard about the
yelling and screaming, the constant contact as Ms. Hall tried to break off
the relationship. He wanted to continue the relationship. Certainly
those are not actions of someone who is emotionally what I call
mature....
Does it give him a pass? Does it give him a right to commit a
crime and receive no punishment? Absolutely not. I am not asking you
not to punish him.
This is a truly terrible thing that has occurred. This is a murder
of a young woman left with a family. It’s a terrible, terrible crime....
But there are some circumstances under which you need to view
the entire story here.
....
This is not a burglary in the sense . . . that you think about in the
nighttime, in your dwelling, you are asleep in your bed at night, and an
intruder comes in and puts a knife to your throat; this is a crime of
passion. This is really what this is. This is a crime of passion. That’s
the perspective I would like for you to look at this and view this. This
is a crime of passion.
This is a young man. Again, not a juvenile, but this is a young
man that may not be emotionally mature, who let his emotions run away
from him. He couldn’t handle this relationship. He didn’t know what

243

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 244 of 367

to do and how to do it, how to handle those things.
He is angry. We have seen that. The day of the crime, at some
point he came into the apartment, technically completing the act
required for burglary. But I am telling you I don’t think he was thinking
about burglary when he walked through that door. . . .
But I submit to you that he came through that door to talk with
Ms. Hall, to have an argument with Ms. Hall. Yes, he did have a gun
with him. Maybe he did intend to harm her. Maybe he did. The act of
putting away the gun tells me that at some point he was having second
thoughts.
There were other people around. Common sense says that if he
were coming into that house to kill her, he probably wouldn’t do it with
a bunch of witnesses standing around. This is a young man who lost
control of his emotions that day, lost control of his ability to think
correctly for that split second. That’s what he did. He snapped.
....
Is the fact that technically he committed a burglary by crossing
that threshold of that doorway sufficient to bring this to the crime of
capital murder where he must be put to death because he was angry and
he lost control and he snapped?
....
I submit to you that we should reserve the imposition of the
ultimate punishment, the death penalty, to those crimes that are truly
capital in nature. This is a crime of passion. But for the fact that he
crossed that threshold, we may not even be here.
....
I would ask you, I would plead with you do not give him the death
penalty. Impose a sentence of life without parole. . . .

244

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 245 of 367

C.R. Vol. 4, Tab 20, at 25-31 (redactions supplied).
For the reasons stated in previous parts of this opinion concerning strategic
choices made by counsel during trial, this court finds neither performance
deficiencies nor proof of prejudice from trial counsel’s closing arguments. Further,
James has not demonstrated that the state court’s determination that he failed to
establish deficient performance or prejudice resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or that it resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. 28 U.S.C. § 2254(d).
Considered in context, Gordon Herbert Warren presented a coherent plea for
the jury to vote for life imprisonment without the possibility of parole. As the
Supreme Court has noted,
the gravity of the potential sentence in a capital trial and the
proceeding’s two-phase structure vitally affect counsel’s strategic
calculus. Attorneys representing capital defendants face daunting
challenges in developing trial strategies, not least because the
defendant’s guilt is often clear. Prosecutors are more likely to seek the
death penalty, and to refuse to accept a plea to a life sentence, when the
evidence is overwhelming and the crime heinous. In such cases,
“avoiding execution [may be] the best and only realistic result possible.”
...
Florida v. Nixon, 543 U.S. 175, 190-191 (2004) (alteration in original, citations and

245

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 246 of 367

footnote omitted). The Nixon Court also observed that, given the various realities of
jurors who serve in capital cases, “counsel cannot be deemed ineffective for
attempting to impress the jury with his candor and his unwillingness to engage in a
‘useless charade.’” Id. at 192.
In addition to taking his trial attorney’s closing argument on sentencing out of
context, James incorrectly cites a Tenth Circuit opinion as authority for the
proposition that an attorney’s argument that the jury should disregard sympathy for
the defendant violates the defendant’s Eight Amendment rights. See Parks v. Brown,
860 F. 2d 1545, 1558 (10th Cir. 1988), rev’d sub nom Saffle v. Parks, 494 U.S. 484
(1990). That case concerned a jury charge on sentencing which included this
statement:

“You must avoid any influence of sympathy, sentiment, passion,

prejudice, or other arbitrary factor when imposing sentence.” Although the Tenth
Circuit found the inclusion of “the admonition to avoid any influence of sympathy”
to be a violation of the Eighth Amendment, the Supreme Court reversed the Circuit
holding on those very grounds, finding that such an instruction was not a violation
of the Eighth Amendment. Saffle v. Parks, 494 U.S. at 493-94.
In sum, James has not overcome the presumption that, under the circumstances,
the challenged argument might be considered sound trial strategy. See, e.g., Darden
v. Wainwright, 477 U.S. 168, 186-87 (1986); Strickland, 466 U.S. at 689; Michel v.

246

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 247 of 367

Louisiana, 350 U.S. 91, 101 (1955). Absent evidence to the contrary, this court finds
that trial counsel’s remarks demonstrated a reasoned strategy. See Chandler, 218
F.3d at 1314 n.5. Thus, James is not entitled to habeas relief on this subclaim.
C.

Failing to Object to Prosecutorial Misconduct During Penalty-Phase
Closing Argument277
James next contends that the prosecutor “engaged in a pattern of abusive

misconduct in closing argument,” including: improperly appealing to the passions
and prejudices of the jury; improperly referring to the defendant’s failure to testify;
denigrating James’s character; and, arguing facts not in evidence.278 James asserts
that his trial “counsel’s deficient performance in failing to object to these arguments
permitted the jury to be improperly influenced by false, irrelevant, and prejudicial
matters[,] rather than a dispassionate consideration of James’s background and
character, as the law requires.”279
Respondents contend that this subclaim is procedurally defaulted because the
Rule 32 circuit court determined that James had failed to meet his burden of proof.280
Alternatively, respondents contend that this subclaim was raised in James’s Rule 32
petition and was denied on the merits, and James cannot demonstrate that the state
277

Claim II.C: see doc. no. 11 (Amended Habeas Petition), ¶¶ 225-227, at 78-79.

278

Id, ¶ 226, at 78-79.

279

Id. at 79 (alterations supplied).

280

See doc. no. 19 (Respondents’ Answer), at 61.

247

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 248 of 367

court ruling was contrary to, or involved an unreasonable application of, clearly
established federal law, or an unreasonable determination of the facts in light of the
evidence presented in the state court proceedings.281
The last state court to issue a reasoned opinion on this subclaim was the Rule
32 circuit court, which noted that James “did not question either Mr. Warren or Judge
[Virginia] Vinson about this claim or their failure to object to certain statements by
the prosecutor during the closing argument of the penalty phase.”282 The circuit court
then cited Chandler v. United States, 218 F.3d 1305, 1314 n.15 (11th Cir. 2000), as
support for the proposition that an “ambiguous or silent record,” or a record that is
“incomplete or unclear” about a trial attorney’s actions, is not sufficient to rebut the
“strong and continuing presumption” that counsel “did what he should have done, and
that he exercised reasoned professional judgment.”283 Consequently, this subclaim
281

Id. at 61-62.

282

R. Vol. 32, Tab 78, at 99 (alteration supplied).

283

Id. The complete text of the Chandler footnote relied upon by the Rule 32 circuit court
as authority for the proposition stated in text reads as follows:
The presumption impacts on the burden of proof and continues throughout
the case, not dropping out just because some conflicting evidence is introduced.
“Counsel’s competence . . . is presumed, and the [petitioner] must rebut this
presumption by proving that his attorney’s representation was unreasonable under
prevailing professional norms and that the challenged action was not sound strategy.”
Kimmelman v. Morrison, 477 U.S. 365, 106 S. Ct. 2574, 2588, 91 L. Ed. 2d 305
(1986) (emphasis added) (citations omitted). An ambiguous or silent record is not
sufficient to disprove the strong and continuing presumption. Therefore, “where the
record is incomplete or unclear about [counsel]’s actions, we will presume that he did
what he should have done, and that he exercised reasonable professional judgment.”

248

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 249 of 367

has not been procedurally defaulted as the respondents initially argued.
The Rule 32 circuit court went on to say that the record did not support James’s
factual assertions. For example, even though he argued that the prosecutor had stated
in closing that “Faith Hall was ‘praying to God’ just before she was shot,” the
prosecutor actually stated that she “may have been” doing that.284 In fact, that was just
one of several speculative hypotheses posed by the prosecutor:

Williams [v. Head], 185 F.3d [1223,] 1228 [(11th Cir. 1999)]; see also Waters [v.
Thomas], 46 F.3d [1506,] 1516 [(11th Cir. 1995)] (en banc) (noting that even though
testimony at habeas evidentiary hearing was ambiguous, acts at trial indicate that
counsel exercised sound professional judgment).
The presumption about which we write here is not some presumption that the
particular defense lawyer in reality focused on and, then, deliberately decided to do
or not to do a specific act. Instead, the presumption to which we refer is the
presumption that what the particular defense lawyer did at trial-for example, what
witnesses he presented or did not present – were acts that some reasonable lawyer
might do.
The Supreme Court has instructed that there is “a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance.”
Strickland, 104 S. Ct. at 2065. This presumption is like the “presumption of
innocence” in a criminal trial, in which “the defendant is not required to come
forward with proof of his innocence once evidence of guilt is introduced to avoid a
directed verdict of guilty.” Black’s Law Dictionary 823 (6th. ed. 1991). This
presumption of competence must be disproved by a petitioner. Petitioner continually
bears the burden of persuasion on the constitutional issue of competence and further,
(adding the prejudice element) on the issue of ineffective assistance of counsel. See
Strickland, 104 S. Ct. at 2064 (stating that “defendant must show that counsel’s
performance was deficient” and that defendant must also show prejudice). Never
does the government acquire the burden to show competence, even when some
evidence to the contrary might be offered by the petitioner.
Chandler v. United States, 218 F.3d 1305, 1314 n.15 (11th Cir. 2000) (alterations supplied).
284

C.R. Vol. 32, Tab 78, at 100.

249

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 250 of 367

But the physical injuries were too great, and it caused her to collapse.
What is she thinking when she is sitting there and looks over and she
sees Joe Nathan James’s feet in front of her?
She may have been praying to God. She may have been talking
to Tony or Terry. She may have been talking to her mama. But what is
she thinking? And then bam, that last shot? Did she have any thoughts
after that even for a split second, or did it just go like a blank screen?
C.R. Vol. 4, Tab 21, at 36 (emphasis supplied).
While James also faults trial counsel for not objecting to the prosecutor’s
comment concerning the victim’s “two little girls that are left motherless,” the Rule
32 circuit court noted that a “victim impact argument is not prohibited at the penalty
phase of the trial.”285
The Eleventh Circuit considered a similar issue in Reese v. Secretary, Florida
Department of Corrections, 675 F.3d 1277 (11th Cir. 2012), which observed that
“[t]he fundamental problem with Reese’s claim of prosecutorial misconduct is that
none of the prosecutor’s comments in closing argument were improper.

‘A

permissible argument, no matter how “prejudicial” or “persuasive,” can never be
unconstitutional.’” Id. at 1291 (quoting Brooks v. Kemp, 762 F.2d 1383, 1403 (11th
Cir. 1985) (en banc), vacated on other grounds 478 U.S. 1016 (1986), reinstated 809
F.2d 700 (11th Cir. 1987) (en banc)) (alteration supplied). The Reese Court added

285

Id. (citing Hutcherson v. State, 727 So. 2d 846 (Ala. Crim. App. 1997)).

250

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 251 of 367

that “[t]he State has a legitimate interest in counteracting the mitigating evidence
which the defendant is entitled to put in, by reminding the sentencer that just as the
murderer should be considered as an individual, so too the victim is an individual
whose death represents a unique loss to society and in particular to his family.” Id.
at 1292 (quoting Payne v. Tennessee, 501 U.S. 808, 825 (1991) (internal quotation
marks omitted)(alteration supplied)).
Having reviewed the record, fairminded jurists could disagree with the findings
of the Rule 32 circuit court. The prosecutor’s comments would not have infected the
proceedings with such unfairness as to result in a denial of due process.
Consequently, any objections by defense counsel would have been meritless.286
Furthermore, it was reasonable to conclude that James had not demonstrated
Strickland prejudice. The trial court instructed the jurors to base their advisory
sentencing verdict on the evidence that they had seen and heard,287 and “[t]he jury is
presumed to follow the instructions given by the trial court.” Hutcherson v. State,
727 So. 2d 846, 854 (Ala. Crim. App. 1997) (citation omitted, alteration supplied).
“To justify reversal because of an attorney’s argument to the jury, [a] court must

286

With regard to the prosecutor’s comments about leaving a child parentless, see e.g.,
Cargill v. Turpin, 120 F.3d 1366, 1381 (11th Cir. 1997) (finding that a prosecutor’s argument about
“a bunch of little boys” thinking about their dead parents at Christmas was permissible).
287

C.R. Vol. 4, Tab. 22, at 47.

251

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 252 of 367

conclude that substantial prejudice has resulted.” Twilley v. State, 472 So. 2d 1130,
1139 (Ala. Crim. App. 1985) (alteration suppied). James has not demonstrated that
such prejudice occurred.
Finally, James also alleges that trial counsel was ineffective for failing to object
to the prosecutor’s reference to James’s failure to testify (e.g., “I haven’t heard any
testimony about [emotional disturbance]”), to his description of James as “mean,” and
his reference to facts not in evidence (e.g., suggesting that James owned two guns, “a
fact never proved at trial”).288 The Rule 32 circuit court found that the prosecutor’s
statement that he had not heard any evidence about emotional disturbance, his
description of James as “mean,” and his comments about James having two guns,
were “legitimate inference[s]” that could be drawn from the evidence that was
presented at trial and, for that reason, permissible.289 “During closing argument, the
prosecutor, as well as defense counsel, has a right to present his impressions from the
evidence, if reasonable, and may argue every legitimate inference.” Coral v. State,
628 So. 2d 954, 985 (Ala. Crim. App. 1987) (citations omitted). Moreover, it should
be noted that the prosecutor’s comment that he did not “hear” any evidence about
emotional difficulties or mental problems merely was a reference to the lack of such

288

Doc. no. 11 (Amended Habeas Petition),¶ 226, at 79.

289

C.R. Vol. 32, Tab 78, at 101 (alteration supplied).

252

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 253 of 367

evidence, and not a comment on James’s failure to testify. In any event, the Rule 32
circuit court’s determination that the prosecutor’s comments were legitimate
inferences based upon the evidence was not objectively unreasonable. Therefore,
because it was reasonable to conclude that the comments did not rise to the level of
reversible error, it was also reasonable to determine that the failure of James’s trial
lawyers to object did not constitute Strickland error. James has failed to provide
grounds for habeas relief. See, e.g., Land v. Allen, 573 F.3d 1211, 1220-21 (11th Cir.
2009).
D.

Failing to Request Specific Penalty-Phase Jury Instructions290
James next contends that his trial lawyers provided constitutionally ineffective

representation by failing to request: an instruction addressing the jury’s consideration
of mitigating evidence; an instruction defining the type and scope of non-statutory
mitigating factors that the jury could consider; and, an instruction prohibiting the jury
from “double counting” the burglary.291
The last state court to issue a reasoned opinion on the various facets of this
subclaim was the Alabama Court of Criminal Appeals. The relevant portion of that
Court’s second opinion on collateral appeal, following remand from the Alabama

290

Claim II.D: see doc. no. 11 (Amended Habeas Petition), ¶¶ 228-231, at 79-80.

291

Id., ¶¶ 228-230, at 79-80.

253

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 254 of 367

Supreme Court, begins with a quote from the Rule 32 circuit court’s opinion:
“James claimed that his trial counsel were ineffective for
failing to request specific jury instructions at the penalty
phase. As an initial matter, the Court notes that James did
not question either Mr. Warren or Judge Vinson about this
claim or their failure to request certain jury instructions at
the penalty phase . . . . James did not present any
testimony or evidence at the evidentiary hearing that there
is a reasonable probability that the outcome of the penalty
phase would have been different had trial counsel
requested certain jury instructions. As a result of his
failure to question trial counsel or to present any evidence
in support of this claim, James has failed to demonstrate
that counsel’s performance was deficient or that he was
prejudiced. As such, these claims are denied.”
(C.R. 153-54.) “The decision whether to request certain jury
instructions is a matter of trial strategy.” Myhand v. State, 981 So. 2d
988, 992 (Miss. App. 2007). See also People v. Lemke, 384 Ill. App. 3d
437, 450, 892 N.E.2d 1213, 1224, 323 Ill. Dec. 221, 232 (2008)
(“‘Counsel’s decision as to what jury instructions to tender is one of
several determinations widely recognized as matters of trial strategy that
are generally immune from ineffective assistance claims. . . .’”); State v.
Griffie, 74 Ohio St. 3d 332, 333, 658 N.E. 2d 764 (1996) (“Failure to
request instructions on lesser-included offenses is a matter of trial
strategy and does not establish ineffective assistance of counsel.”).
In James’s Rule 32 petition he alleged that counsel was
ineffective for not requesting a jury instruction on what the jury should
do if the aggravating circumstances and the mitigating circumstances
were of equal weight, for failing to request an instruction prohibiting the
double counting of burglary as both an element of an offense and as an
aggravating circumstance, and for not requesting specific instructions
on the type and scope of nonstatutory mitigating evidence that they
could consider.

254

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 255 of 367

First, James appears to argue that the instructions violated the
Supreme Court’s decision in Ex parte Bryant, 951 So. 2d 724 (Ala.
2002), because the instructions failed to instruct the jury what to do if
they found that the aggravating circumstances and the mitigating
circumstances were equal in weight. In this case, the instructions in the
penalty phase were not infected with the error that the Supreme Court
found fatal in Ex parte Bryant. In discussing its holding in Bryant, the
Supreme Court in Ex parte McNabb, 887 So. 2d 998 (Ala. 2004), stated:
“The charge in this case was not infected with the peculiar
error present in [Ex parte] Bryant, [951 So. 2d 724 (Ala.
2002),] that is, the jury in this case was not invited to
recommend a sentence of death without finding any
aggravating circumstance. It was that invitation in Bryant
that caused the error in that case to rise to the level of plain
error, rather than error reversible only by a proper
objection. Thus, in this case, although the court did not
specifically instruct the jury what to do if it found the
mitigating and aggravating circumstances equally
balanced, we cannot conclude, considering the charge in its
entirety, that the error ‘seriously affect[ed] the fairness,
integrity or public reputation of [these] judicial
proceedings,’ Ex parte Davis, 718 So. 2d [1166,] 1173–74
[(Ala. 1998)], so as to require a reversal of the sentence.”
887 So. 2d at 1004. Here, the jury was not instructed that it could
recommend a death sentence without finding any aggravating
circumstance.
Second, requesting an instruction that the jury could not count
burglary as both an element of the capital offense and as an aggravating
circumstance would be inconsistent with Alabama law. We have
consistently upheld the practice of “double-counting” in Alabama. See
Morris v. State, 60 So. 3d 326 (Ala. Crim. App. 2010); Barber v. State,
952 So. 2d 393 (Ala. Crim. App. 2005); Coral v. State, 628 So. 2d 954
(Ala. Crim. App. 1992).

255

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 256 of 367

Third, “[t]his Court has held that the trial court does not have to
instruct the jury from a list of specific nonstatutory mitigating
circumstances provided by the defendant.” Brown v. State, 686 So. 2d
385, 403 (Ala. Crim. App. 1995), citing Cochran v. State, 500 So. 2d
1161 (Ala. Crim. App. 1984). The record shows that the jury was given
the following instruction on nonstatutory mitigating evidence:
“In addition to the mitigating circumstances previously
specified, mitigating circumstances shall include any
aspect of the defendant’s character or record and any of the
circumstances of the offense that the defendant offers as a
basis for a sentence of life imprisonment without parole
instead of death.”
“[I]t is well settled that an attorney’s failure to assert a futile objection
provides no basis for a claim of ineffective assistance of counsel.” Kidd
v. State, 277 Ga. App. 29, 34, 625 S.E.2d 440 (2005). “Counsel cannot
be held ineffective for failing to raise an issue that has no merit.” Smith
v. State, [Ms. CR-05-0561, Sept. 26, 2008] – So. 3d – (Ala. Crim. App.
2008). Accordingly, James was due no relief on these claims.
James v. State, 61 So. 3d 357, 378-80 (Ala. Crim. App. 2010) (alterations in original).
Although the trial court judge did not use the exact words that James now
suggests when instructing the jury on the consideration of aggravating and mitigating
circumstances, the jury was instructed that the question of whether a sentence of
“death or life imprisonment without parole should be imposed on the defendant
depends on, one, whether any aggravating circumstances exist[;] and, if so, whether
the aggravating circumstances outweigh the mitigating circumstances.”292 Because

292

C.R. Vol. 4, Tab 22, at 39-40 (alteration and emphasis supplied).

256

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 257 of 367

the jury was informed that any aggravating circumstances that were found to exist had
to outweigh the mitigating circumstances, a further instruction on what to do if the
two were balanced would not have provided any additional guidance to the jury. If
fact, such an instruction might have confused the most important consideration: the
aggravating circumstances (if any were found to exist) had to outweigh the mitigating
circumstances.
James does not dispute that the trial judge’s instructions substantially complied
with Alabama law, and he has not offered clear and convincing evidence or authority
demonstrating that the trial court was required by Alabama law to give the instruction
he claims that his trial counsel should have insisted upon. For the foregoing reasons,
therefore, this court finds that James has failed to establish that he is entitled under
the Strickland standard to habeas relief from the state court’s rejection of this facet
of his subclaim.
As to the so-called “double counting” component of the subclaim, Alabama law
clearly permits exactly that. Indeed, the Alabama Supreme Court has held that,
when a defendant is found guilty of a capital offense, “any aggravating
circumstance which the verdict convicting the defendant establishes
beyond a reasonable doubt at trial shall be considered as proven beyond
a reasonable doubt for purposes of the sentencing hearing.” Ala. Code
1975, §13A-5-45(e); see also Ala. Code 1975, §13A-5-50 (“The fact
that a particular capital offense as defined in Section §13A-5-40(a)
necessarily includes one or more aggravating circumstances as specified

257

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 258 of 367

in Section §13A-5-49 shall not be construed to preclude the finding and
consideration of that relevant circumstance or circumstances in
determining sentence.”). This is known as “double-counting” or
“overlap,” and Alabama courts “have repeatedly upheld death sentences
where the only aggravating circumstance supporting the death sentence
overlaps with an element of the capital offense.” Ex parte Trawick, 689
So. 2d 162, 178 (Ala. 1997); see also Coral v. State, 628 So. 2d 954, 965
(Ala. Crim. App. 1992).
Ex parte Waldrop, 859 So. 2d 1181, 1188 (Ala. 2002) (emphasis supplied). See also
Lowenfield v. Phelps, 484 U.S. 231, 246 (1988) (stating that an aggravating
circumstance may duplicate an element of the capital offense if the class of
death-eligible defendants is sufficiently narrowed by the definition of the offense
itself). Because any proposed instruction to the contrary would have been rejected
by the trial court as contrary to Alabama law, counsel cannot be deemed to have been
deficient for failing to request such an instruction.
Finally, when instructing the jury on the non-statutory mitigating circumstances
that could be considered, the trial judge said: “In addition to the mitigating
circumstances previously specified, mitigating circumstances shall include any aspect
of the defendant’s character or record[,] or any of the circumstances of the offense
that the defendant offers as a basis for a sentence of life imprisonment without parole
instead of death.”293 Because the jury was instructed that they could consider non-

293

C.R. Vol. 4, Tab 22, at 45 (alteration supplied).

258

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 259 of 367

statutory mitigating circumstances, the failure of defense counsel to specifically
request such an instruction could not have been prejudicial to James.
In sum, he has failed to show any basis for habeas relief from the state court’s
rejection of this aspect of the present subclaim.
E.

Failing to Object to Use of the Presentence Investigation Report and
Sentencing Order From the First Trial294
James next contends that his trial attorneys should have objected to the trial

judge’s failure to direct that “a new written sentencing order” be prepared: in other
words, James objects to the trial judge’s reliance upon the presentence investigation
report that had been prepared by a State Probation Officer at the conclusion of
James’s first, 1996 trial. James contends that violated Alabama Code sections 13A-545 through 13A-5-53. According to James, those statutory provisions required the
trial judge to obtain a new presentence investigation report.295 James contends that
he was prejudiced by his attorneys’ failure to object to the use of the 1996 report,
because a new presentence report would have reflected the good behavior he had
exhibited while incarcerated during the period between the first and second trials:
behavior that allegedly demonstrated that he “was not a danger to others in prison[,]
and was unlikely to become a danger to others — a factor which argues powerfully
294

Claim II.E: see doc. no. 11 (Amended Habeas Petition), ¶¶ 232-236, at 80-81.

295

Id., ¶¶ 232-235, at 80-81.

259

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 260 of 367

against the need for imposition of the death penalty.”296
Respondents contend that this same claim was raised in James’s Rule 32
petition and on collateral appeal, but was denied on its merits by the Alabama Court
of Criminal Appeals, and that James has not demonstrated that the ruling was contrary
to, or involved an unreasonable application of, clearly established federal law, or that
it was an unreasonable determination of the facts in light of the evidence presented
in the state courts.297
The last state court to issue a reasoned opinion on this subclaim was the
Alabama Court of Criminal Appeals. That Court began its discussion of this
subclaim in its second opinion on collateral appeal by quoting from the findings of
the Rule 32 circuit court:
“James contends that trial counsel should have had the pre-sentence
report reflect his good behavior while on death row at Holman Price. In
his petition, James argued that[,] pursuant to Skipper v. South Carolina,
476 U.S. 1 (1986), ‘a sentencer may not refuse to consider such
evidence.’ James is correct that a sentencer may not refuse to consider
such evidence; however, such evidence is not necessarily mitigating.
Jenkins v. State, [972 So. 2d 111 (Ala. Crim. App. 2004)].”
James v. State, 61 So. 3d 357, 380 (Ala. Crim. App. 2010) (alterations and emphasis
supplied). The Alabama Court of Criminal Appeals then observed that the affidavit

296

Id., ¶ 234, at 81 (alteration supplied).

297

Doc. no. 19 (Respondents’ Answer), at 65-66.

260

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 261 of 367

submitted by James’s lead defense attorney, Virginia Vinson, stated that:
“As for the presentence report from the first trial, I did not believe it
needed to be updated because the only change would have been his
behavior while on death row, which I did not think was significant. Joe
had not only been in a highly controlled environment, but was
essentially isolated. So, even if he had shown ‘good’ behavior while on
death row, I did not feel that would have influenced the court to reject
the jury’s unanimous death recommendation.” (C.R. 1179–80.) [The
other defense attorney, Gordon Herbert] Warren stated in his affidavit
that “I did not think the presentence report needed to be updated since
the first trial. He had been on death row the whole time in between
trials. His behavior during that time was not significant because he had
no opportunity to interact with others on death row. He was just there.”
(C.R. 1190.)
Id. at 381 (alteration supplied). The Alabama Court of Criminal Appeals concluded
its analysis of this claim as follows:
In this case, the State did not rely on James’s future
dangerousness to support a sentence of death. Also, the jury, like
counsel and the circuit court, could have given this evidence little
weight based on James’s clear incentive to behave well while he was
awaiting his second trial and sentencing. We cannot say that James
suffered any prejudice by counsel’s failure to present evidence that he
had no prison disciplinary actions filed against him while he was on
death row awaiting his second trial. See Cole v. Roper, 579 F. Supp. 2d
[1246,] at 1283 [E.D. Mo. (2008).]
Id. at 382 (alterations supplied).
James fails to explain how the ruling of the state’s intermediate appellate court
is contrary to, or an unreasonable application of, clearly established federal law.
Furthermore, and assuming for the sake of discussion that his trial attorneys erred in

261

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 262 of 367

not insisting upon preparation of a revised presentence investigation report, James
still has not explained how that failure prejudiced him, as required by Strickland.
Unlike the facts before the Supreme Court in Skipper v. South Carolina, 476 U. S. 1
(1986), James did not testify at the sentencing hearing that, if given a life
imprisonment term, he would not cause difficulties while incarcerated, and would
attempt to work in order to support his family. See id. at 3. In Skipper, the prosecutor
had argued that the petitioner represented a danger to other prisoners in the future;
hence, the trial judge erred in not allowing the petitioner to elicit the testimony of two
jailers and one regular visitor as a mitigating factor. In this case, however, danger to
other prisoners if a life sentence were imposed upon James was not suggested as an
aggravating factor. Thus, his good behavior while incarcerated during the period
between his first and second trials could not have been mitigating in that regard, as
was such evidence in Skipper.
Similarly, even though James relies upon Williams v. Taylor, 529 U.S. 362
(2000), as support for the proposition that his trial attorneys’ failure to insist upon the
preparation of an updated presentence investigation requires habeas relief, the Court
in Williams was considering trial counsel’s failure to obtain prison records reflecting
the defendant’s “commendations for helping to crack a prison drug ring and for
returning a guard’s missing wallet, or the testimony of prison officials who described

262

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 263 of 367

Williams as among the inmates ‘least likely to act in a violent, dangerous or
provocative way.’” Id. at 396.
In other words, the prosecutors in both Skipper and Williams had argued
“future dangerousness” as an aggravating factor supporting a sentence of death.
Consequently, the failure of trial counsel to present mitigating evidence of each
defendant’s conduct in custody, while awaiting trial, was deemed to be
constitutionally ineffective assistance that mandated habeas relief. Here, however,
the only aggravating circumstances the jury could consider were: (1) that James
already was under a sentence of imprisonment on the date of murdering Faith Hall;
and (2) that offense was committed while James was engaged in the commission of
another felony, burglary.298 Thus, the disposition of this claim by the Alabama Court
of Criminal Appeals was neither contrary to, nor an unreasonable application of
clearly established federal law, as determined by the United States Supreme Court in
the Williams and Skipper opinions. There is no basis for habeas relief.
F.

The Cumulative Effect of Trial Counsels’ Penalty-Phase Errors
Prejudiced James, Even If No Single Error, Standing Alone, Did So299
James again urges this court to find prejudice under Strickland based upon the

298

C.R. Vol. 4, Tab 22, at 42.

299

Claim II.F: see doc. no. 11 (Amended Habeas Petition), ¶¶ 237-242, at 81-83.

263

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 264 of 367

totality of errors allegedly committed by his trial counsel during the penalty phase.300
Respondents assert that this claim was procedurally defaulted, because James
abandoned it on collateral appeal (i.e., failed to raise it) and, thereby, failed to exhaust
his state remedies as required by § 2254(b)(1).301 James did not respond to that
argument in his reply brief. Consequently, the claim is barred in this court.
Even if this court were to disregard the procedural default and engage in a
“merits” review, the present claim is not distinguishable from the one discussed in
Part V.N of this opinion, supra: i.e., the contention that the cumulative effect of trial
counsel’s errors during the guilt phase of trial prejudiced James, even if no individual
error standing alone, did so.302 For the same reasons discussed in that part of this
opinion, this court finds the present argument to be equally unavailing.
VII. PETITIONER’S INEFFECTIVE ASSISTANCE OF
APPELLATE COUNSEL CLAIMS303
James contends that several prejudicial errors were committed on direct appeal
by his appellate attorney, George Babakitis of Montgomery, Alabama: e.g., (A)
counsel failed to allege in his initial brief that the trial judge erroneously overruled

300

Id. ¶¶ 237-239, at 81-82 (citing United States v. Parker, 997 F. 2d 219, 222 (6th Cir.
1993), and United States v. Tory, 52 F.3d 207, 211 (9th Cir. 1995)).
301

Doc. no. 19 (Respondents’ Answer), at 67.

302

Doc. no. 11 (Amended Habeas Petition), ¶ 238, at 82.

303

Claim IX: see doc. no.11 (Amended Habeas Petition), ¶¶ 286-298, at 94-95.

264

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 265 of 367

the objection of defense counsel to the prosecutor’s “addition of a new aggravating
circumstance on the morning the sentencing phase was to begin”;304 (B) appellate
counsel failed to raise some ineffective assistance of trial counsel claims in his
opening brief;305 (C) appellate counsel should have argued that the trial judge erred
in failing to instruct the jurors in accordance with Alabama Rule of Criminal
Procedure 19.3(b), prior to their separation at the end of each day;306 and (D) appellate
counsel failed to “federalize” the issues he did address in briefs.307
Respondents contend that, even though subclaims “A” and “C” were raised in
James’s Rule 32 petition and briefs on collateral review, each was denied on the
merits by the Alabama Court of Criminal Appeals.308 Respondents assert that
subclaim “B” was procedurally defaulted, because the Alabama Court of Criminal
Appeals dismissed it under an independent and adequate state procedural rule,
Alabama Rule of Appellate Procedure 28(a)(10), and also because James failed to
present it as a federal claim in state court.309 In the alternative, respondents argue that
subclaim “B” was raised in James’s Rule 32 petition and denied on the merits.310
304

Id, ¶¶ 288-290, at 94 (¶¶ 265-268 of James’s Rule 32 Petition).

305

Id., ¶ 291, at 94-95 (¶ 269 of James’s Rule 32 Petition).

306

Id., ¶ 292, at 95 (¶ 270 of James’s Rule 32 Petition).

307

Id., ¶ 293, at 95 (¶ 271 of James’s Rule 32 Petition).

308

Doc. no. 19 (Respondents’ Answer), at 95.

309

Id. at 98.

310

Id. at 99.

265

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 266 of 367

Finally, respondents argue that subclaim “D” was procedurally defaulted, because the
state court dismissed it for failing to comply with the pleading requirements of
Alabama Rules of Criminal Procedure 32.3 and 32.6(b), and also because James did
not fairly present is as a federal claim in the state courts.311
The last state court to issue a reasoned decision on the various facets of this
claim was the Rule 32 circuit court, which dismissed subclaim “A” because it failed
to present a material issue of law or fact, and subclaims “B,” “C,” and “D” on the
ground that James had failed to comply with the specificity and full factual pleading
requirements of Alabama Rules of Criminal Procedure 32.3 and 32.6(b).312 That court
also dismissed all subclaims (i.e., “A,” “B,” “C,” and “D”) pursuant to Alabama Rule
of Criminal Procedure 32.7(d), “because ‘no material issue of fact or law exists which
would entitle the petitioner to relief.’”313 Those rulings constitute decisions on the
merits. See, e.g., Borden v Allen, 646 F.3d 785, 816, 822 n.44 (11th Cir. 2011), and
the discussion in Part III.B.5.d of this opinion, supra. Consequently, this court finds
that, with the exception of contention “B” (and for the reasons discussed below), the
sub-parts of this claim have not been procedurally defaulted.

311

Id. at 101.

312

See C.R. Vol. 32, Tab 78, at 23-25, 41-45.

313

Id. at 41.

266

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 267 of 367

A.

Failing to Argue That the Trial Judge Erroneously Overruled Defense
Counsel’s Objection to the Prosecutor’s Addition of a New Aggravating
Circumstance314
Claims of ineffective assistance of appellate counsel are, like those impugning

the performance of trial attorneys, evaluated by the Strickland standard. See, e.g.,
Smith v. Robbins, 528 U. S. 259, 285 (2000); Heath v. Jones, 941 F.2d 1126, 1130
(11th Cir. 1991). As previously discussed, that standard requires a petitioner to
establish both deficient performance by the attorney and resulting prejudice.
Strickland, 466 U.S. at 687.
The present subclaim — the contention that appellate counsel provided
constitutionally ineffective assistance by failing to allege in his initial brief on direct
appeal that the trial judge erroneously overruled the objection of defense counsel to
the prosecutor’s “addition of a new aggravating circumstance on the morning the
sentencing phase was to begin” — is nothing more than a mirror image of the
substantive claim that will be addressed infra, in Part VIII.F.5 of this opinion
(discussing James’s assertion that the trial court violated his constitutional rights
when it overruled his “objection to the lack of notice and an opportunity to defend
against the aggravating factor that [he] had been under a sentence of imprisonment
at the time of the offense”: a consideration that was not introduced until the morning
314

See id., ¶¶ 286-290, at 94-95.

267

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 268 of 367

of the beginning of the penalty phase of trial).315 As discussed infra, the Rule 32
circuit court considered the substantive claim and found no violation of James’s
rights. It determined that James had no right under state law to advance notice of the
aggravating circumstances.
Indeed, the Alabama Court of Criminal Appeals has held that the list of
aggravating circumstances enumerated in Alabama Code § 13A-5-49 “is exclusive[,]
and puts the defendant charged with a capital felony on notice of those circumstances
against which [he] may be required to defend. This statutory notice satisfies
constitutional requirements.” Bush v. State, 695 So. 2d 70, 87 (Ala. Crim. App.
1995), aff’d, 695 So. 2d 138 (Ala. 1997) (alterations supplied). See also, e.g., Perkins
v. State, 808 So. 2d. 1041, 1122 (Ala. Crim. App. 1999) (same); Knotts v. State, 686
So. 2d 431, 448 (Ala. Crim. App. 1995) (same).
The Due Process Clause of the Fourteenth Amendment also does not require
a state to provide advance notice to a defendant of the aggravating circumstances
upon which the prosecutor intends to rely. Cf. Gray v. Netherland, 518 U.S. 152,
166-70 (1996); see also, e.g., Clark v. Dugger, 834 F.2d 1561, 1566 (11th Cir. 1987)
(holding that a defendant has “no right” under the Due Process Clause “to advance
notice of the aggravating circumstances on which the state will rely” when the state’s
315

See doc. no. 11 (Amended Habeas Petition) ¶ 281, at 92.

268

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 269 of 367

“sentencing statute itself sufficiently particularized the aggravating circumstances in
a capital case”); Kelley v. State, No. CR–10–0642, 2014 WL 994625, at *28 (Ala.
Crim. App. Mar. 14, 2014) (holding that neither the Supreme Court’s opinion in
Apprendi v. New Jersey,316 nor its subsequent holding in Ring v. Arizona,317 required
that an accused be provided with advance notice of all aggravating circumstances
upon which the prosecutor intends to rely).318
For all of those reasons, therefore, the trial court committed no error under
either state or federal law when it allowed jury consideration of the evidence offered
by the State under Alabama Code § 13A-5-49(1).319 Accordingly, the Rule 32 circuit
court held that appellate counsel did not render constitutionally ineffective assistance
by failing to raise a meritless claim on direct appeal.320 See, e.g., Chandler v. Moore,
240 F.3d 907, 917-18 (11th Cir. 2001) (holding that the petitioner’s “appellate
316

530 U.S. 466 (2000).

317

536 U.S. 584 (2002).

318

Compare Dobard v. State, 435 So. 2d 1338, 1347 (Ala. Crim. App. 1982), aff’d, 435 So.
2d 1351 (Ala. 1983) (holding that the “aggravating circumstances enumerated in § 13A–5–49 that
may lead to the imposition of the death penalty in a capital case are not elements of the offense and
are not required to be set forth in the indictment”) with Arthur v. State, 711 So. 2d 1031 (Ala. Crim.
App. 1996), aff’d, 711 So. 2d 1097 (Ala. 1997) (holding, consistently with the Supreme Court’s later
opinions in Apprendi v. New Jersey and Ring v. Arizona, that whenever an aggravating circumstance
relied on by the State is an elements of the capital offense charged against the defendant, it must be
alleged in the indictment and proven beyond a reasonable doubt).
319

The statute cited in text provides that the fact that a “capital offense was committed by a
person under sentence of imprisonment” is a statutory aggravating circumstance. Ala. Code § 13A5-49(1).
320

C.R. Vol. 32, Tab. 78 at 41-42.

269

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 270 of 367

counsel was not ineffective for failing to raise a nonmeritorious issue” on direct
appeal) (citing United States v. Nyhuis, 211 F.3d 1340, 1344 (11th Cir.2000));
Bolender v. Singletary, 16 F.3d 1547, 1573 (11th Cir. 1994) (“[I]t is axiomatic that
the failure to raise nonmeritorious issues does not constitute ineffective assistance.”)
(alteration supplied).
In summary, the state court’s rejection of this subclaim was not contrary to, or
an unreasonable application of, clearly established federal law, as determined by the
United States Supreme Court.
B.

Failing to Raise Some Ineffective Assistance of Trial Counsel Claims in the
Opening Brief on Direct Appeal321
James also asserts that appellate counsel addressed “only a handful of” the

ineffective assistance of trial counsel claims in his initial brief on direct appeal, and
“for some reason failed to raise the more meritorious claims included in the
petition.”322 The Rule 32 circuit court dismissed this subclaim for failure to raise a
material issue of fact or law.323 The Alabama Court of Criminal Appeals dismissed
it in its first opinion on collateral appeal, saying that James had failed to satisfy the

321

See doc. no. 11 (Amended Habeas Petition), ¶¶ 291, at 95.

322

Id.

323

C.R. Vol. 32, Tab 78, at 42-43.

270

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 271 of 367

pleading requirements of Alabama Rule of Appellate Procedure 28(a)(10);324 and, for
that reason, deemed the claim to have been waived. James v. State, 61 So. 3d 332,
348 (Ala. Crim. App. 2006), rev’d on other grounds sub nom. Ex parte James, 61 So.
3d 352 (Ala. 2009). The relevant discussion is found in Part V.B of the intermediate
appellate court’s first opinion, reading as follows:
Second, the appellant apparently contends that appellate counsel
performed deficiently in raising, but not factually developing,
ineffective-assistance-of-trial-counsel claims in his brief to this court on
direct appeal. His entire argument on this issue consists of the
following: “Claim IX, Paragraph 269: For reasons noted elsewhere, the
court erred in dismissing paragraph 269 as well.” (Appellant’s brief at
p. 138.) Because this one-sentence argument does not satisfy the
requirements of Rule 28(a)(10), Ala. R. App. P., we deem it waived.FN7
As we explained in Jennings v. State, 965 So. 2d 1112, 1136 (Ala. Crim.
App. 2006):
FN7. Pages 156 and 157 of the appellant’s brief also
make reference to Paragraph 269 of the petition.
However, those references also do not comply with
the requirements of Rule 28(a)(10), Ala. R. App. P.

“Rule 28(a)(10), Ala. R. App. P., requires that an
argument contain ‘the contentions of the
appellant/petitioner with respect to the issues presented,
and the reasons therefor, with citations to the cases,
statutes, other authorities, and parts of the record relied
on.’ Further, ‘[a]uthority supporting only “general
propositions of law” does not constitute a sufficient
argument for reversal.’ Beachcroft Props., LLP v. City of
Alabaster, 901 So. 2d 703, 708 (Ala. 2004), quoting
324

This rule is discussed in Part III.B.5.g, supra. The predecessor of that rule, Ala. R. App.
P. 28(a)(1), is addressed in Part III.B.5.f, supra.

271

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 272 of 367

Geisenhoff v. Geisenhoff, 693 So. 2d 489, 491 (Ala. Civ.
App. 1997). See also Connerly v. Connerly, 523 So. 2d
461 (Ala. Civ. App. 1988) (appellant’s citations to general
propositions of law that were not specifically applicable to
the issues presented by the appeal do not fulfill the
requirements of Rule 28, Ala. R. App. P.).
“. . . ‘It is not the job of the appellate courts to do a
party’s legal research. . . . Nor is it the function of the
appellate courts to “make and address legal arguments for
a party based on undelineated general propositions not
supported by sufficient authority or argument.”’ Pileri
Ind., Inc. v. Consolidated Ind., Inc., 740 So. 2d 1108, 1110
(Ala. Civ. App. 1999), quoting Dykes v. Lane Trucking,
Inc., 652 So. 2d 248, 251 (Ala. 1994). Because Jennings
has failed to present sufficient argument, authority, or
citation to the facts in support of this issue, we conclude
that he has failed to comply with Rule 28(a)(10), and that
this issue is, therefore, deemed to be waived. See, e.g.,
Giles v. State, 906 So. 2d 963 (Ala. Crim. App. 2004), and
Mumpfield v. State, 872 So. 2d 205 (Ala. Crim. App.
2003).”
James, 61 So. 3d at 348, rev’d on other grounds sub nom. Ex parte James, 61 So. 3d
352 (Ala. 2009) (alteration and redactions in original).
Even though the foregoing decision by the Alabama Court of Criminal Appeals
constitutes a procedural bar to consideration of this subclaim, this court alternatively
finds that the habeas claim is not sufficiently pleaded. James was required to
describe the specific acts or omissions that, he contends, amounted to constitutionally
ineffective assistance. See Strickland, 466 U.S. at 690. He failed to do so, both in the

272

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 273 of 367

state courts below and here. Consequently, the subclaim lacks merit.
C.

Failure to Argue That the Trial Judge Did Not Instruct the Jury as
Required by Rule 19.3(b), Ala. R. Crim. P.325
This ineffective assistance of appellate counsel claim is a mirror image of the

substantive claim that will be addressed infra, in Part VIII.F.4: that is, the contention
that the trial court judge erroneously failed to instruct the jury at the end of each day
as required by Alabama Rule of Criminal Procedure 19.3(b),326 which provides that,
[i]n all cases, the court shall admonish the jurors that they are not:
(1)

to discuss among themselves any subject connected with
the trial until the case is submitted to them for deliberation;

(2)

to converse with anyone else on any subject connected
with the trial, until they are discharged as jurors in the case;

(3)

to knowingly expose themselves to outside comments or to
news accounts of the proceedings, until they are discharged
as jurors in the case; or

(4)

to form or express any opinion on the case until it is
submitted to them for deliberation.

If the jurors are permitted to separate, they may also be admonished not
to view the place where the offense was allegedly committed.
Ala. R. Crim. P. 19.3(b) (alteration supplied).
325

See doc. no. 11 (Amended Habeas Petition), ¶ 292, at 95.

326

Id., ¶ 280 at 92. James actually cites “Alabama Rule of Criminal Procedure Rule 19.3(d).”
Such a subsection does not exist. Instead, subsection (b) of that rule addresses the trial court’s
admonitions to jurors.

273

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 274 of 367

The substantive component of this subclaim was addressed by the Rule 32
circuit court, which held that, “[a]s long as [the trial] Court properly admonished the
jury once pursuant to 19.3(b), it was not error for the court not to so admonish the
jury every day.”327 Indeed, a close reading of the rule establishes that it does not say
that such admonitions are to be delivered each day of trial (even though that arguably
might be the best practice), but only that “[i]n all cases, the court shall admonish the
jurors that they are not . . . .” In other words, while the trial judge’s action was not
ideal, it was not error.
As discussed in Part VIII.F.4, infra, James has not demonstrated that the state
court’s adjudication of the substantive merit of the issue underlying the present
ineffective assistance of counsel subclaim resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States, or that it resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. See 28 U.S.C. § 2254(d).
It follows, therefore, that because the trial court did not commit error in this

327

C.R. Vol. 32, Tab 78, at 40 (alteration supplied) (citing Griffin v. State, 790 So. 2d 267,
334 (Ala. Crim. App. 1999), rev’d on other grounds, 790 So. 2d 351 (Ala. 2000) (“Although the
better practice would be for the trial court to admonish the jury at each break or recess, there is
nothing in Rule 19.3(b), Ala. R. Crim. P., that requires it to do so . . . . Jurors are presumed to follow
the instructions of the trial court.”)).

274

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 275 of 367

regard, appellate counsel’s failure to raise a meritless claim on direct appeal cannot
satisfy either the deficient performance or resulting prejudice prongs of the Strickland
standard. See 466 U.S. at 687. The Rule 32 circuit court so held.328 Accordingly,
James is not entitled to habeas relief either.
D.

Failure to “Federalize” Claims329
James argues only one example of his appellate attorney’s alleged failure to

“federalize” claims argued on direct appeal: i.e., counsel’s failure to raise as a due
process violation the trial court’s admission of autopsy photographs.330 However, as
previously discussed in Part V.G.1 of this opinion, supra, and Part VII.F.2 infra,it
was not error to admit those photographs. Therefore, as found by the Rule 32 circuit
court,331 appellate counsel’s failure to raise a meritless claim as a violation of James’s
due process rights, or otherwise, cannot satisfy either the deficient performance or
resulting prejudice prongs of the Strickland standard. See 466 U.S. at 687.
All sub-parts of petitioner’s claim of ineffective assistance of appellate counsel
fail because he has not shown that the state court unreasonably determined that his
attorney’s performance was not deficient, or that the outcome of the proceedings

328
329

C.R. Vol. 32, Tab. 78, at 43-44.
See doc. no. 11 (Amended Habeas Petition), ¶ 293, at 95.

330

Id.

331

C.R. Vo. 32, Tab. 78, at 44-45.

275

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 276 of 367

would not have been different, but for counsels’ allegedly deficient performance. Id.
VIII. PETITIONER’S SUBSTANTIVE CLAIMS
A.

Petitioner Was Deprived of His Constitutional Right to the Assistance at
Trial of a Competent Mental Health Professional332

B.

The Trial Judge Erred in Failing to Order, sua sponte, a Competency
Evaluation of Petitioner333

C.

Petitioner Was Not Competent to Proceed to Trial334
These three claims are materially similar and intertwined. Consequently, they

are addressed together. In subclaim “A,” James asserts that both the United States
Constitution and Alabama law entitled him to the assistance of a competent
psychiatric expert, but he was denied such assistance and, thus, denied a fair trial.335
He alleges that, even though the trial judge sua sponte ordered a competency
examination in 1996, prior to his first trial, “that evaluation was three years old at the
time of [the second] trial in this case and therefore no longer valid.”336 James also
argues that the 1996 evaluation was conducted only to determine whether he was
competent to stand trial, and did not address his other, alleged, mental issues.337 He
332

Claim III: see doc. no. 11 (Amended Habeas Petition), ¶¶ 243-247, at 83-84.

333

Claim IV: see doc. no. 11 (Amended Habeas Petition), ¶¶ 248-252, at 84-85.

334

Claim V: see doc. no. 11 (Amended Habeas Petition), ¶¶ 253-257, at 86-87.

335

Doc. no. 11 (Amended Habeas Petition), ¶¶ 243-245, at 84 (citing Alabama Rule of Court
25.4; and Blake v. Kemp, 758 F. 2d. 523, 531 (11th Cir. 1985)).
336

Id., ¶ 244, at 83 (alteration supplied).

337

Id.

276

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 277 of 367

claims that his need for a new psychological evaluation was obvious in view of his
“bizarre” in court behavior, and that a psychological expert’s evaluation could have
assisted his defense in many ways.338
Subclaim “B” asserts that the trial court had a duty to sua sponte order a
competency reevaluation before the second trial, because the court was on notice of
James’s “bizarre behavior, intellectual and emotional problems, and of the breakdown
of the relationship between Mr. James and his counsel.”339 According to James, his
“irrational behavior” was best exemplified by his last-minute decision not to plead
guilty, and, outbursts during trial.340
Subclaim “C” asserts that James’s “confinement and sentence are illegal,
unconstitutional and void . . . because he was mentally incompetent to understand the
proceedings below or to aid and assist in his defense.”341 In support of that
contention, James alleges that he
was clearly incompetent to stand trial. In addition to the facts previously
alleged pertaining to James’s courtroom outbursts and bizarre behavior,
James suffered from post-traumatic stress disorder, schizophrenia, and
a myriad of other mental disorders which where exacerbated by an
attempted sexual assault which occurred in the Jefferson County Jail on
the night prior to trial.
338

Id., ¶¶ 244-245, at 83-84.

339

Id., ¶ 249, at 84-85.

340

Id., ¶ 250 , at 85.

341

Doc. no. 11 (Amended Habeas Petition), ¶ 253, at 86.

277

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 278 of 367

Doc. no. 11 (Amended Habeas Petition), ¶ 253, at 86.
1.

Procedural default

Respondents contend that subclaims “A” and “B” were procedurally defaulted
under Alabama Rule of Criminal Procedure 32.2(a)(3), because James did not raise
either contention at trial or on direct appeal.342 In addition and alternatively,
respondents note that, when James raised these claims in his Rule 32 petition, the
circuit court judge did not reach the merits of either, but instead based his dismissal
of both solely upon the ground that each was found that they were procedurally
defaulted under Alabama Rules of Criminal Procedure 32.2(a)(3) and 32.2(a)(5).343
Because James did not raise subclaims “A” and “B” at trial or on direct appeal
in the manner dictated by the procedural rules cited by respondents, the procedural
default doctrine precludes him from raising them here, provided the state court’s
ruling was based on “adequate and independent state grounds.” Ward v. Hall, 592
F.3d 1144, 1156-57 (11th Cir. 2010). As previously discussed at greater length in
Part III.B.6, supra:
If an Alabama court has denied post-conviction relief based on the
petitioner’s failure to raise a claim at trial or on direct appeal, a federal
court cannot review that claim unless it determines either (1) that the
petitioner had cause for his failure to raise the claim and suffered
342

Doc. no. 19 (Respondents’ Answer), at 69-72.

343

Id. at 70 and 72. See C.R. Vol. 32, Tab 78, at 3.

278

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 279 of 367

prejudice as a result, or (2) that denying federal habeas review of the
claim would result in a fundamental miscarriage of justice — namely the
conviction and punishment of one who is actually innocent.
Brownlee v. Haley, 306 F.3d 1043, 1065-66 (11th Cir. 2002). James has not argued
any exception to the procedural default doctrine. Therefore, claims “A” and “B” were
procedurally defaulted and habeas relief is due to be denied on that basis.
Respondents also argue that subclaim “C” also was procedurally defaulted,
because the Rule 32 circuit court denied the claim on the basis of James’s failure to
comply with the specificity and full factual pleading requirements of Alabama Rules
of Criminal Procedure 32.3 and 32.6(b).344 Respondents additionally claim that James
did not fairly present subclaim “C” as a federal claim in state court, thereby
prompting procedural default.345 As discussed in Part III.B.5.d, supra, however, a
state court’s dismissal of a convict’s claim on collateral appeal for failure to state a
claim upon which relief can be granted, or for failure to establish a material issue of
fact or law, are rulings “on the merits” and, as such, subject to review under
AEDPA’s standards in a federal habeas proceeding. Borden v. Allen, 646 F.3d 785,
816, 822 n.44 (11th Cir. 2011). More importantly, however, “the procedural default
rule . . . does not operate to preclude a defendant who failed to request a competency

344

Doc. no. 19 (Respondents’ Answer), at 74.

345

Id.

279

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 280 of 367

hearing at trial or pursue a claim of incompetency on direct appeal from contesting
his competency to stand trial and be sentenced though post-conviction
proceedings.”346 Adams v. Wainwright, 764 F.2d 1356, 1359 (11th Cir. 1985)
(citations omitted). For both reasons, therefore, the merits of subclaim “C” must be
addressed.
2.

Merits

James’s claim that he was not competent to stand trial was addressed in three
previous parts of this opinion: i.e., Part V.C.3 (discussing the allegation that trial
counsel failed to investigate James’s mental health); Part V.D.2 (addressing the
contention that trial counsel failed to obtain necessary mental health experts); and
Part V.E (discussing the claim that trial counsel failed to investigate or challenge
James’s competency to stand trial). As noted in those discussions, the Alabama Court
of Criminal Appeals considered James’s competence to stand trial in its first opinion
on collateral appeal. See James v. State, 61 So. 2d 332 (Ala. Crim. App. 2006), rev’d
on other grounds sub nom. Ex parte James, 61 So. 2d 352 (Ala. 2009). This court
quoted the relevant portions of the intermediate appellate court’s opinion in the
346

Although this aspect of his claim is not procedurally barred, James has not presented
sufficient evidence to show entitlement to a post-conviction evidentiary hearing. As discussed herein,
James’s evidence of incompetency is insufficient to “positively, unequivocally, and clearly generate
the [requisite] legitimate doubt” as to his competency at the time of trial. Pardo v. Secretary, Florida
Dept. of Corrections 587 F.3d 1093, 1101 n.3 (11th Cir. 2009) (quoting Medina v. Singletary, 59
F.3d 1095, 1106 (11th Cir. 1995) (quotation marks and citation omitted, alteration in original)).

280

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 281 of 367

previous Parts of this opinion and, consequently, declines to reiterate those passages
here. The ultimate finding of the state’s intermediate appellate court, however, was
this: “Despite his allegations to the contrary, there was not any indication that
[James] was not competent at the time of his second trial. Rather, . . . the records
from his previous appeals directly refute his claim.” Id. at 346 (alterations and
ellipsis supplied).
Given the lack of any evidence of mental incompetency, the trial court judge
could not have erred in failing to order, sua sponte, a competency reevaluation of
James prior to the second trial. Indeed, the following Alabama Rule of Criminal
Procedure states that “reasonable grounds” must exist before the trial court judge may
order that a defendant be committed to the custody of the Commissioner of the
Alabama Department of Mental Health and Mental Retardation for a competency
evaluation:
If the court on its own motion or on motion of either party
determines that reasonable grounds exist for an examination or for
further examination of the defendant by a mental health expert or
experts, it may order the defendant committed to the custody of the
commissioner for such examination.
Ala. R. Crim. P. 25.4 (emphasis supplied). Similarly, an Alabama statute directs trial
judges to order a mental health examination for a capital defendant when “there is
reasonable ground to believe that such defendant may presently lack the capacity to

281

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 282 of 367

proceed or continue to trial . . . .” Ala. Code § 15-16-22(a) (1975).
Admittedly, the Eleventh Circuit recognized in an opinion relied upon by
James that a criminal defendant has a constitutional right “to at least one psychiatric
examination and opinion developed in a manner reasonably calculated to allow
adequate review of relevant, available information, and at such a time as [would]
permit counsel reasonable opportunity to utilize the analysis in preparation and
conduct of the defense.” Blake v. Kemp, 758 F. 2d 523, 529 (11th Cir. 1985)
(alteration supplied). The Blake panel held that the defendant’s right to a psychiatric
evaluation was violated when no reasonable efforts were made to determine his sanity
at the time of the alleged crime. Id. at 529-30. That Court also held that, when
particular statements or actions of a capital defendant “at least raise sufficient
question [as to a defendant’s] sanity[, then] . . . they should [be] presented to the
psychiatrist early enough to allow adequate consideration of them in preparation of
his evaluation.” Id. at 530 (alterations and ellipsis added).
The Blake panel relied on the Supreme Court’s decision in Ake v. Oklahoma,
470 U.S. 68 (1985), which was summarized as follows:
In Ake a defendant in a murder trial had demonstrated bizarre
conduct on arraignment and the trial court had him sent to a state
psychiatric hospital for a determination as to his ability to stand trial.
He was placed on medication and sent back for trial after several
months. Thereupon Ake noted his defense to be that of insanity at the

282

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 283 of 367

time of the commission of the killings. At no time had any psychiatrist
made any inquiry into Ake’s sanity at the time of the acts he was
charged with, although his counsel moved for appointment of a
psychiatrist.
Blake, 758 F. 2d at 530. The Eleventh Circuit panel then quoted the following
passages from the Ake opinion:
We therefore hold that when a defendant demonstrates to the trial
judge that his sanity at the time of the offense is to be a significant factor
at trial, the state must, at a minimum, assure the defendant access to a
competent psychiatrist who will conduct an appropriate examination
and assist in evaluation, preparation, and presentation of the defense.
This is not to say, of course, that the indigent defendant has a
constitutional right to choose a psychiatrist of his personal liking or to
receive funds to hire his own. Our concern is that the indigent defendant
have access to a competent psychiatrist for the purpose we have
discussed, and as in the case of the provision of counsel we leave to the
states the decision on how to implement this right.
Id. at 530-531(quoting Ake, 470 U.S. at 83) (emphasis in Blake).
The Blake court was careful to state that its decision was based “solely on the
facts of this case, in which the sanity of the defendant was fairly raised.” Id. at 531
n.8 (emphasis in original).
In contrast to Ake and Blake, however, James was evaluated by a psychologist
in 1996, prior to his first trial, and found not to be suffering from a mental disease or
defect at the time he shot and killed Faith Hall. See James v. State, 61 So. 3d 357,
368 (Ala. Crim. App. 2010). Moreover, James presented evidence at his Rule 32

283

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 284 of 367

hearing of a psychological evaluation conducted by Richard Holbrook, who
concluded that James did not suffer from any significant mental health problems.347
Similarly, while James introduced copies of two MMPI-2 tests that had been
administered to him, he failed to present any evidence or testimony concerning the
validity of those tests. Further, the conclusion that could be drawn from the test
administrations was that James, at worst “may exhibit a thought disorder.”348
The Supreme Court held in Pate v. Robinson, 383 U.S. 375 (1966), that a
defendant’s due process rights are presumptively violated when a state trial court fails
to conduct, on its own initiative, a competency hearing in the face of circumstances
creating a sufficient doubt about the defendant’s competency. Since Pate, the
Eleventh Circuit has crafted an objective standard stating that, in order to trigger the
trial courts’ obligation to order a competency hearing, the court must have
information raising a “bona fide doubt” as to the defendant’s competency. See James
v. Singletary, 957 F.2d 1562, 1570 (11th Cir. 1992); see also Fallada v. Dugger, 819
F.2d 1564, 1568 (11th Cir. 1987). Relevant information may include evidence of a
defendant’s irrational behavior, demeanor at trial, or prior medical opinion, but
“‘[t]here are, of course, no fixed or immutable signs which invariably indicate the

347

See C.R. Vol. 32, Tab 78, at 72-73.

348

Id. at 73 (emphasis supplied).

284

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 285 of 367

need for further inquiry to determine fitness to proceed.’” Watts v. Singletary, 87
F.3d 1282, 1287 (11th Cir.1996) (quoting Drope v. Missouri, 420 U.S. 162, 180
(1975)) (alteration in original).
Although James categorizes his behavior during trial as “bizarre,” the record
does not support that characterization. For example, even though James now labels
his last minute rejection of a guilty plea in exchange for a life sentence as proof of
incompetence, his explanation for his decision immediately prior to the second trial
was reasoned, and indicative of rational, linear thinking into the future. Further, none
of the family members who testified at the Rule 32 hearing suggested that James
suffered from any mental problems. Even his outbursts at trial — which consisted of
a running commentary on how the testimony of various witnesses was not correct on
minute details — demonstrated that he was not suffering from a mental defect.
Indeed, a review of the transcript from the guilt phase of trial provides no
evidence that James engaged in irrational, much less “bizarre” behavior, or that his
demeanor was in any way remarkable. The opinions of medical experts about
James’s competency concluded that he was, in fact, competent. In short, the record
does not support bona fide doubt regarding his competency.
On a post-conviction incompetency claim, “the standard of proof is
high”: the petitioner must present a preponderance of “clear and
convincing evidence” of “positive [ ], unequivocal[ ], and clear[ ]” facts

285

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 286 of 367

“creating a real, substantial and legitimate doubt” as his competence.
Medina v. Singletary, 59 F.3d 1095, 1106 (11th Cir. 1995). Evidence
of incompetence “must indicate a present inability to assist counsel or
understand the charges.” Id. at 1107. Absent evidence of such an
inability, evidence of low intelligence, mental deficiency, bizarre,
volatile, or irrational behavior, or the use of anti-psychotic drugs is not
sufficient to show incompetence to stand trial. Id.
Pardo v. Secretary, Florida Dept. of Corrections, 587 F.3d 1093, 1101 (11th Cir.
2009) (alterations in original).
Because James’s post-conviction claims of incompetence fall short of clear and
convincing evidence creating a substantial doubt about his competence on the dates
of his second trial, the Alabama courts’ decisions on these claims were not contrary
to, or an unreasonable application of, clearly established federal law, as determined
by the Supreme Court of the United States. They also were not based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceedings. See 28 U.S.C. § 2254(d); see also Wiggins, 539 U.S. at 520–21;
Williams, 529 U.S. at 379, 385. James also has not shown prejudice from the state
courts’ failure to sua sponte order a competency hearing.
For all of the foregoing reasons, James is not entitled to habeas relief on these
intertwined claims.

286

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 287 of 367

D.

The Prosecution Failed to Comply With Discovery Obligations Under
Brady v. Maryland, and Committed Other Misconduct at Trial349
James next asserts that the prosecution failed to provide him with “crucial

exculpatory and impeachment evidence,” such as evidence that Faith Hall had been
previously arrested for domestic violence and assault, and that she had attacked
James’s girlfriend on two occasions.350 James claims that, if such evidence had been
produced in response to his motion for production of documents, it would have
supported his contention that Faith Hall charged him with a knife, and also would
have undercut the prosecution’s theory that James “stalked” her.351
James also alleges that the prosecutor failed to disclose “jail and prison records
demonstrating his good conduct and lack of disciplinary actions while incarcerated.”
He contends that such evidence was mitigating, and would have helped his defense,
because it demonstrated that he was not a danger to others in a prison environment.352
Finally, James argues in a logically unrelated claim that the prosecutor
“engaged in a pattern of abusive misconduct in closing argument,” including calling
him derogatory names, arguing facts not in evidence, improperly appealing to the

349

Claim VI: see doc. no. 11 (Amended Habeas Petition), ¶¶ 258-267, at 87-89.

350

Doc. no. 11 (Amended Habeas Petition), ¶ 260, at 87.

351

Id., ¶ 261, at 87-88.

352

Id., ¶ 263, at 88.

287

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 288 of 367

emotions and passions of the jury, and improperly referring to James’s failure to
testify.353
Respondents contend that these claims are procedurally defaulted because
James failed to raise them either at trial or on direct appeal.354 They also argue that,
when these claims were raised in the Rule 32 circuit court, they were found to be
procedurally defaulted under Alabama Rules of Criminal Procedure 32.2(a)(3) and
(5) for the precise reason that James had failed to raise them at trial and on direct
appeal.355
1.

Procedural default

The last state court to issue a reasoned opinion on the claims addressed in this
part of the opinion was the Rule 32 circuit court, which held, as respondents contend,
that the claims had been procedurally defaulted under Rules 32.2(a)(3) and (a)(5).356
Accordingly, the various facets of this claim are due to be dismissed pursuant to
Brownlee v. Haley, 306 F.3d 1043, 1066 (11th Cir. 2002) (finding claims to be
“procedurally defaulted under Rules 32.2(a)(3) and (5) because they were not raised
either at trial or on appeal”).
353

Id., ¶¶ 264-265, at 88-89.

354

Doc. no. 19 (Respondents’ Answer), at 77.

355

Id. at 77-78.

356

C.R. Vol. 32, Tab 78, at 6.

288

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 289 of 367

2.

Merits

The various parts of this claim also lack merit for the reasons discussed below,
and are due to be denied on that basis as well.
The Supreme Court held in the seminal case of Brady v. Maryland that “the
suppression by the prosecution of evidence favorable to an accused upon request
violates due process where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.” 373 U.S. 83, 87
(1963). The Supreme Court later held in Kyles v. Whitley, 514 U.S. 419 (1995), that
“the state’s obligation under Brady v. Maryland . . . to disclose evidence favorable to
the defense turns on the cumulative effect of all such evidence suppressed by the
government,” and that, when “the net effect of the evidence withheld by the State in
[the] case raises a reasonable probability that its disclosure would have produced a
different result,” the defendant is entitled to a new trial. Id. at 421-22 (alteration
supplied).
In order to prevail on a Brady claim, therefore, a habeas petitioner must satisfy
five elements: (1) the State possessed evidence favorable to him; (2) the habeas
petitioner did not possess that evidence at trial, and could not have obtained it with
reasonable diligence; (3) the State suppressed the favorable evidence; (4) the
evidence was material; and (5) “the net effect of the evidence withheld by the State
289

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 290 of 367

in [the trial of the underlying] case raises a reasonable probability that its disclosure
would have produced a different result.” Kyles, 514 U.S. at 421-22 (alteration
supplied); Lamarca v. Secretary, Department of Corrections, 568 F.3d 929, 941 (11th
Cir. 2009) (authority for the first four elements of the foregoing prima facie case).
Evidence would be “material” if “there is a reasonable probability that, had the
evidence been disclosed to the defense, the result of the proceeding would have been
different.” Kyles, 514 U.S. at 433 (quoting United States v. Bagley, 473 U.S. 667,
682 (1985)).
James does not allege that the prosecutor had information about Faith Hall’s
prior arrests and altercations with the other woman he was dating at the time of the
offense. Assuming for the sake of discussion that the prosecutor actually possessed
such evidence at the time of trial, James fails to assert that he could not have obtained
the same evidence through the exercise of reasonable diligence, since it was public
information. He also does not allege that “the government suppressed the favorable
evidence.” Id.
Even if James had been provided that evidence prior to trial, and even
assuming that it was admissible,357 his conclusion that evidence of Faith Hall’s violent
357

As this court has previously discussed, documents tending to show that the victim had a
violent nature would likely not be admissible at trial. Thus, such documents are not material for
Brady purposes. See e.g., Ferguson v. Secretary for Deptpartment of Corrections, 580 F.3d 1183,

290

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 291 of 367

nature would have supported his contention that she charged him with a knife simply
does not follow. James never told his trial attorneys that she had a knife, or that she
attacked him. The eye-witnesses also did not mention a knife in the victim’s hand at
the time she was shot. Therefore, James failed to establish that the evidence was
“material” as defined by Brady and its progeny.
James also argues that the “suppressed” evidence would have aided him during
the penalty phase of the trial, because it would have prevented the prosecution from
painting him in such an unsympathetic light.358 However, James’s attorneys testified
that he did not tell them that Hall had a knife, or suggest to them that he acted in selfdefense. Thus, the Alabama Court of Criminal Appeals concluded that “all the
evidence showed that James was the aggressor and that he pushed his way into
Sneed’s apartment and shot Hall multiple times, even after she fell to the floor.”
James v. State, 61 So. 3d 357, 366-67 (Ala. Crim. App. 2010).
James next argues that the “suppressed” jail and prison records that allegedly
confirmed his “good behavior” also would have helped him at the penalty phase.359
However, it is not likely that such evidence would have had a beneficial impact on
the jury’s decision, because the State did not rely on James’s potential dangerousness
1206 (11th Cir. 2009).
358

Doc. no. 11 (Amended Habeas Petition), ¶ 262, at 88.

359

Id., ¶ 263, at 88.

291

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 292 of 367

in a prison environment to support a sentence of death, as opposed to life
imprisonment. And, of course, James knew the character of his own prison records,
and could have advised his attorneys. Where, as in this instance, the defendant
himself had knowledge of the alleged Brady material prior to trial, there can be no
“suppression” by the government. See, e.g., United States v. Griggs, 713 F.2d 672,
674 (11th Cir. 1983) (“Irrespective of whether the statement[s] here [were]
exculpatory evidence under Brady, a question we do not reach, there is no Brady
violation when the accused or his counsel knows before trial about the allegedly
exculpatory information .”) (quoting United States v. Cravero, 545 F.2d 406, 420 (5th
Cir. 1977)) (alterations in original).
James again asserts in an argument that is not logically related to the
contentions discussed above that the prosecutor engaged in misconduct during
closing argument.360 As noted when these contentions were addressed in Parts
V.G.10 and VI.C, supra, the standard employed by courts in reviewing allegations of
prosecutorial misconduct is “whether the prosecutor’s comments ‘so infected the trial
with unfairness as to make the resulting conviction a denial of due process.’” Darden
v. Wainwright, 477 U.S. 168, 181 (1986) (quoting Donnelly v. DeChristofo, 416 U.S.
637, 643 (1974)). A prosecutor’s comments do not rise to this level merely by being
360

Id., ¶¶ 264-265, at 88-89.

292

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 293 of 367

“offensive” or “improper”; indeed, “it is not enough that the prosecutors’ remarks
were undesirable or even universally condemned.” Id. at 180-81 (internal quotation
omitted). Instead, the standard is a “narrow one of due process, and not the broad
exercise of supervisory powers.” Donnelly, 416 U.S. at 642. When applying that
standard, a court must examine the context of the prosecutor’s remarks, as opposed
to looking at each remark in isolation. Cargill v. Turpin, 120 F.3d 1366, 1379 (11th
Cir. 1997).
Inappropriate prosecutorial comments, standing alone, would not justify
a reviewing court to reverse a criminal conviction obtained in an
otherwise fair proceeding. Instead, as Lawn [v. United States 355 U.S.
339, 359-60 and n.15 (1958),] teaches, the remarks must be examined
within the context of the trial to determine whether the prosecutor’s
behavior amounted to prejudicial error. In other words, the Court must
consider the probable effect the prosecutor’s response would have on the
jury’s ability to judge the evidence fairly.
United States v. Young, 470 U.S. 1, 11-12 (1985) (alteration supplied, other citations
omitted). After reviewing the prosecutor’s statements in the context of a closing
argument, and in the context of all the evidence presented at trial, this court finds that
his remarks did not deprive James of a fair trial.
As discussed in Part V.G.10 of this opinion, supra, the prosecutor’s suggestion
that the victim might have prayed to God before she was shot, or the fact that the
prosecutor called James a “clown,” a “hambone,” or a “cowboy,” likely had less

293

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 294 of 367

impact on the jury’s verdict than the eyewitness testimony to the commission of this
crime.

Moreover, not all references to God in a criminal prosecution are

impermissible. See Mitchell v. State, 84 So. 3d 968, 983 (Ala. Crim. App. 2010).
The prosecutor’s description of the victim’s children as “motherless”
constitutes permissible victim impact evidence under the Supreme Court’s holding
in Payne v. Tennessee, 501 U.S. 808 (1991), and the opinion of the Alabama Court
of Criminal Appeals in McNair v. State, 653 So. 2d 320 (Ala. Crim App. 1992). The
McNair court followed Payne’s determination “that this type of evidence related to
the harm done by the defendant and, consequently, was a valid consideration in
determining the punishment to be imposed.” Id. at 331 (citing Payne, 501 U.S. at
823-25).
The prosecutor’s comment that he did not “hear” any evidence about emotional
difficulties or mental problems merely was a reference to the lack of such evidence,
and not a reference to James’s failure to testify.
Finally, the prosecutor’s statement about the possibility that James owned two
guns constituted a legitimate inference from the evidence and, for that reason, was
permissible. See Coral v. State, 628 So. 2d 954, 985 (Ala. Crim. App. 1992)
(“During closing argument, the prosecutor, as well as defense counsel, has a right to
present his impressions from the evidence, if reasonable, and may argue every
294

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 295 of 367

legitimate inference.”).
None of the aspects of this claim provide a basis for habeas relief.
E.

Petitioner Was Deprived of His Right to an Impartial Jury, Due Process
of Law, and a Reliable Determination of Guilt and the Penalty to be
Imposed When He Was Tried by a Juror Who Suffered From a Mental
Illness and Other Impairments361
James next alleges that “[o]ne of the jurors in [his] case was undergoing

treatment for mental illness and other impairments at the time of the trial and was not
competent to understand the issues or to deliberate at the time of his jury service.”362
Thus, James argues, he was deprived of his due process right to mentally competent
jurors.363
Respondents argue that this claim was procedurally defaulted because James
failed to raise it at trial and on direct appeal.364 In addition, respondents contend the
claim was procedurally defaulted pursuant to the Rule 32 circuit court’s determination
that James had failed to comply with the pleading requirements of Alabama Rule of
Criminal Procedure 32.6(b). Finally, respondents argue that the claim is conclusory
in nature, and fails to state a valid claim for relief under 28 U.S.C. § 2254.365
361

Claim VII: see doc. no. 11 (Amended Habeas Petition), ¶¶ 268-272, at 89-90.

362

Doc. no. 11 (Amended Habeas Petition), ¶¶ 268-270, at 89-90.

363

Id. (citing Jordan v. Massachusetts, 225 U.S. 167, 176 (1912)).

364

Doc. no. 19 (Respondents’ Answer), at 79-80.

365

Id. at 81.

295

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 296 of 367

The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which held that it was procedurally defaulted pursuant to Alabama
Rules of Criminal Procedure 32.2(a)(3) and (a)(5), due to James’s failure to raise it
at trial and on direct appeal.366 That court also ruled that this claim was procedurally
defaulted because James did not comply with the pleading requirements of Alabama
Rules of Criminal Procedure 32.3 and 32.6(b): that is, “James failed to identify which
specific juror was mentally incompetent at the time of the trial.”367
Fundamentally, however, this claim lacks merit. As the Rule 32 circuit court
noted, James did not identify the allegedly mentally incompetent juror, and he also
failed to explain the nature of the mental disease or defect that allegedly afflicted the
juror. Without such evidence, James falls short of establishing that the alleged juror’s
presence on the jury violated his constitutional rights. See Jordan v. Massachusetts,
225 U.S. 167, 174 (1912) (holding that “it was not essential that the sanity of the juror
. . . be established by more than a fair preponderance of the evidence”).
The Fourth Circuit Court of Appeals has suggested that a defendant must

366

C.R. Vol. 32, Tab 78, at 6.

367

Id. at 23 (citing Brown v. State, 807 So. 2d 1, 5-6 (Ala. Crim. App. 1999) (holding that,
in order to meet the specificity of pleading requirements, a petitioner must identify by name which
juror did not answer voir dire questions truthfully, and must connect the named juror to the specific
voir dire question that allegedly was not truthfully answered)).

296

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 297 of 367

demonstrate by “clear and convincing evidence” that a juror was mentally
incompetent to serve. United States v. Hall, 989 F.2d 711, 714 (4th Cir. 1993). The
Second Circuit, after collecting authorities addressing this issue, concluded that those
courts had
refused to set aside a verdict, or even to make further inquiry, unless
there be proof of an adjudication of insanity or mental incompetence
closely in advance of the time of jury service. Only when proof of this
nature has been offered, or proof of a closely contemporaneous and
independent post-trial adjudication of incompetency, have courts
conducted hearings to determine whether the disability in fact affected
the juror at the time of trial.
United States v. Dioguardi, 492 F.2d 70, 80 (2nd Cir. 1974) (citations omitted).
James’s vague allegations concerning an unspecified impairment by an
unidentified juror do not amount to either “a fair preponderance,” or “clear and
convincing evidence” supporting a claim of juror incompetency. Consequently,
James is not entitled to an evidentiary hearing on this issue. Further, the Rule 32
circuit court’s opinion was neither contrary to, nor an unreasonable application of,
clearly established federal law. It also did not result in a decision that was based
upon an unreasonable determination of the facts in light of the “evidence” presented
in the state court proceedings. Indeed, there as well as here, James failed to present
specific allegations that, if supported by hard evidence at an evidentiary hearing,
would entitle him to habeas relief. This claim is due to be dismissed.
297

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 298 of 367

F.

The Trial Judge Committed Numerous Prejudicial Errors During the
Guilt and Penalty Phases of Trial368
James reiterates a tedious list of allegedly prejudicial errors committed by the

trial court judge, including: (1) failing to order a new presentence investigation
report and, instead, relying on the report prepared following the first trial (i.e., failing
to strictly follow sentencing procedures specified in the Alabama Code);369 (2)
erroneously admitting “a number of irrelevant and extremely prejudicial autopsy
photographs”;370 (3) “holding critical proceedings in James’s absence”;371 (4) “failing
to instruct the jury . . . prior to their separation at the end of each day’s trial”;372 (5)
“overruling the defense objection to the lack of notice and an opportunity to defend
against the aggravating factor that Mr. James had been under sentence of
imprisonment at the time of the offense”;373 and (6) “giving numerous improper jury
instructions.”374 James asserts that these errors violated “his rights under the Fifth,
Sixth, Eighth and Fourteenth Amendments, and particularly his right to due process

368

Claim VIII: see doc. no. 11 (Amended Habeas Petition), ¶¶ 273-285, at 90-93.

369

Doc. no. 11 (Amended Habeas Petition), ¶¶ 274-276, at 90-92.

370

Id., ¶¶ 277-278, at 91.

371

Id., ¶ 279, at 92.

372

Id., ¶ 280, at 92.

373

Id., ¶¶ 281-283, at 92-93.

374

Id., ¶ 284, at 93.

298

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 299 of 367

of law.375
Respondents contend that all of these claims were procedurally barred by the
Rule 32 circuit court’s rulings based on Alabama Rules of Criminal Procedure
32.2(a)(3), (a)(5), 32.3, and 32.6(b).376 Alternatively, respondents argue that the
claims are without merit.377
The last state court to issue a reasoned opinion on these claims was the Rule
32 circuit court, which held that all of them were procedurally defaulted pursuant to
various provisions of the Alabama Rules of Criminal Procedure.378 That court also
ruled that James’s claim that the trial court judge failed to instruct the jury prior to
their sequestration at the end of each day379 was not sufficiently pled under Alabama
Rules of Criminal Procedure 32.3 and 32.6(b).380 Finally, “as an alternative ruling,”
the Rule 32 circuit court dismissed all of the allegations pursuant to Alabama Rule
of Criminal Procedure 32.7(d).381
The manner in which James states these claims in his amended habeas petition
375

Doc. no. 11 (Amended Habeas Petition), ¶ 273, at 90.

376

Doc. no. 19 (Respondents’ Answer), at 82-94.

377

Id.

378

C.R. Vol. 32, Tab 78, at 6-7.

379

Paragraph 258 in James’s Rule 32 petition, and ¶ 280 in his amended habeas petition (doc.

no. 11).
380

C.R. Vol. 32, Tab 78, at 23.

381

Id. at 37.

299

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 300 of 367

is virtually a verbatim reiteration of the allegations in his second amended Rule 32
petition.382 James’s reply brief does not respond to any of the respondents’ procedural
default arguments on the claims, other than to assert that the contention that the trial
judge failed to instruct the jurors at the end of each day is not defaulted. James
argues that the Rule 32 circuit court’s dismissal of that subclaim was based upon
Alabama Rule of Criminal Procedure 32.6(b), which constitutes a ruling on the merits
under Borden, supra. James also argues that the contention that autopsy photos were
erroneously admitted was raised on collateral appeal and, thus, is not procedurally
foreclosed in this court.
This court finds that, due to the Rule 32 circuit court’s dismissal of these
claims under Rule 32.6, that constitutes a ruling on the merits for purposes of
AEDPA. Thus, the claims were not procedurally defaulted, and the merits of each is
addressed below.
1.

Failing to order a new presentence investigation report

The Rule 32 circuit court judge — who also was the judge who presided over
both of James’s trials — ruled that he had followed Alabama sentencing procedures
by ordering and receiving a written presentence investigation report at the conclusion

382

Compare doc. no. 11 (Amended Habeas Petition), ¶¶ 273-285 with C.R. Vol. 14, Tab 46,
¶¶ 251-262.

300

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 301 of 367

of James’s first trial.383 Specifically, he wrote that:
This Court properly ordered and received a pre-sentence report at the
conclusion of James’s first trial and used this report in making its
sentencing determinations at the second trial, only three years later.
Nothing in Alabama’s capital sentencing statute requires an updated
report, but merely that a report be ordered and received, which there was
here. Moreover, the report was only three years old; and, this Court
requested trial counsel to inform the court if there were any additions
or changes that needed to be make in the earlier pre-sentence report.
In addition, this Court, contrary to James’s claims, followed the
procedures set forth in §§ 13A-5-47 through 13A-5-53 of the Alabama
Code. This Court entered specific written findings concerning the
existence or nonexistence of each statutory aggravating and mitigating
circumstance, as well as noted that there was nothing suggesting a basis
for non-statutory mitigation, in its sentencing order “[b]ased upon the
evidence presented at trial, the evidence presented during the sentence
(sic) hearing, and the pre-sentence investigation report and any evidence
submitted in connection with it.” Ala.Code § 13A-5-47(d) (1975).
C.R. Vol. 32, Tab 78, at 38 (citing C.R. Vol. 4, R. 53-54) (emphasis supplied). The
Rule 32 circuit court judge then summarily dismissed this subclaim on that basis,
saying that “no material issue of fact or law exists which would entitle the petitioner
to relief.”384
James does not provide even a hint as to how the Rule 32 court’s holding was
contrary to, or an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States. See 28 U.S.C. § 2254(d)(1).

383

See C.R. Vol. 32, Tab 78, at 37-38.

384

Id. at 38-39 (citing Ala. R. Crim. P. 32.7(d)).

301

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 302 of 367

Consequently, he failed to show any basis for habeas relief on this subclaim.
2.

Admitting autopsy photographs

James next claims that the trial court erroneously admitted “a number of
irrelevant and extremely prejudicial autopsy photographs,” thereby violating his
rights to due process and a fair trial, and “inject[ing] arbitrary and prejudicial factors
into the guilty and penalty phases of the trial, undermining the constitutionality of Mr.
James’s conviction and sentence.”385 This claim lacks merit. A federal district court
review[s] state court evidentiary rulings on a petition for habeas corpus
to determine only “‘whether the error, if any, was of such magnitude as
to deny petitioner his right to a fair trial.’” Futch v. Dugger, 874 F.2d
at 1487 (quoting Osborne v. Wainwright, 720 F.2d 1237, 1238 (11th Cir.
1983)). Erroneously admitted evidence deprives a defendant of
fundamental fairness only if it was a “‘crucial, critical, highly significant
factor’ in the [defendant’s] conviction.” Williams v. Kemp, 846 F.2d
1276, 1281 (11th Cir.1988), cert. denied, 494 U.S. 1090, 110 S.Ct. 1836,
108 L.Ed.2d 965 (1990) (quoting Jameson v. Wainwright, 719 F.2d
1125, 1126-27 (11th Cir.1983), cert. denied, 466 U.S. 975, 104 S.Ct.
2355, 80 L.Ed.2d 827 (1984)). The introduction of graphic
photographic evidence rarely renders a proceeding fundamentally unfair.
Futch v. Dugger, 874 F.2d at 1487; see also, e.g., id. (photograph of
victim, nude, showing wounds made by gunshot); Evans v. Thigpen, 809
F.2d 239, 242 (5th Cir. 1987), cert. denied, 483 U.S. 1033, 107 S. Ct.
3278, 97 L. Ed. 2d 782 (1987) (nine color slides of homicide victim)
(cited with approval in Futch v. Dugger, 874 F.2d at 1487).
Jacobs v. Singletary, 952 F.2d 1282, 1296 (11th Cir. 1992) (first alteration supplied,
second alteration in original).
385

Doc. no. 11 (Amended Habeas Petition), ¶ 278, at 91 (alteration supplied).

302

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 303 of 367

This court previously addressed the admission of the autopsy photographs, in
the context of determining whether trial counsel had been ineffective for not
objecting to their admission. For many of the same reasons discussed in Parts V.G.1
and V.L of this opinion, supra, this court finds that the state court’s determination
that the admission of the contested photographs did not render James’s second trial
fundamentally unfair was not contrary to contrary to, or an unreasonable application
of, clearly established federal law, as determined by the Supreme Court of the United
States. 28 U.S.C. § 2254(d)(1). This subclaim provides no grounds for habeas relief.
3.

Conducting court in James’s absence

James again argues the trial court conducted critical proceedings in his
absence. The Rule 32 circuit court held that the trial “record clearly refutes James’s
claim that a critical proceeding, the swearing of the first witness, was held in his
absence. Specifically, when James made this claim at trial, this Court stated, ‘I swore
them [the witnesses] all in your presence as well as the jurors.’”386 “[A] habeas
petitioner is not entitled to an evidentiary hearing on a claim . . . where the record
conclusively establishes that he is not entitled to relief on that claim.” Davis v.
Singletary, 119 F.3d 1471, 1473 (11th Cir. 1997) (alteration and redaction supplied).
James provides no other legal or factual support for this contention, and no
386

C.R. Vol. 32, Tab 78, at 39 (alteration supplied).

303

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 304 of 367

explanation of how he has shown the state court’s holding was an unreasonable
determination of the facts in light of the evidence presented in the state court
proceedings. 28 U.S.C. § 2254(d)(2). This claim also is without merit.
4.

Failing to instruct the jury at the end of each trial day

A variation of this subclaim was previously discussed in Part VII.C, supra, in
the context of James’s contention that his appellate attorney had rendered
constitutionally ineffective assistance by failing to argue on direct appeal that the trial
court judge erred when failing to instruct the jury at the end of each day as required
by Alabama Rule of Criminal Procedure 19.3(b).387 This subclaim was included in
387

See doc. no. 11 (Amended Habeas Petition), ¶ 280, at 92. As noted in a marginal note to
the previous discussion, James cites “Alabama Rule of Criminal Procedure Rule 19.3(d).” Such a
subsection does not exist, however. Instead, subsection (b) of that rule addresses the trial judge’s
admonitions to jurors, and it reads as follows:
(b) Admonitions to Jurors. In all cases, the court shall admonish the jurors
that they are not:
(1) to discuss among themselves any subject connected with the trial until
the case is submitted to them for deliberation;
(2) to converse with anyone else on any subject connected with the trial,
until they are discharged as jurors in the case;
(3) to knowingly expose themselves to outside comments or to news
accounts of the proceedings, until they are discharged as jurors in the case;
or
(4) to form or express any opinion on the case until it is submitted to
them for deliberation.
If the jurors are permitted to separate, they may also be admonished not to view the

304

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 305 of 367

James’s Rule 32 petition, and the Rule 32 circuit court held that, “[a]s long as [the
trial] Court properly admonished the jury once pursuant to 19.3(b), it was not error
for the court not to so admonish the jury every day.”388
James does not allege in his habeas petition or briefs that any of the jurors were
exposed to outside influences, or discussed the case prior to it being submitted for
deliberation on verdicts. Instead, he simply asserts that the failure to instruct
“violated [his] rights under the Fifth, Sixth, Eighth, and Fourteenth Amendments.”389
James provides no other legal or factual support for his naked contention, and no
explanation of how he has shown the state court’s holding was contrary to, or an
unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States, or an unreasonable determination of the facts in
the light of the evidence presented in the state court proceedings. Consequently, he
is not entitled to habeas relief on this subclaim.

place where the offense was allegedly committed.
Ala. R. Crim. P. 19.3(b).
388

C.R. Vol. 32, Tab 78, at 40 (alterations supplied) (citing Griffin v. State, 790 So. 2d 267,
334 (Ala. Crim. App. 1999), rev’d on other grounds, 790 So. 2d 351 (Ala. 2000) (“Although the
better practice would be for the trial court to admonish the jury at each break or recess, there is
nothing in Rule 19.3(b), Ala. R. Crim. P., that requires it to do so . . . . Jurors are presumed to follow
the instructions of the trial court.”)).
389

Doc. no. 11 (Amended Habeas Petition), ¶ 280, at 92 (alteration supplied.

305

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 306 of 367

5.

Overruling defense objections

James also asserts that the trial judge violated his constitutional rights when he
overruled the objection of his trial attorneys “to the lack of notice and an opportunity
to defend against the aggravating factor that [he] had been under a sentence of
imprisonment at the time of the offense”: a consideration that was not introduced
until the morning of the beginning of the penalty phase.390 A variation of this same
claim was discussed previously, see Part VII.A, supra, in the context of James’s
contention that his appellate attorney provided constitutionally ineffective assistance
by failing to allege in his initial brief on direct appeal that the trial judge erroneously
overruled his objection to the prosecutor’s “addition of a new aggravating
circumstance on the morning the sentencing phase was to begin.”391
The Rule 32 circuit court considered this claim and found no violation of
James’s rights. It held that James had no right to advance notice of the aggravating
circumstances. As noted in the discussion in Part VII.A, supra, the Alabama Court
of Criminal Appeals has held that the list of aggravating circumstances enumerated
in Alabama Code § 13A-5-49 “is exclusive and puts the defendant charged with a
capital felony on notice of those circumstances against which [he] may be required

390

Id., ¶¶ 281-283, at 92-93 (alterations supplied).

391

See id., ¶¶ 288-290, at 94 (¶¶ 265-268 of James’s Rule 32 Petition).

306

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 307 of 367

to defend. This statutory notice satisfies constitutional requirements.” Bush v. State,
695 So. 2d 70, 87 (Ala. Crim. App. 1995), aff’d, 695 So. 2d 138 (Ala. 1997)
(alteration supplied). See also, e.g., Perkins v. State, 808 So. 2d. 1041, 1122 (Ala.
Crim. App. 1999) (same); Knotts v. State, 686 So. 2d 431, 448 (Ala. Crim. App.
1995) (same).
Moreover, the Due Process Clause of the Fourteenth Amendment does not
require advance notice to a defendant of the aggravating circumstances upon which
the State’s prosecutor intends to rely. Cf. Gray v. Netherland, 518 U.S. 152, 166-70
(1996); see also, e.g., Clark v. Dugger, 834 F.2d 1561, 1566 (11th Cir. 1987)
(holding that a defendant has “no right” under the Due Process Clause “to advance
notice of the aggravating circumstances on which the state will rely” when the state’s
“sentencing statute itself sufficiently particularized the aggravating circumstances in
a capital case”); Kelley v. State, No. CR–10–0642, 2014 WL 994625, at *28 (Ala.
Crim. App. Mar. 14, 2014) (holding that neither the Supreme Court’s opinion in Ring
v. Arizona, 536 U.S. 584 (2002), nor Apprendi v. New Jersey, 530 U.S. 466 (2000),
requires that an accused be provided with advance notice of all aggravating
circumstances upon which the State intends to rely).392
392

Compare Dobard v. State, 435 So. 2d 1338, 1347 (Ala. Crim. App. 1982), aff’d, 435 So.
2d 1351 (Ala. 1983) (holding that the “aggravating circumstances enumerated in § 13A–5–49 that
may lead to the imposition of the death penalty in a capital case are not elements of the offense and

307

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 308 of 367

Thus, the trial judge committed no error in allowing jury consideration of the
evidence offered by the State under Alabama Code § 13A-5-49(1),393 and the state
court’s rejection of the claim on collateral review was not an unreasonable application
of clearly established federal law, as determined by the United States Supreme Court.
James is not entitled to habeas relief on this claim.
6.

Improper jury instructions

James’s final claim in this series — the contention that the trial judge gave
improper jury instructions — was addressed previously as part of the discrete
ineffective assistance of trial counsel claim in Part V.K, supra. The United States
Supreme Court has made clear that, in the context of jury instructions,
[t]he only question for [this court] is “whether the ailing instruction by
itself so infected the entire trial that the resulting conviction violates due
process.” Cupp v. Naughten, 414 U.S. 141, 147, 94 S. Ct. 396, 400-01,
38 L. Ed. 2d 368 (1973); see also Henderson v. Kibbe, 431 U.S. 145,
154, 97 S. Ct. 1730, 1736-37, 52 L. Ed. 2d 203 (1977); Donnelly v.
DeChristoforo, 416 U.S. 637, 643, 94 S. Ct. 1868, 1871, 40 L. Ed. 2d
431 (1974) (“‘[I]t must be established not merely that the instruction is
undesirable, erroneous, or even “universally condemned,” but that it
are not required to be set forth in the indictment”) with Arthur v. State, 711 So. 2d 1031 (Ala. Crim.
App. 1996), aff’d, 711 So. 2d 1097 (Ala. 1997) (holding, consistently with the Supreme Court’s later
opinions in Apprendi v. New Jersey and Ring v. Arizona, that whenever an aggravating circumstance
relied on by the State is an elements of the capital offense charged against the defendant, it must be
alleged in the indictment and proven beyond a reasonable doubt).
393

Ala. Code § 13A-5-49(1) provides that one of the statutory aggravating circumstances
includes the fact that “[t]he capital offense was committed by a person under sentence of
imprisonment; . . . .” (alteration supplied).

308

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 309 of 367

violated some [constitutional right]’”). It is well established that the
instruction “may not be judged in artificial isolation,” but must be
considered in the context of the instructions as a whole and the trial
record. Cupp v. Naughten, supra, 414 U.S., at 147, 94 S. Ct., at 400-01.
In addition, in reviewing an ambiguous instruction such as the one at
issue here, we inquire “whether there is a reasonable likelihood that the
jury has applied the challenged instruction in a way” that violates the
Constitution. Boyde v. California, 494 U.S. 370, 380, 110 S. Ct. 1190,
1198, 108 L. Ed. 2d 316 (1990).FN4 And we also bear in mind our
previous admonition that we “have defined the category of infractions
that violate ‘fundamental fairness’ very narrowly.” Dowling v. United
States, 493 U.S. 342, 352, 110 S. Ct. 668, 674, 107 L. Ed. 2d 708
(1990). “Beyond the specific guarantees enumerated in the Bill of
Rights, the Due Process Clause has limited operation.” Ibid.
FN 4 . . . . In Boyde, . . . we made it a point to settle on a single
standard of review for jury instructions – the “reasonable likelihood”
standard – after considering the many different phrasings that had
previously been used by this Court. 494 U.S., at 379-380, 110 S. Ct.,
at 1197-1198 (considering and rejecting standards that required
examination of either what a reasonable juror “could” have done or
“would” have done). So that we may once again speak with one
voice on this issue, we now . . . reaffirm the standard set out in Boyde.

Estelle v. McGuire, 502 U.S. 62, 73 (1991) (all but the last two alterations, and the
redaction to footnote 4, were supplied). The foregoing standard, when taken into
consideration with the discussion in Part V.K, supra, demonstrates that James is not
entitled to habeas relief.
G.

Petitioner Was Deprived of Due Process and Other Constitutional Rights
Throughout the Rule 32 Proceedings in the State Circuit Court394
James is not entitled to habeas relief on any portion of this claim, because it
394

Claim X: see doc. no. 11 (Amended Habeas Petition), ¶¶ 296-298, at 96.

309

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 310 of 367

attacks the collateral appeal proceedings in the state court system, and not the legality
of either his conviction or sentence. As the Eleventh Circuit recently explained:
Under 28 U.S.C. § 2254, a petitioner can file a federal habeas
challenge to a state court judgment “only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). The Supreme Court has commented that
“habeas corpus is the appropriate remedy for state prisoners attacking
the validity of the fact or length of their confinement.” Preiser v.
Rodriguez, 411 U.S. 475, 490, 93 S. Ct. 1927, 1836, 36 L. Ed. 2d 439
(1973). Federal habeas relief is available to remedy defects in a
defendant’s conviction and sentence, but “an alleged defect in a
collateral proceeding does not state a basis for habeas relief.” Quince
v. Crosby 360 F.3d 1259, 1262 (11th Cir. 2004); see also Carroll v.
Sec’y, DOC, 574 F.3d 1354, 1365 (11th Cir. 2009) (collecting cases),
cert denied, [558] U.S. [995], 130 S. Ct. 500, 175 L. Ed. 2d 355 (2009).
There is a valid reason behind this principle: “[A] challenge to a state
collateral proceeding does not undermine the legality of the detention or
imprisonment — i.e., the conviction itself — and thus habeas relief is
not an appropriate remedy.” Carroll, 574 F.3d at 1365. Furthermore,
such challenges often involve issues of state law, and “[a] state’s
interpretation of its own laws or rules provides no basis for federal
habeas corpus relief, since no question of a constitutional nature is
involved.” McCullough v. Singletary, 967 F.2d 530. 535 (11th Cir.
1992).
Alston v. Department of Corrections, Florida, 610 F.3d 1318, 1325-26 (11th Cir.
2010 (first two alterations and emphasis supplied, all other alterations in original).
See also Carroll v. Secretary, Department of Corrections, 574 F.3d 1354, 1366 (11th
Cir. 2009) (holding that a habeas petitioner’s claim that the state court violated his
due process rights when it summarily denied his post-conviction claim without an

310

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 311 of 367

evidentiary hearing did not state a claim on which federal habeas relief could be
granted); Anderson v. Secretary, Department of Corrections, 462 F.3d 1319, 1330
(11th Cir. 2006) (same); Quince v. Crosby, 360 F.3d at 1262 (stating that, “while
habeas relief is available to address defects in a criminal defendant’s conviction and
sentence, an alleged defect in a collateral proceeding does not state a basis for habeas
relief”); Spradley v. Dugger, 825 F.2d 1566, 1568 (11th Cir. 1987) (holding that a
habeas petitioner’s claim that errors in collateral proceedings violated his right to due
process did not state a basis for habeas relief, because the claim “addressed issues
unrelated to the cause of the petitioner’s detention”).
Nevertheless, assuming for the sake of argument that the due process claims
were cognizable in a habeas proceeding, James still fails to demonstrate any basis for
relief, as discussed below.
1.

The circuit court’s procedure of signing orders prepared by
respondents, particularly the egregiously self-serving and clearly
erroneous final order, denied petitioner of his federal constitutional
rights to an impartial tribunal, due process, and a reliable proceeding
under the Fifth, Sixth, Eighth, and Fourteenth Amendments, and
international law395

The contention that the Rule 32 circuit court judge denied James the
constitutional rights listed in the heading of this subsection by his practice of

395

Claim X.A: see doc. no. 11 (Amended Habeas Petition), ¶¶ 299-322, at 96-103.

311

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 312 of 367

adopting and signing orders prepared by the State’s prosecutor, each of which denied
relief on claims asserted in James’s Rule 32 petition, was addressed on its merits by
the Alabama Court of Criminal Appeals in its original opinion on collateral appeal.
The discussion of this issue began as follows:
First, the appellant contends that the circuit court improperly
adopted the State’s proposed order denying relief.FN3
FN3. To the extent the appellant may argue that the
circuit court improperly adopted the State’s other
proposed orders, he has made only bare allegations,
but he has not shown that the circuit court’s actions
were improper. Therefore, he is not entitled to relief
in this regard.

“‘While the practice of adopting the State’s proposed
findings of fact and conclusions of law is subject to
criticism, the general rule is that even when the court
adopts proposed findings and conclusions verbatim, the
findings are those of the court and may be reversed only if
clearly erroneous. Anderson v. City of Bessemer, N.C., 470
U.S. 564, 105 S. Ct. 1504, 84 L. Ed. 2d 518 (1985);
Hubbard v. State, 584 So. 2d 895 (Ala. Cr. App. 1991);
Weeks v. State, 568 So. 2d 864 (Ala. Cr. App. 1 989), cert.
denied, 498 U.S. 882, 111 S. Ct. 230, 112 L. Ed. 2d 184
(1990); Morrison v. State, 551 So. 2d 435 (Ala. Cr. App.
1989), cert. denied, 495 U.S. 911, 110 S. Ct. 1938, 109 L.
Ed. 2d 301 (1990).’
“Wright v. State, 593 So. 2d 111, 117–18 (Ala. Cr. App.
1991), cert. denied, [506] U.S. [844], 113 S. Ct. 132, 121
L. Ed. 2d 86 (1992).”
Holladay v. State, 629 So. 2d 673, 687–88 (Ala. Crim. App. 1992).

312

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 313 of 367

Initially, we note that the circuit court allowed both parties to
submit proposed orders. Further, the record does not indicate that the
circuit court’s decision to deny the petition was clearly erroneous. We
do note that the circuit court’s reliance on Williams v. State, 783 So. 2d
108 (Ala. Crim. App. 2000), is no longer valid. However, the circuit
court also gave additional or alternative grounds for denying the
appellant’s claims. For the reasons set forth in this opinion, the circuit
court properly denied the appellant’s petition. Therefore, even if some
of the circuit court’s findings or reasons were incorrect, reversal is not
required. See Sumlin v. State, 710 So. 2d 941 (Ala. Crim. App. 1998)
(holding that we will affirm a circuit court’s denial of a Rule 32 petition
if it is correct for any reason).
James v. State, 61 So. 3d 332, 339-40 (Ala. Crim. App. 2006) (emphasis supplied,
alterations in original), rev’d on other grounds sub nom. Ex parte James, 61 So. 3d
352 (Ala. 2009).
Following remand from the Alabama Supreme Court, the Alabama Court of
Criminal Appeals again addressed these same contentions in its opinion on James’s
application for rehearing, saying:
James argues in his brief on rehearing that this Court should
reverse the circuit court’s order denying his Rule 32 petition because, he
asserts, the circuit court erred in adopting the proposed order drafted by
the State denying relief on James’s Rule 32 petition. On rehearing,
James relies on the Alabama Supreme Court’s recent opinion in Ex parte
Ingram, 51 So. 3d 1119 (Ala. 2010), and the United States Supreme
Court’s decision in Jefferson v. Upton, [560] U.S. [284], 130 S. Ct.
2217, 176 L. Ed. 2d 1032 (2010).
Initially, we note that this issue was specifically addressed by this
Court in our original opinion in 2006, affirming James’s conviction, and
we found no error. See James, 61 So. 3d at 348. On certiorari review
313

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 314 of 367

the Alabama Supreme Court did not modify our holding in regard to this
issue. The Supreme Court merely directed this Court to consider two
claims — the ineffective-assistance-of-counsel claim and the in forma
pauperis claim. If we considered this issue we would be acting beyond
the scope of the Supreme Court’s instructions in its opinion remanding
this case to this Court. “On remand, the issues decided by a [reviewing
court] become the law of the case, and the [lower court’s] duty is to
comply with the directions given by the reviewing court.” Ellis v. State,
705 So. 2d 843, 847 (Ala. Crim. App. 1996).
Moreover, after reviewing the cases cited by James we conclude
that they are factually distinguishable from and thus inapplicable to the
present case.
First, the portions of the circuit court’s order the Alabama
Supreme Court found objectionable in Ingram were references that the
judge in the Rule 32 proceedings had personally presided over Ingram’s
trial. In Ingram, the judge who presided over the trial was not the same
judge who presided over the Rule 32 proceedings. The Supreme Court
stated:
“[A]ppellate courts must be careful to evaluate a claim that
a prepared order drafted by the prevailing party and
adopted by the trial court verbatim does not reflect the
independent and impartial findings and conclusions of the
trial court. In Bell v. State, 593 So. 2d 123 (Ala. Crim.
App. 1991) — the case the Court of Criminal Appeals
quoted in Ingram II [, 51 So. 3d 1094 (Ala. Crim. App.
2006)] for the ‘clearly erroneous’ standard of review — the
Court of Criminal Appeals observed:
“‘The trial court did adopt verbatim the
proposed order tendered by the state;
however, from our review of the record, we
are convinced that the findings and
conclusions are those of the trial court. The
record reflects that the trial court was
314

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 315 of 367

thoroughly familiar with the case and gave the
appellant considerable leeway in presenting
evidence to support his claims.’
“Bell, 593 So. 2d at 126. The undisputed facts in the
present case obviously prevent a similar conclusion here.
“We are forced by the nature of the errors present in
the June 8 order to reverse the judgment of the Court of
Criminal Appeals. In the simplest terms, the patently
erroneous nature of the statements regarding the trial
judge’s ‘personal knowledge’ and observations of Ingram’s
capital-murder trial undermines any confidence that the
trial court’s findings of fact and conclusions of law are the
product of the trial judge’s independent judgment and that
the June 8 order reflects the findings and conclusions of
that judge.”
Ingram, 51 So. 3d at 1124–25.
The main concerns the Supreme Court found objectionable in
Ingram are not present in this case; here, the same judge presided over
both James’s trial and the Rule 32 proceedings. Also, as we noted in our
previous opinion in this case, the circuit court allowed both “parties to
submit proposed orders.” James, 61 So. 3d at 339.
In Jefferson v. Upton, the United States Supreme Court remanded
Jefferson’s habeas corpus proceedings to the lower court for that court
to determine whether the state court’s factual findings warranted a
presumption of correctness. The Supreme Court in granting relief
stated:
“Although we have stated that a court’s ‘verbatim adoption
of findings of fact prepared by prevailing parties’ should be
treated as findings of the court, we have also criticized that
practice. Anderson [v. City of Bessemer], 470 U.S. [564] at
572, 105 S. Ct. 1504 [(1985)]. And we have not
315

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 316 of 367

considered the lawfulness of, nor the application of the
habeas statute to, the use of such a practice where (1) a
judge solicits the proposed findings ex parte, (2) does not
provide the opposing party an opportunity to criticize the
findings or to submit his own, or (3) adopts findings that
contain internal evidence suggesting that the judge may not
have read them. Cf. id., at 568, 105 S. Ct. 1504; Ga. Code
of Judicial Conduct, Canon 3(A)(4) (1993) (prohibiting ex
parte judicial communications).”
[560] U.S. [284], 130 S. Ct. 2223.
None of these circumstances are present in James’s case. The
circuit court did not solicit proposed findings ex parte; indeed, both
parties were given the opportunity to submit proposed orders. Nothing
in this case suggests that the trial court did not read the proposed order
before signing it.
James v. State, 61 So. 3d 357, 384-86 (Ala. Crim. App. 2010) (first two and last two
alterations supplied, other alterations in original). When considering a similar
argument, the Eleventh Circuit ruled that
AEDPA mandates deferential review of any claim that a state court
“adjudicated on the merits,” 28 U.S.C. § 2254(d), and does not impose
any specific requirements on how a state court should announce its
decision. Jones does not and cannot deny that his claims were
adjudicated on the merits; the state court’s order undeniably rejected
Jones’s Strickland claim on the merits, not on any procedural ground.
Indeed, the state court’s order extensively analyzed his Strickland claim
over the course of ninety pages. Considering that a summary disposition
of a Strickland claim qualifies as an adjudication on the merits, see
Ferrell v. Hall, 640 F.3d 1199, 1224 (11th Cir. 2011); Wright v. Sec’y,
Dep’t of Corr., 278 F.3d 1245, 1255 (11th Cir. 2002), we can discern no
basis for saying that a state court’s fuller explanation of its reasons –
albeit reasons drafted for the court by the State — is not entitled to
316

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 317 of 367

AEDPA deference.
We have considered and rejected similar arguments in the past.
In Rhode v. Hall, for example, a habeas petitioner challenging his death
sentence argued that the state court’s habeas decision was not entitled
to deference. See 582 F.3d 1273, 1281 (11th Cir. 2009). Like Jones,
Rhode “complain[ed] that the state habeas court adopted verbatim the
State’s proposed order,” and that the order “uncritically incorporate[d]”
the State’s evidence and “mischaracterizations of the evidentiary
record.” Id. Thus, by Rhode’s lights, the order was not “a fair and
impartial assessment of the facts and law,” and its findings should have
been rejected as unreasonable determinations of fact pursuant to §
2254(d)(2) and (e)(1). Id. A panel of this Court in Rhode rejected that
claim, noting that “the record clearly reflects that both Rhode and the
State had the opportunity to present the state habeas court with their
version of the facts,” and concluding that, “[d]espite the fact that the
state habeas court adopted the State’s facts verbatim, these findings of
fact are still entitled to deference from this court.” Id. at 1282.
Jones v. GDCP Warden, 753 F.3d 1171, 1183-84 (11th Cir. 2014) (alterations in
original).
The same conclusion is warranted here. The Supreme Court and Eleventh
Circuit have upheld the use of proposed orders adopted verbatim by trial judges, “as
long as they were adopted after adequate evidentiary proceedings and are fully
supported by the evidence.” Brownlee v. Haley, 306 F.3d 1043, 1067 n.19 (11th Cir.
2002) (citations omitted). See generally United States v. El Paso Natural Gas Co.,
376 U.S. 651, 656 (1964) (holding that, where a district judge adopted verbatim
proposed findings of fact and conclusions of law submitted by prevailing party after

317

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 318 of 367

trial, such findings were “not to be rejected out-of-hand, and they will stand if
supported by evidence”); Cf., e.g., In re Dixie Broadcasting, Inc., 871 F.2d 1023,
1030 (11th Cir. 1989) (holding that the practice of ghostwriting judicial opinions by
a litigant is not per se invalid, and the resulting order “will be vacated only if a party
can demonstrate that the process by which the judge arrived at [it] was fundamentally
unfair”) (citation and internal quotation marks omitted, alteration supplied); State of
Florida Board of Trustees of Internal Improvement Trust Fund v. Charley Toppino
& Sons, Inc., 514 F.2d 700, 703 (5th Cir. 1975) (district court’s practice of adopting
party’s proposed findings of fact and conclusions of law at the close of trial “is not
reversible error,” but is subject to “clearly erroneous” standard of review); Federal
Trade Commission v. Enforma Natural Products, Inc., 362 F.3d 1204, 1215 (9th Cir.
2004) (“verbatim adoption of a prevailing party’s proposed findings is not
automatically objectionable if the findings are supported by the record”).
The Rule 32 circuit court requested proposed orders from both parties. Further,
the state circuit court judge, after presiding over two jury trials of the case, as well as
conducting the Rule 32 hearing, was intimately familiar with the underlying facts.
James has failed to show that the Rule 32 circuit court’s order demonstrates anything
other than independent and impartial decisions based upon the judge’s own
assessment of the law and the facts before him. James also has failed to demonstrate
318

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 319 of 367

that any portion of the trial judge’s Rule 32 Order was contrary to, or an unreasonable
application of, clearly established federal law, as determined by the Supreme Court
of the United States, or based upon an unreasonable determination of the facts in light
of the evidence presented in the state court proceedings. See 28 U.S.C. § 2254(d).
Hence, James is not entitled to habeas relief.
2.

The circuit court further displayed its bias against James and deprived
him of due process, equal protection, an impartial tribunal, and a
reliable proceeding when it denied his Motion to Proceed in forma
pauperis.396

3.

The circuit court prevented petitioner from fully developing and
presenting his claims by denying him leave to proceed ex parte in
funding requests and funding for mental health experts and, in violation
of the Fifth, Sixth, Eighth, and Fourteenth Amendments.397

4.

The circuit court’s denial of leave to proceed ex parte in funding
requests prevented petitioner from fully developing and presenting his
claims in violation of petitioner’s constitutional rights to due process
and a reliable capital proceeding.398

5.

The circuit court’s denial of funding for mental health experts prevented
petitioner from developing and presenting his claims in violation of his
constitutional rights.399

6.

The circuit court’s refusal to admit petitioner’s proffer of evidence
prevented him from fully developing and presenting his claims in

396

Claim X.B: see doc. no. 11 (Amended Habeas Petition), ¶¶ 323-334, at 104-107.

397

Claim X.C: see doc. no. 11 (Amended Habeas Petition), ¶ 335, at 107.

398

Claim X.C.I: see doc. no. 11 (Amended Habeas Petition), ¶¶ 336-343, at 107-109.

399

Claim X.C.II: see doc. no. 11 (Amended Habeas Petition), ¶¶ 344-348, at 109-111.

319

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 320 of 367

violation of his constitutional rights to due process, equal protection,
and a reliable capital proceeding.400
7.

The circuit court prevented petitioner from fully developing and
presenting his claims by denying him funding for investigators in
violation of the Fifth, Sixth, Eighth, and Fourteenth Amendments.401

These claims are redundant. Accordingly, they will be addressed together as
one.
These claims were addressed on their merits by the Alabama Court of Criminal
Appeals in its initial opinion on collateral appeal, finding that, even if the Rule 32
circuit court’s initial denial of James’s motion to proceed in forma pauperis was in
error, the filing fee was, in fact, paid. James v. State, 61 So. 3d 322, 340 (Ala. Crim.
App. 2006), rev’d on other grounds sub nom. Ex parte James, 61 So. 3d 352 (Ala.
2009). Thus, James was not denied access to the courts in contravention of the Sixth
Amendment. Nevertheless, James alleges that he was unable to obtain a transcript of
the record on appeal,402 and that he was deprived of funding for investigators and
mental health experts who were needed to make a complete showing of the prejudice
he allegedly suffered as a result of trial counsel’s incompetence.403

400

Claim X.C.III: see doc. No. 11 (Amended Habeas Petition), ¶¶ 349-350, at 111-112.

401

Claim X.D: see doc. No. 11 (Amended Habeas Petition), ¶¶ 351-357, at 112-113.

402

Doc. no. 11 (Amended Habeas Petition), ¶ 333, at 106.

403

Id., ¶ 334.

320

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 321 of 367

The Alabama Court of Criminal Appeals also considered those claims and
found that James was not entitled to proceed ex parte on his requests for funds.
James v. State, 61 So. 3d at 340. Thus, James could not establish prejudice from the
circuit court’s initial denial of the motion to proceed in forma pauperis. The Court
of Criminal Appeals also concluded that, even though post-trial and post-directappeal collateral review proceedings are commenced by filing a petition pursuant to
Rule 32 of the Alabama Rules of Criminal Procedure, such actions are deemed to be
civil in nature. Hence, the Fourteenth Amendment’s Due Process Clause does not
require state trial courts to approve funds for experts in connection with such
postconviction proceedings. James, 61 So. 3d at 341 (citing Hubbard v. State, 584
So. 2d 895, 900 (Ala. Crim. App. 1991)).
Alabama case law clearly states that Rule 32 petitioners are not entitled to
funds to hire experts to assist in postconviction litigation. See e.g., McGahee v. State,
885 So. 2d 191, 229 (Ala. Crim. App. 2003) (holding that “the fundamental fairness
mandated by the Due Process Clause does not require the trial court to approve funds
for experts at a postconviction proceeding”).
Because James has failed even to allege, much less establish, that the foregoing
conclusions of the Alabama Court of Criminal Appeals are contrary to, or an

321

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 322 of 367

unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States, he is not entitled to either an evidentiary hearing
or habeas relief on these claims.
H.

The Circuit Court’s Denial of Petitioner’s Requested Discovery and
Motions for Continuance of the Evidentiary Hearing Deprived Petitioner
of Due Process, a Fair Trial, and a Reliable Capital Proceeding Under the
Fifth, Sixth, Eighth, and Fourteenth Amendments404
By James’s own account, the evidentiary hearing on the claims asserted in his

Rule 32 petition was rescheduled at least three times, resulting in approximately six
months of additional preparation time prior to the circuit judge’s denial of his
subsequent motions for a continuance.405 On collateral appeal, the Alabama Court of
Criminal Appeals observed that a trial court is vested with “broad discretion in
granting a continuance when the basis for the motion is that counsel has not had
sufficient time to prepare or to develop his defense.” James v. State, 61 So. 3d at 342
(quoting Hart v. State, 852 So. 2d 839, 843 (Ala. Crim. App. 2002), and citing Ex
parte Clark, 728 So. 2d 1126, 1134 (Ala. 1998)) (other citations omitted).
Furthermore, under Alabama law a “motion for a continuance due to a lack of time
for adequate preparation is a matter entirely and exclusively within the sound
discretion of the trial court and its ruling will not be reversed on appeal absent a . .
404

Claim X.E: see doc. no. 11 (Amended Habeas Petition), ¶¶ 358-368, at 113-117.

405

See Doc. no. 11 (Amended Habeas Petition), ¶¶ 359-360, at 114.

322

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 323 of 367

. showing of abuse.” Id. (quoting Reynolds v. State, 539 So. 2d 428, 429 (Ala. Crim.
App. 1988), cert. denied, 539 So. 2d 428 (Ala. 1989)). In addition, the Court of
Criminal Appeals observed that James had lodged only
vague, general allegations in his brief concerning the alleged denial of
discovery and inability to develop his claims. At most, it appears from
the allegations in his brief that the discovery about which he complains
would have been relevant only to his argument that his trial counsel
rendered ineffective assistance during the penalty phase of his trial.
However, for the reasons set forth in Part I of this opinion, his
ineffective-assistance-of-trial-counsel claim is procedurally barred from
review. Thus, for the reasons set forth herein, the appellant is not
entitled to relief in this regard.
Id. at 342 (emphasis supplied). Finally, as previously noted, since the claims
discussed in this Part of the opinion address only alleged defects in the collateral,
post-conviction proceedings in state court, and not James’s conviction or sentence,
they fail to state a claim upon which habeas relief may be granted. See, e.g., Quince
v. Crosby, 360 F.3d 1259, 1262 (11th Cir. 2004) (“[W]hile habeas relief is available
to address defects in a criminal defendant’s conviction and sentence, an alleged defect
in a collateral proceeding does not state a basis for habeas relief.”) (alteration
supplied) (citing Spradley v. Dugger, 825 F.2d 1566, 1568 (11th Cir. 1987) (holding
that, when a petitioner’s claim goes to issues unrelated to the cause of petitioner’s
detention, that claim does not state a basis for habeas relief)); Franzen v. Brinkman,
877 F.2d 26, 26 (9th Cir.1989) (agreeing with the majority view, and holding that “a
323

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 324 of 367

petition alleging errors in the state post-conviction review process is not addressable
through habeas corpus proceedings”).
For all of the foregoing reasons, these claims are due to be denied.
I.

The Circuit Court’s Refusal to Issue a Warrant to Compel Testimony of
a Key Exculpatory and Mitigation Witness Prevented Petitioner From
Presenting His Defense, in Violation of the Sixth, Eighth, and Fourteenth
Amendments406
The last state court to address this claim was the Alabama Court of Criminal

Appeals in its original opinion on collateral appeal. The relevant portion of that
Court’s discussion began by quoting the following colloquy between James’s attorney
and the trial court judge:
[APPELLANT’S COUNSEL]: Your Honor, if I may bring one
more matter, I apologize. I have just learned that one of our witnesses
has been subpoenaed and indicated that she will not be here. I would
like to ask for a warrant to be issued for her arrest.
THE COURT: Who is that?
[APPELLANT’S COUNSEL]: Her name is Mara Ruffin.
THE COURT: What would be the nature of her testimony?
[APPELLANT’S COUNSEL]: The nature of her testimony, Your
Honor, deals with the relationship between my client, herself, and the
victim Faith Hall, the fact that the victim was violent toward her and
attacked her along with my client, cutting her in the face, threatened her
life, threatened my client’s children’s life, threatened my client’s life,
406

Claim X.F.: see doc. No. 11 (Amended Habeas Petition), ¶¶ 369-375, at 117-119.

324

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 325 of 367

and even threatened her grandmother. There was a longstanding
relationship of hostility between them that lasted for a couple of years.
THE COURT: I am not going to do that.
[APPELLANT’S COUNSEL]: In addition, Your Honor, she is
the mother of my client’s two children. And her testimony would have
been mitigating at the time of trial. We submit that it was ineffective
assistance of counsel for the attorneys not to speak with her and produce
her to testify at the sentencing phase. We believe that the fact that my
client had two children and a girlfriend and a fiancee of longstanding
was powerful mitigating evidence.
THE COURT: I don’t think so. I am not going to require her to
be here.
James v. State, 61 So. 3d 332, 343 (Ala. Crim. App. 2006), rev’d on other grounds
sub nom. Ex parte James, 61 So. 3d 352 (Ala. 2009) (alterations supplied).
James argued in the brief filed in the Alabama Court of Criminal Appeals that
Mara Ruffin’s testimony “‘was vital to prove [his] claims [of] ineffective assistance
of counsel in both the guilt and penalty phase of his criminal trial.’” Id. (quoting
Appellant’s brief at 112) (alterations in original). Nevertheless, that Court affirmed
the Rule 32 trial judge’s decision to not issue a bench warrant, noting that it
previously had determined James’s ineffective-assistance-of-trial-counsel claims to
be procedurally barred. Id. See also James v. State, 61 So. 3d 357, 367 n.6 (Ala.
Crim. App. 2010) (observing that the intermediate appellate court had “specifically
addressed this issue in our previous opinion in this case and found no error. James,
325

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 326 of 367

61 So. 3d at 343. On certiorari review the Alabama Supreme Court did not modify
our holding in regard to this issue.”).
Moreover, and even though this consideration was not specifically addressed
in the opinion of the Alabama Court of Criminal Appeals, that Court subsequently
determined that James’s claim that his trial attorneys had been ineffective for failing
to establish the allegedly violent nature of his relationship with Faith Hall was wholly
refuted by the eyewitness testimony of the events that occurred on the date and at the
place of the homicide. James v. State, 61 So. 3d at 365-367. This court has found
that the state court’s determination passes muster under § 2254(d). See Part V.C.1,
supra. Therefore, it matters little that the trial court refused to secure Ms. Ruffin as
a witness.
J.

The Circuit Judge Deprived Petitioner of His Rights to Due Process and
a Reliable Capital Decision-Making Process When He Denied Petitioner’s
Motion to Reopen His Brady Claim407
The Alabama Court of Criminal Appeals was the last court to issue a reasoned

opinion on this claim. The relevant portions of its original opinion on collateral
appeal read as follows:
[T]he appellant contends that the circuit court erred in denying his
motion to reopen his Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10
L. Ed. 2d 215 (1963), claim, which it had previously dismissed, because
407

Claim X.G: see doc. no. 11 (Amended Habeas Petition), ¶¶ 376-384, at 119-121.

326

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 327 of 367

of newly discovered evidence. At the beginning of the evidentiary
hearing, the following occurred:
“[APPELLANT’S COUNSEL]: Your Honor, we
move to reopen our Claim 6. Claim 6 was our Brady
claim.
“THE COURT: It was what claim?
“[APPELLANT’S COUNSEL]: It was a Brady
claim, Your Honor—a claim under Brady v. Maryland,
where the people withheld information from the defense.
“We make that motion, Your Honor, in view of the
discovery of new evidence we have received as a result of
the disclosure that Your Honor ordered; in particular, Your
Honor, the police reports of an incident in Brighton in
which the victim of the crime was arrested for assaulting
the defendant/James Mr. James and his girlfriend and the
mother of his children, Ms. Mara Ruffin, by smashing the
window of their pickup truck with a jack handle and
causing cuts to Ms. Ruffin’s face. That, we believe, Your
Honor, was material that should have been turned over by
the prosecution.
“In addition, Your Honor, in the records of the
Department of Corrections in Holman Prison, we have
discovered psychological tests administered to my client
which would have been relevant in the penalty phase and
the sentencing phase as mitigating evidence and would
have led counsel, we believe, to retain a psychiatrist and/or
a psychologist in order to develop further mitigating
evidence in the sentencing phase.
“On that ground, Your Honor, we move to reopen
our Brady claim.”
(R. 10-12).
327

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 328 of 367

“Three elements must be proven in order to establish
a violation of Brady v. Maryland, 373 U.S. 83, 83 S. Ct.
1194, 10 L. Ed. 2d 215 (1963). These elements include 1)
the prosecution’s suppression of evidence; 2) the favorable
character of the suppressed evidence for the defense; and
3) the materiality of the suppressed evidence. Brady, 373
U.S. at 87, 83 S. Ct. at 1196-97.”
Hendrix v. State, 589 So. 2d 769, 770 (Ala. Crim. App. 1991).
“‘There is no Brady violation where the information in
question could have been obtained by the defense through
its own efforts.’ Johnson [v. State], 612 So. 2d [1288] at
1294 [ (Ala. Crim. App. 1992) ]; see also Jackson v. State,
674 So. 2d 1318 (Ala. Cr. App. 1993), aff’d in part and
rev’d in part on other grounds, 674 So. 2d 1365 (Ala.
1995). “Evidence is not ‘suppressed’ if the defendant
either knew . . . or should have known . . . of the essential
facts permitting him to take advantage of any exculpatory
evidence.” United States v. LeRoy, 687 F. 2d 610, 618 (2d
Cir. 1982)[, cert. denied, 459 U.S. 1174, 103 S. Ct. 823, 74
L. Ed. 2d 1019 (1983)].’ Carr v. State, 505 So. 2d 1294,
1297 (Ala. Cr. App. 1987) (noting, ‘The statement the
appellant contends was suppressed in this case was his
own, and no reason was set forth to explain why he should
not have been aware of it.’). Where there is no suppression
of evidence, there is no Brady violation. Carr, 505 So. 2d
at 1297.”
Freeman v. State, 722 So. 2d 806, 810-11 (Ala. Crim. App. 1998).
The police report the appellant alleges was suppressed was
information that was within his own knowledge or information he could
have obtained by the exercise of due diligence. Therefore, there was not
a Brady violation with regard to the police report.

328

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 329 of 367

In his brief to this court, the appellant alleges:
“Evidence of [his] mental illness in the possession of the
Department of Corrections was also exculpatory in nature,
undermined the mental elements of the charged offense,
and was also important mitigation evidence at the
sentencing phase.”
(Appellant’s brief at pp. 115-16.) This allegation does not comply with
the requirements of Rule 28(a)(10), Ala. R. App. P. Moreover, the
appellant’s bare assertions during the evidentiary hearing and in his brief
to this court fall far short of establishing a Brady violation.
For these reasons, the circuit court did not err in refusing to allow
the appellant to reopen his Brady claim.
James v. State, 61 So. 3d 332, 343-45 (Ala. Crim. App. 2006), rev’d on other grounds
sub nom. Ex parte James, 61 So.3d 352 (Ala. 2009) (first alteration supplied, other
alterations in original).
This court also finds no basis for habeas relief. The prosecution did not
wrongfully withhold any evidence under Brady. Therefore, the Rule 32 circuit
court’s failure to allow this claim to be reopened did not violate James’s rights. The
decision of the Rule 32 circuit court was not contrary to, nor an unreasonable
application of clearly established federal law, as determined by the Supreme Court
of the United States. 28 U.S.C. § 2254(d)(1).
K.

Alabama’s Capital Sentencing Procedures, Both Facially and As Applied,
Run Afoul of the Fourteenth Amendment’s Due Process Clause and the

329

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 330 of 367

Sixth Amendment’s Jury Trial Requirement408
James argues that Alabama’s capital sentencing procedure, whereby the jury
returns an advisory verdict, but the trial judge makes the ultimate sentencing decision,
is unconstitutional.409 He cites Apprendi v. United States, 530 U.S. 466, 488-90
(2000), for the proposition that “any fact that increases the penalty of the crime
beyond the prescribed statutory maximum must be submitted to a jury and proved
beyond a reasonable doubt,” as well as Ring v. Arizona, 536 U.S. 584, 587 (2002), for
the requirement that the jury in capital cases must determine all sentencing factors
beyond a reasonable doubt. Then James asserts:
Under Alabama law, the maximum penalty authorized by the jury’s
verdict that a defendant is guilty of capital murder is life imprisonment
without parole — a defendant “does not become death eligible until the
state proves an aggravating circumstance in the punishment phase.” Ex
parte Woodard, 631 So. 2d 1065, 1071 (Ala. Crim. App. 1993); see also
Ala. Code, §13A-5-46(e)(1). However, the fact finding required for
imposition of the death penalty — an increase over the maximum
otherwise authorized — is made not by the jury but by a judge.
Doc. no. 11 (Amended Habeas Petition), ¶ 386, at 122.
In addition, James argues that “Alabama’s capital sentencing system violates
due process and jury trial guarantees because the indictment did not set forth the

408

Claim XI: see doc. no. 11 (Amended Habeas Petition), ¶¶ 385-392, at 121-123. The
corresponding claim in James’s Rule 32 petition was numbered Claim X.
409

Doc. no. 11 (Amended Habeas Petition), ¶¶ 385-392, at 121-23.

330

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 331 of 367

aggravating factors which must be found true for the death penalty to be imposed.”410
Respondents contend that this claim is procedurally defaulted because James
could have, but did not, raise it either at trial or on direct appeal.411 The Rule 32
circuit court held that the claim was procedurally barred pursuant to Alabama Rule
of Criminal Procedure 32.2(a)(3) and (a)(5).412 That court also dismissed the claim
pursuant to Rule 32.7(d), on the theory that Ring v. Arizona did not apply
retroactively to James’s 1999 conviction and sentence.413
Respondents alternatively assert that this claim was raised by James in his Rule
32 petition and on collateral appeal and it was denied on the merits, and that James
cannot demonstrate that those rulings were either contrary to, or involved an
unreasonable application of clearly established federal law, or that the rulings were
based upon an unreasonable determination of the facts in light of the evidence
presented in the state court proceedings.414
This claim is procedurally defaulted because the state court clearly found it to
410

Doc. no. 11 (Amended Habeas Petition), ¶ 389, at 123 (quoting Jones v. United States,
526 U.S. 227, 243, n.6 (1999) (“Under the due process clauses of the Fifth and Fourteenth
Amendments and the Sixth Amendment notice and jury trial guarantees, ‘any fact (other than prior
conviction) that increases the maximum penalty for a crime must be charged in an indictment,
submitted to a jury, and proven beyond a reasonable doubt.’”).
411

Doc. no. 19 (Respondents’ Answer), at 108.

412

C.R. Vol. 32, Tab 78, at 45.

413

Id. at 45-46.

414

Doc. no. 19 (Respondents’ Answer), at 109.

331

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 332 of 367

be barred under adequate and independent state procedural rules. Even if the claim
were not procedurally defaulted, it still is without merit. A state court may state, in
the alternative, a merits ruling without sacrificing the primacy of a procedural bar
finding under those rules. As noted by the Rule 32 circuit court, the Supreme Court’s
holding in Ring is not applicable to James’s case, because it was decided after
James’s conviction and sentence had become final, and Ring is not retroactively
applicable to death penalty convictions and sentences that were final on the date that
opinion was announced. Schriro v. Summerlin, 542 U.S. 348, 358 (2004). See also
Sibley v. Culliver, 377 F.3d 1196, 1208 (11th Cir. 2004). James was convicted and
sentenced in 1999, and both were affirmed in 2000. Ring was decided in 2002.
Therefore, a Ring claim is not available to James as a matter of clearly established
Supreme Court jurisprudence.
Even if the Ring holding was applicable to James’s claim, the Eleventh Circuit
has held that “the Sixth Amendment does not prohibit a hybrid sentencing system in
which findings authorizing a death sentence are implicit in the advisory jury verdict
recommending that sentence.”

Grim v. Secretary, Florida Department of

Corrections, 705 F.3d 1284, 1287 (11th Cir. 2013) (holding that a Sixth Amendment
violation had not occurred in a capital case where the jury, after finding that the
aggravating circumstances outweighed mitigating circumstances, recommended the
332

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 333 of 367

imposition of a death sentence, and the trial court judge imposed the sentence
recommended by the jury). That is precisely what occurred in this case, and what
Alabama law sanctions.

See Ala. Code § 13A-5-45(e) (“any aggravating

circumstance which the verdict convicting the defendant establishes was proven
beyond a reasonable doubt at trial shall be considered as proven beyond a reasonable
doubt for purposes of the sentence hearing”); Ala. Code § 13A-5-50 (“the aggravating
circumstance specified in Section 13A-5-49(4) shall be found and considered in
determining sentence in every case in which a defendant is convicted of the capital
offenses defined in subdivisions (1) through (4) of subsection (a) of Section 13A-540”).
Similarly, the Alabama Supreme Court has held that the requirements of Ring
are satisfied in such circumstances. That Court’s decision in Ex parte Waldrop, 859
So. 2d 1181 (Ala. 2002), held that, “when a defendant is found guilty of a capital
offense, ‘any aggravating circumstance which the verdict convicting the defendant
establishes was proven beyond a reasonable doubt at trial shall be considered as
proven beyond a reasonable doubt for purposes of the sentencing hearing.’” Id. at
1188 (quoting Ala. Code § 13A-5-45(e)). Therefore, “the findings reflected in the
jury’s verdict alone exposed [the defendant] to a range of punishment that had at its
maximum the death penalty. This is all Ring and Apprendi require.” Id. (alteration
333

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 334 of 367

supplied). Comparing Waldrop’s case to that of James, the Rule 32 circuit court
held:
Likewise, James’s jury found all of the facts required when it found him
guilty of capital murder during a burglary, which has a corresponding
aggravator under Ala. Code §13A-5-49(4) (1975). Moreover, James
was also rendered death-eligible because of the jury’s unanimous death
recommendation because this Court had instructed the jury it could not
even vote on whether to sentence James to death unless the jury
unanimously and beyond a reasonable doubt found at least one
aggravator to exist. Thus, the recommendation means that the jury
necessarily found at least one aggravating circumstance unanimously
and beyond a reasonable doubt. See, e.g., Moody v. State, 2003 WL
1900599, *59 (Ala. Crim. App. App. 18, 2003).
C.R. Vol. 32, Tab 78, at 47 (internal citations omitted).
The other theories argued by James in connection with this claim are devoid
of legal support. As previously stated, James was not due advance notice of the
aggravating circumstances the State intended to prove. Thus, his due process rights
could not have been abridged by the state’s failure to specify the aggravating
circumstances in the indictment. James’s virtually identical argument that his
indictment unconstitutionally failed to set forth the aggravating circumstances with
which he was ultimately charged is also without merit. Again, James takes issue with
the fact that the aggravating circumstance that he was under a sentence of
imprisonment on the date of the offense was not disclosed until the day on which the

334

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 335 of 367

penalty phase began.415 Even so, for the reasons stated in Part VIII.F.5 of this
opinion, supra, a defendant has no right under state law to advance notice of the
aggravating circumstances upon which the state intends to rely. See Knotts v. State,
686 So. 2d 431, 448 (Ala. Crim. App. 1995). In short, this claim presents no basis for
habeas relief.
L.

The Jury Was Unconstitutionally Permitted to “Double Count” the Fact
of Burglary, Both as the Predicate for the Capital Charge, and, as an
Aggravating Circumstance416
James also contends that, even though Alabama courts have held that “double

counting” does not offend the State Constitution (citing Ex parte Kennedy, 472 So.
2d 1106, 1108 (Ala. 1985)),
the use of burglary as an elevator in the guilt-phase and as an aggravator
in the penalty-phase [of his case] failed to narrow the class of cases
eligible for the death penalty because it was the only theory legitimately
before the jury. An aggravating circumstance which fails adequately to
narrow the class of defendants eligible for death results in the arbitrary
imposition of the death penalty, and violates the Eighth and Fourteenth
Amendments. See, e.g., Gregg v. Georgia, 428 U.S. at 197; Zant v.
Stephens, 462 U.S. at 877.
Doc. no. 11 (Amended Habeas Petition),¶ 395, at 124 (alteration supplied). James
also argues that this “double-counting” subjected him to two punishments as a result

415

Doc. no. 11 (Amended Habeas Petition), ¶ 390, at 123.

416

Claim XII: see doc. no. 11 (Amended Habeas Petition), ¶¶ 393-398, at 123-124. (This
claim was numbered “XI” in James’s Rule 32 petition.)

335

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 336 of 367

of being convicted of a single criminal charge, in violation of the Double Jeopardy
Clause of the Fifth Amendment. Id., ¶ 396.
Respondents argue that James’s failure to raise these claims at trial or on direct
appeal constitutes a procedural default barring consideration in this court.417
Respondents alternatively state that James raised this claim in his Rule 32 petition
and on collateral appeal, and the Rule 32 circuit court found it was procedurally
barred from review pursuant to Alabama Rules of Criminal Procedure 32.2(a)(3) and
(a)(5).418
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which dismissed the claim pursuant to Alabama Rules of Criminal
Procedure cited by respondents, due to James’s failure to raise it at trial or on direct
appeal.419 That court also ruled, in the alternative, that the claim was due to be
dismissed under Alabama Rule of Criminal Procedure 32.7(d) for failure to raise a
material issue of law or fact, saying “Alabama courts have repeatedly upheld death
sentences where the only aggravating circumstance supporting the death sentence
overlaps with an element of the capital offense.”420
417

Doc. no. 19 (Respondents’ Answer), at 111.

418

Id. at 112.

419

C.R. Vol. 32, Tab 78, at 7.

420

Id. at 48 (citing Ex parte Trawick, 698 So. 2d 162, 178 (Ala. 1997)).

336

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 337 of 367

This claim is procedurally defaulted because the state court clearly found it to
be barred under adequate and independent state procedural rules. Again, a state court
may conduct an alternate merits ruling without sacrificing the primacy of a procedural
bar finding under those rules.
Even assuming that this claim had not been procedurally defaulted, it still
provides no basis for habeas relief. As explained in Part VI.D of this opinion, supra,
the practice of “double-counting” has repeatedly been upheld by Alabama courts.
The Alabama Supreme Court considered an argument identical to the one asserted by
James in Ex parte Trawick, 698 So. 2d 162 (Ala. 1997), which held as follows:
Trawick next argues that the jury impermissibly “double-counted”
the kidnapping charge against Trawick as both an element of the capital
offense and as an aggravating circumstance. We have previously
addressed this issue in other cases and have held that the fact that a
particular capital offense necessarily includes one or more aggravating
circumstances as specified in Ala. Code 1975, § 13A-5-49, shall not
preclude the finding and consideration of that relevant circumstance or
those circumstances in determining the sentence. Ex parte Kennedy,
472 So. 2d 1106 (Ala.), cert. denied, 474 U.S. 975, 106 S. Ct. 340, 88
L. Ed. 2d 325 (1985); Smith v. State, 698 So. 2d 189 (Ala. Cr. App.
1996). Furthermore, Alabama courts have repeatedly upheld death
sentences where the only aggravating circumstance supporting the death
sentence overlaps with an element of the capital offense. Smith v. State,
supra; Heath v. State, 455 So. 2d 898 (Ala. Cr. App. 1983), affirmed,
455 So. 2d 905 (Ala. 1984), affirmed, 474 U.S. 82, 106 S. Ct. 433, 88 L.
Ed. 2d 387 (1985); Jenkins v. State, 627 So. 2d 1034 (Ala. Cr. App.
1992), affirmed, 627 So. 2d 1054 (Ala. 1993), cert. denied, 511 U.S.
1012, 114 S. Ct. 1388, 128 L. Ed. 2d 63 (1994). We find no merit in
Trawick’s arguments as to this issue.
337

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 338 of 367

Ex parte Trawick, 698 So. 2d at 178.
When considering this same claim in the context of James’s contention that his
trial attorneys had provided ineffective assistance, the Alabama Court of Criminal
Appeals held, in its second opinion on collateral appeal, following remand from the
Alabama Supreme Court, that a defense request for
an instruction that the jury could not count burglary as both an element
of the capital offense and as an aggravating circumstance would be
inconsistent with Alabama law. We have consistently upheld the
practice of “double-counting” in Alabama. See Morris v. State, 60 So.
3d 326 (Ala. Crim. App.2010); Barber v. State, 952 So. 2d 393 (Ala.
Crim. App. 2005); Coral v. State, 628 So. 2d 954 (Ala. Crim. App.
1992).
James, 61 So. 3d at 379-80.
Furthermore, the Alabama Court of Criminal Appeals has repeatedly held that
a claim that “double counting” burglary as both an element of a capital offense and
as an aggravating circumstance “does not implicate the Double Jeopardy Clause
because it does not punish a defendant twice for the same offense.” Stewart v. State,
730 So. 2d 1203, 1226 (Ala. Crim. App. 1996) (citing Burton v. State, 651 So. 2d 641
(Ala. Crim. App. 1993), aff’d, 651 So. 2d 659 (Ala. 1994), cert. denied, 514 U.S.
1115 (1995)).
James has failed to demonstrate that the rulings of the Rule 32 circuit court and
the State’s intermediate appellate court were contrary to, or involved an unreasonable
338

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 339 of 367

application of, clearly established federal law, as determined by the Supreme Court
of the United States. 28 U.S.C. § 2254(d)(1). The cases cited by the James lend no
support to his argument. For example, in Gregg v. Georgia, 428 U.S. 153, 207
(1976), the Supreme Court upheld the constitutionality of a sentencing scheme similar
to that of Alabama, and did not discuss the issue of “double counting.” James also
cites Zant v. Stephens, 462 U.S. 862 (1983), which held that “an aggravating
circumstance must genuinely narrow the class of persons eligible for the death
penalty and must reasonably justify the imposition of a more severe sentence on the
defendant compared to others found guilty of murder.” Id. at 877. However the Zant
court did not discuss “double counting” or double jeopardy.
Finally, North Carolina v. Pearce, 395 U.S. 711 (1969), overruled on other
grounds by Alabama v. Smith, 490 U.S. 794 (1989), states that the Fifth Amendment
protects against multiple punishments for the same offense,421 but did not address the
use of an element of the underlying crime as an aggravating circumstance.
In summary, James has failed to present an argument establishing this claim as
a basis for habeas relief.

421

More specifically, Pearce held that upon the overturning of a conviction and retrial for
that offense, any sentence imposed for the second conviction must subtract time already served for
the first conviction. 395 U.S. at 718-719. This holding has no bearing on capital punishment.

339

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 340 of 367

M.

Alabama’s Statutory Limitations on Compensation of Appointed Counsel
and Other Resources in Death Penalty Cases Violates the Federal
Constitution422
James argues that his court-appointed trial lawyers were provided with

“constitutionally insufficient funds” for the preparation and trial of a capital case, and
that the failure of the State to provide adequate funding “curtailed his most
fundamental right to the effective assistance of counsel, as well as his rights to due
process, equal protection, and reliable guilt and sentencing determinations.”423
Specifically, James claims that the State’s statutory limits on compensation limited
his attorneys’ ability to investigate and gather the evidence and mitigation
information needed for his trial and sentencing, as well as deprived him of the ability
to retain certain experts needed for his defense, including a mental health expert.424
In addition, James asserts that the
severe compensation limitations pose an unconstitutional taking of
private property by denying just compensation, violate the separation of
powers doctrine, discriminatorily deny indigent capital defendants their
constitutional right to effective assistance of counsel, and violate the
Equal Protection Clause.425
422

Claim XIII: see doc. no. 11 (Amended Habeas Petition), ¶¶ 399-409, at 125-127. (This
claim was numbered as Claim XII in James’s Rule 32 petition.)
423

Doc. no. 11 (Amended Habeas Petition), ¶¶ 400, 402, at 125. This claim is in essence a
restatement of the subclaim in Part V.A, supra, asserting that trial counsel provided ineffective
assistance due to the statutory caps on compensation in capital cases.
424

Id. ¶ 403, at 126.

425

Id. ¶ 407, at 127.

340

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 341 of 367

Respondents contend this claim is procedurally defaulted due to James’s failure
to raise it at trial or on direct appeal. The Rule 32 circuit court ruled that this claim
was procedurally barred pursuant to Alabama Rules of Criminal Procedure 32.2(a)(3)
and (a)(5).426 In the alternative, the Rule 32 circuit court also dismissed this claim
pursuant to Rule 32.7(d).427
The Alabama Court of Criminal Appeals’ opinion in Bui v. State, 717 So. 2d
6 (Ala. Crim. App. 1997), addresses Alabama’s statutory compensation limitations
caps for capital counsel of indigent defendants as they existed prior to June 10, 1999.
That court considered Alabama Code § 15-12-21(d) — providing, in pertinent part,
that “[i]n cases where the original case involves a capital offense or a charge which
carries a possible sentence of life without parole, the limits shall be $1,000 for out-ofcourt work, plus payment for all in-court work” — and held that:
Alabama courts have consistently upheld § 15-12-21(d) against
constitutional challenges. See Ex parte Smith, 698 So. 2d 219 (Ala.
1997); Ex parte Grayson, 479 So. 2d 76 (Ala.), cert. denied, 474 U.S.
865, 106 S. Ct. 189, 88 L. Ed. 2d 157 (1985); McNair v. State, 706 So.
2d 828 (Ala. Cr. App. 1997); May v. State, 672 So. 2d 1307 (Ala. Cr.
App. 1993), writ quashed, 672 So. 2d 1310 (Ala. 1995); Hallford, 629
So. 2d at 11-12. In Ex parte Grayson, the Alabama Supreme Court
rejected a claim that Alabama’s method of compensating attorneys in
capital cases denied the defendant the right to effective assistance of
counsel, stating:
426

C.R. Vol. 32, Tab 78, at 48.

427

Id., at 49.

341

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 342 of 367

“These contentions are made on the premise that lawyers
will not provide effective assistance unless paid a certain
amount of money. But the legal profession requires its
members to give their best effort in ‘advancing the
“undivided interest of [their] client[s].”’ Polk County v.
Dodson, 454 U.S. 312, 318-19, 102 S. Ct. 445, 449-50, 70
L. Ed. 2d 509 (1981). This Court, in Sparks v. Parker, 368
So. 2d 528, 530 (Ala. 1979), quoted the New Jersey
Supreme Court as follows:
“‘We know of no data to support a claim than
an assigned attorney fails or shirks in the least
the full measure of an attorney’s obligations
to a client. Our own experience, both at the
bar and on the bench, runs the other way. A
lawyer needs no motivation beyond his sense
of duty and pride. [State v. Rush, 46 N.J. 399,
405-06, 217 A.2d 441, 444-45 (1966).]’”
479 So. 2d at 78-80.
Thus, we reject the notion that Alabama’s statutory scheme for
compensating attorneys in capital cases, in and of itself, denies a
defendant effective representation.
Bui, 717 So. 2d at 15. On June 10, 1999, the Alabama Legislature enacted the
“Investment in Justice Act of 1999,” which amended § 15–12–21.
Under the new Act, the rate of compensation for attorneys representing
indigent criminal defendants [was] increased to $50 per hour for in-court
time and $30 per hour for out-of-court time, with no limit on
compensation for an attorney in a case involving a capital offense.
McWhorter v. State, 781 So. 2d 257, 306 (Ala. Crim. App. 1999) (alteration
supplied).
342

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 343 of 367

Therefore, while James’s defense attorneys were subject to a compensation cap
prior to his jury trial, that cap faded away as of June 10, 1999. Moreover, both before
and after June 9, 1999, “court-appointed attorneys [were reimbursed] for
office-overhead expenses reasonably incurred in the defense of an indigent
defendant” pursuant to Alabama Code § 15-21-21. Wright v. Childree, 972 So. 2d
771, 780 (Ala. 2006).
Even though it is clear that James believes his trial attorneys failed to conduct
a sufficient investigation, and failed to present important mitigation evidence, he has
not demonstrated a link between that alleged conduct and a lack of state funding. His
conclusory arguments fail to indicate how, in rejecting these claims, the state court’s
determination was contrary to, or an unreasonable application of, clearly established
federal law, as determined by the Supreme Court of the United States. See Part V.A,
supra. James also has not directed this court to any case in which a court held
Alabama’s statutory limits on the amount of compensation paid to court-appointed
counsel to be unconstitutional. Therefore, this court finds no error in the state court’s
determinations, which are supported by a significant line of precedent. Indeed,
“Alabama courts have repeatedly held that caps on attorney’s fees for indigent
defendants do not violate the separation of powers doctrine, do not constitute a taking
without just compensation, do not deprive indigent capital defendants of the effective
343

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 344 of 367

assistance of counsel, and do not deny equal protection.” Williams v. State, 782 So.
2d 811, 841 (Ala. Crim. App. 2000) (citations omitted). See also McGowan v. State,
990 So. 2d 931, 1001 (Ala.Crim.App. 2003) (“The Alabama Supreme Court, as well
as this court, has addressed these same contentions in a number of previous cases and
has consistently rejected them.”) (citations omitted). This claim does not provide a
basis for habeas relief.
N.

The Selective Prosecution of the Death Penalty Violated Petitioner’s
Rights to Due Process, Equal Protection, Freedom From Cruel and
Unusual Punishment, and, a Fundamentally Fair Trial428
James asserts that “[t]he decision to seek death in this case was based on an

arbitrary classification beyond the scope of the prosecution’s charging discretion.”429
Specifically, James states that he “was selected for capital prosecution, convicted, and
sentenced based on arbitrary, constitutionally irrelevant, impermissible, and
discriminatory factors, including, but not limited to, prosecutorial vindictiveness,
class, ethnicity, gender, racial considerations, and political and financial factors.”430
Respondents contend that this claim is procedurally defaulted due to James’s
failure to raise it at trial or on direct appeal.431
428

Claim XIV: see doc. no. 11 (Amended Habeas Petition), ¶¶ 410-418, at 127-130. (This
claim was numbered as Claim “XIII” in James’s Rule 32 petition.)
429

Doc. no. 11 (Amended Habeas Petition), ¶ 410, at 127.

430

Id. at 128.

431

Doc. no. 19 (Respondents’ Answer), at 115-16.

344

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 345 of 367

The Rule 32 circuit court ruled that a procedural default had occurred pursuant
to Alabama Rules of Criminal Procedure 32.2(a)(3) and (a)(5).432 The circuit court
additionally ruled that the portion of the claim that raised a contention of ineffective
assistance of counsel (presumably because of James’s invocation of the Sixth
Amendment) failed to comply with the pleading requirements of Alabama Rules of
Criminal Procedure 32.3 and 32.6(b).433
Laying aside those portions of this claim that assert ineffective assistance of
counsel, the remainder was procedurally defaulted under Alabama law.
If an Alabama court has denied post-conviction relief based on the
petitioner’s failure to raise a claim at trial or on direct appeal, a federal
court cannot review that claim unless it determines either (1) that the
petitioner had cause for his failure to raise the claim and suffered
prejudice as a result, or (2) that denying federal habeas review of the
claim would result in a fundamental miscarriage of justice — namely the
conviction and punishment of one who is actually innocent.
Brownlee v. Haley, 306 F.3d 1043, 1066 (11th Cir. 2002).
In the alternative, and regardless of the issue of procedural default, this claim
lacks merit. James asserts that he was “singled out” for prosecution because he is an
African American.434 He cites statistics purporting to show disparate treatment of
African-Americans in Alabama’s capital sentencing system, as well as the high level
432

C.R. Vol. 32, Tab 78, at 8.

433

Id. at 25-26.

434

Doc. no. 11 (Amended Habeas Petition), ¶¶ 414-416, at 129.

345

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 346 of 367

of discretion accorded to the district attorney in deciding whether to seek capital
punishment.435 In Ogler v. Boles, 368 U.S. 448 (1962), a case relied upon by James,
the United States Supreme Court held that
the conscious exercise of some selectivity in enforcement is not in itself
a federal constitutional violation. Even though the statistics in this case
might imply a policy of selective enforcement, it was not stated that the
selection was deliberately based upon an unjustifiable standard such as
race, religion, or other arbitrary classification. Therefore grounds
supporting a denial of equal protection were not alleged.
Id. at 456.
Despite the statistics cited by James, he has presented no facts establishing that
the district attorney’s decision to charge him with a capital offense was based upon
his race, or any other arbitrary classification.436 The facts presented at James’s trial
overwhelmingly indicated both his guilt and the existence of aggravating factors
supporting the death penalty, regardless of his race. James alleges that the district
attorney chose not to prosecute other cases with facts similar to his own, but provides
no evidence to support that assertion.

435

Id.

436

Alabama Code § 13A-5-53(b)(3) requires the Alabama Court of Criminal Appeals to
consider whether a sentence of death in a particular case was disproportionate to the penalties
imposed in similar cases. The Court of Criminal Appeals undertook just such a review on direct
appeal and found the sentence was neither disproportionate nor excessive. James v. State, 788 So.
2d 185, 198 (Ala. Crim. App. 2000). James offers no evidence that non-African-Americans
convicted of murder during the course of a burglary have received lesser sentences.

346

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 347 of 367

James has not demonstrated that the ruling of the state court was contrary to,
or involved an unreasonable application of, clearly established federal law.
Additionally, although James seeks an evidentiary hearing on this claim, he has not
alleged that it is based on a new rule of constitutional law, made retroactive to cases
on collateral review, or a factual predicate that could not have been previously
discovered through the exercise of due diligence. Thus, he has not met the
requirements of 28 U.S.C. § 2254(e)(2) to justify an evidentiary hearing.
O.

Execution by Means of Lethal Injection is a Cruel and Unusual
Punishment in Violation of the Eighth Amendment437
James contends that lethal injection, “like electrocution,” is a cruel and unusual

punishment that violates the Eighth Amendment because it “would inflict torture or
a lingering death or involve the wanton infliction of pain.”438 He argues that “the
Eighth Amendment proscribes punishment that would inflict torture or a lingering
death or involve the wanton infliction of pain.”439 He also alleges that Alabama’s
“lack of comprehensive standards” governing the administration of the State’s lethal

437

Claim XV: see doc. no. 11 (Amended Habeas Petition), ¶¶ 418-437, at 130-135.

438

Doc. no. 11 (Amended Habeas Petition), ¶ 419-420, at 130. Alabama Code § 15-18-1
(1975) changed the method of execution used in Alabama from the electric chair to lethal injection,
effective July 1, 2002. Thus, although James was sentenced to death by electric chair, his execution
will be under Alabama’s current law, death by lethal injection.
439

Id., ¶ 420 (citing Hudson v. McMillian, 503 U.S. 1 (1992); Gregg v. Georgia, 428 U.S.
153, 173 (1976); In re Kemmler, 136 U.S. 436, 447 (1890)).

347

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 348 of 367

injection cocktail “fails to protect condemned prisoners from unnecessary pain and
suffering,” thereby enhancing the risk of cruel and unusual punishment.440
Respondents contend that this claim is not cognizable under the habeas
statute.441 They argue that so-called manner of execution claims may properly be
addressed only in an action brought under 42 U.S.C. § 1983, and not in the context
of a habeas proceeding under 28 U.S.C. § 2254.442 In the alternative, respondents
argue that this claim is procedurally defaulted, because the Rule 32 circuit court
dismissed it pursuant to independent and adequate state procedural rules: namely,
Alabama Rules of Criminal Procedure 32.3 and 32.6(b).443 Finally, and regardless of
how this court might rule on the issue of procedural default, respondents contend that
this claim lacks cognizable merit.444
Respondents are correct when asserting that claims challenging lethal injection
protocols as cruel and unusual punishments proscribed by the Eighth Amendment to
the United States Constitution are properly brought in actions bottomed upon 42
U.S.C. § 1983, rather than as an independent claim within a habeas petition. See
440

Id., ¶ 433, at 34.

441

Doc. no. 19 (Respondents’ Answer), at 117.

442

Id. at 117-18 (citing Hill v. McDonough, 547 U.S. 573, 579-80 (2006)).

443

Id. at 118.

444

Id. at 119-20 (citing Baze v. Rees, 553 U.S. 35, 51-63 (2008); Ex parte Belisle, 11 So. 3d
323, 339 (Ala. 2008)).

348

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 349 of 367

e.g.,Tompkins v. Secretary, Department of Corrections, 557 F.3d 1257, 1261 (11th
Cir. 2009) (per curiam) (holding that a suit under 42 U.S.C. § 1983, and “not a
habeas proceeding, is the proper way to challenge lethal injection procedures”) (citing
Hill v. McDonough, 547 U.S. 573, 579-83 (2006)).
By challenging lethal injection as Alabama’s primary method of execution,
James is challenging a circumstance of his confinement, as opposed to the validity of
his conviction or sentence, thereby making the claim one that is not cognizable in a
§ 2254 habeas proceeding. See McNabb v. Commissioner Alabama Department of
Corrections, 727 F.3d 1334, 1344 (11th Cir. 2013) (“A claim is properly raised under
§ 1983 when an inmate challenges the circumstances of his confinement but not the
validity of his conviction and/or sentence.”).
On the other hand, to the extent that it can be argued plausibly that James’s
challenge to Alabama’s lethal injection protocols actually is an attack upon a
condition of his sentence, then such a claim would be cognizable in a habeas
proceeding. Hill v. McDonough, 547 U.S. at 579.
Therefore, assuming — but expressly not deciding — that James actually
challenges the lawfulness of a condition of his sentence, this court holds,
nevertheless, that such an attack is foreclosed by cases upholding the constitutionality
of lethal injection. See, e.g., Baze v. Rees, 553 U.S. 35, 54-55 (2008); DeYoung v.
349

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 350 of 367

Owens, 646 F.3d 1319, 1326-27 (11th Cir. 2011).
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which dismissed it under Alabama Rules of Criminal Procedure 32.3
and 32.6(b), saying that “James did not plead facts [establishing] that lethal injection
as administered in Alabama constitutes cruel and unusual punishment.”445 In
addition, that court dismissed the claim pursuant to Alabama Rule of Criminal
Procedure 32.7(d), holding that, because “lethal injection has never been found to be
cruel and unusual punishment,” James had failed “to state a claim upon which relief
can be granted.”446 The Rule 32 circuit court’s disposition of this claim on that basis
does not prompt procedural default. See Borden v. Allen, 646 F.3d 785, 816 and 822
n.44 (11th Cir. 2011) (holding that a state court’s dismissal for failure to state a claim
upon which relief can be granted or for failure to establish a material issue of fact or
law, are rulings upon the merits that are subject to review under AEDPA in a habeas
proceeding). Therefore, this court turns to the merits of this claim.
In Baze v. Rees, supra, the Supreme Court affirmed the denial of an action
brought by a death row inmate claiming that Kentucky’s use of a three-drug lethal
injection execution scheme posed an unacceptable risk of significant pain and,

445

C.R. Vol. 32, Tab 78, at 26 (alteration supplied).

446

Id. at 51.

350

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 351 of 367

therefore, constituted cruel and unusual punishment proscribed by the Eighth
Amendment. The Court stated that, “[s]imply because an execution method may
result in pain, either by accident or as an inescapable consequence of death, does not
establish the sort of ‘objectively intolerable risk of harm’ that qualifies as cruel and
unusual.” 553 U.S. at 50 (alteration supplied). Moreover, an Eighth Amendment
violation may not be established by a showing of a marginally safer alternative to a
method of execution, because such an approach would “transform courts into boards
of inquiry charged with determining ‘best practices’ for executions, with each ruling
supplanted by another round of litigation touting a new and improved methodology.”
Id. at 51.

The Alabama Supreme Court considered a similar claim from a death

row inmate in the case of Ex parte Belisle, 11 So. 3d 323 (Ala. 2008). Belisle argued
that the State of Alabama, which uses the same three-drug protocol as a majority of
the states, lacked the procedures to guard against the “risk of unnecessary pain and
suffering” that could result in the administration of these drugs. Id. at 338.
The Alabama Supreme Court rejected the contention that the State’s lethal
injection scheme violated the Eighth Amendment, and quoted the statement of the
United States Supreme Court in Baze, observing that “[a] State with a lethal injection
protocol substantially similar to the protocol we uphold today would not create a risk
that meets this standard.” Id. at 339 (quoting Baze, 553 U.S. at 61) (alteration in
351

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 352 of 367

Belisle).
For all of the reasons discussed above, James is not entitled to habeas relief on
this claim.
P.

Execution Following Lengthy Confinement Under Sentence of Death
Constitutes Cruel and Unusual Punishment in Violation of Petitioner’s
State and Federal Constitutional Rights, as well as International Law447
James next argues that, through no fault of his own, his confinement on death

row has been “excessive.”448 He was originally sentenced to death on November 4,
1996, following his first trial.449 His original habeas petition was filed in this court
on December 31, 2010.450 It now is September 30, 2014 — nearly eighteen years
from the date on which he fist was sentenced to death. James contends that such
lengthy confinements violate international norms and various treaties, including the
United Nations’ “Torture Convention.”451 In addition, James contends that he “has
been, and will continue to be, subjected to unlawful pain and suffering due to his
prolonged, uncertain confinement on death row.”452 He argues that his death sentence

447

Claim XVI: see doc. no. 11 (Amended Habeas Petition), ¶¶ 438-451, at 135-137.

448

Doc. no. 11 (Amended Habeas Petition), ¶ 441, at 135.

449

Id., ¶ 439.

450

See doc. no. 1.

451

Doc. no. 11 (Amended Habeas Petition), ¶ 446, at 136.

452

Id.,¶ 447, at 137.

352

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 353 of 367

must either be vacated, or a stay of execution entered.453
Respondents contend that this claim is procedurally defaulted because James
failed to raise it at trial or on direct appeal,454 and that the Rule 32 circuit court
dismissed it as procedurally barred.455
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which dismissed it pursuant to Alabama Rules of Criminal Procedure
32.2(a)(3) and (a)(5).456 As an “alternative ruling,” that court also dismissed this
claim pursuant to Rule 32.7(d), holding “[t]here is no material issue of fact or law
[raised by this claim] because the argument that a delay in execution results in cruel
and unusual punishment has been repeatedly rejected by both the Court of Criminal
Appeals and the Alabama Supreme Court.” C.R. Vol. 32, Tab 78, at 52-53 (alteration
supplied) (citing Ex parte Bush, 695 So. 2d 138, 139-40 (Ala. 1997); Tomlin v. State,
No. CR-98-2126, 2002 WL 1136439, at *48-50 (Ala. Crim. App. May 31, 2002)).
Regardless of the issue of procedural default, this claim lacks merit. James has
not demonstrated that the state court’s denial of this claim was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
453

Id., ¶ 449.

454

Doc. no. 19 (Respondents’ Answer), at 122.

455

Id. at 122-23.

456

C.R. Vol. 32, Tab 78, at 8.

353

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 354 of 367

determined by the Supreme Court of the United States.
Further, as the Alabama Supreme Court noted in Ex parte Bush, 695 So. 2d
138, 140 (Ala. 1997), a lengthy appeals process is, in fact, part of the Eighth
Amendment’s protection for those sentenced to death. Accordingly, that Court found
“no merit” in the argument of the petition in Bush that “the same constitutional
protections that have kept him from being executed for the past 16 years are
simultaneously violating his constitutional rights.” Id. at 140. This court agrees with
the rationale of the Alabama Supreme Court. This court is not aware of
any support in the American constitutional tradition or in [the United
States Supreme] Court’s precedent for the proposition that a defendant
can avail himself of the panoply of appellate and collateral procedures
and then complain when his execution is delayed. Indeed, were there
any such support in [the Supreme Court’s] jurisprudence, it would be
unnecessary for proponents of the claim to rely on the European Court
of Human Rights, the Supreme Court of Zimbabwe, the Supreme Court
of India, or the Privy Council.
Knight v. Florida, 528 U.S. 990 (1999) (Thomas, J., concurring in denial of
certiorari) (alterations supplied, footnote omitted). This claim lacks merit and cannot
provide a basis for habeas relief.
Q.

In View of Petitioner’s Profound Mental and Emotional Impairments, and
the Supreme Court’s Decision in Atkins v. Virginia, It Would Be
Unconstitutional To Execute Him457
James asserts that he “is mentally impaired to such an extent that his execution
457

Claim XVII: see doc. no. 11 (Amended Habeas Petition), ¶¶452-456, at 137-139.

354

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 355 of 367

is prohibited by the Eighth Amendment,” because his “profound emotional and
mental impairments deprive him of the level of moral culpability requisite for
execution.”458 He argues that, “like mentally retarded defendants such as those in
Atkins,” he “lacks the ability to meaningfully assist counsel in his defense.”459
Respondents point out that James raised this claim in his Rule 32 petition, and
that it was denied on the merits by the Rule 32 circuit court.460 Respondents contend
that he cannot demonstrate that the state court’s ruling was contrary to, or involved
an unreasonable application of, clearly established federal law, or that it was an
unreasonable determination of the facts in light of the evidence presented in the state
court proceedings.461
The last state court to issue a reasoned decision on this claim was, as
respondents noted, the Rule 32 circuit court, which dismissed it pursuant to Alabama
Rules of Criminal Procedure 32.3 and 32.6(b) based upon James’s failure “to even
make a bare allegation that he is in fact mentally retarded.”462 That court also entered
an alternative holding, dismissing the claim pursuant to Rule 32.7(d), because it did

458

Doc. no. 11 (Amended Habeas Petition), ¶ 452, at 137-138.

459

Id. ¶ 454, at 138.

460

Doc. no. 19 (Respondents’ Answer), at 124.

461

Id.

462

C. R. Vol. 32, Tab 78, at 26-27.

355

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 356 of 367

not present a material issue of fact or law.463 The Rule 32 circuit court held:
Contrary to James’s claim, Atkins does not apply to him because James
is clearly not mentally retarded. The Supreme Court did not define a
standard for mental retardation in Atkins and the Alabama Legislature
has yet to respond to Atkins by statutorily defining a standard. However,
under any standard that has been adopted by any state in the Union,
James is not mentally retarded. Moreover, James does not meet the
clinical definition of mental retardation promulgated by the American
Association of Mental Retardation or the American Psychiatric
Association.
C. R. Vol. 32, Tab 78, at 53.
The Supreme Court’s opinion in Atkins v. Virginia, 536 U.S. 304 (2002),
announced a new, substantive rule of constitutional law:464 i.e., “death is not a
suitable punishment for a mentally retarded criminal.” Id. at 321. The Atkins opinion
observed that, due to “disabilities in the areas of reasoning, judgment, and control of
their impulses,” mentally retarded persons did “not act with the level of moral
culpability that characterizes the most serious adult criminal conduct.” Id. at 306.
Accordingly, the Court was
463

Id. at 53.

464

In re Holladay, 331 F.3d 1169, 1172 (11th Cir. 2003) (holding that the Atkins holding
should be “made retroactive to cases on collateral review”). See also Penry v. Lynaugh, 492 U.S.
at 330 (stating that, “if we held, as a substantive matter, that the Eighth Amendment prohibits the
execution of mentally retarded persons . . . regardless of the procedures followed, such a rule would
fall under the first exception to the general rule of non-retroactivity [discussed in Teague v. Lane,
489 U.S. 288, 301 (1989),] and would be applicable to defendants on collateral review”) (O’Connor,
J., unanimous opinion); In re Hill, 437 F.3d 1080, 1082 (11th Cir. 2006) (holding that the new rule
of constitutional law announced in Atkins “meets the requirement of 28 U.S.C. § 2244(b)(2)(A)” and,
therefore, is retroactive to cases on collateral review); In re Hicks, 375 F.3d 1237, 1239 (11th Cir.
2004) (same).

356

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 357 of 367

not persuaded that the execution of mentally retarded criminals will
measurably advance the deterrent or the retributive purpose of the death
penalty. Construing and applying the Eighth Amendment in the light of
our evolving standards of decency, we therefore conclude that such
punishment is excessive and that the Constitution places a substantive
restriction on the State’s power to take the life of a mentally retarded
offender.
Id. at 321 (citation and internal quotation marks omitted).
Even so, the Atkins Court did not dictate a national standard for determining
whether a criminal defendant is mentally retarded and, for that reason, not subject to
the ultimate sanction of the law. Instead, the Court left to the states “the task of
developing appropriate ways to enforce the constitutional restriction” upon the
execution of mentally retarded convicts, but noted that such state guidelines should
“generally conform” to the “clinical definitions” of the American Association on
Mental Retardation (“AAMR”),465 and the American Psychiatric Association
(“APA”). Id. at 317 and n.22.466
465

The American Association on Mental Retardation is now known as the “American
Association on Intellectual and Developmental Disabilities” (AAIDD).
466

The Court summarized the clinical standards in effect on the date of its decision in Atkins
in the following manner:
The American Association on Mental Retardation (AAMR) defines mental
retardation as follows: “Mental retardation refers to substantial limitations in present
functioning. It is characterized by significantly subaverage intellectual functioning,
existing concurrently with related limitations in two or more of the following
applicable adaptive skill areas: communication, self-care, home living, social skills,
community use, self-direction, health and safety, functional academics, leisure, and
work. Mental retardation manifests before age 18.” Mental Retardation: Definition,
Classification, and Systems of Supports 5 (9th ed. 1992).

357

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 358 of 367

The Rule 32 circuit court found that James had failed to provide evidence that
he met any part of either mental retardation standard.467 On the other hand, the State
provided evidence that, in 1995, James achieved a verbal IQ score of 102 on the
Wechsler Adult Intelligence Scale – Revised (“WAIS-R”), thereby placing him in the
“average range” of cognitive functioning.468
The Rule 32 circuit court also considered James’s work history, the fact that
he had earned a GED high-school equivalency diploma, his relationships with
members of his family and his alleged girlfriend, Mara Ruffin, and concluded on the
basis of all such considerations that, “even under the broadest definition of mental
retardation, [James] is not mentally retarded.”469

The American Psychiatric Association’s definition is similar: “The essential
feature of Mental Retardation is significantly subaverage general intellectual
functioning (Criterion A) that is accompanied by significant limitations in adaptive
functioning in at least two of the following skill areas: communication, self-care,
home living, social/interpersonal skills, use of community resources, self-direction,
functional academic skills, work, leisure, health, and safety (Criterion B). The onset
must occur before age 18 years (Criterion C). Mental Retardation has many different
etiologies and may be seen as a final common pathway of various pathological
processes that affect the functioning of the central nervous system.” Diagnostic and
Statistical Manual of Mental Disorders 41 (4th ed. 2000). “Mild” mental retardation
is typically used to describe people with an IQ level of 50-55 to approximately 70.
Id., at 42-43.
Atkins, 536 U.S. at 309 n.3 (emphasis in original).
467

C.R. Vol. 32, Tab 78, 54.

468

Id. at 54-55.

469

Id. at 55 (quoting Ex parte Perkins, 851 So. 2d 453, 455 (Ala. 2002)) (alteration

supplied)..

358

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 359 of 367

James does not assert that the Rule 32 circuit court’s denial of relief on this
claim was the result of a decision that was either contrary to, or an unreasonable
application of, clearly established federal law as determined by the United States
Supreme Court. 28 U.S.C. § 2254(d)(1). He also does not contend that the decision
was based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding. Id. § 2254(d)(2). Instead, he asserts that his
mental impairments make him “functionally indistinguishable from mentally retarded
persons.”470 James does not provide any legal support for this argument, however.
On the other hand, as the Rule 32 circuit court observed, the Supreme Court’s holding
in Atkins does not extend to those who are (as James contends he is) “functionally
undistinguishable from” the mentally retarded.471
This claim provides no basis for habeas relief.
R.

Petitioner’s Conviction and Death Sentence Must Be Vacated Because of
the Cumulative Effect of All of the Errors and Constitutional Violations
Alleged in this Petition472
James also alleges in his amended habeas petition that his
convictions, sentence, and confinement were obtained as the result of
literally dozens of errors constituting multiple violations of his
fundamental constitutional rights at every phase of his trial, from the
470

Doc. no. 11 (Amended Habeas Petition), ¶ 454, at 138 (emphasis supplied).

471

C. R. Vol. 32, Tab 78, at 26-27.

472

Claim XVIII: see doc. no. 11 (Amended Habeas Petition), ¶¶ 457-463, at 139-140.

359

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 360 of 367

unfair and discriminatory decision to charge and prosecute him, through
the selection of a biased and death-prone jury, jury misconduct, the
presentation of inaccurate, incomplete and unreliable evidence in the
guilt and penalty phases, gross prosecutorial misconduct at the penalty
phase, serious instructional error and interference with the jury’s
deliberations at the penalty phase, and an unfair appeal in which Mr.
James has been denied a full and adequate record. Through it all, Mr.
James’s counsel was so ineffective that they consistently provided
grossly incompetent representation and at many critical stages —
particularly the investigation — they provided no representation at all.
Doc. no. 11 (Amended Habeas Petition), ¶ 457, at 139.
Respondents observe that this claim was raised in James’s Rule 32 petition and
on collateral appeal, and that it was denied on the merits.473 They argue that James
cannot demonstrate that the state courts’ denial of this claim was contrary to, or
involved an unreasonable application of, clearly established federal law, or that it was
based on an unreasonable determination of the facts in light of the evidence presented
in the state court proceedings.474
The last state court to issue a reasoned opinion on this claim was the Rule 32
circuit court, which dismissed it pursuant to Alabama Rules of Criminal Procedure
32.2(a)(3) and (a)(5), due to James’s failure to raise the claim at trial or on direct
appeal.475 That court entered an alternative decision, however, and summarily

473

Doc. no. 19 (Respondents’ Answer), at 126.

474

Id.

475

C.R. Vol. 32, Tab 78, at 8.

360

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 361 of 367

dismissed the claim pursuant to Rule 32.7(d) “because, as a matter of law, this claim
cannot be evaluated under Strickland v. Washington, 466 U.S. 668, 690 (1984).”476
In essence, the Rule 32 circuit court held that a petitioner’s reliance upon the
“cumulative effect” of alleged attorney errors necessarily failed to “identify the acts
or omissions of counsel that are alleged not to have been the result of reasonable
professional judgment.”477
Assuming for the sake of discussion, but without deciding, that this claim was
not procedurally defaulted, it lacks merit. The Alabama Court of Criminal Appeals
stated in its original opinion on collateral appeal that it had “considered each of the
allegations of error individually, and we have not found that any of those allegations
of error require reversal.

We have also considered the allegations of error

cumulatively, and we do not find that they require reversal.” James v. State, 61 So.
2d 332, 351-52 (Ala. Crim. App. 2006) (emphasis supplied), rev’d on other grounds
sub nom. Ex parte James, 61 So. 3d 352 (Ala. 2009). Similarly, this court has
evaluated and denied James’s cumulative error claim when it was asserted in the
guise of an ineffective assistance of trial counsel claim. See Parts V.N and VI.F of
this opinion, supra.

476

Id. at 56-57.

477

Id. at 57.

361

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 362 of 367

To the extent that James is stating a distinct “cumulative error” claim, he
provides no support for his implicit argument that the state court’s denial of this claim
was contrary to, or involved an unreasonable application of, clearly established
Supreme Court law. See 28 U.S.C. § 2254(d)(1). James’s bare citation to several
cases from United States Circuit Courts of Appeal outside the Eleventh Circuit is not
sufficient under the AEDPA to support a claim of habeas relief.
Furthermore, the majority of the errors that, James alleges, had a cumulative
prejudicial effect were individually evaluated and denied by this court in previous
parts of this opinion. James provides no legal support for his contention that he is
entitled to habeas relief by virtue of the cumulative prejudicial effect of those errors,
even if none individually entitle him to relief.
This claim is due to be dismissed for failure to state a claim upon which relief
can be granted.
S.

Petitioner Was Convicted and Sentenced to Death as a Result of a Process
Tainted by Racial Bias478
James next asserts that “[r]acial bias infected the trial,” and that “t]he jurors,

prosecutor, defense counsel, and court actors were biased against [him] because he
is African American.”479 James states that “[r]acial discrimination in jury selection
478

Claim XIX: see doc. no. 11 (Amended Habeas Petition), ¶¶ 464-467, at 140-141.

479

Id., ¶ 464, at 140 (alterations supplied).

362

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 363 of 367

in Alabama is commonplace,” and he then cites several statistics that allegedly
support his assertion.480 James contends that “[a]t least one juror was racially biased
against Mr. James,”481 but he does not identify that juror by name. Finally, James
again asserts, as he did in Claim XIV of his habeas petition, that racial bias in
Alabama’s capital punishment scheme is widespread.482
Respondents point out that James failed to raise this claim at trial, on direct
appeal, in his Rule 32 petition, or on collateral appeal.483
This court finds that this claim has been procedurally defaulted due to James’s
failure to raise it at any point during the proceedings in the state court system, and
only now asserts it in his habeas petition. Indeed, it is axiomatic that a federal court
may not grant habeas relief to a state prisoner who has not exhausted his available
state remedies. See 28 U.S.C. § 2254(b)(1)(A) (“An application for a writ of habeas
corpus on behalf of a person in custody pursuant to the judgment of a State court shall
not be granted unless it appears that . . . the applicant has exhausted the remedies
available in the courts of the State.” (Emphasis supplied.)).
Even if this claim had not been procedurally defaulted, it lacks merit. The
480

Id., ¶ 465, at 140-141(alteration supplied). The court notes these statistics concern
Houston County, Dallas County, and Tuscaloosa County, Alabama, but none of those venues was
the location of James’s trial.
481

Id. ¶ 466, at 141 (alteration supplied).

482

Id.

483

Doc. no. 19 (Respondents’ Answer), at 128.

363

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 364 of 367

issue of race in jury selection and the prosecution of James has been discussed by this
court in Parts V.F.2.h and VIII.S of this opinion, supra. Further, James failed to
provide the name of the juror who allegedly harbored a bias against him because of
his race, or any other factual details to support such a contention. Finally, as
previously noted, James fails to even assert what the racial composition of the jury
was. This claim provides no basis for habeas relief.
T.

Petitioner Was Deprived of His Federal Constitutional Right to
Compulsory Process At the Evidentiary Hearing in State Court484
James’s final substantive claim, and the allegations contained in it, are identical

to those discussed in Part VIII.I of this opinion, supra. As there, and again here,
James asserts his right to compulsory process was violated by the circuit court’s
refusal to issue a bench warrant to compel the attendance at the Rule 32 evidentiary
hearing of Mara Ruffin, his alleged fiancee and the mother of his two children.485 As
this court stated in its previous discussion of this issue, James is not entitled to federal
habeas relief on this claim, because it constitutes an attack upon the State’s collateral
proceedings, and not the legality of James’s conviction or sentence. See Alston v.
Department of Corrections, Florida, 610 F.3d 1318, 1325-26 (11th Cir. 2010).

484

Claim XX: see doc. no. 11 (Amended Habeas Petition), ¶¶ 468-475, at 142-143.

485

Id., ¶¶ 469-470, at 142.

364

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 365 of 367

IX. CONCLUSION AND ORDERS
“In deciding whether to grant an evidentiary hearing, a federal court must
consider whether such a hearing could enable an applicant to prove the petition’s
factual allegations, which, if true, would entitle the applicant to federal habeas relief.”
Schriro v. Landrigan, 550 U.S. 465, 474 (2007) (citation omitted). “It follows that
if the record refutes the applicant’s factual allegations or otherwise precludes habeas
relief, a district court is not required to hold an evidentiary hearing.” Id. (citing
Totten v. Merkle, 137 F.3d 1172, 1176 (9th Cir. 1998) (affirming the denial of an
evidentiary hearing where the applicant’s factual allegations “fl[ew] in the face of
logic in light of . . . [the applicant’s] deliberate acts which are easily discernible from
the record”)) (alterations in original).
As the discussion of each of petitioner’s habeas claims has demonstrated, the
material facts were fully developed in the record presented to this court. As a result,
this court was able to “adequately assess [James’s] claim[s] without further factual
development,” Turner v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003) (alterations
supplied), and there is no need for an evidentiary hearing on any issue.
Accordingly, and based upon this court’s consideration of James’s amended
habeas petition, the pleadings, the trial and appellate court records, and the briefs of
counsel, it is ORDERED, ADJUDGED, and DECREED that all claims be, and they

365

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 366 of 367

hereby are, denied and DISMISSED. Because the court finds that all claims alleged
in the habeas petition are due to be dismissed, it also is ORDERED that petitioner’s
motion for an evidentiary hearing (doc. no. 26) is DENIED.486
Finally, pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases in
the United States District Courts, the district court must issue or deny a certificate of
appealability when it enters a final order adverse to the habeas petitioner. This Court
may issue a certificate of appealability “only if the applicant has a made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. 2253(c)(2). To make such
a showing, James must demonstrate that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong,” Slack v.

486

The holding in Cullen v. Pinholster, — U.S —, 131 S. Ct. 1388 (2011), permits this court
to look no farther than the record before the state court at the time the state court made its decision.
Id. at 1398. The Cullen Court held “that evidence introduced in federal court has no bearing on §
2254(d)(1) review.” Id. at 1400. Furthermore, to the extent that James’s claims are brought pursuant
to § 2254(d)(2), he has no more right to an evidentiary hearing than under § 2254(d)(1). Unlike §
2254(d)(1), § 2254(d)(2) overtly requires federal habeas courts to look at a state court’s decision “in
light of the evidence presented in the State court proceedings.” See id. at 1400 n.7; Blue v. Thaler,
665 F.3d 647, 656 n.26 (5th Cir. 2011). In other words, James is not entitled to another opportunity
in this forum to develop facts that were not before the state courts.
James argued in his motion for evidentiary hearing (doc. no. 26), which was denied without
prejudice on March 12, 2013, that he was entitled to an evidentiary hearing on several of his
ineffective assistance of guilt and penalty phase counsel claims and his Brady claims. Id. at 9-40.
He argued that 28 U.S.C. § 2254(e) did not prohibit a hearing because, despite his due diligence in
attempting to develop the full factual basis for the claims, he was unable to do so due to the
procedural rulings of the Rule 32 circuit court. Id. at 7-41. However, as set out in the discussion of
each of the claims for which James contends that he was deprived of an opportunity for full factual
development, the claims were either refuted by the record and/or the state court record as it stands
was fully developed with regard to the material facts upon which the claims were rejected. (See the
claims addressed in this Memorandum Opinion at Parts VIII.G through VIII.J, supra.).

366

Case 2:10-cv-02929-CLS-HGD Document 27 Filed 09/30/14 Page 367 of 367

McDaniel, 529 U.S. 473, 484 (2000), or that “the issues presented were adequate to
deserve encouragement to proceed further.” Miller–El v. Cockrell, 537 U.S. 322, 336
(2003) (citation and internal quotation marks omitted). This court finds that James’s
claims do not satisfy either standard.
DONE and ORDERED this 30th day of September, 2014.

______________________________
United States District Judge

367

